<html>
<title> - IMPLEMENTATION OF P.L. 110-229 TO THE COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS (CNMI) AND GUAM; H.R. 1466, TO RESOLVE THE STATUS OF CERTAIN PERSONS LEGALLY RESIDING IN THE CNMI UNDER THE IMMIGRATION LAWS OF THE U.S.; AND H.R. 44, ``GUAM WORLD WAR II LOYALTY RECOGNITION ACT.''</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
  IMPLEMENTATION OF P.L. 110-229 TO THE COMMONWEALTH OF THE NORTHERN 
 MARIANA ISLANDS (CNMI) AND GUAM; H.R. 1466, TO RESOLVE THE STATUS OF 
  CERTAIN PERSONS LEGALLY RESIDING IN THE CNMI UNDER THE IMMIGRATION 
LAWS OF THE U.S.; AND H.R. 44, ``GUAM WORLD WAR II LOYALTY RECOGNITION 
                                ACT.''
=======================================================================


                   OVERSIGHT AND LEGISLATIVE HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE,

                       OCEANS AND INSULAR AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, July 14, 2011

                               __________

                           Serial No. 112-49

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
67-403                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON FISHERIES, WILDLIFE, OCEANS
                          AND INSULAR AFFAIRS

                       JOHN FLEMING, LA, Chairman
     GREGORIO KILILI CAMACHO SABLAN, CNMI, Ranking Democrat Member

Don Young, AK                        Eni F.H. Faleomavaega, AS
Robert J. Wittman, VA                Frank Pallone, Jr., NJ
Jeff Duncan, SC                      Madeleine Z. Bordallo, GU
Steve Southerland, II, FL            Pedro R. Pierluisi, PR
Bill Flores, TX                      Colleen W. Hanabusa, HI
Andy Harris, MD                      Vacancy
Jeffrey M. Landry, LA                Edward J. Markey, MA, ex officio
Jon Runyan, NJ
Doc Hastings, WA, ex officio



                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, July 14, 2011..........................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from Guam    81
        Prepared statement of....................................    86
    Duncan, Hon. Jeff, a Representative in Congress from the 
      State of South Carolina, Statement submitted for the record 
      on H.R. 44.................................................   121
    Fleming, Hon. John, a Representative in Congress from the 
      State of Louisiana.........................................     2
        Prepared statement of....................................     2
    Landry, Hon. Jeffrey M., a Representative in Congress from 
      the State of Louisiana.....................................    79
        Prepared statement of....................................    80
    Sablan, Hon. Gregorio, a Delegate in Congress from the 
      Commonwealth of the Northern Mariana Islands, Oral 
      statement on implementation of P.L. 110-229................     3
        Oral statement on H.R. 44................................    81
        Prepared statement of....................................     5

Statement of Witnesses:
    Aldan-Pierce, Marian, Chairperson, Board of Directors, 
      Marianas Visitors Authority................................    45
        Prepared statement on H.R. 1466..........................    47
    Blaz, Brigadier General Vicente G., ``Ben,'' USMC (Ret.), 
      Former Member of Congress from Guam........................   107
        Prepared statement on H.R. 44............................   108
    Calvo, Hon. Eddie Baza, Governor, Island of Guam.............
        Oral statement on P.L. 110-229...........................    16
        Prepared statement on P.L. 110-229.......................    18
        Oral statement on H.R. 44................................    90
        Prepared statement on H.R. 44............................    91
    Doctor, Hazel Marie, CNMI Resident...........................    56
        Prepared statement on H.R. 1466..........................    57
    Fitial, Hon. Benigno Repeki, Governor, Commonwealth of the 
      Northern Mariana Islands...................................     8
        Prepared statement on P.L. 110-229 and H.R. 1466.........    10
        Response to questions submitted for the record...........    15
    Gootnick, David, Director, International Affairs and Trade, 
      U.S. Government Accountability Office......................    24
        Prepared statement on H.R. 1466..........................    25
        Highlights...............................................    34
    Pula, Nikolao I., Jr., Director, Office of Insular Affairs, 
      U.S. Department of the Interior............................    39
        Prepared statement on P.L. 110-229 and H.R. 1466.........    41
        Oral statement on H.R. 44................................    99
        Prepared statement on H.R. 44............................   101
    Ryan, Kelly, Acting Deputy Assistant Secretary for Policy, 
      Office of Immigration and Border Security, U.S. Department 
      of Homeland Security.......................................    35
        Prepared statement on H.R. 1466..........................    37
    Tamargo, Hon. Mauricio, Former Chairman, Guam War Claims 
      Review Commission, and Former Chairman, United States 
      Foreign Claims Settlement Commission.......................   102
        Prepared statement on H.R. 44............................   104
        Response to questions submitted for the record...........   106


Additional materials supplied:
    Americans for Tax Reform, Center for Fiscal Responsibility, 
      Letter submitted for the record on H.R. 44.................    88
    Blas, Frank F., Minority Leader, 31st Guam Legislature, 
      Statement submitted for the record in support of H.R. 44...   118
    Bock, Valerie J., Resident of Guam, Statement submitted for 
      the record on H.R. 44......................................   119
    Cruz, Hon. Benjamin J.F., Vice Speaker, 31st Guam Legislature
        Statement submitted for the record on H.R. 44............   120
        Statement submitted for the record on implementation of 
          P.L. 110-229...........................................   120
    Guerrero, Susana Blas Deleon, President, CNMI Women's 
      Association, Statement submitted for the record on H.R. 
      1466.......................................................   122
    The Heritage Foundation, ``Wrong Way on Reparations'' 
      published on May  22, 2007.................................    89
    Manglona, Hon. Paul A., President of the Senate, 17th 
      Northern Marianas Commonwealth Legislature, Statement 
      submitted for the record on implementation of P.L. 110-229 
      and H.R. 1466..............................................   123
    Won Pat, Hon. Judith T., Ed.D., Speaker, 31st Guam 
      Legislature, Statement submitted for the record on 
      implementation of 
      P.L. 110-229...............................................    82

                                  (IV)
                                     



   OVERSIGHT HEARING ON IMPLEMENTATION OF PUBLIC LAW 110-229 TO THE 
COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS AND GUAM; AND LEGISLATIVE 
HEARING ON H.R. 1466, TO RESOLVE THE STATUS OF CERTAIN PERSONS LEGALLY 
RESIDING IN THE COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS UNDER THE 
  IMMIGRATION LAWS OF THE UNITED STATES; AND H.R. 44, RECOGNIZES THE 
  SUFFERING AND THE LOYALTY OF THE PEOPLE OF GUAM DURING THE JAPANESE 
    OCCUPATION OF GUAM IN WORLD WAR II. ``GUAM WORLD WAR II LOYALTY 
                           RECOGNITION ACT.''

                              ----------                              


                        Thursday, July 14, 2011

                     U.S. House of Representatives

    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:04 a.m. in 
Room 1324, Longworth House Office Building, The Honorable John 
Fleming [Chairman of the Subcommittee] presiding.
    Present: Representatives Fleming, Young, Duncan, Harris, 
Landry, Sablan, Faleomavaega, Bordallo, Pierluisi, and 
Hanabusa.
    Mr. Fleming. The Subcommittee will come to order. The 
Chairman notes the presence of a quorum. Good morning. Today 
the Subcommittee on Fisheries, Wildlife, Oceans, and Insular 
Affairs will conduct, in essence, two hearings. The first panel 
will be an oversight hearing on Title VII of Public Law 110-229 
which requires the application of Federal immigration laws in 
the Commonwealth of the Northern Mariana Islands and a 
legislative hearing on H.R. 1466, a bill to resolve the status 
of certain persons legally residing in the Commonwealth of the 
Northern Mariana Islands under the immigration laws of the 
United States.
    The second panel will be a legislative hearing at the 
request of the gentlelady from Guam, Mrs. Bordallo, on H.R. 44, 
the Guam World War II Loyalty Recognition Act. I will ask that 
witnesses only testify on the issues specific to each panel.
    Under Committee Rule 4(f), opening statements are limited 
to the Chairman and Ranking Member of the Subcommittee so that 
we can hear from our witnesses more quickly. However, I ask 
unanimous consent to include any other Members' opening 
statements in the hearing record if submitted to the clerk by 
close of business today. Hearing no objection, so ordered.

 STATEMENT OF THE HON. JOHN FLEMING, A REPRESENTATIVE FROM THE 
                       STATE OF LOUISIANA

    Mr. Fleming. One of the first items under consideration 
today is Public Law 110-229, the Consolidated Natural Resources 
Act which was enacted in 2008. The United States and the 
Northern Mariana Islands entered into a political union in 1976 
with the enactment of the covenant to establish the 
Commonwealth of the Northern Mariana Islands as a self-
governing entity under the sovereignty of the United States.
    Under the covenant, the Northern Mariana Islands were 
exempt from Federal immigration laws which allowed the local 
government to control immigration. In 2008, Congress amended 
the covenant to require the application of Federal immigration 
laws in the Northern Mariana Islands. The law created a five-
year transition period to allow for a smooth conversion from 
local to Federal control over immigration.
    As stated in law, it was the intent of Congress for the 
orderly phasing in of Federal responsibilities over immigration 
in the Northern Mariana Islands. The law's intent was to 
minimize, to the greatest extent practicable, potential adverse 
economic and fiscal effects by encouraging diversification and 
growth of the economy. It was also intended to assist the 
Commonwealth in achieving progressively higher standards of 
living for its citizens and giving it as much flexibility as 
possible in maintaining existing businesses and other revenue 
sources while developing new opportunities consistent with 
Federal law and mandates of Public Law 110-229.
    The Subcommittee is interested in hearing from today's 
witnesses how the implementation of the various provisions 
required in the law has progressed since the effective date of 
November 28, 2009.
    We will also hear testimony on H.R. 1466, a bill introduced 
by Ranking Member Sablan to address the status of certain 
individuals living legally in the Northern Mariana Islands who 
will be adversely affected by the extension of Federal 
immigration laws to the Northern Mariana Islands. Approximately 
4,000 legal residents of the Northern Mariana Islands will be 
affected by the full implementation of Federal immigration laws 
set to occur on November 28, 2011. H.R. 1466 will allow these 
residents of the Northern Mariana Islands to maintain their 
current legal status and provide them with the opportunity to 
adjust their status under the Federal immigration laws.
    I look forward to hearing the testimony of our 
distinguished witnesses.
    [The prepared statement of Mr. Fleming follows:]

          Statement of The Honorable John Fleming, Chairman, 
    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

    Good morning, today the Subcommittee on Fisheries, Wildlife, Oceans 
and Insular Affairs will conduct in essence two hearings. The first 
panel will be an oversight hearing on the implementation of title VII 
of Public Law 110-229, which required the application of federal 
immigration laws in the Commonwealth of the Northern Mariana Islands, 
and a legislative hearing on H.R. 1466, a bill to resolve the status of 
certain persons legally residing in the Commonwealth of the Northern 
Mariana Islands under the immigration laws of the United States. The 
second panel will be a legislative hearing at the request of the gentle 
lady from Guam, Mrs. Bordallo on H.R. 44, the Guam World War II Loyalty 
Recognition Act. I will ask that witnesses only testify on the issues 
specific to each panel.
    One of the first items under consideration today is Public Law 110-
229, the Consolidated Natural Resources Act, which was enacted in 2008.
    The United States and the Northern Mariana Islands entered into a 
political union in 1976 with the enactment of the Covenant to establish 
the Commonwealth of the Northern Mariana Islands as a self-governing 
entity under the sovereignty of the United States. Under the Covenant, 
the Northern Mariana Islands were exempt from federal immigration laws 
which allowed the local government to control immigration.
    In 2008, Congress amended the Covenant to require the application 
of federal immigration laws in the Northern Mariana Islands. The law 
created a 5-year transition period to allow for a smooth conversion 
from local to federal control over immigration.
    As stated in the law, it was the intent of Congress for the 
`orderly phasing-in of federal responsibilities over immigration' in 
the Northern Mariana Islands. The law's intent was to minimize, to the 
greatest extent practicable, potential adverse economic and fiscal 
effects by encouraging diversification and growth of the economy. It 
also is intended to assist the Commonwealth in achieving progressively 
higher standards of living for its citizens and giving it as much 
flexibility as possible in maintaining existing businesses and other 
revenue sources, while developing new economic opportunities, 
consistent with federal law and the mandates of Public Law 110-229.
    The Subcommittee is interested in hearing from today's witnesses 
how the implementation of the various provisions required in the law 
has progressed since the effective date of November 28, 2009.
    We will also hear testimony on H.R. 1466, a bill introduced by our 
Ranking Member, Mr. Sablan, to address the status of certain 
individuals living legally in the Northern Mariana Islands who will be 
adversely affected by the extension of federal immigration laws to the 
Northern Mariana Islands.
    Approximately 4,000 legal residents of the Northern Mariana Islands 
will be affected by the full implementation of federal immigration laws 
set to occur on November 28, 2011. H.R. 1466 will allow these residents 
of the Northern Mariana Islands to maintain their current legal status 
and provide them with the opportunity to adjust their status under the 
federal immigration laws.
    I look forward to hearing the testimony of our distinguished 
witnesses, and now recognize our Ranking Member Mr. Sablan, for any 
statement he would like to make.
                                 ______
                                 
    Mr. Fleming. I now recognize our Ranking Member, Mr. 
Sablan, for any statement he would like to make.

  STATEMENT OF THE HON. GREGORIO SABLAN, A DELEGATE FROM THE 
          COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS

    Mr. Sablan. Thank you. Thank you very much, Chairman 
Fleming, and thank you again for holding this hearing this 
morning on the progress of Public Law 110-229 on my H.R. 1466 
and obviously, of course, H.R. 44.
    I don't know if you saw the data on the Gross Domestic 
Product in the Northern Mariana Islands that was released 
yesterday, but the economic situation just gets worse and 
worse. Between 2002 and 2009, GDP was cut in half. In 2008, GDP 
fell 12 percent. In 2009, it fell 20 percent. Prices are going 
up and incomes are coming down. This all happened before Public 
Law 110-229 really took effect so we can't say that Federal 
immigration created this problem, but Federal management of the 
transition from local to Federal control has made it more 
difficult to solve the economic problem. Public Law 110-229 was 
supposed to ``expand economic development in the 
Commonwealth'', but it has not.
    We have had some successes in the form of security in the 
department most responsible for the law. When I was first 
elected, Public Law 110-229 was just about to go into effect, 
DHS was not ready however. So, along with other Commonwealth 
officials, including our Governor, we convinced Secretary 
Napolitano to push back implementation by six months. That 
helped.
    When DHS published rules on the visa waiver program created 
by P.L. 110-229, Russia and China were excluded, but tourism 
from these countries was growing and the Northern Marianas 
needed the visitors, so we convinced Secretary Napolitano to 
use her parole authority to keep Russians and Chinese 
continuing to come to the Northern Marianas, and that helped.
    But the parole system is only a stop gap. It can be revoked 
at any time. It does not encourage new investment in the 
Russian and Chinese markets. Today, DHS needs to tell us its 
plans to normalize the system and fulfill the intent of Public 
Law 110-229 to, ``expand tourism''.
    There has been other problems, some solved, some still 
outstanding. The biggest unresolved problem is the lack of 
regulations covering guest workers. The purpose of Public Law 
110-229 is to zero out guest workers and replace them with 
Americans. We know this transition has to be managed carefully, 
so businesses still have the skilled labor they need.
    In October of 2009, DHS did publish regulations explaining 
how to hire these workers, but Governor Fitial went to court 
and enjoined the regulations. Now almost two years later we 
still don't have the regulations and employers are supposed to 
use them for hiring starting in November. We often hear that 
regulations are very bad for business. Well, in this case the 
lack of regulations is bad for business. We need answers from 
DHS today about why is it taking so long to get their work 
done, when we can expect it to be done, and whether they will 
meet the policy goals of Public Law 110-229.
    Chairman Fleming, I also want to thank you for including my 
bill, H.R. 1466, on the agenda today. You and I talked about 
the families that will be protected by my bill back in January. 
I will never forget what you said. These people have been 
whipsawed, and that is exactly right. One of today's witnesses, 
Hazel Doctor, is a citizen of the United States who has been 
whipsawed by this law. She was born in America. She has lived 
there all her life. Hazel's parents are contract workers from 
the Philippines. They are legal residents. They have lived in 
the Northern Marianas for over 20 years, but Public Law 110-229 
will require them to leave. Congress did not take into account 
how this requirement will affect U.S. citizens like Hazel. They 
will have to choose between staying in the only home they have 
ever known or leaving with their parents to live in a place 
they have never known.
    Let me say that again because it is important. Public Law 
110-229 is asking U.S. citizens to choose between their country 
and their families, and that is wrong. H.R. 1466 would fix the 
problem. Keep families together and keep Americans in America.
    I was very glad to see in yesterday's paper that Interior 
Assistant Secretary Anthony Babauta, who is presently in the 
Marianas, thinks that H.R. 1466 is a good start, and I 
certainly look forward to working with the Administration to 
fine-tune the legislation. But I want to emphasize several 
points because I know H.R. 1466 will be criticized today and 
because we all know that immigration is a hot-button issue.
    First, individuals covered in H.R. 1466 are not immigrants. 
They did not cross over the U.S. immigration border. Rather, 
Public Law 110-229 extended the border over them so they are 
not and should not be part of the national immigration debate.
    Second, this bill has nothing to do with amnesty. Amnesty 
is for illegals. H.R. 1466 covers people who are legally 
admitted under the law of the Northern Mariana Islands. To 
qualify under H.R. 1466, an individual must still be in lawful 
status and in full compliance with the standards of the 
Immigration and Nationality Act.
    Third, H.R. 1466 provides no new social benefits and adds 
no new societal costs. In fact, by stabilizing the population 
and the workforce, H.R. 1466 will have a tremendous positive 
economic impact.
    I want to thank the bipartisan professional staff of the 
Judiciary and other House and Senate committees who assisted 
over the last year-and-a-half in drafting H.R. 1466, and the 24 
Members of Congress from both sides of the aisle who are 
cosponsors. They understand that H.R. 1466 simply corrects the 
oversights in Public Law 110-229 and keeps families together, 
particularly U.S. citizen families.
    And finally, let me welcome our panelists. First, I want to 
welcome my Governor, Governor Benigno Fitial from the Northern 
Marianas and I want to welcome Governor Eddie Calvo, both of 
whom have made the physically demanding trip here to Washington 
to join us today. Thank you, Governors.
    I would also like to welcome Ms. Marian Aldan-Pierce, 
Chairman of the Marianas Visitors Authority. She is President 
of Duty-Free Shops, one of the most important corporations 
doing business in the Northern Marianas, Guam, Hawaii, and 
worldwide. Let me welcome Ms. Hazel Doctor who will be 
testifying in support of H.R. 1466, and welcome to the Federal 
witnesses, Dr. David Gootnick, Mr. Nick Pula and Ms. Kelly Ryan 
from Homeland Security.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Sablan follows:]

Statement of The Honorable Gregorio Sablan, a Delegate in Congress from 
            the Commonwealth of the Northern Mariana Islands

    Chairman Fleming, thank you again for agreeing to hold this 
hearing.
    I don't know if you saw the data on Gross Domestic Product in the 
Northern Mariana Islands that was released yesterday, but the economic 
situation just gets worse and worse.
    Between 2002 and 2009 GDP was cut in half. In 2008 GDP fell 12%. In 
2009 it fell 20%.
    Prices are going up. Incomes are going down.
    This all happened before Public Law 110-229 really took effect. So 
we can't say that federal immigration created this economic problem.
    But federal management of the transition from local to federal 
control has made it more difficult to solve the economic problem. And 
110-229 was supposed to--quote--``expand economic development in the 
Commonwealth.''
    We have had some successes with the Department of Homeland 
Security.
    When I was first elected to office, Public Law 110-229 was just 
about to go into effect.
    DHS was not ready, however.
    So, along with other officials, I convinced Secretary Napolitano to 
push back implementation by six months.
    That helped.
    When DHS published rules on the visa waiver program created by 110-
229, Russia and China were excluded. But tourism from these countries 
was growing; and the Northern Marianas needed the visitors.
    So we convinced Secretary Napolitano to use her parole authority to 
keep Russians and Chinese coming to the Northern Marianas.
    That helped.
    But it's only a stop-gap. It can be revoked at any time. So this 
parole system does not encourage new investment in the Russian and 
Chinese markets.
    Today, DHS needs to tell us its plans to normalize the system and 
fulfill the intent of Public Law 110-229 to--quote--``expand tourism.''
    There have been other problems as well--some solved, some still 
outstanding.
    The biggest unresolved problem is the lack of regulations covering 
guest workers.
    The purpose of Public Law 110-229 is to zero out guest workers and 
replace them with Americans.
    We all know this transition has to be managed carefully, however, 
so businesses still have the skilled labor they need.
    In October 2009 DHS did publish regulations explaining how to hire 
these workers. But Governor Fitial went to court and blocked them.
    Now, almost two years later, we still don't have the regulations. 
And employers are supposed to use them for hiring, starting in 
November.
    We often hear that regulations are bad for business.
    Well, in this case the lack of regulations is bad for business.
    We need answers from DHS today about why it has taken so long to 
get their work done, when we can expect the regs, and whether those 
regs will meet the policy goals of 110-229.
    Chairman Fleming, I also want to thank you for including my bill, 
H.R. 1466, on the agenda today.
    You and I talked about the families that would be protected by my 
bill back in January. I will never forget what you said: ``These people 
have been whipsawed.''
    That's exactly right.
    One of today's witnesses, Hazel Doctor, is a citizen of the United 
States who has been whipsawed by this law. She was born in America. She 
has lived here all her life.
    Hazel's parents are contract workers from the Philippines. They are 
legal residents. They have lived in the Northern Marianas for over 
twenty years.
    But 110-229 will require them to leave.
    And Congress did not take into account how this requirement would 
affect U.S. citizens like Hazel.
    They will have to choose between staying in the only home they have 
ever known or leaving with their parents to live in a place they have 
never known.
    Let me say that again because it is important: Public Law 110-229 
is asking U.S. citizens to choose between their country and their 
families.
    That's wrong.
    H.R. 1466 would fix the problem, keep families together, and keep 
Americans in America.
    I want to emphasize several points--because I know H.R. 1466 will 
be criticized today and because we all know that immigration is a 
``hot-button'' issue.
    First, individuals covered in H.R. 1466 are not immigrants. They 
did not cross over the U.S. immigration border. Rather Public Law 110-
229 extended the border over them. So they are not and should not be 
part of the national immigration debate.
    Second, this bill has nothing to do with amnesty. Amnesty is for 
illegals. H.R. 1466 covers people who were legally admitted under the 
laws of the Northern Mariana Islands. To qualify under H.R. 1466 
individuals must still be in lawful status and in full compliance with 
the standards of the Immigration and Nationality Act.
    Third, H.R. 1466 provides no new social benefits and adds no new 
societal costs. In fact, by stabilizing the population and the 
workforce, H.R. 1466 will have a positive economic effect.
    I want to thank the bipartisan, professional staff of the Judiciary 
and other Senate and House Committees, who assisted over the last year 
and a half in drafting H.R. 1466, and the 23 Members of Congress--from 
both sides of the aisle--who are co-sponsors.
    They understand that H.R. 1466 simply corrects the oversights in 
Public Law 110-229 and keeps families together--particularly U.S. 
citizen families.
    Finally, let me welcome our panelists.
    Governor Benigno Fitial from the Northern Marianas and Governor 
Eddie Calvo of Guam made the physically demanding trek here to 
Washington to join us today. Thank you, Governors.
    I'd also like to welcome Ms. Marian Aldan-Pierce, Chair of the 
Marianas Visitors Authority. She is also the Saipan President of Duty 
Free Shoppers, one of the most important corporations doing business in 
both the Northern Marianas and Guam.
    Let me welcome again Ms. Hazel Doctor, who will be testifying in 
support of H.R. 1466.
    And welcome to our federal witnesses: Mr. David Gootnick from GAO, 
Mr. Nik Pula from the Interior Department, and Ms. Kelly Ryan from 
Homeland Security.
    The final bill on our agenda today is H.R. 44, the Guam World War 
II Loyalty Recognition Act that is sponsored by my colleague from Guam 
Congresswoman Bordallo.
    H.R. 44 would implement the recommendations of a federal commission 
that was authorized by the 107th Congress to look at this specific 
issue. The commission found that the people of Guam were treated 
unfairly during the war claims process immediately following the war as 
compared with claims programs authorized by Congress addressing 
similarly experienced losses and damages for other Americans. Each of 
the four Delegates from Guam to have served in the House has worked 
diligently to resolve this longstanding injustice faced by their 
constituents, and the text of H.R. 44 has passed the House on five 
separate occasions.
    It is long past time that we resolve this issue and provide relief 
for the people of Guam for the nearly three years of brutal occupation 
they suffered because of their steadfast loyalty to our country.
    Thank you again Mr. Chairman for allowing me to make this opening 
statement. I look forward to hearing from our witnesses.
                                 ______
                                 
    Mr. Fleming. I thank the gentleman. Thank you and we will 
now hear from our witnesses. Like all witnesses, your written 
testimony will appear in full in the hearing record, so I ask 
that you keep your oral statements to five minutes as outlined 
in our invitation letter to you and under Committee Rule 4(a). 
Our microphones are not automatic, so please press the button 
when you get ready, and I will also add you have to be sort of 
close. Sometimes we can't hear you if you are too far away from 
the microphone.
    I also want to explain how our timing lights work. Very 
simple. You have five minutes to give your testimony. The clock 
will run down under the green light to four minute to actually 
one minute left, and then you will get the yellow light and 
then after that minute you get the red light, and at that point 
we would want you to wrap up, of course.
    I would now like to welcome today's witnesses. First, The 
Honorable Governor Fitial from the Commonwealth of the Northern 
Mariana Islands. Welcome, sir.
    The Honorable Governor Calvo from Guam. We were just 
chatting before. I was actually stationed at the naval hospital 
on Guam 1979 and 1980, but even apart from that I did a lot of 
moonlighting in the emergency room at the island private 
hospital, or the community hospital there, and was actually 
director of the drug and alcohol program there as well, so I 
spent a lot of time with the community. I went to--I believe 
they are called festivals or fiesta, yes, with the most 
interesting type of rice that I have ever had, red rice. Very 
good. I have never asked what is in it, but it was delicious, 
and I did live in the community, lived in the Village of Yigo, 
and Perez Acres, which I understand is still there today. So we 
welcome you, sir.
    Mr. David Gootnick, Director, International Affairs and 
Trade, U.S. Government Accountability Office; Ms. Kelly Ryan, 
Acting Deputy Assistant Secretary for Immigration and Border 
Security, Office of Policy, Department of Homeland Security; 
Mr. Nik Pula, Director, Office of Insular Affairs, Department 
of the Interior; Ms. Marian Aldan-Pierce, President, Duty-Free 
Shops Saipan Limited; and Ms. Hazel Doctor, Northern Mariana 
Island resident testifying by video conference, and welcome to 
you. I am sure it is very early in the morning where you are 
today.
    Governor Fitial, you are recognized for five minutes, sir. 
You can go ahead with your testimony.

 STATEMENT OF THE HON. BENIGNO REPEKI FITIAL, GOVERNOR OF THE 
          COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS

    Governor Fitial. Mr. Chairman, Members of the Subcommittee, 
good morning. Thank you for the opportunity to appear before 
you today.
    Last year, I appeared before this Subcommittee in May and 
in September to comment on the Federal immigration law. I made 
these major points on both occasions.
    First, I brought to the Subcommittee's attention the 
failure of the Department of Homeland Security to provide the 
joint visa waiver program for the Commonwealth and Guam that 
was intended by Congress in Public Law 110-229. The Secretary's 
parole policy is not a satisfactory alternative.
    Second, I commented on the fact that the Department's 
immigration and customs enforcement component does not have an 
effective program in place to identify and remove illegal 
aliens from the Commonwealth.
    Third, I pointed out that the Department's customs and 
border protection component does not have an effective exit 
control method capable of preventing an increase in the number 
of illegal aliens in the Commonwealth.
    Nothing has changed for the better during the past year. 
Yes, the Commonwealth now does have Federal control of 
immigration. What we really have for the first time are all of 
the very serious immigration problems that exist here in the 
mainland. We have many illegal aliens who are not being 
deported. Some of these illegal aliens are employed illegally 
and take jobs away from U.S. citizens. Others are unemployed 
and survive on government benefits that provide an incentive 
not to leave the Commonwealth.
    Since Federal authority came into effect the Commonwealth 
has had an increased flow of tourists and others to enter on a 
temporary basis, but remain illegally hoping for amnesty that 
will provide a green card. The burden on taxpayers related to 
illegal and unemployed aliens is heavy.
    Congress recognized that the imposition of Federal control 
would work some hardship on the Commonwealth. It promised 
benefits that would outweigh these disadvantages. We have 
received none of these promised benefits like no effective visa 
waiver program, no technical assistance, no effective 
immigration enforcement, no new funding to compensate for the 
loss of immigration and other fees. Only if this Subcommittee 
is willing to underwrite a serious systemwide examination of 
the law and the need for its amendment will the Commonwealth 
see any hope for progress.
    With respect to H.R. 1466, I oppose the bill for these 
reasons. We estimate that there were approximately 23,000 
aliens, including illegals, in the Commonwealth at the end of 
2008, almost all of whom are adults. We believe that nearly all 
are still present in our community and that more than half of 
them are unemployed. Our current estimate is that the U.S. 
citizen population of the Commonwealth is about 30,000, 
including some 16,000 voters.
    H.R. 1466 creates four categories of potential new U.S. 
citizens. I want to focus on the fourth category, which covers 
alien parents of minor U.S. citizen children. Here is what will 
happen under H.R. 1466.
    1466 is a large-scale amnesty bill. It provides a direct 
route to U.S. citizenship that would create an estimated 11,000 
new U.S. citizens in the CNMI during the next decade, virtually 
all of whom would be voters. I do not believe that turning this 
large percentage of alien temporary workers into citizen voters 
would be tolerated in any county or state in the United States. 
These aliens would be provided permanent residence in the 
Commonwealth for all time. They are protected from deportation 
until their minor child of 21 years of age can petition for a 
grant of a green card for the parent leading to citizenship. 
This imposes a long-term burden on the Commonwealth that occurs 
nowhere else in the United States.
    The bill's sweeping terms cover a wide range of parents 
who, on closer examination, might not deserve the benefits 
offered by the legislation. It would include non-custodial 
parents, it would include unemployed and unemployable parents. 
It would include parents with no means of support. It would 
include parents with a history of illegal employment. It would 
include parents who left the CNMI and would return to obtain 
permanent residents in the Commonwealth provided by the bill. 
It includes parents who adopt a child up to the age of 21 just 
for the purpose of securing U.S. citizenship.
    H.R. 1466 has other critical defects. It strips away 
important safeguards of the Federal Administrative Procedures 
Act, and it refers to a definition of immediate relative from 
the Commonwealth code that was repealed by our Legislature 
sometime ago.
    Let me be very clear. It is the U.S. citizens in the 
Commonwealth who gave up their land and their sovereignty to 
become part of the United States. These U.S. citizens have the 
right to have their community and culture be so radically 
changed in this fashion unless they decide to do so through 
their own democratic institutions.
    Mr. Chairman, I have a proposal for an H-5 visa within the 
regular U.S. immigration system, and the CNMI Senate has a 
proposal for non-citizenship status somewhat akin to the status 
of freely associated state residents of the Commonwealth. Both 
of these proposals are far better alternatives for the people 
of the Commonwealth than H.R. 1466.
    I thank you.
    [The prepared statement of Governor Fitial follows:]

        Statement of The Honorable Benigno R. Fitial, Governor, 
              Commonwealth of the Northern Mariana Islands

    The Subcommittee has invited me to testify on the federalization 
law, Title VII of the CNRA (Public Law 110-22) and to comment on H.R. 
1466. I appreciate the opportunity to do so.
    Twice during 2010 I appeared before this Subcommittee to comment on 
the federalization law--on May 18, 2010 and September 16, 2010. Nothing 
has changed for the better since then. To some extent I have been 
tempted simply to resubmit my earlier testimony regarding the federal 
government's failure to honor Congressional intent and to implement the 
detailed provisions of the law in a timely, orderly, and constructive 
fashion.
    These were the major points which I made twice to the Subcommittee 
in 2010:
        <bullet>  Failure to grant visa waivers: The Department of 
        Homeland Security's Interim Rule regarding the proposed Guam-
        CNMI joint visa waiver program did not comply with 
        Congressional intent and is preventing the Commonwealth from 
        its potential of significantly increasing visitors from China 
        and Russia.
        <bullet>  Failure to deport illegal aliens: The Department's 
        Immigration and Customs Enforcement unit does not have an 
        effective program in place to identify and remove illegal 
        aliens in the Commonwealth.
        <bullet>  Failure to monitor exits of tourists: The 
        Department's Customs and Border Protection unit does not have 
        an effective exit control method capable of preventing an 
        increase in the number of illegal aliens in the Commonwealth.
        <bullet>  Failure to provide Congress with useful reports: The 
        Government Accountability Office and the Department of the 
        Interior have failed to provide the Congress with the kind of 
        objective, useful reports assessing the implementation of the 
        federalization law in a way that would assist this 
        Subcommittee.
    One year later--and more than three years after the law was 
enacted--the situation continues to deteriorate and the Commonwealth 
suffers as a result. The uncertainty created by this law has created an 
unacceptable limbo situation that has severely hampered new investment 
and has created morale problems throughout our community. Many 
businesses have already lost their investments and others are expected 
to close if this situation is not rectified. Very few businesses have 
begun the process of applying for U.S. employment-based visas for their 
staffs due to the high cost and uncertainty in the regulations.
    This year I have made extensive personal efforts to try to improve 
this situation. I have met with officials with responsibilities for 
implementing the law in the three DHS components (USCIS, ICE and CBP), 
the Interior Department, and the U.S. Labor Department. I can report 
some progress based on these discussions.
    In my meeting with Director Mayorkas of USCIS, we reviewed 
important aspects of the proposed rules for the issuance of temporary 
work permits for aliens currently in the Commonwealth. He and his staff 
have listened carefully to our concerns about a large number of 
practical aspects of the work permit program. I believe that we in the 
Commonwealth and USCIS will have both the capability, and a cooperative 
spirit, to deal with the late roll-out of the worker regulations. The 
delay in issuing these rules in final form has resulted, in part, from 
our joint staff consultations about the program, and the USCIS efforts 
to address our concerns. I am persuaded that the new program will 
better meet the needs of the CNMI and its U.S. citizens as well as the 
alien labor force.
    I have also broken the impasse with ICE about that agency's desired 
use of the Commonwealth's correctional facility. On the assumption that 
a partnership sometimes needs to start with one side giving more than 
another, I agreed to accept the ICE proposal of a relatively low per-
diem rate for use of the facility. A few days before this agreement was 
to take effect, the Commonwealth learned of a 60% reduction in the 
level of ICE detainees to be authorized. Not only would this have a 
significant, negative fiscal impact on the CNMI, it would also mean 
lowered capacity to review and remove illegals from the Commonwealth. 
Nonetheless, we went forward to implement the agreement.
    However, the overall situation remains extraordinarily harmful to 
the Commonwealth. It is time for the Subcommittee to consider the 
overall implementation of PL 110-229 and its impact on the 30,000 
United States citizens living in the Commonwealth. Based on what we 
have experienced over the past three years, this law is being 
implemented to reshape--and substantially hurt--the Commonwealth's 
economy and community. In particular, the implementation of this 
unnecessarily complicated law operates to reduce the political 
authority of the Commonwealth's local government in ways that would not 
be tolerated in the counties and States on the Mainland. By doing so, 
it harms the indigenous elements in the CNMI population--namely, the 
Chamorro and Carolinian people--who gave up their land and sovereignty 
in return for U.S. citizenship and the opportunity to enjoy the 
political freedoms and economic opportunities available to all U.S. 
citizens.
    We have no objection to federal control of immigration if it is 
done efficiently and effectively as Congress intended. What has 
happened instead is that Title VII of PL 110-229 has brought to the 
Commonwealth all of the very serious immigration problems that exist on 
the Mainland. We have many illegal aliens who are not being deported--
although one of the clearly stated goals of the federalization law was 
to reduce alien workers who could not obtain a standard federal visa to 
zero within a few years. Some of these illegal aliens are employed 
illegally and take jobs away from U.S. citizens. Others are unemployed 
and survive on government benefits that provide an incentive not to 
leave the Commonwealth. Particularly since federal authority came into 
effect, the Commonwealth has had an increased inflow of tourists and 
others who entered on a temporary basis but remain illegally in the 
CNMI hoping for access to amnesty that will provide a green card. The 
burden on CNMI taxpayers related to illegal and unemployed aliens is 
heavy.
    With a population of more than 300 million people, the 50 States of 
the United States can absorb the economic and social costs of these 
immigration failures--although there appears to be a growing awareness 
across our country that serious immigration reform is necessary. But 
the Commonwealth has only 30,000 U.S. citizens, with about 16,000 of 
them being registered voters. Our small community is enormously 
burdened by these failures, which have complicated the Commonwealth's 
efforts to address its continued economic decline.
    When it enacted Title VII, Congress promised the Commonwealth a 
balance between benefits and burdens in connection with this so-called 
immigration reform. All of the burdens we warned about have certainly 
come to pass, in even worse levels than we predicted. However, we have 
received absolutely none of the benefits that the drafters of the bill 
promised.
    To be specific:
        1.  No visa waivers: The bill provides for a visa waiver 
        program with respect to Russia and China, two very important 
        markets for us. The visa waiver program has been blocked. We 
        understand that the Department of Homeland Security has twice 
        examined possible national security implications of a visa 
        waiver program for the Commonwealth and Guam and has found 
        none. The Department of Defense and the Department of the 
        Interior have no objection. We understand that the Department 
        of State has refused, on policy grounds, to implement what has 
        been mandated by Congress. Our tourist industry--the principal 
        economic basis for our economy--has been seriously hurt. While 
        we appreciate the efforts of Secretary Napolitano to give us a 
        temporary parole system, such a system simply does not allow 
        for necessary continued investments in growing these markets 
        due to the fact that the program can be halted without notice.
        2.  No technical assistance: The bill mandates technical 
        assistance from four federal agencies--Labor, DHS, Commerce, 
        and Interior. Three years later, Labor, DHS, and Commerce have 
        given us nothing under PL 110-229 and have denied our very 
        modest requests for grants. Interior has no funding for 
        technical assistance specifically with respect to PL 110-229, 
        but has allocated to the CNMI some of the technical assistance 
        funds which we would otherwise receive under regular insular 
        area programs.
        3.  No effective immigration enforcement: The bill promises 
        effective immigration enforcement. We are given no official 
        statistics by ICE, but immigration lawyers report that ICE has 
        deported fewer than 100 aliens in three years. At that rate, 
        ICE will not clear the books of illegal aliens in the 
        Commonwealth for many decades. ICE also refuses to fund a very 
        low-cost software-based effort to identify illegal aliens who 
        arrived prior to 1996.
        4.  Poor performance at the border: The CBP agents who man the 
        border in the CNMI are all temporary assignees. We have 
        constant complaints that they are rude, arrogant, and slow in 
        processing arriving tourists. Tourism is our lifeblood. An 
        unwelcoming atmosphere at the border is unacceptable. In 
        addition, CBP has prevented the Commonwealth from maintaining 
        its exit database that compared entry data to exit data and was 
        very effective in identifying overstaying tourists. CBP has no 
        exit database that can provide current information on 
        overstayers. As a result, it appears that we have an increasing 
        number of aliens in overstayer status and no way to identify 
        them. CBP refuses to acknowledge its responsibility for these 
        problems and has insisted on applying the same ineffective 
        program in the Commonwealth that it does in the Mainland, 
        although a more effective CNMI program has demonstrated its 
        utility and is available.
        5.  No funding to substitute for coverover: The bill takes away 
        a major funding source, the coverover to the Commonwealth from 
        immigration and naturalization fees paid to the United States, 
        which is available to other territories. We are given only a 
        very small fee from work permits--about one quarter to one-
        eighth of our prior funding--in return when the regulations are 
        finally issued. To date, we have received no funding from this 
        source.
        6.  No consultation: The bill provides that we will be 
        consulted before reports are submitted to Congress. That has 
        not happened. Executive Branch reports are submitted before we 
        have ever had a chance to even see a draft. I should note that 
        the GAO routinely allows us to review a draft, but this is not 
        the case with the Department of the Interior or the Department 
        of State.
    I could go on at great length about how the burdens have multiplied 
and the benefits have never materialized. However, it has been my 
experience that these oversight hearings with a piecemeal approach are 
not a forum in which meaningful change can occur. This Committee cannot 
get ICE to deport more than a relatively few illegal aliens each year 
or get CBP to stop being rude to visitors who enter the Commonwealth, 
or get Labor or Commerce to provide the technical assistance we were 
promised, or get additional funds for Interior. We are working hard on 
these problems within the Executive Branch, but the Commonwealth is 
very small and our problems are easy for federal bureaucrats to ignore. 
Only if this Subcommittee is willing to underwrite a serious, system-
wide reform of the implementation of PL 110-229, and amendment of its 
provisions that do not work, will the Commonwealth see any progress.

                          ********************

    Now I would like to address H.R. 1466. I oppose this bill and urge 
that it not be acted on by this Subcommittee.
    Many of the difficulties encountered in the implementation of Title 
VII result from the fact that it was drafted by persons without any 
expertise in immigration law or understanding of the Commonwealth's 
economy. It is our view that H.R. 1466, and other bills dealing with 
immigration in the insular areas, should be handled by the appropriate 
subcommittee of the House Judiciary Committee. I know that other bills 
are being considered there that may have some potential applicability 
to the Commonwealth, especially federal laws that endorse the authority 
of the States to deal with the employment of illegal aliens by 
employers. For example, I am impressed by the bill introduced by 
Representative Lamar Smith with respect to a national program to deter 
the employment of illegal aliens.\1\
---------------------------------------------------------------------------
    \1\ Six States have now passed legislation to deal with some 
aspects of this problem. Most recently, Louisiana on July 7, 2011, 
enacted two laws dealing with the usage of the federal E-Verify 
Program. One law requires all state and local contractors to use E-
Verify; and the other requires private businesses to verify the legal 
status of their new hires by providing employers that use it a safe 
harbor against sanctions.
---------------------------------------------------------------------------
    I believe that Congressman Sablan proposed this bill without the 
demographic information necessary to assess its impact on the 
Commonwealth. That is not his fault. The U.S. Labor Department and the 
U.S. Department of Commerce do not provide the Commonwealth with the 
full range of data services routinely available to States and counties 
in the Mainland. We have recently been told that we will not even have 
the preliminary results of the 2010 census until 2012.\2\
---------------------------------------------------------------------------
    \2\ Some of the information currently being provided by the U.S. 
Census Bureau with respect to the CNMI appears to be projections based 
on unidentified assumptions. For example, its listing for the Northern 
Mariana Islands contained in its International Programs Division shows 
a population of 48,000 for mid-year 2010, 46,000 for mid-year 2011, and 
45,000 for mid-year 2012. If these figures are correct, then there are 
fewer U.S. citizens in the CNMI currently than reflected in the text.
---------------------------------------------------------------------------
    I did not see a draft of H.R. 1466 before it was introduced, and I 
understand that experts on alien labor in the Commonwealth also were 
not consulted. After H.R. 1466 was introduced, I requested a detailed 
analysis of its likely social and economic impact. We understand that 
the numbers involved in H.R. 1466 will strike some Members of Congress 
as very small, compared to the U.S. immigration numbers. Some may 
assume the effect would also be minor. That is wrong. We have only 
30,000 U.S. citizens living in the islands that make up the 
Commonwealth and about 16,000 registered voters who are predominantly 
of Carolinian and Chamorro ancestry. We are like a very small county in 
one of the 50 States.
    We now estimate that there were approximately 23,000 aliens 
(including illegals) residing in the Commonwealth at the end of 2008. 
Unlike our U.S. citizen population, most of these aliens are adults. 
Most of these aliens, but perhaps not all, were present in the CNMI on 
May 8, 2008, the date of enactment of the federalization law, and 
therefore would meet one of the requirements of H.R. 1466 to gain the 
bill's preferred status for parents of U.S. citizen children. Because 
of CBP's failure to maintain an exit database that can rapidly identify 
overstayers, we do not know how many of these aliens are still in the 
Commonwealth. We believe that nearly all are still present. At present, 
more than half of them are unemployed, due to the serious economic 
recession that has caused a 45% decrease in the Commonwealth's GDP over 
the past several years.\3\ A recent GAO report estimates that 
employment in the CNMI has dropped an unprecedented 35% from 2006 to 
2009.\4\
---------------------------------------------------------------------------
    \3\ Our estimate of the unemployed includes those who may be 
employed illegally and therefore do not show up in our jobs surveys.
    \4\ American Samoa and Commonwealth of the Northern Mariana 
Islands: Employment, Earnings, and Status of Key Industries Since 
Minimum Wage Increases Began, GAO-11-427, June 2011, Government 
Accountability Office.
---------------------------------------------------------------------------
    The Commonwealth began admitting alien workers in numbers in 1985 
as the garment and tourism industries began to grow simultaneously. 
Many of these workers were from the Philippines and China, most were 
female, and most were relatively young. Many gave birth in the 
Commonwealth, and these children were U.S. citizens by virtue of the 
Commonwealth's status as a territory of the United States. As the 
federal presence in the Commonwealth grew during the 1990's, some 
federal officials repeatedly suggested that the alien parents of U.S. 
citizen children were entitled to special status--although that 
certainly is not the case under U.S. immigration law. Not surprisingly, 
the births of children to aliens increased.
    When the Commonwealth controlled its own immigration, we admitted 
alien workers on a temporary basis while they remained employed, and 
unemployed aliens were repatriated. When the garment manufacturers 
closed down because of changes in WTO rules, the Commonwealth 
repatriated over 16,000 alien workers beginning in 2005. After the 
federalization law was enacted in 2008, some federal officials promised 
a path to US citizenship for aliens who had U.S. citizen children or 
who had lived in the Commonwealth for several years. This gave aliens a 
strong incentive to stay in the CNMI rather than return home.
    Beginning in 2006, U.S. citizen children of aliens reached age 21 
in increasing numbers and began petitioning for green card status for 
their alien parents. This occurred under the normal U.S. immigration 
processes, which are available to all qualified aliens--and which we 
think should apply to the Commonwealth in the same way as in the 
States. There is no need for a special citizenship provision applied 
only to the Commonwealth. When the Judiciary Committee considers 
immigration reform for the U.S., the Commonwealth will be a part of 
that reform. We do not want or need an amnesty bill now.
    H.R. 1466 creates four categories of new U.S. citizens. I want to 
focus on the fourth category which covers alien parents of minor U.S. 
citizen children.\5\ This category is, by Commonwealth standards, very 
large.
---------------------------------------------------------------------------
    \5\ The first category consists of aliens who were born in the 
Commonwealth between 1974 and 1978 and who did not get U.S. citizenship 
under a prior court decree covering this group. We estimate there are 
about 200 persons in this group.
    The second category consists of aliens who were granted permanent 
resident status by the CNMI government prior to 1981. We estimate there 
are 82 persons in this group.
    The third category consists of aliens who are the spouses and 
children of people in groups 1 and 2. We know of only 102 persons in 
this group, but there may be a few more.
---------------------------------------------------------------------------
    Here's what will happen under H.R. 1466:
         1.  Large scale amnesty for aliens: H.R. 1466 is essentially a 
        large-scale amnesty bill. It provides a direct route to 
        citizenship that would create an estimated 11,000 new U.S. 
        citizens in the Commonwealth within the next 10 years--
        virtually all of whom are adults and would be voters.\6\ This 
        would occur at a time when the current U.S. citizen population 
        of Chamorro and Carolinian ancestry is estimated to decline. 
        Our severe economic recession has caused some ofthese citizens 
        to move to the Mainland just to earn enough to support their 
        families. The social disruption from arbitrarily creating 
        citizens in this large proportion cannot be overstated. I do 
        not believe that turning this large population of alien 
        temporary workers into citizen voters would be tolerated in any 
        county or State in the United States.
---------------------------------------------------------------------------
    \6\ Our estimates in this regard are based on data with respect to 
live births and fertility rates, public and private school enrollments, 
ages and genders of aliens in the Commonwealth, umbrella permits, 
utilization of nutritional assistance programs, U.S. census estimates 
and projections, U.S. immigration laws and regulations, and other 
related data. LIDS data are not relevant for these purposes as those 
data record work assignments. Because the federal authorities do not 
collect data in the Commonwealth that is readily available for all 
states and most counties, we must rely on estimates. We anticipate that 
these estimates are on the low side.
---------------------------------------------------------------------------
         2.  Permanent CNMI-only residence: Under H.R. 1466, these 
        aliens are granted permanent residence in the Commonwealth for 
        all time. They are protected from deportation until their minor 
        child reaches age 21 and can petition for a grant of a green 
        card for the parent leading to U.S. citizenship. That is a 
        significant distortion of the U.S. immigration system. Allowing 
        these aliens to remain in the Commonwealth--even if they do not 
        petition for adjustment of status to be able to enter the 
        Mainland U.S.--is a long-term burden on the Commonwealth that 
        occurs nowhere else in the U.S.
         3.  Non-custodial parents included: A parent who provided no 
        support whatsoever to the minor U.S. citizen child or never 
        lived in a household with the minor child is qualified to 
        remain in the Commonwealth. H.R. 1466 only requires a parent's 
        name on a birth certificate--not any evidence of a meaningful 
        parental relationship.
         4.  Unemployed and unemployable parents included: A parent who 
        is unemployed will qualify to remain in the Commonwealth 
        forever. The CNMI will have to foot the bill for supporting 
        them because, under H.R. 1466, they are not allowed to travel 
        to the U.S. The direct and indirect costs to the CNMI 
        government each year for unemployed aliens remaining in the 
        Commonwealth is high and a particular burden on CNMI taxpayers.
         5.  Parents with no means of support included: A parent who 
        has no means of support whatsoever will qualify. The bill 
        attempts to get rid of the requirement for U.S. green cards of 
        a sponsor willing and able to undertake the responsibility to 
        pay support in the amount of at least $18,000 a year (at 
        present levels) should the alien not be able to support himself 
        or herself.\7\ This means that aliens with no visible means of 
        support would qualify to remain in the Commonwealth or to 
        become U.S. citizens. This is not allowed anywhere else in the 
        U.S.
---------------------------------------------------------------------------
    \7\ See section D(iii)(II).
---------------------------------------------------------------------------
         6.  Parents with a history of illegal employment included: A 
        parent who works illegally in the underground economy, and 
        harms the Commonwealth in the process, is eligible. This kind 
        of broad amnesty encourages illegal employment as there is no 
        deportation penalty. It also undermines employment 
        opportunities for U.S. citizens. Although H.R. 1466 does not 
        address the issue, it appears that this new status would also 
        be available to persons who entered the CNMI before or after 
        November 28, 2009, and became an illegal overstayer in 
        violation of the INA, notwithstanding the general rule that 
        illegal entrants and immigration violators are not allowed to 
        be admitted into the United States.
         7.  Parents who have left the Commonwealth included: A parent 
        who left the Commonwealth after November 2009 and has not 
        returned to the Commonwealth will qualify if he or she returns 
        by the date of enactment of H.R. 1466. The promise of U.S. 
        citizenship is likely to attract a substantial number of re-
        entrants. This will aggravate the Commonwealth's current 
        problem with unemployed aliens.
         8.  Parents of children raised elsewhere included: A child who 
        was born in the Commonwealth but was sent by his or her parent 
        to live in China or the Philippines--and who remains with 
        relatives in the Philippines or China for his or her entire 
        childhood to age 21--can still protect his or her parents, 
        enabling them to remain in the Commonwealth more or less 
        permanently for the prospect of better employment or welfare 
        benefits.
         9.  APA protections stripped away: H.R. 1466 strips away the 
        protections of the federal Administrative Procedures Act by 
        permitting the Department of Homeland Security to promulgate 
        implementing regulations without the customary requirement of 
        issuing them in proposed form and providing for a period within 
        which the affected parties may comment. Are we incapable of 
        learning from experience? We had to go to federal court in 
        November 2009 to order to require DHS to comply with the 
        provisions of the APA with respect to its proposed transitional 
        worker permits. I see no reason for including this exception in 
        this law.
        10.  A definition of ``immediate relative'' rejected by the 
        Commonwealth legislature determines the eligible class: The 
        bill refers to a definition of ``immediate relative'' that was 
        in the Commonwealth Code prior to May 2008.\8\ That definition 
        was struck from the Commonwealth Code by our Legislature. We 
        have found that, under well-accepted drafting rules, cross 
        references to definitions in other legislation may be 
        appropriate in very limited cases.\9\ This is not one of those 
        cases. A cross-reference to legislation that was repealed prior 
        to the time of the legislation containing the cross-reference 
        is particularly unacceptable. Among other flaws, it masks the 
        true intent of the bill to those who are not lawyers or skilled 
        legislative researchers.
---------------------------------------------------------------------------
    \8\ This is the reference to Title 3, Section 4303, which was 
deleted from the Commonwealth Code by P.L. 17-1. It no longer exists.
    \9\ See, for example, the following: Office of the Legislative 
Counsel, U.S. Senate, Legislative Drafting Manual (1997); Lawrence E. 
Filson, The Legislative Drafter's Desk Reference (Congressional 
Quarterly, Inc., 1992); Donald Hirsch, Drafting Federal Law, 2d Edition 
(U.S. Government Printing Office, 1989).
---------------------------------------------------------------------------
        11.  Prior problems of adoption fraud are revived: The old now-
        repealed definition of ``immediate relative'' refers to adopted 
        children who are adopted prior to age 21. This led to 
        significant problems with adoption fraud in the Commonwealth--
        children who were adopted for the purpose of conveying status 
        for immigration purposes. H.R. 1466 allows an alien parent who 
        has more than one U.S. citizen child the leeway to consent to 
        an adoption of one of the children for the purposes of 
        eligibility under H.R. 1466. If this happened to any 
        significant extent, as it has before, this would increase the 
        number of eligible parents.
    Let me be clear. It is the U.S. citizens in the Commonwealth who 
gave up their land and their sovereignty to become a part of the United 
States. The U.S. citizens in the Commonwealth have a right not to have 
their community and culture be so radically changed in this fashion--
unless they decide to do so through their own democratic institutions.
    We treated guest workers well over the years, and we continue to do 
so. Some critics have cited poor working conditions. We corrected those 
long ago. Some cited an estimated $6.1 million in back pay owed to 
guest workers over the 25 years since 1985. That estimate was wrong. 
The total turned out, after investigation, to be far lower. All claims 
of back pay have been adjudicated; and only a relative few cases remain 
in our courts. Other critics have pointed to alleged human trafficking 
violations. Human trafficking is a federal crime and the only fair 
measure is convictions in federal cases--not allegations or rumors. 
Federal convictions over the past 10 years have been very, very few. 
Our record over the years is the equal to, and we think better than, 
anywhere aliens are employed in large numbers in the United States. And 
we understand why aliens in the Commonwealth want to stay. They have 
freedoms, are treated well, and have employment opportunities and 
social benefits.
    I have a proposal for an H-5 visa within the regular U.S. 
immigration system, and the CNMI Senate has a proposal for a non-
citizenship status somewhat akin to the status of Freely Associated 
State residents in the Commonwealth. Both of these proposals are in the 
supplementary materials to be provided to the Committee. Both of these 
proposals are far better alternatives for the people of the 
Commonwealth than H.R. 1466.
                                 ______
                                 

Response to questions submitted for the record by The Honorable Benigno 
  Repeki Fitial, Governor of the Commonwealth of the Northern Mariana 
                                Islands

From The Honorable Madeleine Z. Bordallo
Q: Could you tell the Committee, have there been any significant issues 
        with regard to overstays? The Parole Authority is probationary 
        period to see if this program will work. I am not aware of any 
        overstays or law enforcement concerns. In my opinion this 
        program works. What is your opinion of the parole authority and 
        any enforcement issues?
    A: ``I have testified previously that the Commonwealth looks 
forward to the inclusion of China and Russia in the formal visa waiver 
program envisioned by Public Law 110-229. Such inclusion would provide 
an increased measure of certainty and stability that would enable the 
Commonwealth to develop these markets more effectively. We are very 
appreciative of the Secretary's decision to use her parole authority to 
permit tourists from China and Russia to enter the Commonwealth and 
believe that the program has been administered efficiently and smoothly 
by Customs and Border Protection personnel. Based on figures provided 
by CBP last month, we are pleased that a very small number of visitors 
(36) were rejected upon arrival in the Commonwealth compared with the 
20,947 visitors who were paroled in as tourists. The Commonwealth has 
received no reports from CBP or any other Department of Homeland 
Security component regarding ``overstayers'' from China and Russia who 
did not comply with the terms of their permission to enter the CNMI. 
None of the participants in dealing with these tourists--the Marianas 
Visitor Authority, the charter carriers, and the hotels--reports any 
such ``overstayer'' problem and all emphasize the importance of these 
markets to the visitor industry and the Commonwealth economy.''
                                 ______
                                 
    Mr. Fleming. Thank you, Governor, and we have now Governor 
Calvo. Sir, you have five minutes.

            STATEMENT OF THE HON. EDDIE BAZA CALVO, 
                 GOVERNOR OF THE ISLAND OF GUAM

    Governor Calvo. Thank you very much, Mr. Chairman and 
Members of the Subcommittee. My name is Eddie Baza Calvo, 
Governor of Guam. I am here to testify on Public Law 110-229, 
the Guam/CNMI visa waiver program.
    Unlike previous testimonies that you may have heard in the 
past, I am not here to ask you for subsidies. We are here to 
ask you for an opportunity. Release some Federal regulations 
that make no sense for Guam and American, and we can make it on 
our own. As our economy takes a new life, I do believe that 
Guam can be a shining example of economic, American economic 
strength in Asia.
    I am a new Governor with a new doctrine on Federal 
relations. Guam has some major financial problems caused by 
many Federal mandates, but nevertheless my administration is 
looking internally and implementing solutions to fix our fiscal 
problems. I don't want our government to rely so heavily on 
Federal subsidies, and I am sure that is welcome news to 
Members of the Congress.
    Guam has a government deficit equal to 51 percent of our 
revenues, and like other states and territories, we are cutting 
spending and raising revenues to fix this staggering situation. 
But unlike other U.S. communities, Guam's deficit is a direct 
result of Federal mandates and the Federal Government's 
inability to live up to its own obligations and its mandates.
    The financial burdens of the compacts that the United 
States signed with the Freely Associate States of Micronesia is 
nearly at $1 billion for the people of Guam. The provision of 
funding for unimpeded immigration rights to Guam have caused a 
natural population influx, and citizens from these areas are 
using up to 70 percent of some of our public services. For over 
26 years immigrants have been migrating and maxing out our 
capacity to provide services, and without adequate funding to 
offset the impact from the Federal Government our services and 
infrastructure has fallen into disrepair, leading to violations 
of other Federal mandates. This includes the Federal EITC. We 
now have to pay for the larger population which does not get 
reimbursed like the states, and as a result the Federal 
Government has taken us to court to pay for services we would 
have been able to afford if we had not breached our capacity.
    Now, this is clearly an injustice, but we are dealing with 
a financial dilemma with local solutions and local economic 
initiatives underway. Unfortunately, we have hit a regulatory 
wall. Tourism, our number one industry, is stagnated. Our 
primary market, Japan, is no longer the largest potential 
source of outbound tourists.
    Distinguished ladies and gentlemen, there is a great irony 
between the financial malaise that beset the Guam government 
and the economic development we have not been allowed to 
pursue. The Federal Government has seemed sometimes cavalier 
and almost uninterested at the burden that is placed on our 
resources, and we have come to Congress to plead our case and 
get the reimbursements that rightly should be paid, but 
Congress has refused.
    Yet the Federal Government has been sitting on a regulation 
that would have begun solving our financial dilemma and our 
economic troubles. Congress mandated a unified immigration 
policy for Guam and the CNMI, but the Department of Homeland 
Security has been contravening your intent. There is no parole 
authority for Chinese and Russian tourists to enter Guam 
despite Congress's determination that such authority would be 
of significant economic benefit and would not unduly compromise 
national or homeland security. Even one percent market share of 
China's $55 million outbound tourists and Russia's 13 million 
would translate into GDP growth in the billions of dollars for 
Guam, and for our part would mean thousands of jobs to close 
the 13.3 percent unemployment gap we currently have, and more 
revenues to provide services for our residents and local FAS 
residents. Put simply, if you give us this opportunity we can 
take care of our problems.
    But there is a larger reason the United States should grant 
this authority for Guam, and it cuts into the heart of the 
initiative that can help reclaim American economic political 
strength in the Asia Pacific Rim. Part of the United States 
national export initiative is to reduce the huge trade deficit 
with China. Well, Guam could help facilitate that. The millions 
of Chinese outbound visitors are exporting Chinese capital, yet 
the easiest markets accepting them are not U.S. markets. Other 
Chinese cities and Asian destinations are fast depleting the 
opportunities for the United States.
    Allowing the visa waiver program for Guam will bring 
millions and billions in Chinese currency into the United 
States, and this program can be a part of the winning strategy 
of the national export initiative.
    The old way of thinking of our island as an isolated 
military outpost is outdated. We are America in Asia. We are a 
gateway to the Orient, Asia's bridge to the United States. I 
came today with a message, a very different one. We have 
financial problems like other states, but we are dealing with 
those problems. Even the cost of impact of migration has caused 
Federal compacts is a cost that we are bearing but my message 
deals less with financial assistance for Guam, but it deals 
more about our desire for economic self-sufficiency. We can do 
a lot for America if you give us that opportunity.
    Now, some have said the American century is a bit dim, but 
I can see a light in that part of the world on my porch that 
faces the Pacific Ocean where the Star Spangled Banner and the 
Guam flag fly high at the Government House. But ladies and 
gentleman, Members of this Committee, we need your assistance, 
we need your help. We can be that beacon of the American dream 
in the Western Pacific, and I ask for your assistance in, 
again, granting this authority to Guam. Thank you and God 
bless.
    [The prepared statement of Governor Calvo follows:]

Statement of The Honorable Eddie Baza Calvo, Governor, Island of Guam, 
          on H.R. 1466, The Consolidated Natural Resources Act

    Thank you, Mr. Chairman, for inviting me to testify. For the 
record, I am Eddie Baza Calvo. I am the Governor of Guam. This is my 
written testimony on the implementation of Public Law 110-229, 
regarding the Guam/CNMI Visa Waiver program. I beg your indulgence as I 
explain the thinking of Guam's new administration below.
    As the new governor of Guam, in my first opportunity to testify 
before Congress, I want to be certain that the Members of the House are 
aware of the reasons it is critical for the Guam-CNMI Visa Waiver 
Program be implemented and that Chinese and Russian nationals be 
allowed to travel to Guam and the CNMI, as originally intended by 
Congress.
    I have a simple and unique message for Congress today. Unlike 
previous testimonies you may have heard in years past, I am not here to 
ask for subsidies. Guam is going through a unique transformation that, 
if done correctly, will result in unprecedented economic self-
sufficiency in the long term.
    Today we are far from that self-sufficiency. This fiscal year Guam 
will receive $369 million in federal grants and matching grants. These 
grants fund several federal and local programs, including our 
university land grants, the National Guard, public assistance, housing 
for the less fortunate, education programs, etc. These are the same 
grants the other States and territories seek and for which they 
compete. It costs the federal government far less to fund these 
programs in Guam because of our small population. For many of these 
programs, Guam does not receive the same relative share that other 
American communities do.
    As a new governor, I hesitate to have the government of Guam rely 
so heavily on these grants to sustain local operations. We are taking 
steps to fix our financial house over the long term, but unfortunately, 
this funding has become critical to services. These grants have become 
increasingly important to Guam over the past 20 years. The year 1991 is 
an important year in Guam memory. That was the last time the government 
of Guam was able to pay tax refunds on time. We currently owe 
approximately $280 million in tax refunds, going as far back as 
Calendar Year 2005. There are several reasons why this has occurred, 
including natural disasters such as super typhoons, which have wrecked 
havoc on our island, and global events beyond our control, such as 
SARS, H1N1, and two Gulf wars, which have wrecked havoc on our main 
economic industry, Asian-based tourism. While our people are resilient 
and have rebounded and rebuilt, our government finances were not as 
resilient. In addition, federal court orders in the hundreds of 
millions have placed a great burden on the backs of our taxpayers. This 
government had to borrow to finance some of these orders. The annual 
debt service on the bonds to pay these court orders has significantly 
eroded our revenue base. The Earned Income Tax Credit, which we are 
obligated to pay under the mirror IRC tax code system we have, and 
which the federal government reimburses to the state governments, is 
not reimbursed to Guam. This is a drain on our General Fund of between 
$32 to $36 million annually.
    Because of declining revenues, the result of Japan's financial 
downturn, the decline in military spending, and federal court-mandated 
new programs, imposed fines and application of EITC, the money that 
should be set aside for tax refunds continues to be used to pay for 
essential government services. All this, along with the growth of 
freely associated states of the Micronesia (FAS) migration in ever-
increasing numbers, has created a structural imbalance in our General 
Fund. And while our community has been growing, along with a greater 
demand for public services, collections have not kept pace with this 
growth. The cumulative deficit that has grown over the years now is 
$336 million, according to our FY 2010 audit report.
    Distinguished Ladies and Gentlemen, our deficit is 51 percent of 
our current year's adopted revenues. It is unmanageable. It rides as a 
burden on the backs of taxpayers awaiting their refunds. I'm not here 
to ask you to solve our problems for us. We are working to do that on 
our own. I directed my Cabinet to begin personnel evaluations for 
performance and I have instituted a 10 percent cut in spending. An 
island-wide reassessment of property values currently is underway to 
increase revenues. Revenue agents also are going after non-filers and 
non-payers. I am not asking for a federal bailout. What I am asking is 
for the federal government to make good on its own mandates, with the 
same fervor and sense of urgency as it has imposed upon our government.
    The year 1991 is the sixth year following the U.S. government's 
compact, or treaty, with the freely associated states of Micronesia. In 
1985, these new countries entered into an agreement with the U.S. The 
U.S. government said the people of these former U.S. administered 
territories could migrate freely into the United States. Noting the 
dismal conditions of these countries' economies and education systems, 
the U.S. promised federal aid to them. Rightly so, our country wanted 
to leave a legacy of progress in former territories it liberated and 
held in trust. The U.S. government agreed to absorb and pay for the 
impact of their migration to the States and territories of the U.S.
    It's been 26 years since then. The promise the U.S. made to the 
citizens of the FAS has resulted in meager improvements to their 
economies and school systems. As a result, the bulk of the FAS 
citizens, tens of thousands of them, have migrated to the closest U.S. 
port of entry: Guam. Our island absorbs well over half the migratory 
impact of the treaty the U.S. government entered with the FAS. 
Resultingly, Guam's unemployment rate now is 13.3 percent. The true 
financial impact of this migration has cost the government of Guam 
nearly $1 billion since the Compacts were signed. Yet, Guam has only 
received $xxx since the Compacts. To put this in perspective, our 
General Fund generates about a half a billion dollars annually. Guam 
has found itself the casualty of another unfunded federal mandate.
    I understand, however, that the U.S. government is itself in a bad 
economic state and will probably never fully reimburse Guam for the 
impacts of the Compacts. But I want to put into perspective how this 
federal mandate has contributed to, and may even be said to have 
caused, our deficit and the structural imbalance of the General Fund. 
We have been able to quantify most of what it costs to pay for 
government services directly used by citizens of the FAS annually. The 
figure is $113 million a year, for which we have never been reimbursed 
more than $14.5 million. That is about $100 million, or one-fifth of 
our local budget going to provide unreimbursed social services to FAS 
migrants. The rate of usage in each service category is alarming. I 
attached a breakdown, but here are some highlights:
[GRAPHIC] [TIFF OMITTED] 67403.001

    .epsThree years worth of this impact outpaces the size of our 
General Fund deficit. If you consider the direct costs the government 
of Guam incurs because of this federal mandate, you can see that the 
appropriations needed to meet the demand for services will always 
outpace the revenues we collect. This federal mandate, Distinguished 
Ladies and Gentlemen, is driving up the cost of government services in 
Guam; costing us approximately $100 million annually.
    We are told that we need to understand the federal government's 
financial situation. We are told we must take into consideration the 
federal bureaucracy's hardships and ability to pay. That is reasonable. 
What is most unreasonable is the hardship unfunded federal mandates, 
such as the FAS Compacts and EITC, place on our island people, forcing 
us to withhold tax refunds as our government continues to use their 
monies to subsidize the cost of providing government services to our 
residents as a result of the Compacts. Adding insult to injury, while 
the federal government sees no need to reimburse us beyond its ability, 
some would say its willingness, to pay us, it imposes on us additional 
mandates, orders, receiverships and fees without any regard for our 
ability to pay and sustain services for our residents. Here is a list 
of these orders and fines:
[GRAPHIC] [TIFF OMITTED] 67403.002

    .epsThe government of Guam has repeatedly asked the federal court 
and the federal agencies pursuing these fines and orders to consider 
the progress we were making in meeting the demands of the federal 
mandates. We have repeatedly asked for consideration on the rigid 
timelines imposed to provide the local cash to fund our compliance 
initiatives. We were told such considerations were not possible. It is 
a tragic irony that the federal government can withhold from us just 
reimbursement for its federal mandates because of its cash situation, 
despite the overwhelming impact of its failure to meet its own 
mandates, yet give us no consideration of the effect that its failure 
to reimburse us has on our ability to pay its other mandates.
    On top of this, the U.S. Environmental Protection Agency now wants 
the government of Guam to install secondary wastewater treatment 
facilities at the cost of $400 million. The U.S. EPA does not care how 
this will impact our people; nor has it considered other less expensive 
and environmentally sensitive technological solutions for wastewater 
treatment.
    How is it right that we are made to pay for more than three-
quarters of a billion dollars in federal mandates when the federal 
government still owes us a billion dollars in reimbursements for its 
obligation to us?
    The federal government is strangling us with mandates it expects 
our cash-strapped government to meet upon unreasonable timelines and 
demands. There has been no consideration for our ability to sustain our 
financial house while meeting these orders and paying for what is 
supposed to be the federal government's bill. These extraordinary 
demands not only drain our financial resources, they rob us of the 
attention and focus we need to pay to our own local programs and 
initiatives to combat poverty and increase wealth among Guamanians. 
Make no mistake about it; we are good American citizens who are doing 
our part to deal with these problems ourselves. We have a full throttle 
economic and financial agenda. The only thing getting in our way is the 
federal government's burdensome bureaucracy, mandates, rules and 
regulations.
    Despite these challenges, we are moving forward with viable 
economic initiatives to improve the quality of life for Guamanians and 
increase our presence in the Asia Pacific Rim.
    My administration is developing a long-term economic strategic 
plan, which leverages the military buildup investment with our 
strategic location between Asia and the mainland United States. I am 
bringing the community together to use available information and 
academic methodologies and best practices to forecast Guam's economy 
and its community of the future. We will project our needs, identify 
budding industries, shore up our workforce goals and create a community 
model supported by the infrastructure, workforce and regulatory 
environment fit to meet these projections. We will align curriculum in 
our schools, colleges and university to meet these goals, creating 
certainty in our future in much the same way several Asian nations went 
from lands of scarce natural resources to the economic tigers they are 
today.
    As this planning and implementation process occurs, we have already 
launched an affordable housing initiative to spark construction and 
generate interest in mortgages for first-time homeowners. Our goal is 
to build 3,000 affordable homes over the next five years. We launched 
the initiative two weeks ago. Already, 188 homes are slated for 
development in the near future.
    The much-anticipated and recently much-debated military buildup is 
causing increased interest in the island. Our economic development 
agency, along with our Chamber of Commerce, has been organizing trade 
missions to Guam from Taiwan, Korea, China, the Philippines and Japan. 
We want Asian capital to flow into our economy. I will be leading trade 
missions to these countries later this year to court investors 
personally.
    The University of Guam is aggressively networking to build research 
and development parks as incubators of new business and new industry. 
More so than ever before, the University is taking a commanding role in 
community development. It has become a regional leader in economic 
initiatives. More importantly, it has begun a long-overdue dialogue on 
sustainability in the islands. One of the initiatives this is leading 
to is the creation of the University of Guam School of Engineering. 
These initiatives will lead to solutions to which both Micronesia and 
the U.S. government have long aspired.
    Stagnation and an increasingly competitive field of nearby emerging 
destinations have impacted tourism, our number one industry. The 
Japanese disasters of March 2011 have also had their most recent effect 
on our Asian-based tourism industry. We are adapting and coping as best 
we can, but there is only so much we can do.
    My message is this: We can make it on our own if the federal 
government makes good on its own mandates, and releases us from 
restrictions that do not make sense for our very unique economy and for 
the United States. We believe this is an especially appropriate message 
to send to you as Congress and President Obama try desperately to curb 
federal spending and reduce the federal deficit. But that's just one 
narrow way of seeing things.
    Guam and the CNMI are geopolitically positioned in a way no other 
U.S. community is. Our location, tied with our reputation in Asia and 
the Pacific of being the strongest, closest, most stable and hospitable 
American community in that part of the world presents the United States 
with an opportunity to increase American clout militarily, economically 
and diplomatically with the fastest growing economies in the world. Put 
simply, we are in a political and geographic position to make our 
country shine. Not only are we proud to be in this position, we are 
excited to take a lead role. This is, after all, in the spirit of the 
bipartisan call from Congress for American communities to exhibit 
leadership in gaining financial independence and economic development.
    I offer to you solutions to make this happen:
Release Travel Visa Restrictions on Chinese and Russian Outbound 
        Visitors to Guam and the CNMI Only
    The United States currently does not have a visa waiver program 
with China and Russia. Two of the main reasons for this are concerns 
for national security and of Chinese and Russian nationals violating 
their visa conditions and overstaying in the U.S. These issues are of 
obvious significant concern for the U.S. I reiterate, though, what 
Congress already understood when it passed the Consolidated Natural 
Resources Act of 2008.
    Guam is not part of the contiguous United States. We have 212 
square miles of land surrounded by the deep blue Pacific. It is not 
difficult to find people in our island, but it is hard to get past 
customs and immigration officers at our airport. Even Congress supports 
this in its own findings. When Congress established the Guam VWP in 
1987 as an amendment to the Immigration and Nationality Act (INA), 
Congress emphasized the inherent protections afforded the United 
States' welfare, safety and security by Guam's geographical isolation. 
Congress determined that:
        The unique conditions prevailing on Guam and its isolated 
        location provide sufficient safeguards for the welfare, safety 
        and security of the United States to justify a broad 
        application of the visa waiver system. Guam's isolation as an 
        island in the Pacific Ocean easily allows for the restriction 
        of visa waiver recipients to the Territory thereby preventing 
        them from traveling onward to Hawaii and the mainland. Guam's 
        small area and its relatively small population ensure that any 
        non-immigrants who overstay the visa waiver period...can be 
        quickly located and removed....Given the inherent protections 
        which Guam offers the welfare, safety and security of the 
        United States the visa waiver system should be liberally 
        applied to a broad range of countries....It is intended that 
        the visa waiver program should initially be given wide 
        application. If threats to the welfare, safety or security of 
        the United States develop those threats should be dealt with on 
        a country by country basis.\1\
---------------------------------------------------------------------------
    \1\ 132 Cong. Rec. S4844 (Apr. 24, 1986); see also 132 Cong. 
Rec.H5274 (Aug. 1, 1986).
---------------------------------------------------------------------------
    Although China and Russia are currently excluded from the Guam-CNMI 
Visa Waiver Program, because of our remote location allowing Chinese 
and Russian outbound tourists to vacation in Guam and the CNMI should 
not cause such alarm to our national and homeland security agencies.
    Guam has long sought visa waiver programs with China and Russia. It 
makes sense when you consider what this can do for our island economy 
and for the investment of Chinese and Russian capital into the U.S. 
economy. Our local considerations are obvious. Guam has relied upon 
Japanese outbound tourists since the 1960s to fuel tourism, our number-
one industry. It is this strong economic alliance we've built with the 
Japanese that built the Guam economy. That transformation from the 
rubbles of World War II bombardments and the devastation of a Category 
5 storm is nothing short of miraculous.
    Unfortunately, when the Japanese economy tanks, Guam feels it. Over 
the last decade, we've felt its stagnation. Tourists are not staying as 
long as they used to. They're not spending as much as they did before. 
On March 11, 2011, Japan was hit by a major earthquake, followed by a 
devastating tsunami and damage to a nuclear power plant. Guam is still 
feeling the economic effects of the Japan triple disaster. Tourism 
numbers from Japan have declined over 20 percent. We've been fortunate 
to increase our share of the Korean market and to attract further 
interest from Taiwan, the Philippines and Australia, but these other 
countries represent only a small portion of our tourism base. While we 
have struggled to reinvent our market and to diversify into markets 
with existing visa waiver programs, we find ourselves competing with 
several other Asian destinations that have recently emerged. They are 
all attracting the 55 million outbound Chinese and the 13 million 
Russian tourists. Guam is anxious to have its share of these markets 
and we have the infrastructure to support it. Access to Chinese and 
Russian visitors has the potential of increasing our gross domestic 
product by the billions and creating thousands of jobs. But Guam isn't 
the only body politic that stands to gain from these proposed visa 
waiver programs.
    In fact, the State Department has collaborated with the National 
Governors Association to bring provincial governors from China to the 
NGA Annual Meeting in Salt Lake City, Utah, later this month, and is 
also scheduling a state visit by U.S. governors to China for the Fall 
of 2011. President Obama in 2008 also issued a National Export 
Initiative designed at doubling U.S. exports, which recognizes tourism 
as an export component.
    Part of the United States' National Export Initiative is to reduce 
the huge trade deficit with China. Guam can help facilitate that. The 
55 million Chinese outbound visitors are exporting Chinese capital, yet 
the easiest markets accepting them are not U.S. markets. They are other 
Chinese cities and Asian destinations that are fast depleting 
opportunities for the U.S.
    Allowing China to participate in the visa waiver program for Guam 
and the CNMI, will bring billions of dollars in Chinese currency to the 
U.S. The capital will flow into U.S. banks on Guam, and then be 
invested into the imports we receive from the U.S. mainland. This 
program can be part of a winning strategy to meet the objectives of the 
National Export Initiative and begin reclaiming economic strength in 
Asia.
    We need Congress's help in affirming China and Russia's 
participation in the Guam-CNMI Visa Waiver Program.
Provide Funding Certainty to the Defense Department for the Military 
        Buildup on Guam
    A growing pillar in our economy is Defense-related activity, 
spurred by Defense spending on Guam. The pending military buildup 
caused a mini-boom of development when plans were announced a few years 
ago. Unfortunately, uncertainty and anxiety about the buildup has been 
increasing because of Defense cuts over the past year by Congress.
    To date, little has been said or released about the United States' 
funding commitment to the Global Realignment of the Armed Forces 
initiative affecting Guam and Okinawa-based forces. The Japanese 
government has made similar commitments and has deposited vast sums of 
money to the U.S. Treasury. The uncertainty is on the part of the U.S. 
government, which lately has seemed reluctant to honor the bilateral 
agreements effectuated by the State Department.
    We do recognize Congress is in a bind because the cost of the 
buildup is still unknown. However, even the Senate recognizes there is 
a buildup happening and there are costs. At this point, reducing those 
costs without any notice of how the buildup will proceed and what 
investments will be made each year sends mixed signals and causes 
confusion. There is a need for federal officials to communicate more 
effectively with Congress, the Government Accountability Office, and 
the government of Guam on buildup plans and the outlay of spending over 
the next decade.
    The anxiety on the part of our local government, our private sector 
and prospective investors has been exacerbated by recent cuts to 
Defense spending in Guam. The Senate Armed Services Committee recently 
removed an appropriation for improvements to Andersen Air Force Base, 
and a $33 million appropriation to help mitigate the impacts of a 
firing range and other buildup activities. This, while just a fraction 
of the total cost, is significant to us because it was part of a very 
much criticized negotiation that finally led to the signing of the 
Programmatic Agreement over the disposition of historic artifacts and 
other such finds during the proposed buildup.
    These so-called `signals' from Congress have triggered a standstill 
on development and business activity related to the buildup. Investors 
now are taking a `wait and see' stance with Asian capital that they 
would have already invested into the U.S. via Guam. It is critical to 
our development that Congress makes good on the United States' promises 
and provide assurances that it will fund this buildup.
Inclusion in the Korea Free Trade Agreement and All Current and Future 
        Agreements
    The sad part about Guam's enduring relationship with the United 
States is it seems the U.S. government picks and chooses when to apply 
mandates and benefits to our territory. Sometimes Guam is included as a 
U.S. territory, many other times we are treated as an international 
community not eligible for the same benefits and protections the rest 
of the country receives. This is the case with the Korea-U.S. Free 
Trade Agreement.
    The President's Office of the United States Trade Representative 
says, ``If approved, the Agreement would be the United States' most 
commercially significant free trade agreement in more than 16 years.
    ``The U.S. International Trade Commission estimates that the 
reduction of Korean tariffs and tariff-rate quotas on goods alone would 
add $10 billion to $12 billion to annual U.S. Gross Domestic Product 
and around $10 billion to annual merchandise exports to Korea.'' It 
goes on to state:
    ``In addition to strengthening our economic partnership, the KORUS 
FTA would help to solidify the two countries' long-standing 
geostrategic alliance.
    As the first U.S. FTA with a North Asian partner, the KORUS FTA 
could be a model for trade agreements for the rest of the region, and 
underscore the U.S. commitment to, and engagement in, the Asia-Pacific 
region.''
    Guam is, without a doubt, at the center of U.S. interests in this 
Asia-Pacific region. Why, then, have we been excluded from the 
agreement? We ask Congress to push for Guam's inclusion in the 
agreement.
    Guam can play a pivotal role as the United States expands its 
interests in our region. We are important for American interests in 
Asia. We are important for Asian interests in America. At the heart of 
this strategic geopolitical value are many factors all related to our 
location and our proud heritage as the westernmost frontier of the 
United States:
        1.  The major strategic importance of the military bases--
        present and future--on Guam, the ``Tip of the spear''
        2.  The airline hubs connecting Asia with Micronesia
        3.  The frontline role we have in the potential for development 
        in Micronesia
        4.  The international web of fiber optic cables based beneath 
        the island
        5.  The transnational shipping routes that flow through our 
        oceanic backyard
        6.  The international conventions and treaties on fisheries and 
        fishing that is a multi-billion dollar industry in our waters
        7.  The academic research and consortiums of marine science 
        based out of our university.
        8.  The opportunity to reduce the U.S. trade deficit and bring 
        billions of Asian currency to America through Guam.
    There is a clear connection between Asia and America. Guam is that 
bridge. We are the hosts to American interests in the Western Pacific. 
We set the stage for Asian entrance to U.S. markets. We can be leaders 
in an economic alliance between Asia and America. Give us the 
opportunities to make it on our own and we will help America to shine.
    The American Dream is powerful. It is no wonder we are a nation of 
immigrants. People from across the globe saw from their borders the 
bright and shining promise that is the American Dream. In America, you 
can work hard and earn a living. It doesn't matter whether your father 
is a king or your mother is a pauper, or whether you grew up poor or 
you didn't think you had the right skin color or faith. You can own a 
home. You can be your own boss. You can compete against the best, and 
you can win. This dream is attracting people to our shores in much the 
same way. While we are a small island, we represent America's heritage 
of warmth and hospitality to all those looking for freedom and 
opportunity. If you haven't been to Guam, you may be surprised when you 
get there. People from all walks of life go about their business trying 
to make ends meet and build something great for their families. It is a 
microcosm of these contiguous United States, where freedom is 
celebrated and people take advantage of opportunity.
    We are asking you for those opportunities so the American Dream can 
become a reality for your fellow Americans in Guam. In doing so, we can 
do our part in bringing the American Dream to more Americans.
    We are pursuing a Guamanian Century of Prosperity at the dawn of an 
American Millennium of Leadership and Hope. Some have said the great 
American Century is over. They say that, like Greece and Rome, the Holy 
Roman Empire and Spain, America's light above the world is destined to 
dim. I see the light of the world every morning on my porch as warm 
ocean winds blow upon the Star Spangled Banner and the Guam Flag that 
fly high above Government House. Freedom has no end, nor can time limit 
its virtue. No other country was built upon these ideals. It is a 
blessing from God to see the majesty of His creation illuminated by the 
dawn of a new day. Distinguished Ladies and Gentlemen, as an American 
living in a land that wakes to the first sunrise of this vast nation, I 
can tell you that the light of the world touches America first. Let us 
be leaders in this country's future.
                                 ______
                                 
    Mr. Fleming. Thank you, Governor. Mr. Gootnick you are now 
recognized for five minutes, sir.

 STATEMENT OF DAVID GOOTNICK, DIRECTOR, INTERNATIONAL AFFAIRS 
        AND TRADE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Gootnick. Thank you, Mr. Chairman.
    Mr. Chairman and Members of this Subcommittee, thank you 
for asking GAO to participate in this hearing. The CNMI economy 
is in a severe recession. The garment factories which once 
fueled an economic boom are closed. Tourism has seen a nearly 
50 percent drop in visitor arrivals. According to figures 
released yesterday by BEA, real GDP fell by 50 percent between 
2003 and 2009, and government revenues have shrunk by nearly 50 
percent as well.
    In this context regarding P.L. 110-229, I will briefly 
summarize, first, DHS operations in the Commonwealth; second, 
the status of implementing regulations; and third, several 
pending issues.
    Regarding DHS operations, the key component units had 
established operations by the start of the transition period. 
CPD is screening over 30,000 arrivals monthly and has admitted 
over 60,000 Russian and Chinese visitors to the Commonwealth. 
They now have a long-term lease and are renovating space at 
both international airports. ICE now has access to a detention 
facility. They have deported about 50 individuals and are 
prioritizing their resources toward criminal aliens. CIS 
continues to process applications for citizenship, permanent 
residency, H visas, parole in place and advance paroles, 
amongst others.
    Regarding the regulations, as has been well stated DHS has 
issued regulations implementing programs for visitors and 
investors, and has recently submitted to OMB a draft rule on 
the transitional work permit program. Regarding workers, the 
delay in issuance of the regulations according to many 
observers has had a negative impact on the economy.
    Regarding visitors, DHS continues to employ the Secretary's 
parole authority and has left the door open for China and 
Russia in the combined visa waiver program. Regarding 
investors, CIS has thus far had far fewer applications for the 
transitional investor visa than they had anticipated.
    Finally, I will raise three pending issues, first on the 
worker regulations. During the transition the DHS regulations 
will provide for the number, terms and conditions associated 
with the worker permits. Labor will decide on any extensions of 
the program beyond 2014. Many sources, including GAO and the 
McFee study, have found that a rapid substantial decline in 
foreign workers would have a negative impact on the economy and 
a substantial one.
    Moreover, given the calendar there is limited time for 
employers to petition for workers, for workers and their 
dependents to complete the required steps, and for CIS to 
process these applications estimated right now at over 15,000.
    Second, on payroll taxes, CNMI workers from the Philippines 
and Korea, currently 75 percent of foreign workers, have in the 
past been exempted from payroll taxes. With the elimination of 
the CNMI immigration categories that form the basis for this 
exemption going forward the Social Security status of these 
workers is unknown.
    Third, on status, Mr. Sablan, as you know your bill would 
create a CNMI-only resident status for four groups of 
individuals. The largest of these groups are certain immediate 
relatives of U.S. citizens. I must respectfully disagree with 
the Governor on his figure of 11,000 individuals. There is not 
a lot of data on this. I think there are two figures that are 
worth nothing.
    In, 2005, the household income and expenditure survey found 
that there were about 8,000 children of non-U.S.-headed 
households, about 8,000 kids; 90 percent of those were U.S. 
citizens. If you figure two kids per family on average, and 90 
percent of that, you get somewhere between three and four 
thousand individual is eligible under the fourth provision in 
H.R. 1466.
    Also, the April 2010 Department of the Interior study 
suggested that there were about 3,000 individuals who are 
immediate relatives of aliens or U.S. citizens, so those are 
probably the two best da ta sources to anchor an estimate on 
immediate relatives of U.S. citizens.
    Also, in April 2010, in a required report, Interior 
recommended that Congress consider among several options 
allowing foreign workers who have resided in the CNMI for at 
least five years to apply for long-term status. This report has 
engendered controversy both on its data source and its options 
for congressional consideration. Nonetheless, the report 
reflected a compromise in the CNRA itself and reflects 
difficult choices still to be made in the role of foreign 
workers in the Commonwealth's future.
    In summary, Mr. Chairman, five basic points: The CNMI 
economy is in a severe prolonged recession; DHS components are 
operational in the Commonwealth; Chinese and Russian visa 
waivers are important to tourism in both Guam and the CNMI; the 
delay in establishing temporary worker program is at present a 
key source of uncertainty; and finally, proposals to grant 
long-term status to certain workers and their families are 
pending before Congress.
    Mr. Chairman, this completes my remarks. I am happy to 
answer your questions.
    [The prepared statement of Mr. Gootnick follows:]

Statement of David Gootnick, Director, International Affairs and Trade, 
                 U.S. Government Accountability Office

    Chairman Fleming, Ranking Member Sablan, and Members of the 
Subcommittee:
    Thank you for the opportunity to discuss our work on the status of 
efforts, in response to the Consolidated Natural Resources Act of 2008 
(CNRA), to establish federal immigration control and implement programs 
for foreign workers, visitors, and investors in the Commonwealth of the 
Northern Mariana Islands (CNMI).\1\
---------------------------------------------------------------------------
    \1\ Pub. L. No. 110-229, Title VII, 122 Stat. 754, 853 (May 8, 
2008). 48 U.S.C.Sec. 1806 note.
---------------------------------------------------------------------------
    Under the terms of its 1976 covenant with the United States,\2\ the 
CNMI government administered its own immigration systems from 1978 to 
2009, using its authority to admit substantial numbers of foreign 
workers \3\ through a permit program for non-U.S. citizens entering the 
commonwealth. In 2005, these workers represented a majority of the CNMI 
labor force and outnumbered U.S. citizens in most industries, including 
tourism and garment manufacturing. The CNMI also admitted visitors 
through its own entry permit and entry permit waiver programs and 
provided various types of admission to foreign investors.
---------------------------------------------------------------------------
    \2\ Covenant to Establish a Commonwealth of the Northern Mariana 
Islands in Political Union with the United States of America (Pub. L. 
No. 94-241, Sec. 1, 90 Stat. 263 (Mar. 24, 1976), 48 U.S.C. Sec. 1801, 
note.
    \3\ In this statement, unless otherwise indicated, ``foreign 
workers'' refers to workers in the CNMI who are not U.S. citizens or 
U.S. lawful permanent residents. (Other sources sometimes call these 
workers ``nonresident workers,'' ``guest workers,'' ``noncitizen 
workers,'' ``alien workers,'' or ``nonimmigrant workers.'') ``Foreign 
workers'' does not refer to workers from the Freely Associated States--
the Federated States of Micronesia, Republic of the Marshall Islands, 
and Republic of Palau--who are permitted to work in the United States, 
including the CNMI, under the Compacts of Free Association (48 U.S.C. 
Sec. 1901 note, 1921 note, and 1931 note). In this statement, foreign 
workers may include aliens who are immediate relatives of U.S. citizens 
or U.S. permanent residents.
---------------------------------------------------------------------------
    CNRA required that GAO report on the implementation of federal 
immigration law in the CNMI 2 years after the date of enactment, which 
was May 8, 2008. In August 2008, we reported that decisions by the 
Secretary of Homeland Security, in conjunction with other departments, 
in implementing CNRA's provisions regarding foreign workers, visitors, 
and investors would largely determine its impact on the CNMI's 
economy.\4\ In May 2010, we reported, and testified before this 
subcommittee, that several Department of Homeland Security (DHS) 
components--U.S. Customs and Border Protection (CBP), U.S. Immigration 
and Customs Enforcement (ICE), and U.S. Citizenship and Immigration 
Services (USCIS)\5\--had established border control operations in the 
CNMI in 2009 but had not concluded negotiations with the CNMI 
government to resolve certain challenges involving access to CNMI 
airport space, detention facilities, and databases.\6\ We also noted 
that DHS had not yet finalized regulations needed to fully implement 
CNRA provisions affecting foreign workers, visitors, and investors.
---------------------------------------------------------------------------
    \4\ GAO, Commonwealth of the Northern Mariana Islands: Managing 
Potential Economic Impact of Applying U.S. Immigration Law Requires 
Coordinated Federal Decisions and Additional Data, GAO-08-791 
(Washington, D.C.: Aug. 4, 2008).
    \5\ CBP is the lead federal agency charged with keeping terrorists, 
criminals, and inadmissible aliens out of the country while 
facilitating the flow of legitimate travel and commerce at the nation's 
borders. ICE is responsible for enforcing immigration laws within the 
United States, including, but not limited to, identifying, 
apprehending, detaining, and removing aliens who commit crimes and 
aliens who are unlawfully present in the United States. USCIS processes 
applications for immigration benefits--that is, the ability of aliens 
to live, and in some cases to work, in the United States permanently or 
temporarily or to apply for citizenship.
    \6\ GAO, Commonwealth of the Northern Mariana Islands: DHS Should 
Conclude Negotiations and Finalize Regulations to Implement Federal 
Immigration Law, GAO-10-553 (Washington, D.C.: May 7, 2010); and GAO, 
Commonwealth of the Northern Mariana Islands: DHS Needs to Conclude 
Negotiations and Finalize Regulations to Implement Federal Immigration 
Law, GAO-10-671T (Washington, D.C.: May 18, 2010). In our May 2010 
report, we recommended that DHS and its components establish strategic 
approaches and time frames for concluding its negotiations; DHS agreed 
with our recommendation. For a list of related products, see GAO-10-
553, page 82.
---------------------------------------------------------------------------
    My statement today will briefly describe CBP, ICE, and USCIS 
immigration and border control operations in the CNMI, including 
progress in negotiating solutions to the challenges we identified in 
May 2010. In addition, I will describe the status of regulations 
implementing CNRA-required programs for foreign workers, visitors, and 
investors. Finally, I will discuss some pending issues, several of 
which may lead to future challenges related to U.S. immigration control 
in the CNMI.
    This statement is based on our prior reports,\7\ updated with 
information provided by DHS and the Department of the Interior (DOI) 
and obtained in interviews with DHS officials in California, the CNMI, 
Hawaii, and Washington, D.C. In general, to establish the reliability 
of the data that DHS uses to document arrivals, aliens, and benefits in 
the CNMI, we systematically obtained information about the ways that 
DHS components collect and tabulate data. When possible, we checked for 
consistency across data sources. Although the available data had some 
limitations, we determined that the data were adequate and sufficiently 
reliable for the purposes of our review. We also interviewed private 
sector representatives in the CNMI regarding implementation. The 
information contained in this testimony was reviewed for technical 
accuracy by DHS officials. We conducted our work for this statement 
from May 2011 to July 2011 in accordance with generally accepted 
government auditing standards.\8\
---------------------------------------------------------------------------
    \7\ GAO-08-791 and GAO-10-553.
    \8\ Additional information on our scope and methodology is 
available in prior reports.
---------------------------------------------------------------------------
Background
    The CNMI's economy is in a prolonged recession due to the departure 
of its garment industry and decline in its tourism industry. Until 
recently, the garment industry was central to the CNMI economy and 
employed close to a third of all workers. However, by early 2009, the 
last garment factory had closed. The tourism industry has declined as 
visitor arrivals to the CNMI decreased by 49 percent, from a peak of 
about 727,000 in 1997 to roughly 368,000 in 2010. As the economy 
contracted, the CNMI's real gross domestic product dropped at an 
estimated average annual rate of 4.2 percent from 2002 to 2007.\9\ In 
addition, revenues available for appropriation by the CNMI government 
have fallen by 45 percent, from $240 million in fiscal year 2005 to an 
estimated $132 million for fiscal year 2011. Moreover, since 2007, 
labor costs have increased following the application of the federal 
minimum wage in the CNMI.\10\
---------------------------------------------------------------------------
    \9\ U.S. Department of Commerce's Bureau of Economic Analysis, 
``The Bureau of Economic Analysis (BEA) releases estimates of the major 
components of gross domestic product of the Commonwealth of the 
Northern Mariana Islands,'' news release, June 6, 2010.
    \10\ GAO, American Samoa and Commonwealth of the Northern Mariana 
Islands: Employment, Earnings, and Status of Key Industries Since 
Minimum Wage Increases Began, GAO-11-427 (Washington, D.C.: June 23, 
2011).
---------------------------------------------------------------------------
    Certain provisions in CNRA were intended to minimize the potential 
adverse economic and fiscal effects associated with phasing out a CNMI 
government permit program for foreign workers and to maximize the 
CNMI's potential for economic and business growth. These provisions 
were to apply during a 5-year transition period that began on November 
28, 2009, and ends in 2014. In particular:
        <bullet>  CNMI government-issued permits. Under CNRA, 
        foreigners who lack U.S. immigration status but were admitted 
        under the CNMI's immigration laws prior to November 2009, may 
        continue to live and work in the commonwealth for 2 years after 
        that date or until their CNMI government-issued permits expire, 
        whichever is earlier. The CNMI issued temporary permits 
        authorizing the holders to remain in the commonwealth after 
        November 28, 2009, for a maximum of 2 years consistent with the 
        terms of the permit. These ``umbrella'' permits also include 
        provisions for extending, transferring, and seeking employment. 
        CNRA's authorization for individuals with these permits to 
        remain in the CNMI without U.S. immigration status will expire 
        on November 27, 2011.
        <bullet>  CNMI-only transitional work permits. CNRA authorizes 
        a federal CNMI-only transitional work permit program and 
        authorizes the Secretary of Homeland Security to determine the 
        number, terms, and conditions of these permits, which must be 
        reduced to zero by the end of the transition period and any 
        extensions of the CNMI-only work permit program by the 
        Secretary of Labor.\11\
---------------------------------------------------------------------------
    \11\ CNRA authorizes the Secretary of Labor to extend the CNMI-only 
transitional work permit program indefinitely for up to 5 years at a 
time. The Secretary may issue the extension as early as desired within 
the transition period and up to 180 days before the end of the 
transition period or any extensions of the CNMI-only transitional work 
permit program. The legislation instructs the Secretary to base this 
decision on the labor needs of legitimate businesses in the CNMI. To 
determine these needs, the Secretary may consider (1) workforce studies 
on the need for foreign workers, (2) the unemployment rate of U.S. 
citizen workers in the CNMI, and (3) the number of unemployed foreign 
workers in the CNMI, as well as other information related to foreign 
worker trends. In addition, the Secretary of Labor is to consult with 
the secretaries of the departments of Homeland Security, the Interior, 
and Defense and the Governor of the CNMI in making this determination.
---------------------------------------------------------------------------
        <bullet>  CNMI nonimmigrant investor status. CNRA provides for 
        current CNMI foreign investors who meet certain requirements to 
        convert their status from CNMI investor to federal nonimmigrant 
        treaty investor during the transition period. The Secretary of 
        Homeland Security is to determine whom this ``grandfathered'' 
        status applies to and how long it is valid.
    In addition, CNRA amended existing U.S. immigration law to 
establish a joint visa waiver program for the CNMI and Guam that 
replaced an existing visa waiver program for Guam visitors.
DHS Has Continued Immigration and Border Control Operations and 
        Concluded Some Negotiations with the CNMI Government
    U.S. Customs and Border Protection. As of April 30, 2011, CBP 
officers at the Saipan and Rota airports had admitted 514,828 arriving 
travelers--an average of about 30,300 per month--granting 68,764 (13 
percent) requests for parole since beginning operations in November 
2009.\12\ The Marianas Visitors Authority reported that 77 percent of 
arriving travelers in fiscal year 2010 came from Japan or South Korea. 
According to CBP data, of the arriving travelers who were granted 
parole, 56,376 (82 percent) were from China, 6,751 (10 percent) were 
from Russia, and the remaining travelers were from other countries. 
(See table 1.)
---------------------------------------------------------------------------
    \12\ A grant of parole is official permission for an otherwise 
inadmissible alien to be physically present in the United States 
temporarily. Parole is determined on a case-by-case basis, and all 
applicants for admission are subject to inspection and removal if 
determined to be inadmissible for reasons other than lack of a visa. On 
October 21, 2009, the Secretary of Homeland Security announced to 
Congress and the Governors of the CNMI and Guam that she will exercise 
her discretionary authority to parole into the CNMI visitors for 
business or pleasure who are nationals of the Russian Federation and 
the People's Republic of China.
[GRAPHIC] [TIFF OMITTED] 67403.003

    .epsIn October 2010, CBP concluded negotiations with the CNMI 
government and both parties signed a long-term lease agreement that 
includes permission to renovate airport operating space in Saipan and 
Rota. In February 2011, CBP began to renovate approximately 14,000 
square feet of inspection space at the Saipan International 
Airport.\13\ DHS expects to complete the renovations in both Saipan and 
Rota by September 2011, at a total cost of $14.2 million.
---------------------------------------------------------------------------
    \13\ CBP originally occupied approximately 9,390 square feet of 
airport space at the Saipan International Airport and sought access to 
approximately 7,200 additional square feet to bring the facility up to 
DHS standards. The CNMI agreed to provide CBP 5,001 more square feet in 
the inspection areas for, among other things, renovation of 
administration offices, access to public restrooms, and construction of 
three holding cells and two interview rooms.
---------------------------------------------------------------------------
    U.S. Immigration and Customs Enforcement. As of May 31, 2011, ICE 
officials detailed to Saipan had identified 1,654 individuals in 
potential violation of U.S. immigration laws, initiating removal 
proceedings for 236 of these cases. Decisions had been rendered for 133 
of the removal cases, 48 of which resulted in removal.\14\
---------------------------------------------------------------------------
    \14\ With the implementation of federal immigration, CNMI courts no 
longer have the authority to issue deportation orders. ICE's Chief 
Counsel has an office on the island of Saipan, but the office has no 
permanent attorney or staff. Instead, attorneys represent DHS in 
removal hearings from ICE's Honolulu office, either through video 
teleconferencing or temporary assignments to Saipan.
---------------------------------------------------------------------------
    In April 2011, ICE concluded negotiations with the CNMI government 
for access to detention space in the CNMI correctional facility.\15\ 
Under a 2007 agreement between the U.S. Marshals Service and the CNMI 
Department of Corrections, the CNMI adult correctional facility in 
Saipan provided the U.S. government 25 detention beds at a daily rate 
of $77 per bed. Under the 2011 agreement between ICE and the CNMI 
government, the CNMI will provide up to 350 detention beds at a daily 
rate of $89 per bed, including related detention services.\16\ ICE 
began detaining aliens at the Saipan detention facility on June 6, 
2011, and expects to use approximately 20 beds until the end of fiscal 
year 2011.
---------------------------------------------------------------------------
    \15\ ICE uses detention space to hold certain aliens while 
processing them for removal or until their scheduled hearing dates. ICE 
acquires detention space by negotiating intergovernmental service 
agreements with state and local detention facilities, using federal 
facilities, and contracting with private service contracting 
facilities.
    \16\ ICE's agreement with the CNMI government includes, in addition 
to bed space, services that the CNMI detention center will provide when 
receiving and discharging ICE administrative detainees as well as basic 
needs, financial liability, transportation, and medical services for 
detainees and office space for ICE officials at the Saipan detention 
facility. The agreement was effective April 20, 2011, and will remain 
in effect for 5 years, with the option to extend.
---------------------------------------------------------------------------
    Although negotiations with the CNMI government have not resulted in 
DHS components' gaining direct access to CNMI immigration and border 
control databases, the CNMI government has increased its responsiveness 
to requests for information, according to ICE officials.\17\
---------------------------------------------------------------------------
    \17\ In May 2010, we reported that DHS was negotiating with the 
CNMI government for direct access to several databases that the CNMI 
has used to record the permit status of certain aliens and to track the 
arrivals and departures of travelers. See GAO-10-553. For more 
information about these databases--the Labor Information Data System 
and the Border Management System--see GAO, Commonwealth of the Northern 
Mariana Islands: Immigration and Border Control Databases, GAO-10-345R 
(Washington, D.C.: Feb. 16, 2010).
---------------------------------------------------------------------------
    U.S. Citizenship and Immigration Services. Since March 2009, USCIS 
has operated an Application Support Center in Saipan, where two full-
time staff provide information, interview residents currently eligible 
to apply for lawful permanent resident status or citizenship, and 
process requests requiring biometric services such as fingerprints or 
photographs. As of June 1, 2011, USCIS had processed 1,033 CNMI 
applications for permanent residency and 96 CNMI applications for 
naturalization or citizenship, according to data provided by USCIS 
officials. In addition, USCIS had received 6,966 requests for advance 
parole, granting 97 percent of them, and had granted parole-in-place 
status to 2,625 individuals.\18\ Also, from October 2010 to June 2011, 
USCIS granted nonimmigrant H-visas and other categories of worker 
status classification for 67 individuals.
---------------------------------------------------------------------------
    \18\ Advance parole allows aliens in the United States who would 
otherwise be inadmissible to travel abroad and return. Parole-in-place 
protects eligible foreign nationals who do not qualify for any other 
status from being removed or deported from the CNMI. On April 21, 2010, 
USCIS announced that it will grant parole-in-place to eligible foreign 
nationals without umbrella permits whose CNMI work permits or CNMI 
investor permits expire before the CNMI-only transitional worker 
program and CNMI investor status are available.
---------------------------------------------------------------------------
DHS Has Not Finalized Regulations Affecting Foreign Workers but Has 
        Implemented Program for Visitors and Investors
DHS Has Not Yet Issued Final Rule for CNMI-Only Work Permit Program
    As of July 12, 2011, DHS had not issued a final rule for the CNMI-
only work permit program and the permits were not available.\19\ DHS 
previously issued an interim final rule in October 2009 that was to 
take effect on November 28, 2009;\20\ however, prior to the transition 
date, the federal District Court for the District of Columbia granted 
the CNMI government's request for an order barring implementation of 
the interim final rule.\21\ DHS reopened the comment period from 
December 2009 to January 2010 and, after considering comments that it 
received, submitted draft final regulations for the program to the 
Office of Management Budget in June 2011.
---------------------------------------------------------------------------
    \19\ Employers of foreign workers residing in the CNMI can also 
apply for other federal immigration categories such as H-2B temporary 
or seasonal work status, if eligible.
    \20\ Commonwealth of the Northern Mariana Islands Transitional 
Worker Classification, 74 Fed. Reg. 55094 (Oct. 27, 2009). An interim 
final rule allows an agency to implement federal regulations but retain 
the flexibility to amend them as necessary in the future. When issuing 
the interim final rule, DHS announced that it would accept comments in 
developing the final rule but was not following notice-and-comment 
rulemaking procedures, asserting that it had good cause not to do so.
    \21\ Commonwealth of the Northern Mariana Islands v. United States, 
No. 08-1572 686 F. Supp. 2d 7 (D.D.C. Nov 25, 2009). See GAO-10-553 for 
more details.
---------------------------------------------------------------------------
    According to CNMI government officials and private sector 
representatives, the delayed issuance of DHS's final rule has had a 
negative impact on the CNMI economy.
        <bullet>  In a May 2010 letter to the Secretary of the 
        Interior, the Governor of the CNMI stated that the lack of 
        final regulations had dramatically slowed foreign investment, 
        travel from other countries, and private sector growth.
        <bullet>  The CNMI Attorney General and the Governor's Special 
        Legal Counsel noted that the lack of a CNMI-only federal worker 
        permit program has contributed to uncertainty among CNMI 
        employers and workers with respect to the status of foreign 
        workers with or without a CNMI umbrella permit and that many 
        CNMI foreign investors have left the community.
        <bullet>  According to Saipan Chamber of Commerce officials, 
        without the final regulations, workers are unable to plan their 
        lives and companies cannot estimate their investments and 
        budgets.
        <bullet>  The former manager of a health clinic for women, 
        infants, and children stated that a large number of unemployed 
        contract workers have remained in the CNMI hoping for some 
        beneficial result of implementation of federal immigration.
    DHS officials acknowledged that significant consequences will occur 
if the CNMI-only foreign worker regulations are not implemented by 
November 27, 2011, when CNRA's authorization for individuals holding 
the CNMI-issued umbrella permits to remain in the commonwealth will 
expire.
DHS Implemented Guam-CNMI Visa Waiver Program and Is Still Considering 
        Inclusion of China and Russia
    In January 2009, DHS issued an interim final rule for the Guam-CNMI 
Visa Waiver Program, which has operated since November 2009. The rule 
allows visitors for business or pleasure from 12 countries or 
geographic areas \22\ to apply to enter the CNMI and Guam for stays of 
up to 45 days without a nonimmigrant visa.
---------------------------------------------------------------------------
    \22\ The interim final rule for the Guam-CNMI Visa Waiver Program 
lists Australia, Brunei, Hong Kong, Japan, Malaysia, Nauru, New 
Zealand, Papua New Guinea, Republic of Korea, Singapore, Taiwan, and 
the United Kingdom as participants in the program. Japan and Korea are 
the two largest tourism markets for the CNMI and Guam. In March 2011, 
DHS added individuals from Hong Kong who hold a British National 
Overseas passport to those eligible for admission under the program.
---------------------------------------------------------------------------
    Prior to the issuance of the interim final rule, representatives of 
the CNMI and Guam governments asked that China and Russia be included 
in the Guam-CNMI Visa Waiver Program, because visitors from those 
countries provide significant economic benefits.\23\ However, DHS 
decided not to include China and Russia in the interim final rule, 
citing political, security, and law enforcement concerns, including 
high nonimmigrant visa refusal rates. DHS is still considering whether 
or not to include these two countries in the Guam-CNMI Visa Waiver 
Program. Meanwhile, CBP continues to parole Chinese and Russian 
nationals into the CNMI on a case-by-case basis. According to CNMI 
officials, the exclusion of Chinese and Russian nationals from the 
Guam-CNMI Visa Waiver Program has increased economic uncertainty in the 
CNMI, affecting investments in support of the Chinese and Russian 
tourism markets.
---------------------------------------------------------------------------
    \23\ CNRA states that regulations for the Guam-CNMI Visa Waiver 
Program shall provide for a listing of any country from which the 
Commonwealth has received a significant economic benefit from the 
number of visitors for pleasure within the 1-year period preceding the 
date of enactment, unless the Secretary of Homeland Security determines 
that such country's inclusion on such list would represent a threat to 
the welfare, safety, or security of the United States or its 
territories. See 8 U.S.C. Sec. 1182(1)(3)(A).
---------------------------------------------------------------------------
DHS Finalized Rule Providing CNMI Investor Status to Long-Term Foreign 
        Investors
    In December 2010, DHS issued a final rule that allows a large 
proportion of investors holding CNMI long-term foreign investor permits 
to obtain U.S. CNMI-only nonimmigrant treaty investor status during the 
transition period. Eligibility criteria for this status--known as E-2 
CNMI investor status \24\--during the transition period include, among 
others, having been physically present in the CNMI for at least half 
the time since obtaining CNMI investor status and providing evidence of 
maintaining financial investments in the CNMI. In response to public 
comments received on the proposed rule, the final rule reduces the 
minimum investment required to obtain this status from $150,000 to 
$50,000 for investors holding CNMI long-term business investor 
permits.\25\
---------------------------------------------------------------------------
    \24\ E-2 Nonimmigrant Status for Aliens in the Commonwealth of the 
Northern Mariana Islands with Long-Term Investor Status. 74 Fed. Reg. 
79,264 (Dec. 20, 2010).
    \25\ CNRA establishes that current CNMI foreign investors who meet 
certain requirements can convert from CNMI long-term investor status to 
U.S. CNMI-only nonimmigrant treaty investor status during the 
transition period.
---------------------------------------------------------------------------
    As of June 2011, USCIS had approved 22 applications for E-2 CNMI 
investor status, far fewer than the 512 applications it had 
anticipated.\26\ However, DHS officials predicted a surge in 
applications for E-2 CNMI investor status prior to the expiration of 
CNMI government-issued foreign investor permits on November 27, 2011.
---------------------------------------------------------------------------
    \26\ According to a senior USCIS official, many Japanese and Korean 
investors apply for regular E-2 status at their local U.S. embassy 
rather than through USCIS.
---------------------------------------------------------------------------
Several Pending Issues Could Lead to Future Challenges
Content and Implementation of Regulations for CNMI-Only Work Permit 
        Program Will Determine Impact on CNMI Economy
    The content and implementation of DHS's final rule for the CNMI-
only work permit program will largely determine its potential impact on 
CNMI's economy. The rule will establish, as required by CNRA, a system 
for allocating and determining the number, terms, and conditions of 
permits to be issued to prospective employers. In particular, CNRA 
requires that the number of permits issued annually during the 
transition period be reduced to zero by the end of 2014 or any 
extensions of the permit program. Because foreign workers comprise a 
large proportion of the CNMI labor market--59 percent in 2009, 
according to the CNMI Department of Labor--any substantial and rapid 
reduction in the numbers of CNMI-only permits for foreign workers would 
have a negative effect on the size of the CNMI labor force and 
therefore on the CNMI economy. In addition, the interaction of DHS and 
U.S. Department of Labor decisions about, respectively, the number of 
permits to allocate annually and whether and when to extend the permit 
program past 2014 will significantly affect employers' access to 
foreign workers.\27\
---------------------------------------------------------------------------
    \27\ See GAO-08-791 for our analysis of the potential impacts of 
DHS and U.S. Department of Labor decisions in implementing the CNMI-
only work permit program. On March 25, 2011, DHS, and the departments 
of the Interior, Justice, Labor, and State finalized a memorandum of 
agreement that set forth the parameters of the working relationships 
and responsibilities for implementation of CNRA in the CNMI.
---------------------------------------------------------------------------
Limited Time Is Available for Submitting and Processing CNMI-Only Work 
        Permit Applications
    The time available for submission and processing of applications 
for CNMI-only work permits will depend on the timing of DHS's issuance 
of its final rule implementing the program and on the content of that 
rule.\28\ A senior DHS official estimates that approximately 15,000 
workers and their dependents will be covered by the program. According 
to a USCIS official, once DHS issues the final rule, CNMI employers 
will submit paperwork petitioning for workers to receive the permits; 
workers will submit biometrics, including fingerprints; and USCIS will 
process the submitted paperwork and biometrics.\29\ CNRA's 
authorization for individuals with CNMI-issued permits to remain in the 
CNMI without U.S. immigration status will expire on November 27, 2011.
---------------------------------------------------------------------------
    \28\ In its enjoined interim final rule, DHS proposed a new CNMI-
only transitional worker classification, CW-1 status, which it deemed 
to be synonymous with the term ``permit'' referenced in CNRA.
    \29\ DHS did not provide the content of the draft final rule for 
our review. However, generally for other nonimmigrant employment based 
petitions, USCIS and the Department of Labor require that employers 
submit an attestation regarding wage and labor condition, along with 
all other required paperwork, to USCIS and pay a fee. Similarly, 
employees must complete all required paperwork for relatives and 
dependents; submit the paperwork and biometrics, such as fingerprints 
and photos, to USCIS; and pay any necessary processing fee.
---------------------------------------------------------------------------
    In 2009, USCIS anticipated needing nine staff for its California 
Service Center to process the influx of CNMI applications and 
petitions.\30\ Currently, four USCIS staff were are assigned to this 
task and five more are trained to work on CNMI-related cases. Depending 
on the number of petitions received and the time required to process 
them, USCIS anticipates training an additional 10 to 14 officers after 
the rule is implemented, according to USCIS officials. USCIS officials 
said that it could take up to 90 days for employers to prepare the 
petitions, for workers to submit the biometrics, and for USCIS to 
conduct the relevant background and security checks required of all 
applicants for U.S. immigration benefits.\31\
---------------------------------------------------------------------------
    \30\ According to USCIS officials, all applications and petitions 
from the CNMI that do not require face-to-face interviews are processed 
at USCIS's California Service Center.
    \31\ For example, according to USCIS California Service Center 
staff, in processing applications for immigration benefits USCIS staff 
must consider all evidence submitted to adjudicate the petition or 
application, such as by confirming status; conducting background checks 
(i.e., checking applicants' names and fingerprints against a Federal 
Bureau of Investigations system and Interagency Border and Inspection 
systems); and considering other relevant factors. On December 14, 2010, 
USCIS issued guidance on how certain aliens can be granted nonimmigrant 
status in the CNMI under federal immigration law (USCIS-PM-602-0012).
---------------------------------------------------------------------------
Social Security Coverage for Certain Foreign Workers Is Unknown
    With the elimination of CNMI immigration categories and the 
transition to federal immigration law, the future status of certain 
Filipino and Korean workers and their employers with regard to the 
Social Security payroll tax is unknown. According to the Social 
Security Administration (SSA), Filipino and Korean workers who were 
admitted to the commonwealth under CNMI immigration law are not 
currently covered by Social Security. Specifically, a 1997 SSA document 
states that, because the U.S.-CNMI covenant provides for federal laws 
on Social Security taxes to apply to the CNMI as they apply to 
Guam,\32\ the Internal Revenue Service (IRS) determined that the 
employment of Filipino and Korean contract workers admitted to the 
commonwealth under Section 706(K) of the CNMI immigration law was not 
covered by the U.S. Social Security Act.\33\ Our review of SSA data for 
2009 found that the data excluded Filipino and Korean workers, and SSA 
officials told us that Social Security payroll taxes are not withheld 
from these workers' earnings.\34\ Data for 2009 from the CNMI Division 
of Revenue and Tax show that workers from Korea and the Philippines 
totaled 12,406 and represented 75 percent of foreign workers, or 44 
percent of all workers, in the CNMI.\35\
---------------------------------------------------------------------------
    \32\ Covenant Sec. 606(b).
    \33\ Social Security Administration, ``Social Security Taxes: 
Filipino and Korean Contract Workers'' (Saipan: January 16, 1997). The 
Social Security Act states that the definition of ``employment'' does 
not include work performed on Guam by Filipino workers who are admitted 
to Guam on nonimmigrant H-2 visas (see 26 U.S.C. Sec. 3121(b)(18)). 
Article 25 of a treaty between the United States and Korea contains a 
similar provision for Korean workers admitted on H-2 visas to Guam 
(United States-Republic of Korea Income Tax Convention, effective Jan. 
1, 1980). However, article 29 of the U.S.-Korea treaty does not allow 
either country to extend any provision of the treaty to one of its 
territories absent a written agreement that would require 
implementation through diplomatic channels. We were unable to verify 
that the IRS had made this determination with regard to Korean workers.
    \34\ See GAO, American Samoa and Commonwealth of the Northern 
Mariana Islands: Employment, Earnings, and Status of Key Industries 
since Minimum Wage Increases Began, GAO-11-427 (Washington, D.C.: June 
23, 2011), page 28.
    \35\ This information is drawn from W-2 forms prepared by employers 
and submitted to the Division of Tax and Revenue. The division does not 
verify workers' reported citizenship. In calculating the share of CNMI 
foreign workers who are citizens of Korea or the Philippines, we did 
not count citizens of the freely associated states (Micronesia, the 
Marshall Islands, and Palau) as foreign workers.
---------------------------------------------------------------------------
    Given the transition to federal immigration law--in particular, 
given the availability of H-2 work visas in the CNMI--it is uncertain 
whether Filipino and Korean workers who obtain CNMI-only work permits 
will be covered by Social Security.\36\ If these workers are deemed to 
be covered, they and their employers will be subject to Social Security 
payroll taxes. The IRS and SSA will need to consider CNRA's impact on 
Filipino and Korean workers with regard to Social Security coverage.
---------------------------------------------------------------------------
    \36\ As we reported in May 2008, foreign workers in the CNMI can 
obtain H nonimmigrant worker status upon petition by their employer. H-
2A visas are available for foreign workers providing temporary or 
seasonal agricultural labor both during and after the initial 
transition period. However, as of December 31, 2007, only 555 foreign 
workers were engaged in private farming, about 3 percent of total 
foreign workers with 706K CNMI nonresident worker entry permits. H-2A 
employers must comply with the federal labor certification process, 
which determines whether the employment is agricultural in nature, 
whether it is open to U.S. workers and if qualified U.S. workers are 
available, whether employment of a qualified alien would have an 
adverse impact, and whether employment conditions (e.g., housing) meet 
applicable requirements (8 C.F.R. Sec. 214.2(h)(5)(ii)). The H-2B 
category applies to residents of foreign countries who are coming to 
the United States temporarily to perform nonagricultural temporary 
labor or service if unemployed persons capable of performing such labor 
or service are unable to be found in the United States (8 U.S.C. 
Sec. 1101(a)(15)(H)(ii)(B)). See GAO-08-791, appendix V.
---------------------------------------------------------------------------
Long-Term Resident Status for Certain CNMI Foreign Workers May Be 
        Considered
    Legislation introduced in Congress proposes CNMI resident status 
for certain long-term residents. Also, DOI has recommended that 
Congress consider allowing certain foreign workers in the CNMI to apply 
for long-term resident status.
        <bullet>  A bill introduced in the House of Representatives 
        provides for CNMI-only resident status for certain long-term 
        residents of the CNMI.\37\ To be eligible to qualify for this 
        status, an individual must be either (1) born in the CNMI 
        between January 1, 1974, and January 9, 1978; (2) classified by 
        the CNMI government as a permanent resident; (3) a spouse or 
        child of an individual covered by (1) or (2); or (4) an 
        immediate relative of a U.S. citizen on May 8, 2008.
---------------------------------------------------------------------------
    \37\ H.R. 1466, 112th Cong., (Apr. 8, 2011).
---------------------------------------------------------------------------
        <bullet>  In April 2010, DOI recommended that Congress consider 
        permitting guest workers who have lawfully resided in the CNMI 
        for a minimum of 5 years--which DOI estimated at 15,816 
        individuals \38\--to apply for long-term resident status \39\ 
        under the Immigration and Nationality Act. DOI recommended that 
        Congress consider allowing these workers to apply for one of 
        the following: (1) U.S. citizenship; (2) permanent resident 
        status leading to U.S. citizenship (per the normal provisions 
        of the INA relating to naturalization), with the 5-year minimum 
        residence spent anywhere in the United States or its 
        territories; or (3) permanent resident status leading to U.S. 
        citizenship, with the 5-year minimum residence spent in the 
        CNMI. Additionally, DOI noted that under U.S. immigration law, 
        special status is provided to individuals who are citizens of 
        the freely associated states. Following this model, DOI 
        suggested that foreign workers could be granted a nonimmigrant 
        status, like that negotiated for citizens of the freely 
        associated states, and allowed to live and work either in the 
        United States and its territories or in the CNMI only.
---------------------------------------------------------------------------
    \38\ DOI conducted a voluntary registration of aliens residing in 
the CNMI in 2009. DOI reported that as of January 2010, there were 
20,859 aliens in the commonwealth, of whom 16,304 were workers and 
15,816 had resided lawfully in the CNMI for at least 5 years. DOI 
concluded that two groups were underrepresented in the registration: 
citizens from the freely associated states and illegal aliens. See 
Secretary of the Interior, Report on the Alien Worker Population in the 
Commonwealth of the Northern Mariana Islands (Washington, D.C.: 
Department of the Interior, 2010). DOI evaluated its data as consistent 
with CNMI data for 2008 that showed 22,000 to 24,000 foreign worker 
permit holders as well as 19,404 umbrella permits issued by the CNMI 
Department of Labor. The government of the CNMI has challenged the 
validity of DOI's data collection and analysis; however, DOI has stood 
by its report. Litigation regarding DOI's data collection effort is 
currently ongoing.
    \39\ CNRA required the Secretary of the Interior to report to 
Congress on any recommendations he may deem appropriate related to 
whether or not the Congress should consider permitting lawfully 
admitted guest workers lawfully residing in the Commonwealth on such 
enactment date to apply for long-term status under the immigration and 
nationality laws of the United States. See 48 U.S.C. Sec. 1806(h)(5).
---------------------------------------------------------------------------
    In conclusion, Mr. Chairman: I testified in May 2010 that DHS 
components had made some progress in establishing federal border 
control in the CNMI but that their inability to conclude negotiations 
with the CNMI government had resulted in continuing operational 
challenges. I also reported that programs for workers and investors 
were not yet available to eligible individuals and that DHS had not 
determined whether or not to include Chinese and Russian nationals in 
the Guam-CNMI Visa Waiver Program. In the past year, DHS has resolved 
many of those operational challenges and has finalized investor 
regulations. However, it has yet to finalize rules for the CNMI-only 
transitional work permit program, and limited time remains for the 
submission and processing of approximately 15,000 workers' and their 
dependents' applications for these permits. These issues, as well as 
the unknown future status of Filipino and Korean workers' coverage by 
U.S. Social Security, could impact the CNMI's economy as the November 
27 deadline approaches.
    Chairman Fleming, Ranking Member Sablan, and Members of the 
Subcommittee, this completes my prepared statement. I would be happy to 
respond to any questions you may have at this time.
GAO Contact and Staff Acknowledgments
GAO Contact David Gootnick, (202) 512-3149 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3d5a52524953545e56597d5a5c52135a524b">[email&#160;protected]</a>
Staff Acknowledgements
    In addition to the person named above, Emil Friberg, Assistant 
Director; Michael P.Dino, Assistant Director; Ming Chen; Julia Ann 
Roberts; Ashley Alley; and Reid Lowe made key contributions to this 
report. Technical assistance was provided by Ben Bolitzer, Marissa 
Jones, Giff Howland, and Bradley Hunt.
    This is a work of the U.S. government and is not subject to 
copyright protection in the United States. The published product may be 
reproduced and distributed in its entirety without further permission 
from GAO. However, because this work may contain copyrighted images or 
other material, permission from the copyright holder may be necessary 
if you wish to reproduce this material separately.
GAO's Mission
    The Government Accountability Office, the audit, evaluation, and 
investigative arm of Congress, exists to support Congress in meeting 
its constitutional responsibilities and to help improve the performance 
and accountability of the federal government for the American people. 
GAO examines the use of public funds; evaluates federal programs and 
policies; and provides analyses, recommendations, and other assistance 
to help Congress make informed oversight, policy, and funding 
decisions. GAO's commitment to good government is reflected in its core 
values of accountability, integrity, and reliability.
Obtaining Copies of GAO Reports and Testimony
    The fastest and easiest way to obtain copies of GAO documents at no 
cost is through GAO's Web site (www.gao.gov). Each weekday afternoon, 
GAO posts on its Web site newly released reports, testimony, and 
correspondence. To have GAO e-mail you a list of newly posted products, 
go to www.gao.gov and select ``E-mail Updates.''
Order by Phone
    The price of each GAO publication reflects GAO's actual cost of 
production and distribution and depends on the number of pages in the 
publication and whether the publication is printed in color or black 
and white. Pricing and ordering information is posted on GAO's Web 
site, http://www.gao.gov/ordering.htm.
    Place orders by calling (202) 512-6000, toll free (866) 801-7077, 
or TDD (202) 512-2537.
    Orders may be paid for using American Express, Discover Card, 
MasterCard, Visa, check, or money order. Call for additional 
information.
To Report Fraud, Waste, and Abuse in Federal Programs
    Contact:
    Web site: www.gao.gov/fraudnet/fraudnet.htm E-mail: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6d0b1f0c18090308192d0a0c02430a021b">[email&#160;protected]</a> Automated answering system: (800) 424-5454 or (202) 
512-7470
Congressional Relations
    Ralph Dawn, Managing Director, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="147075637a665473757b3a737b62">[email&#160;protected]</a>, (202) 512-4400 U.S. 
Government Accountability Office, 441 G Street NW, Room 7125 
Washington, DC 20548
Public Affairs
    Chuck Young, Managing Director, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c8b1a7bda6afabf988afa9a7e6afa7be">[email&#160;protected]</a>, (202) 512-4800 
U.S. Government Accountability Office, 441 G Street NW, Room 7149 
Washington, DC 20548
                                 ______
                                 

July 14, 2011

              COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS
            status of transition to federal immigration law
Why GAO Did This Study
    In May 2008, the United States enacted the Consolidated Natural 
Resources Act (CNRA), amending the United States' covenant with the 
Commonwealth of the Northern Mariana Islands (CNMI) to establish 
federal control of CNMI immigration in 2009, with several CNMI-specific 
provisions affecting foreign workers and investors during a 5-year 
transition period that began on November 28, 2009, and ends in 2014. 
One of these provisions authorizes a transitional CNMI-only work permit 
program that may be extended for up to 5 years at a time past 2014. In 
addition, CNRA amends existing U.S. immigration law to establish a 
joint visa waiver program for the CNMI and Guam. CNRA requires that GAO 
report on implementation of federal immigration law in the CNMI 2 years 
after enactment.
    In May 2010, GAO reported that the Department of Homeland Security 
(DHS) had established border control operations in the CNMI in 2009 but 
had not concluded negotiations with the CNMI government to resolve 
certain challenges involving access to CNMI airport space, detention 
facilities, and databases. GAO also noted that DHS had not yet 
finalized regulations needed to fully implement CNRA provisions 
affecting foreign workers, visitors, and investors.
    This statement updates GAO's May 2010 findings regarding the 
transition to federal immigration law and discusses several pending 
issues. GAO based its statement on prior reports, information provided 
by DHS and the Department of the Interior (DOI), and interviews with 
CNMI private sector officials.
What GAO Found
    DHS component units Customs and Border Protection (CBP), 
Immigration and Customs Enforcement (ICE), and U.S. Citizenship and 
Immigration Services (USCIS) have continued immigration and border 
control operations in the CNMI. As of April 2011, CBP had processed 
approximately 515,000 arriving travelers in Saipan and Rota. As of May 
2011, ICE had identified approximately 1,700 individuals in potential 
violation of U.S. immigration laws, processing about 240 for removal. 
As of June 2011, USCIS had processed approximately 1,000 CNMI 
applications for permanent residency and 100 CNMI applications for 
naturalization or citizenship. CBP has concluded negotiations with the 
CNMI for operational space at the Saipan and Rota airports, and ICE 
completed negotiations for access to the Saipan detention facility in 
April 2011.
    DHS has not finalized regulations for a federal CNMI-only 
transitional permit program for foreign workers, required by CNRA, but 
has completed regulations implementing other required programs for 
visitors and investors. In June 2011, DHS submitted a draft final rule 
for the CNMI-only permit program to the Office of Management and Budget 
(OMB); currently, the permits remain unavailable. In 2009, DHS issued 
an interim final rule for a Guam-CNMI visa waiver program and the 
program became operational. However, DHS is still considering whether 
to include China and Russia in the program, according to CBP officials. 
In 2010, DHS issued a final rule allowing a large proportion of 
investors holding CNMI long-term foreign investor permits to obtain 
U.S. CNMI-only nonimmigrant treaty investor status during the 5-year 
transition period that began in 2009. DHS has approved about 20 
applications for this status.
    Several pending issues could affect the CNMI's labor market and 
economy. First, the content and implementation of DHS's final rule for 
the federal CNMI-only work permit program will affect CNRA's potential 
impact on the CNMI economy. CNRA requires DHS to determine the number, 
terms, and conditions of the permits, reducing them to zero by the end 
of the transition period in November 2014 or any extension of the 
program past that date. Because of foreign workers' prominence in key 
CNMI industries, any substantial, rapid decline in the permits would 
negatively affect the CNMI economy. Second, CNMI government-issued 
permits to remain in the commonwealth will expire on November 27, 2011. 
Thus, limited time is available for employers to submit petitions for 
workers to receive the federal work permits, for workers and dependents 
to submit biometrics such as fingerprints, and for USCIS to process 
these submissions. Third, with the transition to federal immigration 
law, it is uncertain whether Filipino and Korean workers previously 
admitted under a specific CNMI immigration category--about 75 percent 
of foreign workers in the CNMI in 2009--who obtain CNMI-only work 
permits will be covered by Social Security. In addition to these 
issues, legislation introduced in Congress proposes CNMI resident 
status for certain long-term residents, and DOI has recommended that 
Congress consider allowing certain foreign workers in the CNMI to apply 
for long-term resident status.
                                 ______
                                 
    Mr. Fleming. Thank you, Mr. Gootnick, and next is Ms. Ryan, 
you are recognized for five minutes.

STATEMENT OF KELLY RYAN, ACTING DEPUTY ASSISTANT SECRETARY FOR 
 IMMIGRATION AND BORDER SECURITY, OFFICE OF POLICY, DEPARTMENT 
                      OF HOMELAND SECURITY

    Ms. Ryan. Thank you. Chairman Fleming, Ranking Member 
Sablan, and other Distinguished Members of the Subcommittee, 
thank you for the opportunity to testify today on the 
Department of Homeland Security's efforts to implement Title 
VII of the Consolidated Natural Resources Act of 2008.
    DHS and our interagency partners have been working hard to 
ensure that we implement the CNRA in a manner that will 
minimize any adverse effects on the CNMI. Since DHS has last 
testified in May 2009, important steps have been taken to 
implement Federal immigration law in the CNMI and in the 
transition program which began on November 28, 2009.
    An issue of great importance to both the CNMI and Guam is 
the CNMI visa waiver program. The CNRA replaced the existing 
Guam visa waiver program with a combined Guam, CNMI VWP that 
allows nationals from participating countries to be admitted to 
Guam, the CNMI, or both for a period of up to 45 days. DHS has 
issued an in interim rule on January 16, 2009, and is 
developing a final rule for the program.
    In recognition of the CNMI's reliance on visitors from 
China and Russia, Secretary Napolitano announced on October 21, 
2009, her decision to exercise her discretionary authority to 
parole into the CNMI only on a case-by-case basis eligible 
visitors for business or pleasure or nationals of the People's 
Republic of China and the Russian Federation.
    Certain provisions of the CNRA affect the CNMI only. DHS 
has worked diligently with its Federal and local partners and 
stakeholders during the transition in implementing Federal 
immigration law in the CNMI. DHS has identified groups of 
individuals who may not necessarily fall within the INA 
classifications and for whom the CNMI classifications 
authorized by the CNRA may not be appropriate.
    To address these challenges, in November 2009 USCIS 
implemented a policy under which USCIS favorably considers 
members of certain designated groups for parole. Currently DHS 
is actively considering additional policy options that it is 
hoped would further reduce the uncertainty associated with the 
ongoing transition to Federal immigration law.
    As part of our implementation efforts, DHS has promulgated 
a number of regulations to set for the processes and procedures 
for seeking Federal immigration status in the CNMI. The CNMI E-
2 non-immigration investor final rule became effective on 
January 19 in 2011, and it establishes a transition period of 
non-immigrant status for certain foreign investors in the CNMI 
who had been previously granted long-term investor status by 
the CNMI. USCIS has conducted outreach on the E-2 rule in 
Saipan and is currently accepting applications for the program.
    In the fall of 2009, DHS and the Department of Justice 
published an interim final rule to update the current 
immigration regulations to ensure they reflect the changes in 
immigration law made by the CNRA. This interim final rule 
conformed DHS and DOJ regs. to the CNRA, including in the areas 
of employment, verification and asylum. DHS and DOJ currently 
are working toward the issuance of a final rule.
    In October 2009, DHS published a transitional worker 
classification interim final rule. As a result of the pending 
litigation already alluded to those regulations were enjoined. 
DHS is working toward publication of a final rule and we are 
well aware of the concern among CNMI stakeholders about its 
issuance in light of the upcoming statutory expiration of large 
numbers of grandfathered CNMI umbrella permits.
    DHS has designated experienced personnel within its 
relevant components to serve as points of contact and to lead 
teams in the implementation of this transition. As of April 
2011 relevant Federal agencies have completed and signed a 
memorandum agreement required under the CNRA. In addition, DHS 
has submitted to Congress the required resource report on 
implementing Title VII.
    DHS officials have engaged frequently with representatives 
of the CNMI government and private sector stakeholders. 
Meetings have focused on implementation of the Guam-CNMI-VWP 
interim final rule and of the CNRA generally as well as 
obtaining detention space for ICE. DHS has established a full-
time USCIS, ICE, and CVP presence on the ground in the CNMI. 
Beginning in March 2009 USCIS opened an application support 
center on Saipan. On November 28, 2009, CVP began processing 
flights into the CNMI under U.S. immigration law as well as 
inspection of passengers and performing departure control 
screenings on flights traveling to other U.S. destinations. On 
that same day ICE opened offices on the Island of Saipan.
    Regarding H.R. 1466, DHS shares with its sponsors the 
general view that the unique circumstances of the CNMI deserves 
special consideration. We will carefully examine the bill with 
the sponsors of the legislation to explore particular solutions 
for the groups in the CNMI. DHS recognizes the historic nature 
of the transition and the special circumstances that exist in 
CNMI, especially the economic challenges faced by CNMI in 
restoring its economy, implementing minimum wage increases and 
increasing tourism and other investments. DHS will continue to 
engage in extensive outreach efforts with all the stakeholders 
throughout the transition period.
    Thank you for the opportunity to appear here before the 
Distinguished Members of the Subcommittee, and I would be happy 
to answer any questions.
    [The prepared statement of Ms. Ryan follows:]

Statement of Kelly Ryan, Acting Deputy Assistant Secretary for Policy, 
Office of Immigration and Border Security, U.S. Department of Homeland 
                                Security

    Chairman Fleming, Ranking Member Sablan, and other distinguished 
Members of the Subcommittee. Thank you for the opportunity to testify 
today on the efforts that the Department of Homeland Security (DHS) has 
undertaken to implement Title VII of the Consolidated Natural Resources 
Act of 2008 (CNRA) (Pub. L. No. 110-229). DHS recognizes the importance 
of the implementation of Title VII of the CNRA to the United States and 
to the people of the Commonwealth of the Northern Mariana Islands 
(CNMI) and Guam. Since the enactment of this historic legislation, DHS 
and its components have been working hard together and with our 
interagency partners to ensure that we implement the CNRA in a manner 
that will minimize any adverse effects on the CNMI. Further, since DHS 
last testified in May 2009, important steps have been taken toward 
implementation of federal immigration law in the CNMI and the 
transition program, which began on November 28, 2009 (the ``transition 
program effective date'').
    Because the CNRA has provisions that affect Guam and the CNMI to 
differing extents, I would like to first address those provisions that 
affect both territories, and then will discuss those provisions that 
are unique to the CNMI.
The Guam-CNMI Visa Waiver Program
    An issue of great significance to both the CNMI and Guam is the 
Guam-CNMI Visa Waiver Program (VWP). The CNRA replaced the preexisting 
Guam VWP with a combined Guam-CNMI VWP that allows admission to Guam, 
the CNMI, or both for a period up to 45 days. As was the case with the 
former Guam VWP, the program does not provide for onward travel to the 
rest of the United States. The Guam-CNMI VWP is a separate program 
under Section 212 of the Immigration and Nationality Act (INA), and is 
distinct from the Visa Waiver Program authorized for the entire United 
States (including Guam and the CNMI) by Section 217 of the INA. Some 
countries are participants in both programs. A visitor from one of 
those countries arriving in Guam or the CNMI may choose to travel under 
either of the programs, but must comply with all the conditions of 
whichever program is chosen. DHS issued an interim final rule, 
Implementation of the Guam-CNMI Visa Waiver Program, on January 16, 
2009 and is developing a final rule for the program.
    In recognition of the CNMI's reliance on visitors from China and 
Russia, Secretary Napolitano announced on October 21, 2009 her decision 
to exercise her discretionary authority to parole into the CNMI-only, 
on a case-by-case basis, eligible visitors for business or pleasure who 
are nationals of the People's Republic of China (PRC) and Russian 
Federation (Russia).
Provisions Affecting the CNMI Only
    Certain provisions of the CNRA affect the CNMI only. DHS has worked 
diligently with its federal and local partners and stakeholders in 
developing our approach to implementing the CNRA in the CNMI.
    Through working with the community and both private and public 
parties, DHS has identified groups of individuals who may not 
necessarily fall within the INA classifications and for whom the CNMI 
classifications authorized by the CNRA may not be appropriate. To 
address these challenges, in November 2009, USCIS implemented a policy 
under which USCIS favorably considers members of four designated groups 
for a grant of parole under INA section 212(d)(5), subject to case by 
case review: CNMI permanent residents, immediate relatives of CNMI 
permanent residents, spouses and children of deceased CNMI permanent 
residents, and immediate relatives of citizens of the Freely Associated 
States. Currently, DHS is actively considering additional policy 
options that, it is hoped, will further help to reduce the uncertainty 
associated with the ongoing transition to federal immigration law. In 
so doing, DHS is fully aware of the challenges facing the CNMI economy 
and considers it a priority and goal to support existing businesses 
when developing policies and regulations to implement the legislation.
    As part of our implementation efforts, DHS has promulgated a number 
of regulations to set forth the processes and procedures for seeking 
federal immigration status in the CNMI. The CNMI E-2 Nonimmigrant 
Investor Notice of Proposed Rulemaking was published in September 2009. 
USCIS received and reviewed public comments and published a Final Rule 
on December 20, 2010. This rule, which took effect on January 19, 2011, 
fully implements the CNRA provision that provides during the transition 
period a nonimmigrant status under U.S. immigration law for certain 
foreign investors in the CNMI who had been previously granted long-term 
investor status by the CNMI government. In January of this year, USCIS 
conducted outreach on the regulation in Saipan and is currently 
accepting applications for this program from eligible investors and 
their spouses and children.
    In the fall of 2009, DHS and the Department of Justice and its 
Executive Office for Immigration Review published an interim final rule 
to update the current immigration regulations to ensure they reflect 
the changes in immigration law made by the CNRA. Typically referred to 
as the ``conforming rule,'' this interim final rule amended DHS and DOJ 
regulations to conform them to the CNRA, including in the areas of 
employment verification and asylum. DHS and DOJ currently are working 
toward issuance of a final rule. In October 2009, DHS published the 
Transitional Worker Classification Interim Final Rule. As a result of 
pending litigation, those regulations were enjoined. DHS is working 
toward publication of the Final Rule, which was submitted to the Office 
of Management and Budget (OMB) for official review on June 15, 2011; We 
are well aware of the interest and concern among CNMI stakeholders 
about the issuance of this rule, particularly in light of the upcoming 
statutory expiration on November 27, 2011 of large numbers of 
``grandfathered'' CNMI work authorization permits.
Implementation of the CNRA
    DHS has designated experienced personnel within its relevant 
components to serve as points of contact and to lead teams composed of 
Headquarters and Field Office staff to implement the transition to 
federal immigration law in the CNMI. DHS and its interagency partners, 
including the Departments of the Interior, Justice, Labor and State, 
periodically meet to coordinate efforts and identify issues for 
resolution in the CNMI. As of April 2011, all five departments 
(Departments of the Interior, Homeland Security, Justice, Labor and 
State) had completed and signed the Memorandum of Agreement required 
under Section 702 (a) of the CNRA. U.S. Customs and Border Protection 
(CBP), U.S. Immigration and Customs Enforcement (ICE), and U.S. 
Citizenship and Immigration Services (USCIS) representatives have 
participated in meetings in Washington and in the CNMI with 
representatives of the Government of the CNMI and the CNMI private 
sector. DHS has submitted to Congress the required resource report on 
implementing Title VII and in support of the military build-up in Guam 
and, in doing so, identified some of the challenges that remain in 
implementing the legislation. In addition, DHS has met with the 
Delegates from Guam and the CNMI, the Governors of both territories and 
their staffs, as well as other elected officials and interested 
parties. Below is a sample of the most significant dates and meetings 
that have taken place with regard to implementation of the CNRA:
        <bullet>  January 2009--A delegation from DHS Headquarters, 
        Richard Vigna, CBP Director of Field Operations for San 
        Francisco District, and Bruce Murley and Rocky Miner, the Port 
        Directors for Honolulu and Guam, who oversee the Port in the 
        CNMI, traveled to Guam and the CNMI to conduct public outreach 
        and meet with the territorial governments in support of the 
        publication of the Guam-CNMI VWP Interim Final Rule.
        <bullet>  October 2009--A CBP delegation that included 
        Assistant Commissioners Thomas Winkowski and Charles Armstrong 
        visited Guam and the CNMI in preparation for the November 28, 
        2009 transition program effective date. During this visit, the 
        CBP delegation met with both the Governor of Guam and the 
        Governor of the CNMI regarding implementation of the CNRA.
        <bullet>  February 23, 2011--Meeting between USCIS Director 
        Alejandro Mayorkas and CNMI Governor Benigno Fitial, CNMI 
        Attorney General Edward Buckingham, and other CNMI government 
        representatives. The meeting focused on issues related to 
        immigration status and grants of parole in the CNMI.
        <bullet>  February 24, 2011--Meeting between CBP Deputy 
        Commissioner David Aguilar, DHS Assistant Secretary for 
        Intergovernmental Affairs Betsy Markey and CNMI Governor 
        Fitial.
        <bullet>  February 24, 2011--Meeting between ICE Executive 
        Associate Director for Enforcement and Removal Operations 
        (EAD), Gary Mead, CNMI Governor Fitial, CNMI Attorney General 
        Buckingham, and other CNMI government representatives. At this 
        meeting, Governor Fitial and EAD Mead reached an agreement in 
        principle for an Intergovernmental Service Agreement (IGSA) to 
        obtain ICE detention space in the CNMI Department of 
        Corrections facility at a bed day rate of $89.
        <bullet>  April 2011--Meeting between Acting Deputy Assistant 
        Secretary for Policy Kelly Ryan and Governor of Guam Eddie 
        Calvo. The purpose of the meeting was to discuss DHS's 
        implementation of the Guam-CNMI VWP.
    DHS implementation efforts have involved establishing a full-time 
presence on the ground in the CNMI. Beginning in March 2009, USCIS 
opened an Application Support Center (ASC) on Saipan to provide 
information to the public and conduct interviews on the island, 
including for adjustment of status and naturalization.
    On November 28, 2009, CBP began processing flights in the CNMI 
under U.S. immigration laws. CBP has officers in Saipan and Rota to 
conduct the inspection of passengers on flights arriving from foreign 
countries and to perform a departure control screening on flights 
traveling to other U.S. destinations.
    On November 28, 2009, ICE Enforcement and Removal Operations (ERO), 
ICE Office of the Chief Counsel (OCC) and Homeland Security 
Investigations (HSI) opened offices on the island of Saipan. Both ERO 
and HSI are responsible for enforcing U.S. immigration laws in the 
CNMI. ERO is responsible for detention and removal of aliens unlawfully 
present in the CNMI, while HSI conducts investigations in such 
programmatic areas as narcotics, money laundering, immigration benefit 
and document fraud, wire fraud, and human smuggling and trafficking.
    As a result of the February 24, 2011 meeting between ICE ERO 
Executive Associate Director Mead and CNMI Governor Fitial, the CNMI 
and ICE agreed to sign an Intergovernmental Service Agreement (IGSA) to 
provide ICE detention space in the CNMI Department of Corrections 
facility at a bed day rate of $89. The IGSA was signed in April 2011 
between ICE and the CNMI Department of Corrections. ERO began housing 
detainees at the Department of Corrections facility on June 6, 2011. 
ERO has funding for 20 beds at the facility through the end of fiscal 
year 2011.
H.R. 1466
    H.R. 1466, introduced on April 8, 2011, would provide CNMI-only 
status for four designated groups of aliens in the CNMI: (1) 
individuals born in the Northern Mariana Islands between January 1, 
1974 and January 9, 1978; (2) individuals who, as of May 8, 2008, held 
permanent resident status under a provision of CNMI law; (3) spouses 
and children of these two groups; and (4) individuals who, as of May 8, 
2008, were immediate relatives of U.S. citizens (regardless of age; 
i.e., including parents of U.S. citizen children who cannot petition 
for their parents under U.S. immigration law until the children are 21 
years of age). To be eligible, individuals must be otherwise admissible 
to the United States and have resided in the CNMI both on the 
transition program effective date and on the date of enactment of H.R. 
1466. The bill provides status as a permanent resident of the CNMI only 
during the transition period (with no resulting travel privileges to 
any other part of the United States), followed by an opportunity for 
the first three of the four designated groups to apply for adjustment 
to U.S. lawful permanent resident status during calendar year 2015.
                                 ______
                                 
    Mr. Fleming. Thank you, Ms. Ryan. Mr. Pula, you are 
recognized for five minutes.

STATEMENT OF NIKOLAO PULA, DIRECTOR, OFFICE OF INSULAR AFFAIRS, 
                U.S. DEPARTMENT OF THE INTERIOR

    Mr. Pula. Thank you. Chairman Fleming and Members of the 
Subcommittee, thank you for the opportunity to discuss Title 
VII of Public Law 110-229, and H.R. 1466, both dealing with 
immigration in the CNMI.
    During the past five years the CNMI has experienced ever 
increasing economic distress. Many businesses are ceasing 
operations. Many U.S. citizens, permanent residents, freely 
associates state citizens, as well as other aliens have 
department the CNMI. We must be mindful of these economic 
factors and challenges facing the CNMI.21Public Law 110-229 set 
in motion a plan for Federal administration and enforcement of 
immigration in the CNMI with the Department of Homeland 
Security having the lion's share of responsibility. On June 15 
of this year DHS submitted a final rule creating a CNMI 
transitional worker classification to the Office of OMB. We are 
hopeful that the issuance of this final rule will obviate many 
of the concerns of the CNMI community relating to employment 
for foreign workers during the next three years.
    Title VII calls on the Secretary of the Interior to provide 
technical assistance to help grow and diversify the CNMI 
economy and assist in recruiting, training and hiring in 
consultation with the Department of Labor and the Secretary of 
Commerce as well as the Governor of CNMI.
    On November 9 of last year, 2010, Assistant Secretary 
Babauta held a day-long Forum on Economic and Labor 
Development, also known as FELD, F-E-L-D, in pursuit of these 
goals. In the absence of dedicated resources, the Office of 
Insular Affairs committed up to $1 million in financial 
assistance to fulfill requirements of the law.
    After the FELD, a report was issued this past May outlining 
the steps for Federal CNMI and local private sector 
stakeholders to forge a plan for growing and diversifying the 
CNMI economy.
    Another crucial area of the CNMI economy is the labor 
market. Based on FELD discussions, the following areas would 
benefit from technical assistance: tourism, labor, renewable 
energy, agriculture and aquaculture, prevailing wage rate, and 
the visa waiver program. In fact, Assistant Secretary Babauta 
is currently in the CNMI, hopefully signing grants with the 
acting Governor there, that will give the CNMI about $700,000 
for on-the-job training and about $300,000 for economic 
revitalization.
    The Department of the Interior looks forward to working 
with DHS on a number of visa waiver issues, including examining 
whether to extend the exercise of parole authority to Guam and 
whether to add additional countries or geographic areas to the 
Guam and CNMI waiver program.
    Turning to H.R. 1466, the Congress delegates, the Secretary 
of the Interior, and the CNMI Senate have all expressed concern 
with regard to alien residents in the CNMI. H.R. 1466 will 
provide a forum of the CNMI only resident status to four 
categories of aliens who resided in the CNMI on November 28, 
2009, and the date of enactment of H.R. 1466. The four 
categories are:
    One, aliens born between 1974 and 1978 in Northern 
Marianas; two, aliens who were permanent residents under CNMI 
law; three, spouses and children of aliens in categories just 
noted; and four, immediate relatives of United States citizens.
    Four months ago the CNMI Senate issues its recommendation 
on approved immigration status which describes as a compromise 
position, the aliens would have a free associated type status 
whereby they could work and live in the CNMI or elsewhere in 
the United States as non-immigrants without United States 
citizenship and without voting rights.
    In April 2010, the Secretary of the Interior issued the 
report on the CNMI alien worker population. Included was a 
recommendation to grant long-term status to alien workers who 
have resided in the CNMI for a minimum of five years. The 
Department suggested five options that the Congress could 
consider for long-term status. H.R. 1466 would provide the 
long-term status and therefore H.R. 1466 is not inconsistent 
with Interior's report.
    Mr. Chairman, we appreciate your interest in these 
important issues affecting the Commonwealth of Northern 
Marianas and thank you for this opportunity.
    [The prepared statement of Mr. Pula follows:]

Statement of Nikolao I. Pula, Jr., Director, Office of Insular Affairs, 
  U.S. Department of the Interior, on Implementation in the Northern 
Mariana Islands of the Immigration Provisions of Title Vii of P.L. 110-
 229, and H.R. 1466, To Resolve the Status of Certain Persons Legally 
  Residing in the Cnmi under the Immigration Laws of the United States

    Mr. Chairman and Members of the Subcommittee on Fisheries, 
Wildlife, Oceans and Insular Affairs, thank you for the opportunity to 
discuss title VII of Public Law 110-229, and H.R. 1466, both dealing 
with immigration in the Commonwealth of the Northern Mariana Islands 
(CNMI).
    During the past five years, the CNMI has experienced ever-
increasing economic distress. Many businesses have ceased or are in the 
process of ceasing operations. Austerity measures undertaken by the 
CNMI government due to the ever-growing fiscal crisis (including 16-
hours cut per 80-hour pay period, 13 unpaid holidays, 332 FTE 
reductions from the 2,100 government workforce) exacerbate the anxiety 
and uncertainty within the community. Many United States citizens, 
permanent residents, freely associated state citizens, as well as other 
aliens, have departed the CNMI in search of improved economic 
opportunity. It is expected that the population numbers to be reported 
by United States Bureau of Census in the coming weeks will show a 
significant reduction in the population of the CNMI, both United States 
citizens and aliens alike. Mindful of these economic factors and 
challenges, the Administration has made further strides in its 
implementation of Public Law 110-229.
IMPLEMENTATION OF TITLE VII IMMIGRATION PROVISIONS IN THE CNMI
    Beginning in January 1978, the Commonwealth of the Northern Mariana 
Islands controlled immigration within its geographic area under 
agreement with the Federal government contained in the Covenant to 
Establish a Commonwealth of the Northern Mariana Islands in Political 
Union with the United States of America (Covenant). On May 8, 2008, 
title VII of Public Law 110-229 was signed into law, which set in 
motion a plan for Federal administration and enforcement of immigration 
in the CNMI with the Department of Homeland Security (DHS) having the 
lion's share of responsibility, and the Departments of Interior, Labor, 
State, Commerce and Justice sharing that responsibility.
    DHS established operations in the CNMI in advance of the November 
28, 2009 start of the transition period, establishing ports of entry 
and a USCIS Application Support Center and, as of that date has been on 
the ground in the CNMI administering Federal immigration laws there, 
including title VII of Public Law 110-229. As discussed in its 
testimony for this hearing, DHS has issued and has in effect three sets 
of regulations necessary for the administration of immigration under 
title VII (E-2 CNMI investors, Guam-CNMI Visa Waiver Program and 
conforming regulations). On June 15, 2011, DHS submitted a final rule 
creating a CNMI Transitional Worker Classification to the Office of 
Management and Budget for review.
    Implementation of the Transitional Worker interim final rule was 
enjoined as a result of litigation. While the issuance of the final 
rule has been of concern for the CNMI's business community and foreign 
workers alike who need to plan for their employment needs for the three 
plus years after November 27, 2011, proper formulation of the 
regulation is necessary. We are hopeful that the issuance of this final 
rule will obviate many of the concerns of the CNMI community relating 
to employment of foreign workers during the next three years.
INTERIOR TECHNICAL ASSISTANCE
    Title VII of Public Law 110-229 calls on the Secretary of the 
Interior to provide technical assistance to the CNMI to help grow and 
diversify the CNMI economy and assist in recruiting, training and 
hiring U.S. citizens and nationals, lawful permanent residents and 
admissible citizens of the freely associated states.
    On November 9, 2010, Assistant Secretary Babauta held a day-long 
Forum on Economic and Labor Development (FELD) in the CNMI pursuant to 
Public Law 110-229's mandate that the Secretary of the Interior, in 
consultation with the Governor of the Commonwealth, the Secretary of 
Labor, and the Secretary of Commerce provide--
        <bullet>  technical assistance and other support to the 
        Commonwealth to identify opportunities for, and encourage 
        diversification and growth of, the economy of the Commonwealth;
        <bullet>  technical assistance, including assistance in 
        recruiting, training, and hiring of workers, to assist 
        employers in the Commonwealth in securing employees first from 
        among United States citizens and nationals resident in the 
        Commonwealth and if an adequate number of such workers are not 
        available, from among legal permanent residents, including 
        lawfully admissible citizens of the freely associated states; 
        and
        <bullet>  technical assistance, including assistance to 
        identify types of jobs needed, identify skills needed to 
        fulfill such jobs, and assistance to Commonwealth educational 
        entities to develop curricula for such job skills to include 
        training teachers and students for such skills.
    The FELD provided an opportunity for Interior and interested 
stakeholders to begin a robust discussion on the types of technical 
assistance that would be appropriate and possibly available to the CNMI 
for its economy and workforce. Public Law 110-229 did not provide funds 
for this technical assistance. In the absence of dedicated resources, 
the Assistant Secretary Babauta has committed up to $1 million in 
financial assistance to fulfill requirements of the law. These funds of 
the Office of Insular Affairs (OIA) will be devoted to two main 
programs: assisting the CNMI with developing an economic revitalization 
program as suggested by the Governor of the CNMI, and enabling the CNMI 
government to work with local agencies and non-profit organizations to 
provide on-the-job training for eligible United States workers.
    As a result of the FELD, a report was issued this past May 
outlining the steps for the Federal, CNMI and local private sector 
stakeholders to forge a plan for growing and diversifying the CNMI 
economy. In selecting areas or sectors of the economy that would 
produce the greatest benefit, OIA reviewed recent statements of the 
CNMI government with regard to economic sectors it considers critical 
for its economic future. The Governor in his 2010 report to the 
legislature stated that ``tourism remains the CNMI's most important 
industry.'' Future growth in tourism would come, in part, from 
improving economic and financial conditions in industrial East Asia, 
which has traditionally been the CNMI's major tourist market. However, 
some immediate assistance to improve the sector's performance could 
prove helpful as I will explain later in my statement.
    Another critical area of the CNMI economy is the labor market. 
Title VII extends federal immigration laws and regulations, including 
entry visas for visitors and temporary alien workers. Since the law 
directly affects the CNMI's labor market, it is critical to understand 
how stable and predictable it would be in the near-term as well as the 
longer-term. CNMI businesses should be able to anticipate their labor 
needs for both United States citizens and temporary alien workers and 
the CNMI government needs to be able to project its revenue stream 
based on labor market and work force protections. Areas of the labor 
market identified by the FELD as critical factors include the absence 
of an unemployment insurance program, the lack of placement agencies, 
and the lack of adequate training programs, especially for vocational 
and specialized skills.
    Based on FELD discussions, the following areas would benefit from 
technical assistance:
    Tourism: The tourism industry would benefit from hospitality staff 
that is better trained. Lessons can be learned from Hawaii's 
hospitality industry. The CNMI can learn from the experiences of other 
destinations that attract repeat tourists and create new markets.
    Labor: The CNMI's labor market is unique in that it is still 
heavily dependent on foreign labor. Title VII recognizes the CNMI's 
special case and includes explicit provisions for determining the 
Commonwealth's labor needs through consultations among Federal 
agencies, the CNMI government and business community. For Interior's 
technical assistance program, the labor component must emphasize 
training and vocational skills.
    Renewable Energy: The CNMI will benefit greatly from an expanded 
use of renewable energy. Expansion of renewable energy sources and 
resources will reduce dependence on fossil fuels and create jobs. 
Separately, OIA has entered into a technical assistance agreement with 
the Department of Energy's National Renewable Energy Laboratory (NREL) 
to assess renewable energy potentials and uses in the territories. OIA 
is working closely with NREL and the territories to carry the project 
forward. FELD participants also believe that it will be important to 
improve not only the current water and power systems but also provide 
assistance to create and use infrastructure for alternative energies 
such as solar, wind, biomass, nuclear, geothermal and possibly others.
    Agriculture and aquaculture: Agriculture would produce fruits and 
vegetables for local markets and household use; aquaculture would 
produce valuable seafood. Using a technical assistance grant, the CNMI 
can examine agriculture and aquaculture practices elsewhere and 
replicate them or enhance existing programs. There would need to be an 
increase in technically trained personnel to operate farms and 
aquaculture projects: animal husbandry, entomology, plant cultivation 
and aquaculture technicians. This can be accomplished at all 
educational levels, starting in the public schools all the way up to 
the Northern Marianas College, according to the FELD. Curriculum and 
training facilities would also need to be developed and established.
    Prevailing Wage Rate. Another vital project identified by 
stakeholders at the FELD was the need for establishing a CNMI 
prevailing wage rate. A prevailing wage rate is required as part of the 
procedure for obtaining a foreign labor certification from United 
States Department of Labor prior to applying for an H nonimmigrant or 
employment-based permanent immigration status for an alien employee. At 
present, due to the lack of such a prevailing wage rate in the CNMI, 
the Department of Labor requires employers to compensate alien 
employees at the nearest market rate in which the occupational category 
is utilized. In the CNMI's case, this is usually the Guam prevailing 
wage rate which is much higher than the wage rate currently paid by 
most CNMI employers for any worker, alien or otherwise.
    Assistant Secretary Babauta has held several discussions with the 
CNMI Governor regarding how to best address the need for such a 
prevailing wage survey. The Assistant Secretary and the Governor agree 
that the survey is vital for the CNMI economy's recovery and growth. 
Both also agree that delay in completing the survey is detrimental to 
the business community as well as to the efficient implementation of 
Federal administration of immigration in the CNMI. Governor Fitial has 
submitted a request for funding such a project to the United States 
Department of Labor and is awaiting its determination. In the meantime, 
preparations are underway both in the government sector and in the 
private sector to undertake the survey with a targeted completion date 
of September of this year.
    Visa Waiver Program. The CNRA emphasizes the need to protect the 
CNMI economy and promote economic development. The CNMI has beautiful 
beaches and five-star hotel accommodations that are more than half 
empty. Given that tourism is now the mainstay of the CNMI economy, 
wherever possible both Federal and local officials must seek not only 
to avoid actions that may harm various sectors of the tourism market, 
but also to consider actions that promote increased tourism. Indeed, 
the CNRA mandates that economic considerations regarding visitors to 
the CNMI be considered in the development of the regulations for the 
Guam-CNMI visa waiver program. Chinese and Russian tourists accounted 
for 22 percent of CNMI tourists in 2008. For fiscal year 2009, Chinese 
and Russian tourists accounted for 9.2 percent of all arrivals. Since 
October 2009, the percentage of Chinese and Russian tourists have 
accounted for 12.4 percent of tourist arrivals. While this number may 
seem small, their contribution to the economy is significant; 
contributing approximately 20 percent of the total economic 
contribution from tourism.
    United States visa requirements now apply to foreign tourists to 
the CNMI. Title VII created a new Guam-CNMI Visa Waiver Program. For 
this new Guam-CNMI Visa Waiver Program, DHS issued an interim final 
rule that waives the visa requirements for eligible visitors from 12 
countries and geographic areas. At this time, China and Russia are not 
among the countries and geographic areas participating in the Guam-CNMI 
Visa Waiver Program.
    As DHS notes in its statement for this hearing, on October 21, 
2009, Secretary Napolitano announced her decision to exercise her 
discretionary authority to parole into the CNMI-only, on a case-by-case 
basis, otherwise admissible (except for the lack of a visa) Chinese and 
Russian nationals seeking to visit the CNMI. DHS announced this 
discretionary exercise of parole authority in recognition of the 
contribution of visitors from China and Russia to the CNMI economy. The 
Department of the Interior looks forward to working with DHS on these 
issues, including examining whether to extend the exercise of parole 
authority to Guam and whether to add additional countries or geographic 
areas to the Guam-CNMI Visa Waiver Program.
    While immigration transition in the CNMI has encountered a number 
of issues that require resolution, this has not deterred the Federal 
government from continuing to seek a smooth transition. We realize that 
change is difficult, but strongly believe that the Federal 
administration of immigration in the CNMI will bring about higher 
security for the Marianas archipelago as well as an improved 
environment for business and provide economic opportunities to the 
people of the CNMI.
H.R. 1466--PATH TO CITIZENSHIP FOR CERTAIN ALIENS IN THE CNMI
    For fifty years, the Department of the Interior has been intimately 
involved with the Northern Mariana Islands, both as a district of the 
Trust Territory of the Pacific Islands and as a commonwealth of the 
United States. The Department, therefore, has a historical perspective 
that may help inform the Congress of effects that H.R. 1466 and other 
proposals may have on the Northern Mariana Islands and its residents.
LONG-TERM STATUS FOR ALIENS IN THE CNMI
    The Congress, Delegate Gregorio Sablan, the Secretary of the 
Interior, and the Senate of the Seventeenth Northern Marianas 
Commonwealth Legislature have all expressed concern with regard to 
long-term alien residents in the CNMI, and the effect of their presence 
on the CNMI.
    H.R. 1466, the subject of this hearing, is one of the proposals. It 
would provide a form of CNMI-only resident status to four categories of 
aliens who resided in the CNMI on November 28, 2009 and the date of 
enactment of H.R. 1466. The four categories of aliens are:
        <bullet>  aliens born between January 1, 1974 and January 9, 
        1978 in the Northern Mariana Islands District of the Trust 
        Territory of the Pacific Islands (which later became the CNMI),
        <bullet>  aliens who were, on May 9, 2008, permanent residents 
        of the CNMI under CNMI law,
        <bullet>  spouses and children of aliens in categories just 
        noted, and
        <bullet>  immediate relatives (children, spouses and parents) 
        of United States citizens.
    For the first five years, the resident status would be in the CNMI-
only. Thereafter, if otherwise eligible, those individuals in the first 
three categories could apply to receive an immigrant visa or to adjust 
status to that of an alien lawfully admitted for permanent residence, 
which would allow for travel anywhere in the United States and its 
territories, and, if eligible, would place qualified individuals on a 
path to United States citizenship.
    As reported in the Saipan Tribune, CNMI Governor Benigno Fitial 
estimates that potentially 5,000 aliens in the CNMI may be classified 
as immediate relatives of United States citizens and could avail 
themselves of the opportunities provided in H.R. 1466, to become 
permanent residents and later citizens of the United States. Additional 
aliens would be added by the other categories of eligible aliens in 
H.R. 1466, and together these persons would represent approximately 
one-third of the aliens in the CNMI.
CNMI Senate 2011 Recommendation Regarding Long-term CNMI Aliens
    In March 2011, the Senate of the Seventeenth Northern Marianas 
Commonwealth Legislature issued its Recommendation on Improved 
Immigration Status of Nonimmigrant Workers in the Commonwealth of the 
Northern Mariana Islands. The CNMI Senate includes what it describes 
``as a compromise (recommendation) between the interests of 
nonimmigrant workers and indigenous residents of the Commonwealth'':
        All aliens residing legally in the Commonwealth of the Northern 
        Mariana Islands for ten years on the date U.S. Public Law 110-
        229 became law, shall receive similar immigration status as 
        that held by citizens of the freely associated states (FAS).
    The CNMI Senate is specific in its recommendation, calling for an 
FAS type status, whereby aliens who have been resident in the CNMI 
since May 8, 1998 would work and live in the CNMI or elsewhere in the 
United States as nonimmigrants, without United States citizenship and 
without voting rights.
2010 Interior Recommendation Regarding Long-term CNMI Aliens
    In April 2010, the Secretary of the Interior issued the Report on 
the Alien Worker Population in the Commonwealth of the Northern Mariana 
Islands. Included was a recommendation to grant long-term status to 
alien workers who have resided in the CNMI for a minimum of five years:
        Consistent with the goals of comprehensive immigration reform, 
        we recommend that the Congress consider permitting alien 
        workers who have lawfully resided in the CNMI for a minimum 
        period of five years to apply for long-term status under the 
        immigration and nationality laws of the United States.
    The Department through the report suggested five options, among 
others, that could be considered for long-term status, including:
        (1)  alien workers could be conferred United States citizenship 
        by Act of Congress;
        (2)  alien workers could be conferred permanent resident status 
        leading to U.S. citizenship (per the normal provisions of the 
        INA relating to naturalization), with the five-year minimum 
        residence spent anywhere in the United States or its 
        territories; or
        (3)  alien workers could be conferred permanent resident status 
        leading to U.S. citizenship, with the five-year minimum 
        residence spent in the CNMI.
    Additionally, under U.S. immigration law, special status is 
provided to aliens who are citizens of the freely associated states. 
Following this model,
        (4)  alien workers could be granted a nonimmigrant status like 
        that negotiated for citizens of the freely associated states, 
        whereby such persons may live and work in the United States and 
        its territories; or
        (5)  alien workers could be granted a nonimmigrant status 
        similar to that negotiated for citizens of the freely 
        associated states, whereby such persons may live and work in 
        the CNMI only.
Department of the Interior Position
    The 2010 report of the Secretary of the Interior recommended a 
long-term status for foreign workers who lawfully resided in the CNMI 
for a minimum period of five years. At the time of the report, the 
Department's best estimate was that 20,654 legal aliens resided in the 
CNMI. H.R. 1466 is consistent with the Secretary's report in that it 
would give long-term status to more than 5,000 of these persons.
    Mr. Chairman, we appreciate your interest is these important 
immigration issues affecting the Commonwealth of the Northern Mariana 
Islands.
                                 ______
                                 
    Mr. Fleming. Thank you, Mr. Pula. I would now like to 
recognize the Ranking Member--I am sorry. Oh, OK, I am sorry. I 
would now like to introduce Ms. Aldan-Pierce and Ms. Doctor 
before they testify. Ms. Aldan-Pierce, you are now recognized 
for five minutes.

    STATEMENT OF MARIAN ALDAN-PIERCE, CHAIRPERSON, BOARD OF 
             DIRECTORS, MARIANAS VISITORS AUTHORITY

    Ms. Aldan-Pierce. Thank you, Chairman Fleming, Ranking 
Member Sablan. It is an honor to appear before this Committee 
today. I was asked to provide our views on Public Law 110-229, 
specifically on the Guam/CNMI waiver program.
    My name is Marian Aldan-Pierce, a lifetime resident of the 
CNMI, and I have worked in the tourism industry for over 35 
years. During my tenure in the industry, I have seen tourism in 
the CNMI grow from very humble beginnings to the peak in 1997, 
when we welcomed nearly 700,000 visitors to our islands. Our 
tourism program focused on Japan and the Japanese visitor. We 
marketed the CNMI in major Japanese cities. It is a cost-
effective, closer alternative to other Pacific beach 
destinations. As a result, over three-fourths of our visitors 
were from Japan in the mid-90s. However, with the decline of 
the Japanese economy and other disasters, tourism in the CNMI 
have been on the downward spiral for many years, and we are now 
seeing what we hope to be the bottom of the tourism market.
    Last year, the CNMI had approximately 380,000 tourists, a 
little more than half the tourists that were welcomed at the 
peak of the market. We expect a further decline in arrivals 
with the recent action by air carriers, further reducing seat 
capacity from Japan and Korea to the CNMI during non-peak 
months.
    Mr. Chairman, Ranking Member Sablan, our remote islands in 
the Pacific with very few natural resources are now almost 
completely dependent on the tourism industry. Our government 
was forced to shut down last year for many days for financial 
reasons. Given these constraints as well as budgetary 
constrains here in Washington, it is clear that in order for 
the CNMI to survive into the future, for the government to 
sustain its payroll, for the people to have continued access to 
basic necessities of life, power, water and education, we 
cannot come to Washington with our hands out. We have to help 
ourselves. We must invigorate our tourism industry, our sole 
economic driver.
    I am here to request that DHS issue final rules for the 
Guam visa waiver program, for the Guam/CNMI visa waiver program 
that would allow continued access, visa-free from Chinese and 
Russian tourists in the CNMI and extend such access to Guam. 
These tourists are vital to the CNMI's economy and China and 
Russia represent tourism's future in the Marianas region.
    We are living in a very depressed economy. Buildings stand 
vacant and deteriorated in our major business district. Homes 
sit empty and abandoned in our villages. Private sector 
employees have suffered layoffs and reduced hours. Government 
employees have had their work hours reduced by 20 percent due 
to lack of funding, and the line for nutrition assistance from 
the Federal Government is long and only getting longer. The 
CNMI cannot continue to depend and hope for Federal dollars and 
expanding Federal assistance programs given the current 
budgetary climate in Washington.
    Reinvigorating our tourism industry in the CNMI would take 
new ideas and a new approach. The CNMI needs to work closely 
with our partners in Guam and market the Marianas region as a 
package destination to tourists. Even though our islands are 
located only 150 miles apart, we have two different sets of 
rules with respect to tourism. Unlike Guam, Russian and Chinese 
visitors are allowed entry into the CNMI under parole 
authority. Parole in the CNMI has operated flawlessly for 
nearly two years as DHS security protocols have successfully 
prevent the entry of objectionable visitors.
    Tourism, like any other business, needs regulatory 
certainty to attract investment. Since the enactment of the 
CNRA in 2008, DHS published an interim final rule and later 
extended parole authority for Russia and China to The CNMI. 
Unfortunately, despite the success of the parole program in the 
CNMI, DHS has not yet extended the same opportunity to Guam 
with respect to these two source countries.
    Mr. Chairman, Ranking Member Sablan and Members, we do not 
understand, and hope that we might learn more today why 
Congress and this Committee enacted legislation three years ago 
that combine visitor entry programs for our islands, the Guam/
CNMI visa waiver program, and yet two unequal systems still 
exist today.
    To accomplish the objective of marketing in the region and 
expanding the tourism economy, the CNRA extended the time 
allowed for visitors under the Guam/CNMI visa waiver program to 
stay on the island from 15 to 45 days. Congress envisioned by 
doing so visitors will travel to multiple islands for a longer 
period to thereby maximize the economic impact and revenue in 
the region. We need regulatory certainty to attract investment 
to the region. We urge this Committee to impress upon DHS that 
the interim final rule needs to be finalized consistent with 
congressional intent of expanding tourism by ensuring that 
source markets such as China and Russia are included on the 
list as those markets are vital to the CNMI and the Marianas 
region for future tourism growth.
    Mr. Chairman, Ranking Member Sablan, and Members, while the 
CNMI's economy is in a precarious position today, we believe 
that with proper regulatory environment and cooperating with 
our neighbors on Guam we can revitalize our tourism economy and 
create much needed jobs and investment in the region, thereby 
reducing our reliance on Federal assistance.
    Thank you very much for giving me the opportunity to appear 
before you today. It has been a real honor and privilege.
    [The prepared statement of Ms. Aldan-Pierce follows:]

     Statement of Marian Aldan-Pierce, Chairperson of the Board of 
                 Directors, Marianas Visitors Authority

I. Overview
    Beginning in the 1980s, the economy of the Commonwealth of the 
Northern Mariana Islands (CNMI) was driven by two industries--apparel 
manufacturing and tourism. At the peak of tourism in 1997, when nearly 
730,000 visitors arrived, total government revenue was $248-million. 
The economy was vibrant.
    However, beginning in 2005 with the enactment of the World Trade 
Organization (WTO) agreement, the apparel industry began to relocate 
from the CNMI to locations where the cost of doing business was lower. 
Due to WTO impact and additional costs added through increases in 
minimum wage, by 2009, all 34 of the apparel manufacturing factories in 
the CNMI had closed, leaving the CNMI with only one industry leg left 
to stand on- tourism (APPENDIX A).
    The Consolidated Natural Resources Act (CNRA) of 2008, signed by 
President G.W. Bush on May 8, 2008, required that the CNMI federalize 
its immigration system beginning in November 2009. The CNRA provides 
for a Guam-CNMI Visa Waiver Program (VWP), whereby visitors from listed 
countries may make non-visa entry into the CNMI and Guam as tourists. 
In line with the CNRA's expressed mandate to expand tourism and 
economic development in the CNMI wherever possible, the CNMI strongly 
recommends that the Final Rules of the VWP be promulgated as soon as 
possible and that they contain a provision for continued visa waiver 
entry for citizens of the People's Republic of China (China) and the 
Russian Federation (Russia) either into the CNMI only or into the CNMI 
and Guam.
    This recommendation is based on the following four points:
        <bullet>  The CNMI economy is now completely dependent on 
        tourism, and the CNRA requires that countries from which the 
        CNMI has derived ``significant economic benefit'' by visitors 
        be included in the list of VWP participating countries
        <bullet>  Including China and Russia under the VWP listed 
        countries, versus including them under the sole parole 
        authority of the Secretary of Homeland Security, will create 
        stability and allow the CNMI to attract long term investment 
        for these growing markets
        <bullet>  Since the parole process began, and prior to the CNRA 
        under CNMI immigration measures, visitors from China and Russia 
        have returned to their respective countries, an excellent 
        performance record proving invalid DHS concerns of ``high 
        nonimmigrant visa refusal rates''
        <bullet>  If allowable, a uniform VWP between the CNMI and Guam 
        would allow development of multiple destination packages 
        between the two island entities for visitors arriving by both 
        air and sea
    As described further in this testimony, the economy of the CNMI is 
now solely reliant on tourism, a delicate industry easily buffeted by 
international and domestic challenges. These include visa access, the 
health of the economies in neighboring Asian countries, the convenience 
and price competitiveness of air service, and the ability to compete 
with nearby beach destinations. In recent years, the economy has taken 
a nosedive due to these challenges. The permanent inclusion of Russia 
and China in the VWP--or lack thereof--will largely determine if the 
CNMI economy can begin to climb its way to recovery, or whether it will 
be pushed over the edge.
II. Sustaining a Diversified Tourism Economy
A. A Brief History
    According to the U.S. Dept. of Commerce, Bureau of Economic 
Analysis BEA 10-24, real GDP of the CNMI decreased at an average annual 
rate of 4.2 percent from 2002 to 2007. The decrease in real GDP was 
primarily due to a decrease in the exports of garments, reflecting a 
contraction in the garment manufacturing industry and a decline in 
tourism. Since 2002, a number of economic shocks have contributed to a 
decline in tourism, including 9-11, the SARS epidemic and the 2005 
pullout of flagship carrier Japan Airlines, a loss of 35% (182,000) of 
annual air seats to the CNMI at the time and subsequent closure of an 
affiliate hotel--the second largest in the CNMI--and the CNMI's largest 
shopping mall. From 2002 to 2007, the population of the CNMI also 
decreased rapidly as foreign workers left the territory, and as a 
consequence, real GDP per capita increased at an average annual rate of 
0.5 percent.
    To help stabilize the industry and reduce reliance on any one 
source country, the CNMI has worked to diversify its source markets. 
Historically, visitors from Japan had comprised as high as 83% of all 
visitor arrivals. However, due to the CNMI's diversification efforts 
and concurrent increase in outbound travellers from those targeted 
countries, by FY 2010 only 50% were from Japan; 29% were from South 
Korea (Korea), 11% were from China, and 1% were from Russia. For FY 
2011 to date--through May 2011--the market share has diversified even 
further, with Japan comprising only 45%, Korea 32%, China 12% and 
Russia 2%.
    In more recent tourism trends, in FY 2010 visitors arrivals to the 
CNMI totaled only 386,186, only a little more than half of total 
visitor arrivals during the industry's peak in 1996 (APPENDIX B).
    From FY 2006-2010, hotel revenues each year dropped at an average 
of $2.9-million and the CNMI lost approximately $10.5-million annually 
in direct on-island expenditure. With a multiplier of 1.5, the CNMI 
business community lost $33.4 million in economic activity and $2-
million in taxes annually. Additionally, it is estimated that 171 
public and 191 private sector jobs were displaced annually.
    Compared to FY 2006, direct impact during FY 2010 was down 16% 
($274.4-million), while indirect impact also fell 16% ($726.2-million) 
(APPENDIX C).
    In addition to the overall growth of China and Russia arrivals, the 
economic impact of each visitor from these two destinations is 
significant. Russian visitors each spend 4.5 times as much as an 
average Asian visitor, while Chinese expenditures are comparable to 
Japanese and more than Korean visitors. Based on outbound growth 
projections of these countries and other factors, China and Russia are 
projected to increase in total arrivals and economic impact for the 
CNMI.
B. Primary Source Market of Japan
    The CNMI has traditionally relied on Japanese tourists and its 
hotel industry was built largely with Japanese investment. This 
relationship sprung from both the proximity of Japan to this beach 
resort destination and from the historic political ties prior to World 
War II. Beginning in the late 1980s, the Commonwealth's visitor 
industry experienced a decade of phenomenal growth. Grand openings of 
new hotels, fueled by Japanese investment, were a regular occurrence 
during the decade. However, expectations of continued expansion proved 
unrealistic. The beginning of CNMI difficulties was the bursting of the 
Japanese ``bubble'' economy, followed by the Asian financial crisis 
beginning around 1997.
    Compared to the peak of tourism in FY1997 when Japan comprised 62% 
(450,190 visitors) of total visitor arrivals, so far in FY 2011 through 
May 2011, Japanese visitors comprise only 45% (102,578 visitors) of all 
visitors. The outbound Japanese travel market has suffered decline in 
the wake of the March 2011 earthquake and tsunami and continuing 
nuclear crisis, down 34 percent in May 2011 compared to May 2010 
(APPENDIX D).
    The biggest challenge the CNMI travel industry continues to face 
for Japan--and all markets--is air seat availability to the islands. 
Since the 2005 pullout of Japan Airlines and the loss of 35% of total 
air seats, the CNMI has yet to recover the same level of air seat 
availability. In December 2010 Delta Air Lines reduced one of its three 
daily direct flights from Tokyo/Narita to only three times weekly. 
Tokyo/Narita is the CNMI's largest source city. The loss of this 
service caused travel capability to slide from 66,430 seats annually 
from Toyko/Narita to only 37,856 seats. In April 2011, the suspended 
flight was formally terminated altogether. This further demonstrates 
the uncertainty of the tourism industry.
    In addition, since 2009 air service has been only seasonal from 
Osaka and Nagoya, the CNMI's largest markets outside Tokyo/Narita. 
Delta Air Lines suspended daily direct flights from Nagoya and only 
operates during peak periods during the year. This peak period 
traditionally runs from mid-December through March and from mid-July 
through September. Likewise, Asiana Airlines provides only seasonal 
daily flights during peak periods from Osaka. This low peak period 
represents 210 days per year during which the CNMI has lost the 
opportunity to benefit from 432 seats per day from these two source 
cities. This translates into lost visitor opportunities from Osaka and 
Nagoya of an estimated 90,720 visitors annually.
    From an income standpoint, with an estimated $851 in direct and 
$2,253 in indirect economic impact per Japanese visitor, the CNMI is 
losing $77.2-million and $204.4-million annually in direct and indirect 
economic opportunity, respectively, from its primary source market due 
to these lost air seats. With regards to impact on public and private 
employment, this results in an annual loss of an estimated 955 public 
and 1,067 private sector jobs, based on each public sector job being 
supported by 95 visitors and each private sector job being supported by 
85 visitors (APPENDIX E).
    The long-term forecast for outbound growth from this market is 
expected to grow 19.3% over the next five years, from 15.6-million in 
2011 to 18.6-million in 2016 (APPENDIX F).
C. Primary Source Market of South Korea
    The Korean market to the CNMI had first started to grow in 1988 
when the Korean government lifted international travel restrictions on 
Korean nationals. This market was showing phenomenal growth until the 
Asian economic crisis hit in the mid-1990s, Korea was the hardest hit 
of the CNMI's source markets. Recognizing the CNMI's extreme 
vulnerability to the Japanese economy, the islands saw a unique 
opportunity and value in diversification of its tourism base. Korea was 
the first country to become the focus of more marketing and promotions 
by the Marianas Visitors Authority (MVA) as part of its diversification 
efforts.
    Since that time, the market share of Korea has grown considerably. 
During the peak of tourism in 1997, Korea comprised 23% of total 
visitor arrivals. In the 18 months before federalization of CNMI 
immigration in November 2009, Korea accounted for 26% of visitor 
arrivals. In the period since December 2010, Korea now comprises 31% of 
visitor arrivals (APPENDIX G). The outbound Korean travel market was 
also strongly affected by the March 2011 earthquake and tsunami and 
continuing nuclear crisis in Japan, with arrivals to the CNMI down 24 
percent in May 2011 compared to May 2010.
    Flight service from Korea has also fluctuated in recent years. 
Flights from Busan were cancelled in June 7, 2011. Asiana Airlines also 
recently decreased the number of daytime flights from Incheon/Seoul to 
the CNMI from four to two flights weekly, marking a loss of 18% of 
available air seats on a weekly basis. This decrease is expected to be 
reversed in mid-July, but it underscores the instability of air service 
from the CNMI's primary source countries.
    According to the Korea Tourism Organization, the long-term forecast 
for growth from this market is considerable, growing 33.3% from an 
estimated 13-million outbound travelers in 2011 to nearly 18-million 
travelers on 2016 (APPENDIX F).
D. Secondary Source Market of China
    The CNMI first began receiving Chinese tourists in 1998. This 
initially began with private sector investments by several hotels and 
was later expanded to include investment by the Marianas Visitors 
Authority, regional tourism businesses and others. At the end of 2004, 
the CNMI also attained Approved Destination Status (ADS), which allowed 
it to actively market CNMI tourism in China.
    The China market has shown and continues to show significant growth 
in terms of market share. In the 18 months prior to the implementation 
of the US immigration provisions in November 2009, China accounted for 
7% of total arrivals. In the 18 months since federalization, market 
share from China increased to 11% of total arrivals and continues to 
grow.
    In terms of air service, today the CNMI has up to 4 direct charter 
flights weekly from two of the most affluent cities in China-Shanghai, 
and Guangzhou. In additional, regional air carrier Fly Guam currently 
flies direct air service from China's Special Administrative Region of 
Hong Kong to the CNMI and Guam three times a week, with plans to expand 
flights into China and other Asian ports.
    The two full years from the achievement of ADS status until the 
signing of the CNRA saw increasing growth from China. However, due to 
the enactment of the CNRA and the delay in the Final Rules, the CNMI 
has not been able to capitalize on the full potential of this market 
with regular scheduled flights and long-term investment.
    Allowing Chinese nationals into the CNMI as Visa Waivered tourists 
is doubly vital to our vulnerable economy because of changes in travel 
demand from other source countries into the CNMI. The Chinese tourists 
comprise an even greater proportion of the total number of visitor 
entries and make the CNMI's reliance in them even greater than reported 
in the MVA's previous Official Comments to the Interim Final Rules 
submitted to DHS on in February 2009. In our previous report based on 
1997 data, visitor arrivals from China totaled 2,478, less than 1% of 
total arrivals to the CNMI. Based on FY 2010 data, Chinese arrivals 
comprise 11 percent, and for FY 2011 through May 2011, they comprise 
12% (APPENDIX D).
    The China market also represents a comparable level of economic 
impact per visitor as the average visitor from the primary market of 
Japan and a higher economic impact than the average visitor from Korea 
(APPENDIX E). In FY 2010, Chinese visitors accounted for 14% of total 
CNMI tourism revenue, contributing $39.4-million in direct economic 
impact and $104-million in indirect economic impact to our economy 
(APPENDIX C).
    What is most promising about the China market is the potential for 
future growth, as the country remains Asia's largest source of outbound 
markets. According to the China National Travel Administration, this 
year's outbound travel projections stand at 65-million. However, by 
2016 the number of outbound tourists is expected to grow 72% to an 
estimated 112-million. As Chinese outbound travel is projected to 
greatly outpace outbound travel from Japan, Korea, and Russia, the 
market share of China in the CNMI tourism industry is expected to grow 
from 11% in FY 2011, to date, to 17% of total market share by 2016 
(APPENDIX H).
    Even the federal government has undertaken immigration 
modifications to capitalize on this opportunity and diversify further 
into the China market. In 2008, the United States entered into a 
Memorandum of Understanding with China to streamline visa processing. 
As noted at the December 2010 U.S.-China Joint Commission on Commerce 
and Trade, since the initiation of travel under the MOU in 2008, total 
passenger travel from China to the United States has increased by 23 
percent, a total export value of $5.5 billion (as of July 2010). China 
is the country's fastest growing market and by 2015 it is projected to 
become the 6th largest arrival market for the United States (up from 
16th before the MOU in 2008). As further reported in the commission 
fact sheet, ``China and the United States agreed to implement Phase 3 
of the Memorandum of Understanding (MOU) opening the market for the 
sale of packaged leisure travel from China to the United States to 
three additional provinces in China. (The United States will continue 
to press China to broaden the scope of access to include additional 
provinces.) China and the United States successfully established online 
systems to ensure the timely exchange of lists of Chinese travel 
agencies and U.S. tour operators authorized to conduct business under 
the MOU.'' The continued expansion of this MOU is an acknowledgement of 
the federal government that modified and streamlined visitor entry 
requirements for Chinese tourists are both feasible and desirable, an 
approach the CNMI has long practiced with success and now proposes to 
continue under the Guam-CNMI Visa Waiver Program.
E. Secondary Source Market of Russia
    The CNMI first began marketing to Russian tourists in 1996. 
Following the enactment of the CNRA, the Russian market stumbled for 
several months due to several obstacles. The first was the exclusion of 
China and Russia in the Guam-CNMI VWP. Subsequently, when the Secretary 
of Homeland Security was empowered to provide parole to visitors from 
these countries, there was a short delay in the issuance of a 
diplomatic note to China and Russia. In addition, the CNMI lacked 
sufficient marketing funds to inform potential visitors in Russia of 
the parole option. Nonetheless, the country has finally rebounded and 
is recovering in raw numbers.
    In the 18 months prior to the implementation of the US immigration 
provisions in November 2009, Russia accounted for 1.8% of total 
arrivals. In the 18 months since federalization, market share from 
Russia has equaled 1.3% of total arrivals (APPENDIX G).
    Income derived from Russian tourists has become a far larger part 
of the total tourism income than in previous years. For example, a 
Russian visitor has an economic impact 4.5 greater than an average 
Asian visitor (APPENDIX E). From December 2009 through May 2011, 
visitor arrivals from Russia accounted for 7% of the total tourism 
revenue. In FY 2010, visitors from Russia contributed $18.7-million in 
direct economic impact and $49.4-million in indirect economic impact to 
the CNMI economy (APPENDIX C).
    Again, the foremost challenge of the market of Russian and other 
countries in the region is the availability of air service. Currently, 
there is no scheduled (regular) direct service available, and only a 
handful of charter flights have been flown since the markets opened. 
Most travelers through these countries must route through Seoul, Korea. 
In many cases, potential travelers are also not able track firm seats 
until immediately before departure when seats held by travel agents are 
released; this is not feasible for travel planning. However, 
negotiations are now underway for a connecting flight through Hong Kong 
via Fly Guam and a Russian airline partner. Considerations are being 
made to provide a two-destination package, Hong Kong and the CNMI, a 
move which would open up western Russia to the CNMI with much more 
convenience. One attractive component of the suggested package is that, 
at this time, visas are waived in both Hong Kong and the CNMI for 
Russians.
III. A CNMI Economy without China and Russia
    The CNRA expressly states that its implementation shall develop 
tourism and economic development for the CNMI. In its Interim Final 
Rules analysis of January 2009, DHS grossly understated the negative 
travel demand into the CNMI if visitors from China and Russia were 
required to obtain a U.S. visa prior to entry. DHS had estimated the 
CNMI would lose only 5,017 and 194 visitors annually from China and 
Russia, respectively. Contrary to this, as the MVA gathered in 
discussion with travel partners serving those countries, requiring a 
U.S. visa for visitors from China and Russia would have a 95% negative 
impact on travel demand.
    With an economy already depressed by the pullout of apparel 
manufacturing and international obstacles to the recovery of the 
tourism industry, the CNMI is on the verge of economic collapse. 
Business buildings stand vacant and are deteriorating along our main 
thoroughfares. Homes sit abandoned in our villages. The list of 
friends, associates, and family members who have moved off-island to 
find jobs and a better life continues to grow. Private sectors 
employees have felt the sting of shortened hours and layoffs for years. 
Public sector employees funded locally have suffered a 20% reduction in 
work hours, and when payday does come, it is usually late.
    Without continued access to the China and Russian tourism markets, 
the economic future of the CNMI is bleak, if not dead. Using actual FY 
2011 arrivals-to-date as a basis, let us examine a CNMI economy without 
visitors from China and Russia.
    The total direct and indirect impact of tourism revenue for FY 2011 
through May 2011 is $450.8-million. Without visitors from China and 
Russia, that revenue would have dropped by 25% or $110.8-million 
(APPENDIX I).
    The total number of government jobs supported by tourism revenue 
this year is 2,180. Without visitors from China and Russia, 15.2% or 
331 of those jobs would have been lost.
    The total number of private sector jobs supported by tourism 
revenue this year is 2,437. Without visitors from China and Russia, 
15.2% or 370 of those jobs would have been lost.
    Clearly, to enact a Guam-CNMI Visa Waiver Program without allowing 
the CNMI access to visitors from China and Russia would have a 
detrimental and long-standing effect on the economy and livelihood of 
the people and would be contrary to the intent of the CNRA.
V. Conclusion
    The CNMI economy direly needs continued access to visitors from 
China and Russia. As noted the Government Accountability Office report 
of June 23, 2011, ``American Samoa and Commonwealth of the Northern 
Mariana Islands: Employment, Earnings, and Status of Key Industries 
since Minimum Wage Increases Began,'' CNMI employment fell 13 percent 
from 2008 to 2009 and 35 percent from 2006 to 2009. The report also 
noted that in discussion groups, some tourism employers expressed 
concern that the primary difficulty was the CNMI tourism industry's 
decline.
    It is clear that the visitors from China and Russia are critical 
for reviving and sustaining the CNMI economy. The uncertainty about the 
Final Rules of the Guam-CNMI Visa Waiver Program has caused investors 
and tourism partners both local and international to hold off on 
current spending and on plans for future growth, as well. The sooner 
the Final Rules can be published, and the sooner they contain the 
certainty of continuity for our Russia and Chinese visitors, the sooner 
the intent of the CNRA to expand tourism and economic development can 
be accomplished.
    This intent may be accomplished by adding China and Russia to the 
list of allowable countries included under the VWP, or may it be 
accomplished by a separate ruling allowing their entry into only the 
CNMI, based on the CNMI's record to date of having visitors from China 
and Russia return to their respective countries and due to the limited 
amount of military assets and activity in the CNMI.
    The CNMI strongly recommends that the Final Rules be promulgated as 
soon as possible and that they contain a provision for continued visa 
waiver entry for Chinese and Russian citizens either into the CNMI only 
or into the CNMI and Guam.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] 67403.004
                                 

                                 .eps[GRAPHIC] [TIFF OMITTED] 67403.005
                                 
                                 .eps[GRAPHIC] [TIFF OMITTED] 67403.006
                                 

                                 .eps[GRAPHIC] [TIFF OMITTED] 67403.007
                                 
                                 .eps[GRAPHIC] [TIFF OMITTED] 67403.008
                                 
                                 .eps[GRAPHIC] [TIFF OMITTED] 67403.009
                                 

                                 .eps[GRAPHIC] [TIFF OMITTED] 67403.010
                                 

                                 .eps[GRAPHIC] [TIFF OMITTED] 67403.011
                                 

                                 .eps[GRAPHIC] [TIFF OMITTED] 67403.012
                                 
    .epsMr. Fleming. Thank you, Ms. Aldan-Pierce. Finally, we 
have Ms. Doctor. You are recognized for five minutes, ma'am.

 STATEMENT OF HAZEL DOCTOR, A RESIDENT OF THE COMMONWEALTH OF 
                  THE NORTHERN MARIANA ISLANDS

    Ms. Doctor. Thank you and good morning. Chairman Fleming 
and Members of the Subcommittee, my name is Hazel Marie Doctor. 
I am a 19-year-old college sophomore, and I thank you for 
giving me the opportunity to testify today as a U.S. citizen, 
United States citizen who faces a terrible choice as a result 
of Public Law 110-229.
    As the law goes into effect, I am going to have to choose 
between my country, America, and my family, and that is a 
choice no one should have to face. It is my hope that you will 
hear my testimony and consider amending the law Congress passed 
three years ago without being fully aware of the impact it 
would have on U.S. citizens like myself.
    Let me first tell you a little bit about myself and my 
family. I was born in Saipan on January 21, 1992, and I have 
lived on this island my whole life. I have a younger sister 
named Jackie who is 11 years old and was born and raised on 
Saipan as well. As persons born in the Northern Marianas my 
sisters and I are citizens of the United States. Like you, we 
are Americans, and throughout our lives we have looked on 
America as our home.
    But my story really begins with my wonderful parents. My 
father Alex and my mother Tina are two of the most hard-working 
people I know. They have resided and worked in the Marianas for 
over 20 years after leaving the Philippines in search of a 
better life. They, too, call America their home, but unlike my 
sister and me our parents are not U.S. citizens. They are not 
even permanent residents. Instead, they are considered 
temporary workers even after all these years. They remain 
nationals of the Philippines because local Mariana's 
immigration and labor laws did not afford them the opportunity 
to become full members of this U.S. democratic society.
    My parents, along with thousands of other temporary 
workers, have contributed enormously to the economic 
development of the Commonwealth as nurses, business managers, 
construction workers, and in countless other jobs. Over time my 
parents, like so many other people, put their lives here. They 
put down roots and raised their children. They volunteered in 
the community and formed life-long friendships. In short, they 
became part of the fabric of Marianas society.
    At this point it isn't clear what will become of us, our 
parents, our relatives, our families. It is the intention of 
Public Law 110-229 to send all foreign workers home. That 
includes my parents. So our family will be faced with some 
difficult decisions. Should my sister and I go with our parents 
to the Philippines to keep our family together or stay behind 
in America, the only home we have ever known?
    But why should we have to choose between our family and our 
country? We do not want to be separated from our families and 
the one home we know and love. We want our family and all the 
families of the Northern Marianas to stay together. We also 
want to continue living here in the Northern Marianas to pursue 
our own goals and dreams. For me, my wish is to come back after 
college as a licensed psychiatrist and still see my parents and 
my sister living in their home in Saipan. It is also my wish to 
see other citizens who are the children of long-term guest 
workers return to the Commonwealth as physicians, accountants, 
and more to serve the community and the economy.
    We believe separating our families would be immoral. It 
would be a grave injustice and a critical democratic error, so 
we ask you to please protect our families. We ask you to 
support H.R. 1466 which would allow our families to remain in 
the Northern Marianas with the same rights they have under 
Mariana's immigration law, and we ask you to act now for the 
sake of our families and for our future.
    Thank you again for giving me the opportunity to speak 
before all of you.
    [The prepared statement of Ms. Doctor follows:]

     Statement of Hazel Marie Doctor on P.L. 110-229 and H.R. 1466

    My name is Hazel Marie Doctor. I am a nineteen-year-old college 
sophomore.
    Thank you for giving me the opportunity to testify today as a 
United States citizen who faces a terrible choice as the result of 
Public Law 110-229.
    As this law goes into effect, I am going to have to choose between 
my country--America, and my family.
    That is a choice no one should have to face.
    It is my hope that you will hear my testimony and consider amending 
the law Congress passed three years ago without being fully aware of 
the impact it would have on U.S. citizens like myself.
    Let me tell you a little bit about myself and my family. I was born 
on Saipan on January 21, 1992 and have lived on this island my whole 
life. I have a younger sister named Jackie who is eleven years old and 
was born and raised on Saipan as well. As persons born in the Northern 
Marianas, my sister and I are citizens of the United States. Like you, 
we are Americans. And throughout our lives, we have looked on America 
as our home.
    But my story really begins with my wonderful parents. My father, 
Alex, and my mother, Tina, are two of the most hard-working people I 
know. They have resided and worked in the Marianas for over twenty 
years after leaving the Philippines in search of a better life. They 
too call America their home. But unlike my sister and me, our parents 
are not U.S. citizens. They are not even permanent residents. Instead, 
they are considered ``temporary'' workers, even after all these years. 
They remain nationals of the Philippines because local Marianas 
immigration and labor laws did not afford them the opportunity to 
become full members of this U.S. democratic society.
    My parents, along with thousands of other ``temporary'' workers, 
have contributed enormously to the economic development of the 
Commonwealth as nurses, business managers, construction workers, and in 
countless other jobs. Over time my parents, like so many other people, 
built their lives here. They put down roots and raised their children. 
They volunteered in the community and formed lifelong friendships. In 
short, they became part of the fabric of Marianas society.
    At this point, however, it is unclear what will become of us, our 
parents, our relatives, our families. It is the intention of Public Law 
110-229 to send all foreign workers home. That includes my parents. So, 
our family will be faced with some difficult decisions. Should my 
sister and I go with our parents to the Philippines to keep the family 
together, or stay behind in the America, the only home we have ever 
known?
    But why should we have to choose between our family and our 
country? We do not want to be separated from our families and the one 
home we know and love. We want our family--and all families who call 
the Marianas home--to be able to stay together. We also want to 
continue living here in the Northern Marianas to pursue our own goals 
and dreams. For me, my wish is to come back after college to serve as a 
psychiatrist and still see my parents and my sister living in their 
home on Saipan. It is also my wish to see other U.S. citizens who are 
the children of long-term guest workers return to the Commonwealth as 
physicians, accountants, and more to serve the community.
    We believe separating our families would be immoral; it would be a 
grave injustice and a critical democratic error, so we ask you to 
protect our families. We ask you to support H.R. 1466, which will allow 
our families to remain in the Northern Marianas with the same rights 
they had under Marianas immigration law. And we ask that you act now 
for the sake of our families and our future.
    Thank you again for giving me the opportunity to speak before you.
                                 ______
                                 
    Mr. Fleming. Thank you, Ms. Doctor, for your testimony and 
thanks to all the witnesses for your very fruitful testimony 
this morning.
    At this point, we will begin Members' questions of the 
witnesses. To allow all Members to participate and to ensure we 
can hear from all the witnesses today, Member are limited to 
five minutes for their questions. However, if Members have 
additional questions we can have more than one round of 
questioning. I now recognize myself for five minutes.
    It is interesting a lot of comments that are made this 
morning relative to immigration are issues we are struggling 
with here in the continental United States. Maybe we can find 
some of our solutions through our discussions today.
    First of all, I would like to ask Ms. Ryan, the Committee 
is under the impression that certain security measures, 
electronic travel authorization, biometric entry/exit 
requirements are needed in Guam in order for China and Russia 
to be added to the Guam/CNMI waiver program. Is this still the 
case?
    Ms. Ryan. Thank you, Mr. Chairman.
    In implementing the CNRA, the immigration piece related to 
the inspections at the ports of entry in CNMI and also in Guam 
there is a presence of CBP officers, and they have access to 
the electronic data they need, and in fact there is preflight 
inspection that occurs, so we are able to inspect people and 
know about their history before they arrive, and they get a 
full screening both on CNMI and in Guam prior to their arriving 
and when they arrive, so we have access to the data that we 
need to do security screenings for inspections.
    Mr. Fleming. OK. So just to be sure, I want to be sure I am 
clear on this, so there are no further barriers with respect to 
electronic travel authorization. All of that is now fully in 
place and resolved?
    Ms. Ryan. Yes, sir.
    Mr. Fleming. Just as a matter of interest, you say that is 
done prior, I guess, to a flight into Guam and CNMI and then 
upon arrival. Where does that occur on the first leg?
    Ms. Ryan. When somebody seeks admission to the United 
States as a visitor, we actually get records from the airline 
industry before their arrival, and we run them for security 
screening measures. Then when somebody presents themselves for 
admission at a port of entry, we have to determine whether they 
are admissible to the U.S., and there are about 60 grounds of 
inadmissibility that an inspector is looking at to determine 
eligibility for arrival, so there is security screening both 
before and upon arrival for each applicant for admission.
    Mr. Fleming. Does this happen under the visa waiver 
program?
    Ms. Ryan. Yes, sir. Under visa waiver we still get 
information about applicants for admission prior to arrival. 
The electronic data is still submitted to CBP, and then it is 
also--under visa waiver you are still--we still examine you for 
whether you are admissible to the U.S. and so we use that 
process both in Guam and CNMI.
    In terms of whether it is ESTA, the computer system you 
referred to, that is an expensive system and we are not using 
that because of appropriations, but we have the layered 
security screening that is required in both CNMI and in Guam, 
both prior to arrival and then at the port itself.
    Mr. Fleming. So are there other security concerns for 
prohibiting the inclusion of Russians and Chinese?
    Ms. Ryan. The Secretary hasn't yet made a determination 
regarding the proposal about whether to extend visa waiver to 
Russians and Chinese nationals. Security issues are always at 
the top of her list of considerations, obviously, as well as 
other factors that she can consider which would include the 
economic conditions. So we have evaluated the--we are in the 
process and have asked for intelligence about any security 
threat that would be posed by Russian and Chinese nationals.
    Mr. Fleming. All right. So as I understand it, this is a 
two-step process. The first step is documentation only. That is 
prior to their leaving wherever their original site and then 
when they arrive to Guam or CNMI where they land, they are then 
screened both for documentation and biometrically at that 
point. But you are saying that still there are some unresolved 
issues with respect to the Chinese and the Russians, and that 
is a hang up because you have heard today--I know when I was on 
Guam the Japanese travel industry was a big part of the 
economy. That was the big honeymoon place back in those days, 
and I know that has flattened out, and there is a very big 
potential with Chinese in particular because of the sheer size 
of the nation.
    So what is our barrier there? What are we running into?
    Ms. Ryan. First of all, with respect to CNMI, as you know, 
there have been parole Russian and Chinese nationals, and so I 
would agree that has been a very good program that is run 
fairly well, both with respect to Chinese and Russian 
nationals. There are questions about who in that population 
might choose to travel and so an evaluation has to be carefully 
done about whether there would be any national security issues 
or public safety issues in permitting visa waiver for both Guam 
and CNMI, and the Secretary, when the first rule was 
promulgated, took into consideration the economic factors in 
granting parole, but she will make a decision, I hope soon, 
with all the facts available to her about whether to extend the 
visa waiver program to Chinese and Russian nationals into Guam 
and CNMI, and I know that is a great issue to both CNMI and 
Guam, and she is very aware of that, and she has been looking 
at the totality of the circumstances, the factors to consider.
    Mr. Fleming. My time is running out but just so I can be 
clear, the issue on the Chinese and the Russians is really the 
only thing left, the only piece left is Secretary of Homeland 
Security herself?
    Ms. Ryan. The authority is with the Secretary of the 
Homeland Security under the Immigration Nationality Act to make 
a determination on whether to permit visa waiver or travel 
extended to other countries as she did with the 12 that are in 
place right now.
    Mr. Fleming. And we are waiting for her decision at this 
point?
    Ms. Ryan. Yes, DHS is in the final stages of putting that 
rule together.
    Mr. Fleming. Right. OK, thank you. My time is up and I now 
yield to the Ranking Member Mr. Sablan.
    Mr. Sablan. Thank you very much, Mr. Chairman.
    Ms. Ryan, it looks like you are going to have a busy 
morning here. Let me start here.
    The one thing P.L. 110-229 requires is an interagency 
agreement describing Federal agency rules and responsibilities. 
I understand that in March of this year a memorandum of 
agreement was finalized between Federal agencies, and 
understanding the limitations of the time here, could you 
describe each agency's role and responsibility here?
    Ms. Ryan. Yes, sir. Very briefly, DHS has, of course, 
responsibility for the administration and enforcement of the 
immigration laws. Department of State has responsibility for 
issuing visas. Department of Justice has responsibility for the 
immigration courts. Department of the Interior administers the 
authorities relating to the technical assistance to the CNMI, 
and then the Department of Labor adjudicates the labor 
certificates and applications, and would make prevailing wage 
determinations.
    Mr. Sablan. And you have a way of coordinating all these 
efforts?
    Ms. Ryan. Yes, sir, we do.
    Mr. Sablan. The Federal Government way?
    Ms. Ryan. Yes, we are trying very hard to do that in a 
coordinated fashion.
    Mr. Sablan. That is the way. Could we get a copy of that 
agreement? Could the Subcommittee get a copy of that?
    Ms. Ryan. Yes, sir. We would be pleased to provide it.
    Mr. Sablan. Thank you. The CNMI only transitional worker 
regulations are currently under review by OMB. Why does it take 
so long to get the regs. to OMB?
    Ms. Ryan. The regulation process is a long one. I apologize 
to you for that, but it did take a long time because we were 
carefully considering all the various aspects of it. I am 
hopeful that it will be promulgated soon, and that will be 
another reg. that we will have out in the final status. But it 
was coordination within the government and trying to answer all 
the questions that were raised in the implementation phase to 
anticipate that.
    Mr. Sablan. Could we expect--I mean, we have seen the first 
one that was issued, you know, sometime back. Is the Department 
responsive to the extensive comments provided by our 
government, by the Guam government, by the CNMI workers? Could 
we say that you guys took a serious look at these things and 
reacted to it, responded to it, did something about it because 
you had to?
    Ms. Ryan. Ranking Member Sablan, I can't really talk about 
the final rule until it is actually promulgated, but yes, we 
absolutely took the comments of our stakeholders quite 
seriously in developing the final rule.
    Mr. Sablan. And we expect the regs. out within the 90-days?
    Ms. Ryan. Yes, sir.
    Mr. Sablan. We don't really think it is going to back to 
the Department, is it, to OMB?
    Ms. Ryan. I hope we can get it out as quickly as possible, 
but I cannot make any representations on the speed at which it 
will come from OMB, but it is at OMB which is a very good sign.
    Mr. Sablan. By the time everything went really well, hunky-
dory, maybe at the latest it would be September, no?
    Ms. Ryan. Hopeful, that is absolutely the case.
    Mr. Sablan. And your Department is ready to address, to 
prepare for the volume of applications that will have to be 
processed before November 27?
    Ms. Ryan. Yes, sir. We have actually been anticipating that 
there would be a large volume, and we have been coming up with 
plans in order to address that.
    Mr. Sablan. Yes, your Hawaii, Guam and CNMI offices are 
prepared for this?
    Ms. Ryan. Yes, and our California Service Center.
    Mr. Sablan. All right. And do you have any plans to do 
outreach in the Commonwealth?
    Ms. Ryan. Absolutely, we will do outreach. We will have 
information on the website as well as in face-to-face meetings 
and we will try to make sure that everybody is aware of the way 
that the rule will operate.
    Mr. Sablan. But because this is the Federal Government we 
never know what can happen, so in case it doesn't--the 
regulations don't come out by November 27, is the Secretary 
prepared to use her parole authority to allow CNMI umbrella 
permit holders to remain lawfully in the Commonwealth until the 
regulations are issued and the applications are adjudicated?
    Ms. Ryan. I appreciate how important this is and your 
desire to have reassurance on contingency plans, and yes, we 
have contingency plans. We hope not to have to employ them. We 
hope to have the rule out and employers and petitioners well 
aware of how to take advantage of the new program.
    Mr. Sablan. I will be back with you.
    Good morning, Hazel. Hazel, good morning.
    Ms. Doctor. Good morning.
    Mr. Sablan. You are not going to fall asleep there on us, 
are you?
    Ms. Doctor. Oh, no, I am fine here.
    Mr. Sablan. Isn't this wonderful having you 8,000 miles 
away and testifying before Congress? Thank you, Chairman 
Fleming. Chairman Fleming allowed the use of the video and we 
really appreciate it.
    But Hazel, you are not a boastful person. I have known you 
practically all of your life. You used to chill out at my house 
because you were classmates with my daughter, and you graduated 
valedictorian of Mount Carmel High School. I know you have been 
offered a $60,000 scholarship to come to the university in the 
States. You said you plan to become a psychiatrist, return to 
the Northern Marianas to use your skill. We need smart, young 
people with professional training to build our economy, to make 
the Commonwealth a prosperous and a beautiful community to live 
in.
    Let me ask, what if your parents are forced to leave? Are 
we going to lose you?
    Ms. Doctor. Most definitely. It would definitely be 
heartbreaking for me to come back to the islands knowing that 
my foundation, the people that I have grown up with are gone. 
It would be very sad to see the same people that I grew up with 
whose parents are also non-resident workers, to, you know, 
probably come back with that same feeling or maybe not at all, 
and these are the types of people who do have the intention of 
coming back as engineers, as accountants, as business managers 
and other great and very necessary jobs that are critical and 
important for the economy, economic development.
    Mr. Sablan. I know my time is up. Just one thing. We have 
heard testimony described as families being held by H.R. 1466 
are unemployed, unemployable, and without means of support. 
Hazel, 20 years, your parents have been there for 20 years. Can 
you tell us about your parents? What do they do for a living? 
How long have they worked in the Northern Marianas? How did 
they get to private school?
    Ms. Doctor. Well, they are both accountants and they have 
been working here for almost two decades, and they managed to 
get me through a private school, both my sister and I, through 
a lot of savings and some great financial aid. They have been 
working very hard and I can see that parents with children just 
like me are doing the same thing. They, too, have a low income 
threshold and try to make a great living with whatever they can 
to send their children to a better way of life here on the 
islands, and I really hope it continues that way.
    Mr. Sablan. Thank you, Mr. Chairman. My time is up.
    Mr. Fleming. I thank the gentleman, the Ranking Member. 
Now, Mr. Young, sir, you have five minutes.
    Mr. Young. Thank you, Mr. Chairman. I don't have questions 
now but I will submit questions to Ms. Ryan, and my interest in 
this is very clear. The delegate came to me and said this is a 
problem in my district, and the lady from Guam mentioned the 
same thing, and I want to believe that if it is their problem I 
will help them solve it. I believe this very strongly. I always 
have and always will.
    I just have one question for the sponsor. We are talking 
about 4,000 people, correct?
    Mr. Sablan. Yes, sir. GAO just said that an Interior's 
report said that.
    Mr. Young. And there is no chance of that increasing if we 
pass this law?
    Mr. Sablan. No, sir, because on May 28th you have to have 
been a resident on May 28, 2008, and on the day of the 
enactment of this, so there are two ends of law. No, sir, it 
doesn't have any chance of increasing.
    Mr. Young. Now, is there any restriction of these people if 
they don't meet the income threshold? I understand they have to 
be making a certain amount of money but they are under minimum 
wage, I believe, some of them, so that is a problem. Can this 
law that you are proposing overcome that?
    Mr. Sablan. Presently, sir, Chairman Young, the reason I 
am--personally many of these people, the Marianas' citizens, 
have for many purposes of law met the Immigration Nationality 
Act requirements. Some of them are walking around with one more 
additional requirement they need to fill and it is they need to 
fill a financial sponsor requirement, and that is holding back 
some of these people, holding back from converting the status.
    Now, if 1466 does not help these people, those people who 
have for purposes of the law met all the other requirements 
will on November 28th be deportable.
    Mr. Young. Will be deportable, but can one of the 
departments, the Homelands or Interior, stop that deportation?
    Mr. Sablan. I think they do. They may disagree with me but 
I think the Secretary of Homeland Security has the authority to 
issue a parole in place for these people except the parole in 
places are discretionary and they are only for two years at a 
time, or annual, they are annual. They are for one year at a 
time. That is free. That has no income threshold requirement, 
but it is the same thing that they go through every year now, 
it is one year at a time, and two years from now we could have 
a different Secretary of Homeland Security and they would just 
change their mind about the whole thing and then we will be in 
the same place we are at today.
    Mr. Young. That is why it is important to pass this 
legislation.
    Mr. Sablan. And urgent. Promptly yes.
    Mr. Young. Urgently. Last may I ask you, the opposition to 
this would be based upon what?
    Mr. Sablan. I have absolutely no idea.
    Mr. Young. OK, the reason I ask that, and by the way, young 
lady, you do a great job. You are going to go a long way in 
this life of yours. You speak very well. You are well educated, 
a classic example, a classic example of parents putting their 
money into the future, and it would be wrong to have you 
separated from your parents.
    So what we have to do is look at the solution and get it 
passed. Unfortunately, we have to remember I think we would 
have luck here. You have a sink hole on the other side, like it 
is on I-95 right now, or 495. I don't know whether you heard 
the news today, the highway sunk.
    Mr. Sablan. Oh, yes.
    Mr. Young. Well, that is the Senate side.
    [Laughter.]
    Mr. Young. So we have to fight that battle but let us see 
if we can do it. I want to congratulate the delegates for their 
work, and the Members that are here, and let us go ahead and 
get this legislation.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Fleming. Thank you. The gentleman from Alaska yields 
back.
    Next, Mrs. Bordallo, the gentlelady from Guam.
    Mrs. Bordallo. Thank you very much, Mr. Chairman, and I 
want to thank Congressman Young for his kind words, and I know 
he will help us as well as yourself.
    Before I begin my questioning I would like to recognize a 
few people in the audience. We have our Speaker, the Guam 
Legislature who is here. We have Joann Camacho, the former 
first lady of Guam and general Manager of the Guam Business 
Bureau, and I would also like to note the presence of Senator 
Tina Muna Barnes who is with the 31st Guam Legislature and she 
chairs the Committee on Municipal Affairs, Tourism, Housing, 
and Recreation. They are tireless advocates for Guam's tourism 
industry, and I do appreciate it, and I want to say a warm 
``Hafa Adai'' to everyone in the audience today, my friends 
from CNMI and Guam.
    If first want to ask Governor Calvo, thank you for your 
testimony, Governor. Can you give the Committee a sense of the 
economic importance of extending the Guam CNMI visa waiver 
program to China and Russia? And how important is this to 
Guam's future economic prosperity?
    And further, some have suggested you can't have a military 
build up and an expansion of a visa waiver. Now, I believe that 
is a false choice for the people of Guam, and as such, can you 
comment on where local commanders on Guam, in particular, 
Admiral Buchan, may be on the issue of extending waiver to 
Russia and China in Guam? And if there were to be security 
concerns, then I would expect those concerns to be raised by 
the local commanders first. Can you comment on that?
    Governor Calvo. Sure, on two points. On the economic 
importance to Guam, again we have a 13.6 percent unemployment 
rate here. 2009, we were at 9 percent. Within that two-year 
period we have created 1,000 new jobs. The big question, of 
course, how the heck did that happen? How did you get more jobs 
created but your unemployment growing? And that is why it was 
so important to bring up the FAS question, because we have had 
87 percent growth in five years of FAS immigrants from 2002 to 
2007, so we have a fast growing population. Right now because 
of our military industry and our tourism service industry, 
those are the two pillars.
    The military side right now, we are not too sure, again 
things are happening in the Senate with the Marine buildup, 
which I am advocate for, but when we had 900,000 tourists 
coming from Japan, our biggest market, out of a total of 15 
million outbound market out of Japan, when that tsunami hit we 
experienced a 30 percent drop off on the Japanese market, and 
again it has had a significant impact and has thrown us back 
into a recession.
    We look at China, and I go back to Japan, 15 million 
outbound tourists, China, 55 million, Russia, 13 million. The 
average American tourist spends around 100 to 150 dollars a 
day. The Japanese tourist spends about 300 some dollars a day. 
The Chinese tourists spends $600 a day and the Russians spend 
$900 a day. That is just how they spend.
    The importance to Guam for that access and how it can help 
both Guam and Northern Marianas in terms of our economic well 
being has a positive effect to the United States. You know, one 
of the things I am concerned about, I have been talking with 
the State Department, I am going from here to Utah for the 
Governors Conference, and they have a whole bunch of Chinese 
Governors there meeting with American Governors to try to get--
how we can get this bilateral trade to get a bunch of Uwan back 
to the United States, so we are trying to build this--even this 
deficit, but again, the most easiest way to do it is to get 
Chinese tourists who are just four hours a way to Guam.
    Security issue, I for the life of me can't understand it. 
The largest group of college students in the United States 
today coming in from a foreign country, they come from Mainland 
China. They are coming to our universities. I have talked to 
our military commanders back there in Guam. They are not 
concerned about it. I have talked to Undersecretary Work. They 
don't have an issue with it. I am not too sure. As far as I am 
concerned when I am going to Washington, D.C. we have been 
trying to find out where the potential areas of the concern. I 
am not seeing it from the Defense Department so I assume it is 
coming from Homeland Security.
    Mrs. Bordallo. Thank you. Thank you very much, Governor. 
You did answer the question, and I am taking up a little of 
what the Chairman had mentioned to Secretary Ryan. You 
specifically said security is not an issue. Did I hear that 
right?
    Ms. Ryan. I said, Congresswoman, that we take into account, 
or the Secretary, through the interagency consultation with the 
Department of the Interior, Department of Defense, and 
Department of State would factor in whether there was a 
security risk in extending VWP for Chinese and Russian 
nationals, and she has not made her final decision yet, but 
that would be a factor as well as the economic opportunity that 
such travel might bring.
    Mrs. Bordallo. Maybe I can understand. I thought I 
understood that the decision now is solely up to the Secretary. 
You have done your work.
    Ms. Ryan. The Secretary of Homeland Security has the 
authority under the INA. She is going to make a decision after 
we had consulted with those departments that I have talked to 
you about.
    Mrs. Bordallo. I did meet the Secretary just recently 
during a caucus meeting, and she told me she was going to get 
back to me, and I spoke to her about the urgency of this, and I 
want to ask a couple of pointed questions here if you would.
    The Department of Homeland Security, how much longer do you 
have to study what needs to be done to issue the final rule? We 
have been on hold for too long, and I just want an idea of when 
you think the decision from the Secretary will take place. Can 
you give us any time frame?
    Ms. Ryan. As someone who has worked as an Executive Branch 
lawyer, I hate to give a deadline that I can't promise and I 
don't control when she is going to take decisions, so I would 
say I fully appreciate how important this is to Guam and to 
CNMI, and I will make sure I do everything possible to urge a 
decision, but I can't give you a deadline, but I will take back 
exactly what you have said to her, and make sure that her 
counselors are aware of how important this issue is to you and 
to the Committee.
    Mrs. Bordallo. We are simply asking for parole authority. 
That is what we are asking for. Just as the Northern Marianas 
gets at this point, and I just don't understand. I thought the 
decision was going to be made before the end of last year, and 
we are still holding onto this, and it is very frustrating to 
say the least, and I was promised that a decision would be made 
very soon.
    So, you don't have an answer to any of these questions. In 
other words, security is not entirely out?
    Ms. Ryan. I would have to say representing the Department 
of Homeland Security that looking at the national security 
issues with respect to immigration is always--it is fundamental 
to our job, so that is part of the calculation she would make 
in deciding whether to extend parole to Guam or to extend VWP 
to Chinese and Russian nationals in Guam and CNMI. It is always 
going to be a factor in any calculation she makes as well as 
the economic issues and other factors that are available to 
her.
    Mrs. Bordallo. And for the record, Secretary, Admiral 
Buchan, who spoke on behalf of DOD, he is our local admiral, he 
stated very clearly no concerns on their part, so I don't 
understand how that security just keeps coming up over and 
over.
    Ms. Ryan. Thank you very much for that information. I 
wasn't aware of his view but I will let her know that as well. 
We have been talking to DOD here in Washington, but I am very 
pleased to take that information back to her.
    Mrs. Bordallo. Thank you very much and I yield back, Mr. 
Chair.
    Mr. Fleming. I thank the gentlelady. Next the Chair 
recognizes the gentlelady from Hawaii, Ms. Hanabusa.
    Ms. Hanabusa. Thank you very much, Mr. Chair.
    Secretary Ryan, have you had the opportunity to read the 
testimony of the Governor of CNMI?
    Ms. Ryan. Are you talking about today's testimony?
    Ms. Hanabusa. Right.
    Ms. Ryan. No, I have not read it in full. I have only been 
able to listen to his oral testimony today, but I will do that 
when I get back to my office.
    Ms. Hanabusa. Well, let us just go through what you heard 
in terms of his testimony. He has raised an opposition to this 
particular measure, about 11 different concerns. Do you know if 
the rule that you are proposing to implement, I think, by mid-
September was your estimate, would be addressing his concerns 
that you heard him testify to?
    Ms. Ryan. I understood the Governor to be talking about the 
people that aren't currently covered in the transition rule, 
and stating an opposition to that, and then I heard my 
colleague from GAO suggest the number that he had raised might 
be somewhat inflated.
    My understanding with the investor rule is that we will (a) 
be ready for it in advance of the November 28th deadline; and 
that we are fully engaged in having it be operationalized. I 
don't think it would cover the people covered in Mr. Sablan's 
bill as I understand it. They are a different category of 
people.
    So, I think what we have committed to is looking at parole 
authority for certain groups that were not covered in the CNRA, 
and also working with the Committee on the legislation itself 
as it moves forward.
    Ms. Hanabusa. OK, that is an important point because I want 
it to be clear in my mind that you are not talking about the 
same group that Mr. Sablan is speaking to. He is talking about 
4,000 very specific individuals. So the rule that you have 
testified to that will take effect in mid-September will not 
cover those 4,000, so Ms. Doctor's, for example, her parents 
would fall through the cracks.
    Ms. Ryan. The rule that will come out relating to the 
worker, the worker rule, will permit petitioners to file for 
persons there, but as I understand it the categories of people 
that Mr. Sablan's bill is designed to address would not 
necessarily be covered by that. There may be some crossover in 
some cases. I don't want to mislead the Committee, but my 
understanding is he is trying to help four specific groups of 
people, that maybe three to four thousand persons in size that 
would not automatically be covered by our rule that will come 
out before November 28th, hopefully.
    Ms. Hanabusa. So assuming that Ms. Doctor's parents fall 
into the category that is not covered, what then will happen to 
them come November?
    Ms. Ryan. Well, as I understand from Ms. Doctor, and I 
don't have access to her family's records, but as I understand 
her parents right now don't have the ability post-November 28th 
to remain lawfully in CNMI absent either parole or some other 
legislative action. But again, I don't have specific access, 
but that is how I understand the situation to be in Ms. 
Doctor's case.
    Ms. Hanabusa. So in that situation the only way that we 
would be able to ensure that Ms. Doctor will continue her 
education in the United States and return to CNMI as a 
psychiatrist would be if her parents are somehow covered under 
1466?
    Ms. Ryan. As I understand it, there is, I think, three 
options. If the bill passes, that presumably her parents would 
be covered, there would be parole, the potential for parole, 
and the third option would be if her parents' employers 
petitioned for her and got her employment status based on their 
working relationship with her, so I think there are three 
avenues that I think are available, depending on the actual 
circumstances.
    Ms. Hanabusa. And Ms. Ryan, given the fact that, and this 
is no insult but it has taken so long and we are talking about 
November of this year, is it that the bill is probably the most 
fail/safe way to address this specific group of 4,000?
    Ms. Ryan. On the investor rule, I would say that while it 
has taken a long time part of the reason that that is the case 
was that we were enjoined from implementing it by Federal 
litigation, so that has been a part of the delays that I should 
say.
    I think, given the timing here, we are very aware that we 
need to get our rule out so that employers have opportunities 
to make those filings. I am not sure about the calendar of the 
Congress and which one will happen first. I suspect our rule 
will get out before there would be an opportunity----
    Ms. Hanabusa. We already know that your rule will not 
address this group of people.
    Ms. Ryan. It would address it potentially, as I said, some 
of them.
    Ms. Hanabusa. Right.
    Ms. Ryan. Because if they had an employer who could file a 
petition on their behalf, but as I understand it from the 
description of the Ranking Member, it would not cover all of 
them.
    Ms. Hanabusa. Thank you very much. Thank you, Mr. Chair.
    Mr. Fleming. I thank the gentlelady. Next recognized is Mr. 
Faleomavaega. Thank you, sir. He is passing on questions. Thank 
you, sir.
    Mr. Faleomavaega. Thank you, Mr. Chairman, and I do want to 
commend you for your leadership and initiative in bringing 
these two pieces of legislation for consideration, and I also 
thank your Ranking Member for his services and leadership in 
working in this Subcommittee.
    I do want to offer my personal welcomes to our 
distinguished guests on the panel here as witnesses: my good 
friend Governor Fitial and also Governor Calvo. Dr. Gootnick, 
always good to see you. Secretary Ryan and Mr. Nik Pula with 
the Office of Insular Affairs, and Ms. Pierce, we welcome you 
for your testimony that has been born here.
    I have so many questions I don't know where to begin with, 
but am I correct, Mr. Chairman, that we ought to focus 
primarily on Mr. Sablan's bill, H.R. 1466?
    Mr. Fleming. That is correct, but we are going to have a 
second round of questions.
    Mr. Faleomavaega. I understand that. So I do want to thank 
Governor Fitial for his testimony, and very substantive I might 
say, and Governor Calvo, I am going to reserve my questions for 
you in the next panel dealing with our situation in Guam.
    I thought your comments, Governor Fitial, were quite 
substantive in the fact that you have twice made testimonies 
before this Subcommittee on the same issues--failure to grant 
visa waivers, failure to depart illegal aliens, failure to 
monitor exits of tourists, failure to provide Congress with 
useful reports.
    I understand there is some little disagreement with you and 
my good friend Mr. Sablan and H.R. 1466. Do you think there may 
be a possibility that we can work out some basis of agreement 
in terms of the substance of the proposed bill, and with what 
Mr. Sablan has provided in H.R. 1466?
    Governor Fitial. Absolutely. Let me just make it very clear 
that we are talking about four classifications of, you know, 
U.S. citizens, and I have no qualms over the first three. I am 
only concerned about the fourth category which would grant, you 
know, citizenship to parents of U.S. citizen children.
    Mr. Faleomavaega. So, Governor, your concerns have been 
well taken, so we can work with Mr. Sablan in a way that we can 
cure some of the concerns that you are raising.
    Governor Fitial. Right, and the concern of, you know, the 
young lady here, her parents--as long as they have permits, 
working permits, they have no problem. I want to make that very 
clear. They will not be deported as long as they have valid 
working permits.
    Mr. Faleomavaega. Well, you know we have a similar 
situation here in our country where we have parents who were 
not here legally but children were born here as U.S. citizens, 
and questions of deportation come into play and a very, very 
serious problem that we are faced with here in our country, and 
I realized the sensitivities involved here, and I sincerely 
hope that the concerns that you have raised here, Governor, 
will be such that we can work with my good friend Mr. Sablan 
and----
    Mr. Sablan. Would the gentleman----
    Mr. Faleomavaega. I would gladly yield but I have real----
    Mr. Sablan. Just one comment.
    Mr. Faleomavaega. Please
    Mr. Sablan. Because I don't think it in the Commonwealth's 
place to now say that the parents of individuals like Hazel 
Doctor will not be deported because it is Ms. Ryan's department 
that controls immigration, no longer Governor Fitial, and that 
is the law. So we can't continue to be delusional that they 
will be fine when the Commonwealth no longer controls the 
borders. That is all.
    Mr. Faleomavaega. I thank the gentleman, and I am going to 
ask Secretary Ryan----
    Governor Fitial. If I may.
    Mr. Faleomavaega. Please, Governor.
    Governor Fitial. That is why I am proposing, you know, an 
H-5 visa that would accommodate workers instead of just 
families, OK. So if we can accommodate the parents of that 
young lady, you know, to continue working, then that is my 
proposal. They will never be deported.
    Mr. Faleomavaega. OK, Governor, I realize that my time is 
short but I will definitely raise that issue with my good 
friend Sablan.
    Secretary Ryan, it is my understanding the Department of 
Defense is with the visa waiver program, the Department of the 
Interior, but the State Department raises objections, and at 
this point in time Homeland Security has not issued. Is it 
because of the State Department's objections or what seems to 
be the problem?
    We keep talking about security issues. We have 680,000 
foreign students attending American colleges and universities 
and the Chinese are number one, about 100,000 of those students 
are from China. And so where are the security concerns that 
Homeland Security might have on the visa waiver program for the 
Russians and the Chinese to come?
    Ms. Ryan. Well, respectfully, sir, I would say that the 
students that come here from all over the world are screened 
and actually obtain a visa, and so they are interviewed to make 
sure that they don't pose a threat to public safety or national 
security. So, again, it is the totality of the circumstances 
that the Secretary looks at. I would be recalcitrant in my job 
if I didn't identify national security or public safety as a 
critical factor in any determination on making categorical 
parole decisions or visa waiver.
    But I am not here to say which agencies are coming out 
which way, but I can assure you that we are working in 
consultation with those agencies to get a decision from the 
Secretary.--
    Mr. Faleomavaega. Well, we have been saying that for the 
past three years, Ms. Ryan, and we still haven't solved some of 
these problems.
    I am sorry. I yield back. My time is up.
    Ms. Ryan. May I make one more point about Ms. Doctor's 
family which I think is important to the discussion?
    If the bill were to pass, then her family would have, of 
course, access to lawful permanent residence first and then 
citizenship. The other opportunity would be if her parents were 
able to have their employer petition for them. That, of course, 
would be just a transitional or it would be a temporary 
situation because it is a transitional worker, and that non-
immigrant status would sense that, so they would not have any 
permanent ability to remain in CNMI, and I guess I wanted to 
make that clear to the Committee and to understand the 
differences in the options that I offered.
    Mr. Fleming. Well, we have completed a round of questioning 
and I do thank the witnesses for your testimony and your 
willingness to answer questions very straightforwardly. I think 
that the panel here would like to have another round of 
questions if you are up to the task, so therefore I am going to 
go ahead and recognize myself for five minutes.
    I want to pick up kind of where I left off, and this 
question is for Governor Calvo. We really drilled down, I did 
and others on the panel, on the issue of security risk, 
particularly on Guam because that is an area that seems to be 
confusing that we don't have parole authority on Guam for the 
same visitors that we have on Saipan, for instance. So, I want 
to ask you, sir, are you satisfied that the security issues 
have been explained to you and that you are knowledgeable about 
everything that we may be up against on that?
    Governor Calvo. Again, Mr. Chairman, this is my second time 
to Washington, D.C. meeting with folks at the State Department, 
at the Defense Department, at Homeland Security, and, of 
course, again with Members of Congress in the House, I don't 
see, at least from the point of the Defense Department, the 
levels that I have talked to them, whether it was Under 
Secretary Work or Secretary Forrestal, or the Admiral or the 
General, these concerns on security.
    You go to an island like Guam, anyone who has been there 
understanding the access to the military bases, both Anderson 
and Big Navy, which is the base in the harbor area there, those 
facilities are fenced in and they are secure. So even for local 
residents it is--and in order to get into these facilities you 
need to have the proper credentials.
    The irony I see in all of this, Mr. Chairman, is the 
concerns that they are bringing up with China and Russia, and 
again the good Congressman from Samoa mentioned that, you know. 
We have 100,000 students that come in from China to go to 
school here, and once they get into the contiguous 48 states, 
it is hard to track them. Guam is 212 square miles. The 
security issues, I don't see. It would be more easy for an 
enemy of the United States to go through FAS, the Freely 
Associated States, because there has been a problem, and I have 
seen it, and I have heard about it from our officials in Guam 
where you have an FAS passport. Some folks come in here, then, 
of course, they have been deported, but they just change their 
names and a year or so later they come back in, and when they 
hit the U.S. officials at the airport, they come right in. Hey, 
there is this treaty.
    So the issues on security to me are ironic because I don't 
see it coming from China or from Russia. If there was even an 
issue of security is if there would be an infiltration coming 
from maybe someone from an FAS state.
    Mr. Fleming. OK. Thank you, sir.
    Then, Ms. Ryan, you know, Members of Congress have security 
clearance, and I don't want your answer to, of course, breach 
security limits in any way, shape or form, but my question is 
if we were to have a closed door hearing with officials from 
DHS and State Department, would we be able to get a better 
understanding of what some of these obstacles may be?
    Ms. Ryan. We would be pleased to provide all the 
information in a secure setting, and again, I just want to 
reiterate for all here that there seems to be a lot of focus on 
security as if this was the only issue. Obviously, the 
Secretary looks at the totality of the circumstances and that 
would include, you know, the overstay rates of people who would 
come in, it would include also cooperation on return of their 
nationals in the deportation context for people that we have to 
remove, but we would be glad to provide you the information 
that she is privy to that we have gathered through the 
interagency.
    Mr. Fleming. OK. Well, then I would certainly suggest to 
the panel that we pursue that. That may help give us a better 
insight and understanding, and maybe even timeline because I 
know that is a big issue here today is it is in the Secretary's 
hands, but nobody can tell us when she is going to make a 
decision.
    Well, if we know something that she is looking at maybe we 
can get a better understanding as to what that timeline may be, 
so I will suggest that.
    Well, with that I am going to yield back, and let's see, 
the gentleman--the Ranking Member Mr. Sablan is recognized for 
five minutes.
    Mr. Sablan. Thank you again, Mr. Chairman. Ms. Ryan, please 
bear with me.
    The expiration of asylum Public Law 110-229 provides that 
the asylum provision of INA shall not apply during the 
transition period to persons physically present or arriving in 
the Northern Mariana Islands regardless of how or where entry 
occurs. There are two conflicting references to the date on the 
prohibition. 1702-AC states that asylum shall not apply during 
the transition period which expires December 31, 2014. Section 
207-J5 states that no one is permitted to apply for asylum 
under INS Section 28 prior to January 1, 2014.
    Now, what is the Department's position on the expiration 
date of that bar?
    Ms. Ryan. Ranking Member Sablan, our position is that it is 
the--under the DHS and Department of Justice rule that we 
published in October of 2009 we believe that the January 1, 
2014, date was a clerical error in the CNRA and therefore as a 
matter of law the asylum bar expires on December 31, 2014.
    Mr. Sablan. Wait, wait, wait. So you have no problem with 
those two conflicting dates?
    Ms. Ryan. Well, our regulations and the DOJ regulations 
construe the statute to make it December 31, 2014, but we would 
welcome statutory clarification to resolve the discrepancy.
    Mr. Sablan. Oh, all right. OK. The Commonwealth government, 
our Governor, my Governor and I agree that the bar on asylum 
should be extended. I have introduced H.R. 2395 to provide for 
such an extension to coincide with extensions to the transition 
period. The bill is not the subject of today's hearing but what 
concerns, if any, does the Department have about the bill or 
extending the asylum bar?
    Ms. Ryan. One of the chief goals of the CNRA was to 
harmonize U.S. immigration law in the CNMI with our Federal 
immigration law, so we think it is especially important in 
areas of humanitarian protection. So we would like persons who 
need to seek asylum to be able to enjoy that ability in the 
CNMI, so the harmonization issue is one that presents itself.
    Mr. Sablan. Right. No, I am a Democrat. I agree with all 
those human rights thing, but until we clean out some of the 
issues that we have there I think it would be appropriate that 
we just make it to the transition date up here.
    Now let me say another impact of P.L. 110-229--I am running 
out of time here--was recently brought to my attention. A 
surface freight provider that travels between ports, Saipan and 
Guam. They are having difficulty obtaining work visas for the 
crew as a result of the transition. The BART operates routinely 
between the ports and the islands, it provides bi-weekly 
service, and bringing non-perishable and frozen foods, 
different things between the others. For Tina and Unready, it 
is personally doing surface, freight provider servicing the 
islands. The CNMI was considered a foreign port prior to 110-
229. The visas previously held by the crew were allowed to--
them to travel between Guam because it is part of the U.S.
    Recognizing the need for--DHS has cooperated for a one-year 
period. I mean, thank you very much and I appreciate the help 
of your Hawaii office, very important here, but what can the 
Department do to assist the company in a situation, 
particularly now during this transition period?
    Ms. Ryan. Yes. I just became aware of this issue yesterday 
and I am sorry I don't have a more complete answer, but we can 
explore ways to--creative ways to try to make sure that the 
employees on the ship are covered. I don't have an answer 
today, but I will get you one.
    Mr. Sablan. Thank you. One more thing before I let you go. 
I promise this is the last one for you.
    If DHS does not issue regs. out by November, you know, if 
Secretary could use parole authority to allow workers to remain 
in the CNMI, right?
    Ms. Ryan. Yes, sir.
    Mr. Sablan. But would these workers still also be allowed 
to work?
    Ms. Ryan. With parole authority we can grant employment 
authorization.
    Mr. Sablan. Parole allows you to stay, right?
    Ms. Ryan. Parole permits you to stay lawfully in the United 
States.
    Mr. Sablan. But you need separate authorization to work?
    Ms. Ryan. Yes.
    Mr. Sablan. And the Secretary can do that?
    Ms. Ryan. Yes, sir.
    Mr. Sablan. OK, thank you.
    Ms. Pierce, thank you for being here, taking the long trek 
also. And I don't need your--you know better than I do the 
importance of Russian and Chinese visitors to the Commonwealth. 
It has strengthened the economy. In your view, how would 
extending parole to Russian and Chinese tourists to enter Guam 
and eventually including Russia and China in the Guam/CNMI visa 
waiver program have on tourism in the Northern Marianas?
    Ms. Aldan-Pierce. Thank you for your question.
    Actually we see this as a positive opportunity. We see it 
as Guam complementing, you know, what we have to offer. We are 
different destinations, so basically what it will do is offer 
travelers coming to the Marianas one more menu of things to do 
which would work very nicely with the extending of the time 
that is allowed, that gives travelers, you know, to stay, being 
extended from 15 days to 45 days. That was the intent is to 
give the traveler the opportunity to go and visit, hopefully 
visit multiple islands.
    You know, we are all very different. There are four 
inhabited islands in the Marianas--Guam, Saipan, Tinian and 
Rota--and each island offers different--you know, different 
experience. So we see that as an opportunity, plus it is no 
secret, Guam is a lot bigger than we are. They have resources 
that we don't have, Governor Calvo, and I think it will be--it 
will help the CNMI, especially in trying times such as these. 
We do not have a budget they do.
    Mr. Sablan. Thank you. I am running out of time. Just one 
more, may I?
    Ms. Aldan-Pierce. I can say more.
    Mr. Sablan. Making the case for my H.R. 1466, because I say 
it will stabilize the workforce in the Marianas and have a 
positive impact. Out of curiosity, your company, your business 
DFS, do they employ people who are families within the four 
groups? Because I--no question in my mind that your company is 
one of the best companies in the Northern Mariana Islands, and 
I am so proud of what you guys do in the entire Pacific region.
    But do you employ any of these individuals in one of the 
four groups?
    Ms. Aldan-Pierce. We actually--DFS, we have a little bit 
over 200 employees. Out of those we have 25 who are immediate 
relatives. Out of those immediate relatives, there are five who 
are married to FAS, so there will be those five impacted. Plus 
we have three who are CNMI permanent residents.
    In terms of how many are contract workers with U.S. citizen 
children, I actually posed the question just last night and we 
were not able to get that information, but I certainly can 
submit at a later date.
    Mr. Sablan. May I say that if 1466 passes, it will provide 
stability to your employees and then thus your company and thus 
the prosperity of the Northern Mariana Islands.
    Ms. Aldan-Pierce. We have we call the Coffee Hour whereby 
members of the management committee sit down and talk to, you 
know, various groups within our company, and one of the things 
that always comes up, especially for, you know, those classes 
of people who are not covered, the ones who are falling through 
the cracks so to speak, every time we sit down with them they 
always talk about, you know, what is going to happen to them 
and their families.
    So, you know, it is a lot of--they get very emotional, and 
all we can say is not to worry because hopefully things will 
happen in Washington, D.C.
    Mr. Sablan. Thank you very much. My time is up.
    Mr. Landry. [Presiding.] The Chair now recognizes Mrs. 
Bordallo for five minutes.
    Mrs. Bordallo. Thank you, Mr. Chairman.
    I would ask a special request, that I would like for you to 
recognize my friend from Puerto Rico first. He has another 
committee meeting to go to, and then I will be happy to take up 
my questions later.
    Mr. Landry. Sure.
    Mrs. Bordallo. Mr. Pierluisi from Puerto Rico.
    Mr. Landry. Sure. The Chair now recognizes Mr. Pierluisi 
for five minutes.
    Mr. Pierluisi. Thank you, Mr. Chairman.
    Let me first say to the witnesses here present that you 
have seen me coming in and getting out of here. The reason is I 
am a member of the Judiciary Committee and there is a Full 
Committee markup requiring my presence for votes. Otherwise I 
would be here for the whole time. But before I excuse myself 
once again let me first say that I sit here in full solidarity 
with aspirations and needs of my fellow citizens and residents 
in the two territories that are so well represented here today 
by Governor Calvo and Governor Fitial. So count on my support. 
I represent Puerto Rico, by the way, a sister territory.
    Now for the record I would like to show my strong support 
for both legislative measures before us. H.R. 1466 and H.R. 44, 
and to associate myself with the positions of my colleagues, 
Ranking Member Sablan, and our former Chairwoman Madeleine 
Bordallo.
    Mr. Chairman, I urge your support for both of these bills 
and hope that with your and Chairman Hastings' leadership these 
measures will be embraced by the Full House without delay. As 
our witnesses remind us, passage of both bills is time 
sensitive. Separation of families in the Northern Mariana 
Islands is not something that should occur on this Committee's 
watch, and as November 28 looms, this Committee should take 
prompt action to report out H.R. 1466.
    As a member of the Immigration Subcommittee and the 
Judiciary Committee, I am keenly interested in resolving this 
matter. I note that a Full Committee--as I said, there is an 
ongoing matter before the Judiciary Committee and that is why I 
am not going to continue being here. But let me also take this 
opportunity to implore the Subcommittee to embrace H.R. 44.
    The record is complete on this subject, and I was honored 
to speak on the House Floor in support of this legislation in 
my first few weeks as a Member of Congress in 2009. It is 
disappointing this issue remains unresolved for fellow 
Americans from Guam. There simply is no justification for the 
continued denial of justice, and this Congress has before it a 
thorough and sound report from the Federal commission that was 
appointed by the previous Administration to examine this issue. 
The findings and recommendations are as compelling today as 
they were when delivered in this very room on July 21, 2004.
    So, I also thank the witnesses for their testimony, and Mr. 
Chairman, I yield the balance of my time.
    Mr. Landry. Thank you. The Chair will now recognize Mrs. 
Bordallo for five minutes.
    Mrs. Bordallo. Thank you very much, and I do want to thank 
my colleague for his kind words and words of support for these 
bills.
    After the interim final rule on Public Law 110-229 was 
released by the Bush Administration, I worked closely with DHS 
to ensure that parole authority was extended to CNMI 
concurrently with congressional intent and because of the 
immediate economic impact loss of Chinese and Russian tourists 
would have on the CNMI market. Unfortunately, the reason GDP 
economic data indicates that parole authority in the CNMI isn't 
working.
    So my question is for both Governor Fitial and Ms. Pierce, 
can you discuss the potential economic benefit to our region if 
parole authority was extended to Guam and the final rule 
includes China and Russia? Governor.
    Governor Fitial. Thank you, Madam Bordallo.
    I have testified previously on that very issue that you 
raised and I am consistently supporting the visa waiver for 
both CNMI and Guam. I strongly believe that, and I stated in my 
testimony that the parole policy, you know, by DHS is not an 
alternative. We need the visa waiver, you know, to secure the 
economic benefit that comes about as a result of the visa 
waiver for both CNMI and Guam. So that is my request.
    Mrs. Bordallo. Thank you, Governor.
    Would you agree with this comment: that the current parole 
authority is a cumbersome and complicated process for visitors?
    Governor Fitial. That is true.
    Mrs. Bordallo. All right. And Ms. Pierce, would you have 
any comments to make? If you could make it brief because our 
time is always running out.
    Ms. Aldan-Pierce. In terms of--I am not sure about the 
economic activity. What I know is that there are over--the 
number for China is not 55 million. The projection for 2011 is 
65 million outbound market. So in terms of, you know, sheer 
numbers to Guam, I don't know what you--Guam is lucky because 
you guys have more access to air service, you know. Right now 
one of the reasons why it is very hard for the CNMI to grow our 
China market and Russia market is because of the instability of 
air service.
    Our China, our PRC visitors come to the CNMI by charters, 
and you know, we can plan and then all of a sudden they stopped 
because, you know, the cost of fuel, the cost of charter would 
go up, so there is no stability, especially because the parole 
authority really--it is an administrative authority, you know, 
like Ranking Member Sablan mentioned. It is something that may 
change when a new Administration comes in. We don't know. So 
that is why we would like to have under the final rule, you 
know, it becomes legislative, we can better plan, businesses 
can plan, the CNMI can go out and, you know, get airlines to 
commit to us.
    Mrs. Bordallo. Ms. Pierce, would you say that the visitors' 
industry in the Northern Marianas has any objection to Guam 
joining in this--with the parole authority even?
    Ms. Aldan-Pierce. No. I think the majority----
    Mrs. Bordallo. And I think we can work together, right?
    Ms. Aldan-Pierce. Yes, and we actually look forward to 
doing that.
    Mrs. Bordallo. I think this is one thing we have to do, 
Governor Calvo, Governor Fitial, is to see that our two 
communities work closely together, especially in the area of 
tourism, because, you know, in the old days we used to make the 
round robin trips through the islands, and I think if the two 
visitors' bureau industries work together closely that we can 
really make this a truly Pacific destination that people look 
forward to.
    There are things in the Marianas, there are items of 
interest in Guam that tourists would certainly like to see and 
if we work together closely, I don't think this has been 
happening in the past, so let us--we have the two industry 
managers, directors here with us. I have talked to Joann 
Camacho on this, and she is very receptive to working closely 
with the CNMI. So let us let that happen because that will make 
our communities grow.
    Thank you. I yield back, Mr. Chairman.
    Governor Fitial. Congresswoman----
    Mrs. Bordallo. Yes, go ahead, Governor.
    Governor Fitial. I just wanted to inform you that Governor 
Calvo and I have pledged to work together, you know, to re-
unify the Marianas.
    Mrs. Bordallo. Good.
    Governor Fitial. So I just want you to know that I need 
your support also.
    Mrs. Bordallo. You always have my support, Governor.
    Governor Fitial. Yes, I need your support to allow the CNMI 
also to participate in some economic activities that are 
presently, you know, prohibited in CNMI.
    Mrs. Bordallo. Like some of the military building?
    Governor Fitial. Yes.
    Mrs. Bordallo. All right, Governor. We will work on that. 
Thank you. I yield back, Mr. Chair.
    Mr. Landry. The Chair now recognizes Mr. Faleomavaega----
    Mr. Faleomavaega. John Wayne, Mr. Chairman.
    [Laughter.]
    Mr. Landry. I know how it feels. I am from south Louisiana.
    Mr. Faleomavaega. Well, let us have some Cajun breakfast 
here, then we will take care of that.
    Thank you, Mr. Chairman. I wanted to just follow up on my 
good friend Mrs. Bordallo's line of question, Governor Fitial.
    I understand there was some kind of a poll or survey or 
whatever that was taken in CNMI recently in terms of those who 
want to have unification with Guam, and maybe my good friend 
Mr. Sablan can assist. For the record, is there a movement in 
CNMI to see about the possibility of reunification of the 
Chamorro people between Guam and CNMI?
    Governor Fitial. The Marianas, including Guam and CNMI, 
have always been together until, you know, after the Spanish-
American War. So right now as I stated earlier, Governor Calvo 
and I, right after his inauguration, we pledged together to 
work toward unifying the Marianas.
    CNMI did vote in a referendum to associate or to reunify 
with Guam in the late fifties, 1959, to be exact. However, our 
brothers and sisters in Guam, you know, were not prepared at 
that time, so now it seems----
    Mr. Faleomavaega. Were they not prepared or just simply 
objected to the idea of reunification?
    Governor Fitial. I didn't want to use a stronger word, but 
I just want to say they were not prepared to accept their 
brothers and sisters from the north, you know, to be together, 
but as time goes on it seems, you know, important and apparent 
that this is the right direction to take, and that is the 
reason why Guam and CNMI along with our brothers and sisters in 
the Micronesia region are now collaborating together.
    Mr. Faleomavaega. I raise this question with interest, 
Governor, because we seem to have a similar situation in the 
Samoan Islands because 40 miles away from American Samoa is the 
independent state of Samoan composed of the two largest 
islands, and the misinformation that goes around that we were 
ever a united people, we were never a united people as far as--
--
    Governor Fitial. For your information, you know, American 
Samoa, although it is part of Polynesia, has become an official 
member of the Micronesian Executives.
    Mr. Faleomavaega. Well, it is my understanding, you know, 
the people who built those lata stones, if you understand, were 
Samoans that were there that built the lata stones.
    [Laughter.]
    Mr. Faleomavaega. Just wanted to remind the Governor of 
that little bit of history there.
    Dr. Gootnick, I note with interest your testimony that 
there seems to be some strong disagreements of the survey that 
was conducted by the Department of the Interior, and with that 
of CNMI. Could you comment on this in terms of the number of 
illegal aliens or number of aliens that are in CNMI, and 
certainly welcome Mr. Pula's response to that.
    Mr. Gootnick. Well, it is an interesting question, Mr. 
Faleomavaega. There were a number of objections raised to the 
Department of the Interior's study. The first being the 
Governor was concerned that he was not properly consulted as 
required under the CNRA. The second being the way in which data 
was collected that formed the basis of the policy options and 
some of the quantitative information that was presented there.
    I would say that remains an open question. There has been 
an exchange of letters that are in the public record between 
the Governor and the Assistant Secretary of the Interior, and 
the Assistant Secretary stands by the data that forms the basis 
of the report.
    There is, in addition, some outstanding FOIA request and 
litigation in process. I am not an expert on what is taking 
place in the judicial system with respect to this.
    Mr. Faleomavaega. My time is running out so I would like to 
ask Mr. Pula for his comment about this disagreement on data.
    Mr. Pula. Thank you, Congressman. I think in the issue of 
consultation when both the Governor and Assistant Secretary 
Babauta last year testified in this room, they had a difference 
of opinion. I think, now I hope the Governor is assured that we 
are now consulting with each other in terms of Interior and the 
Governor.
    As far as the report that was submitted by OIA in April 
2010, there is that discrepancy of numbers, and the way perhaps 
it was done. Because there was no--at the time--valid 
information that the Department of the Interior could depend 
on, and it was a requirement under CNRA for the Department to 
do a report of how many aliens there, our ombudsman's office in 
CNMI then basically made announcements out to the community----
    Mr. Faleomavaega. Without consulting with the Governor.
    Mr. Pula. Well, we did to the extent that they know that we 
were going to do a report on the requirement. I think perhaps 
maybe the issue of not consulting with the Governor, at this 
point perhaps it is a difference of definition of consulting. 
From the Assistant Secretary's point of view he did consult 
with the Governor in a meeting.
    Mr. Faleomavaega. I am sorry, Mr. Chairman. I know my time 
is up. I will thank you.
    Mr. Landry. No problem. At this time I would like to thank 
all of our witnesses for their valuable testimony and 
contributions. Members of the Subcommittee may have additional 
questions for the witnesses, and we ask that you respond to 
these in writing. The hearing record will be open for 10 days 
to receive these responses.
    We will now prepare for the second panel.
    [Pause.]
    H.R. 44
    Mr. Landry. If we can get everyone to take their proper 
seats.
    All right, we will now move on to the second panel to hear 
testimony on H.R. 44, the Guam World War II Loyalty Recognition 
Act introduced by our colleague from Guam, Congresswoman 
Bordallo.

STATEMENT OF THE HON. JEFF LANDRY, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF LOUISIANA

    Mr. Landry. A week from today, July 21, 2011, is the sixty-
seventh anniversary of American troops liberating Guam. It is 
my understanding that this morning Congresswoman Bordallo with 
Ranking Member Sablan and Governor Calvo honored the lives lost 
during the liberation of Guam by the Third Marine Division and 
77th Infantry Division in 1944 at a wreath-laying ceremony at 
the Tomb of the Unknowns at Arlington National Cemetery.
    Arlington Cemetery is a reminder to all of us of the 
ultimate sacrifice brave American military personnel, both men 
and women, have paid for the price of freedom in this country. 
Unspeakable actions occurred during the war. I don't think 
anyone would disagree that the residents of Guam was subjected 
to many horrors during the 32 months of Japanese occupation. 
Horrible acts were occurring in every occupied area during 
World War II.
    The 79th U.S. Congress responded quickly to the plight of 
Guam's residents and in 1945 pass the Guam Meritorious Claims 
Act to provide immediate relief to the residents of Guam. The 
Act paid 4,356 individuals over $8 million. Congress also 
passed the Guam Land Transfer Act and Guam Rehabilitation Act.
    The Guam Meritorious Claims Act is said to have been the 
primary means of settling war claims for the people of Guam. 
The Guam Land Transfer Act enabled land exchanges for 
resettlement purposes and the Guam Rehabilitation Act 
appropriated $6 million for construction, and was the means for 
economic rehabilitation.
    While I understand that H.R. 44 has been considered in 
previous Congresses, this is my first opportunity to review 
this measure as it may be for other members of the 
Subcommittee. I understand from my preparation for this hearing 
that many people here today believe the Guam Meritorious Claim 
Act was a start in the process, but was incomplete and did not 
adequately compensate the residents of Guam in comparison to 
other war claims statutes.
    It is also my understanding from the documents in the Guam 
Review Commission Report that the intent of the Guam 
Meritorious Claim Act was not to make Guam residents whole; 
instead it was, at least with regard to property, to provide 
people relief.
    I am concerned that if we go forward with this legislative 
proposal we could be opening Congress up to additional war 
claims. Documents in the Commission report make note of some 
400,000 Americans who suffered injury in World War II, who 
never received compensation for their injuries. The President 
of the Heritage Foundation notes that the U.S. bears no blame 
here, and no responsibility. We fought to prevent the island 
from being taken by the Japanese, and fought to free it again.
    Some 3,000 American were killed and more than 7,000 wounded 
in the 1944 battle for the island. That is a price paid in 
blood that can never be made up in mere dollars. Even the Guam 
War Claims Review Commission stated that the U.S. Government is 
not obligated as a matter of law to pay such compensation.
    During this hearing I hope to find out why there is a need 
for additional compensation, who will be compensated under H.R. 
44, why the Japanese Government did not pay the initial 
compensation in 1945, and how the Federal Government is going 
to pay more than $100 million when we are nearly $15 trillion 
in debt.
    As I indicated at the beginning of this statement, I am 
deeply sympathetic to those living in Guam during the 
occupation of the Japanese Imperial Army. They were treated in 
a particularly oppressive, cruel and barbaric way. Sadly, 
paying this compensation will not bring back the dead, nor will 
it undue the 32 months of hell which they endured.
    I look forward to hearing the testimony of our 
distinguished witnesses.
    [The prepared statement of Mr. Landry follows:]

 Statement of The Honorable Jeff Landry, a Representative in Congress 
from the State of Louisiana, on H.R. 44, The Guam World War II Loyalty 
                            Recognition Act

    We will now move on to the second panel to hear testimony on H.R. 
44, the Guam World War II Loyalty and Recognition Act, introduced by 
our colleague from Guam, Congresswoman Bordallo.
    A week from today, July 21, 2011, is the 67th Anniversary of 
American troops liberating Guam. It is my understanding that this 
morning, Congresswoman Bordallo, with Ranking Member Sablan and 
Governor Calvo, honored the lives lost during the liberation of Guam by 
the 3rd Marine Division and 77th Infantry Division in 1944 at a wreath 
laying ceremony at the Tomb of the Unknowns at Arlington National 
Cemetery. Arlington Cemetery is a reminder to us all of the ultimate 
sacrifice brave American military personnel--men and women--have paid 
for the price of freedom in this country.
    Unspeakable actions occur during war. I don't think anyone will 
disagree that residents of Guam were subjected to many horrors during 
the 32 months of Japanese occupation. Horrible acts were occurring in 
every occupied area during World War II.
    The 79th U.S. Congress responded quickly to the plight of Guam 
residents and, in 1945, passed the Guam Meritorious Claims Act to 
provide ``immediate relief'' to the residents of Guam. The Act paid 
4,356 individuals over $8 million dollars. Congress also passed the 
Guam Land Transfer Act and the Guam Rehabilitation Act.
    The Guam Meritorious Claims Act is said to have been the primary 
means of settling war claims for the people of Guam. The Guam Land 
Transfer Act enabled land exchanges for resettlement purposes and the 
Guam Rehabilitation Act appropriated $6 million for construction and 
was the means for economic rehabilitation.
    While I understand H.R. 44 has been considered in previous 
Congresses, this if my first opportunity to review this measure, as it 
may be for other Members of the Subcommittee. I understand from my 
preparation for this hearing that many people here today believe the 
Guam Meritorious Claims Act was a start in the process, but was 
incomplete and did not adequately compensate residents of Guam in 
comparison to other war claim statutes.
    It is also my understanding from documents in the Guam Review 
Commission report that the intent of the Guam Meritorious Claims Act 
was to not make Guam residents ``whole'', instead it was, at least with 
regard to property, to provide people relief. I am concerned that if we 
go forward with this legislative proposal we could be opening Congress 
up to additional war claims. Documents in the Commission report make 
note of some 400,000 Americans who suffered injury in World War II who 
never received compensation for their injuries.
    The President of the Heritage Foundation notes that: ``The U.S. 
bears no blame here, and no responsibility. We fought to prevent the 
Island from being taken by the Japanese, and fought to free it again. 
Some 3,000 Americans were killed and more than 7,000 wounded in the 
1944 battle for the Island. That's a price paid in blood that can never 
be made up with mere dollars.'' Even the Guam War Claims Review 
Commission stated that: ``The U.S. government is not obligated as a 
matter of law to pay such compensation.''
    During this hearing I hope to find out: why there is a need for 
additional compensation; who will be compensated under H.R. 44; why the 
Japanese government did not pay the initial compensation in 1945; and 
how the federal government is going to pay more than $100 million when 
we are nearly $15 trillion in debt.
    As I indicated at the beginning of this statement, I am deeply 
sympathetic to those living in Guam during the occupation by the 
Japanese Imperial Army. They were treated in a particularly oppressive, 
cruel and barbaric way. Sadly, paying this compensation will not bring 
back the dead nor will it undue the 32 months of hell which they 
endured.
    I look forward to hearing the testimony of our distinguished 
witnesses, and now recognize our Ranking Member Mr. Sablan, for any 
statement he would like to make.
                                 ______
                                 
    Mr. Landry. I now recognize the Ranking Member, Mr. Sablan, 
for any statement he would like to make.

 STATEMENT OF THE HON. GREGORIO SABLAN, A DELEGATE IN CONGRESS 
     FROM THE COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS

    Mr. Sablan. Thank you very much, Mr. Chairman.
    H.R. 44, the Guam World War II Loyalty Recognition Act, 
which is sponsored by my colleague and friend, Congresswoman 
Madeleine Bordallo, would implement the recommendations of a 
Federal commission that was authorized by the 107th Congress to 
look at this specific issue. The Commission found that the 
people of Guam were treated unfairly during the war claims 
process immediately following World War II as compared with 
other claims programs authorized by Congress addressing 
similarly experienced losses and damages for other Americans.
    Each of the four delegates from Guam to have served in the 
House have worked diligently to resolve this longstanding 
injustice faced by their constituents, and the text of H.R. 44 
has passed on five separate occasions.
    It is long past time that we resolve this issue and provide 
relief for the people of Guam for the nearly three years of 
brutal occupation they suffered because of their steadfast 
loyalty to our country and nation.
    Thank you, Mr. Chairman, for allowing me to make this 
opening statement. I want to welcome all of our witnesses, 
especially former Congressman Ben Blaz, again Governor Calvo, 
Mr. Pula and Mr. Tamargo, and look forward to hearing your 
testimony. Thank you.
    Mr. Landry. Thank you, and I will recognize Mrs. Bordallo 
for any statement she would like to make on her bill.

    STATEMENT OF THE HON. MADELEINE BORDALLO, A DELEGATE IN 
                CONGRESS FROM THE ISLAND OF GUAM

    Mrs. Bordallo. I thank you very much, Chairman Landry, and 
Ranking Member Sablan, and I would like to thank both of you 
for holding today's hearings on H.R. 44, the Guam World War II 
Loyalty Recognition Act, which I introduced on the first day of 
the 112th Congress, and I want to thank Chairman Hastings and 
Ranking Member Markey for their agreeing to allow a hearing on 
H.R. 44 as well.
    I also want to acknowledge Speaker Won Pat of the 31st Guam 
Legislature. She has traveled here to Washington and has 
submitted written testimony for the Committee, and I would like 
to turn this over to the Chairman now.
    Mr. Landry. Without objection, so ordered.
    [The prepared statement of Speaker Won Pat follows:]

 Statement of The Honorable Judith T. Won Pat, Ed.D., Speaker, Thirty-
 First Guam Legislature, on the Implementation of P.l. 110-229 in Guam 
       (Specific Reference to the Guam-CNMI Visa Waiver Program)

    Buenas yan Hafa Adai (Greetings) from the territory island of Guam. 
Esteemed Chairman John Fleming, M.D., and members of the Committee; 
Congressman Don Young, Congressman Robert Wittman, Congressman Jeff 
Duncan, Congressman Steve Southerland, Congressman Bill Flores, 
Congressman Andy Harris, Congressman Jeff Landry, Congressman Jon 
Runyan, Congressman Doc Hastings, Congressman Eni Faleomavaega, 
Congressman Frank Pallone, Jr., Congresswoman and my friend from Guam, 
Madeleine Bordallo, Congressman Pedro Pierlusi, Congresswoman Colleen 
Hanabusa, Congressman Edward Markey. Thank you for the opportunity to 
present testimony for the oversight hearing on the implementation of 
P.L. 110-229, the Consolidated Natural Resources Act, specifically in 
the matter of the Guam-CNMI Visa Waiver program.
    As Speaker of the Guam Legislature this testimony is submitted in 
support of the full implementation of the Guam-CNMI Visa Waiver 
program.
    The United States and the Marianas, a member of the American 
family, are both facing extreme financial challenges that are rippling 
through the public and private sectors forcing threats of lay-offs, 
reduced work hours, or a reduction in services.
    Commerce Secretary Garry Locke acknowledges that the United States 
within the past two years has seen itself in the midst of the toughest 
recession in decades (June, 2011).
    Similar to the financial woes plaguing the United States, Guam is 
also experiencing severe economic challenges. As a whole, Guam has 
experienced a downward economy for the past three years, from revenues 
of $514.8M in FY 2007 to $491M in FY 2010. Guam's general fund revenues 
are below budget with projected sustained declines as a result of a 
depressed tourism market under the current conditions. The unemployment 
rate on Guam in the past three years has increased steadily from 8.3% 
in September 2007 to 13.3% in March of 2011 (see Table 1).
[GRAPHIC] [TIFF OMITTED] 67403.016

    .epsThe writing on the wall is clear. The United States government 
and the government of Guam must look towards developing opportunities 
that may serve to maintain budget levels in the public sector and jobs 
in the private sector. Anything less would result in a continued 
economic downward spiral.
    Guam's economy is greatly influenced by its geographic location. 
Being that Guam is a geographically disparate society when compared to 
the rest of the contiguous United States, the island's economy is 
driven by a few key markets. One of the most important of these is 
tourism. For instance, Guam's designation as an up-scale tropical 
Pacific vacation destination in addition to its nearness to Japan is a 
competitive advantage. The island's status as a U.S. territory with a 
stable government and security adds to this advantage.
    The Guam-CNMI Visa Waiver program is an excellent opportunity to 
``test market'' the Russia and China markets for future consideration 
under the broader Visa Waiver program. The vast market potential 
inherent in an expanded Guam-CNMI Visa Waiver program that is inclusive 
of Russia and China is consistent with the U.S. Travel Association 
Report ``Ready for Take-Off: A plan to create 1.3 million U.S. jobs by 
welcoming international travellers.''
    The Guam-CNMI Visa Waiver program represents an opportunity to 
insulate Guam and the CNMI from the woes associated with national and 
international economic downturn.
    Our other major economy is the U.S. military--and with the 
increasing uncertainty regarding the military realignment from Okinawa, 
we must look to maturing other markets such as China and Russia in 
order to offset any deficits in revenues tied to delayed activity 
associated with the realignment.
    The outlook for international tourist arrivals remains promising. 
According to the World Tourism Organization, in 2010 international 
tourism receipts are estimated to have reached US$919 billion 
worldwide. More to the point, given the optimistic outlook for tourism 
in general and sustained growth in the Chinese and Russian travel 
markets, both the Marianas and the United States stand to gain by 
making such destinations accessible.
    I applaud the Committee for recognizing the potential that tourism 
activities represent in being able to stabilize-if not outright lift-
our respective national and insular area economies. The U.S. Travel 
Association anticipates that 1.3 million U.S. jobs and a $859 billion 
infusion into the U.S. economy by 2020 will be realized by as a result 
of reforming antiquated visa processes. As you are aware, Congress may 
continue to serve as a critical partner in realizing such economic 
potential by creating policy that serves to empower regulatory agencies 
as well as the free market to implement programs and procedures that 
would reduce the barriers to entry into the U.S. and the Marianas 
without sacrificing safeguards that are already in place.
    China is the world's fastest growing economy with average GDP 
growth rates averaged at 10% over the past 30 years. Over the past 
three years China arrivals into the United States and Guam increased 
steadily with projected double digit growth within this year alone. 
According to the U.S. Travel Association the U.S. received $5.0 billion 
from Chinese visitors with an average expenditure per person of $6,423.
    According to a forecast from the World Tourism Organization, China 
will have 100 million outbound travellers and become the fourth largest 
source of outbound travel in the world by 2020 making China an 
explosive growth market for tourism.
    Russian foreign travel remains largely untapped. Only 15% of 
Russia's 142 million people have ever travelled abroad. According to 
the World Tourism Organization, Russia ranked within the tenth largest 
outbound travel market in the world in terms of expenditures. Other 
sources cite Russian outbound trips at 12 million with travel 
expenditures abroad at $27 billion for 2011 alone.
    Combined, it is estimated that China and Russia non-immigrant 
visitors may generate $212.2 million in combined payroll, hotel 
lodging, and gross receipts taxes by 2018. Without these two markets 
being added vis-a-vis the Guam-CNMI Visa Waiver program, Guam may 
experience a 32% reduction in tourism related revenues over the next 
five years.
    I must underscore that tourism is a significant driver of Guam's 
economy. According to one report, tourism ranks as the second largest 
private industry in the island accounting for as much as 35% of the 
total jobs on Guam. Simply, 1 out of every 4 workers on Guam is 
directly employed by the tourism sector.
    An average aggregate visitation rate of approximately 1 million 
visitors to Guam annually generates $1.2 billion in total tourism 
expenditures. The total impact in taxes paid are significant as well, 
totaling approximately $148.9 M in 2005.
    Although tourism figures worldwide remain optimistic, travel from 
Japan and Korea to Guam have significantly declined this past decade as 
a direct result of regional crises such as SARS, September 11, natural 
disasters on Guam and, most recently, in Japan-with its triple 
earthquake, tsunami, and nuclear power plant crisis-as well. These 
depressed levels, in addition to a negative strategic outlook for these 
two markets as a result of their low birth rates and increasing 
competition, require our island's leaders to act in seeing the full 
implementation of the Guam-CNMI Visa Waiver program.
    It is essential that the Department of Homeland Security implement 
the Guam-CNMI Visa Waiver program to mitigate the losses in tourism 
related revenues as a result of attrition in the declining mature 
markets of Japan and Korea. Anything less of this may burden hotels and 
other tourism related employers to reduce work hours, lay off 
employees, or close-up shop. Similarly, without an expanded tourist 
market, the government of Guam may not be able to meet its existing 
liabilities thereby forcing lawmakers to declare financial exigency and 
request for increased federal aid.
    The bright side is this: with an expanded Guam-CNMI Waiver program 
that is inclusive of China and Russia and implemented on Guam, the 
island's economy will be preserved with projected growth of $1.5 
billion from these two new markets in five years.
    As most experts agree, the economies of the United States and Guam 
are in a recession. To reinvigorate our economies both the Congress and 
the administration must continue in its path to create and implement a 
21st century regulatory framework that will allow us to pursue a bold 
opportunity for the American and Chamorro people. PL 110-229, 
specifically the Guam-CNMI Visa Waiver program, is an example of how 
government policy may work to continue to foster and support 
entrepreneurship and innovation.
    As we jointly face our financial crises, I am resolved that the 
Guam-CNMI Visa Waiver program will add towards our collective efforts 
to stabilize and grow our national and state-level economies. Based on 
market research and data available to the government of Guam, even the 
most conservative of figures associated with an expanded tourism base 
that includes China and Russia will considerably affect Guam and the 
CNMI in a positive way.
    In the wake of extreme financial uncertainty, I humbly submit that 
the Guam-CNMI Visa Waiver program would serve as a significant economic 
stimulus for the Marianas Islands.
    In closing, on behalf of the Thirty-first Guam Legislature and the 
People of Guam I commend the Honorable Doc Hastings, Chairman of the 
Committee on Natural Resources and Members of the Committee, in 
addition to the Honorable John Fleming, M.D., Chairman of the 
Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs, and 
Members of the Subcommittee for allowing me to provide testimony on the 
implementation of P.L. 110-229, the Consolidated Natural Resources Act, 
specifically the Guam-CNMI Visa Waiver program.
                                 ______
                                 
    Mrs. Bordallo. The one Guam approach in resolving this 
issue is something that is very, very important, and I always 
appreciate the participation and the input of our legislative 
leaders, and pleasure to include her testimony in the record.
    Finally, I would like to thank and recognize each of our 
witnesses here today. Governor Calvo, we appreciate your 
traveling to D.C. to provide testimony in both of today's 
panels. We will appreciate your input on the importance of 
passing H.R. 44.
    General Ben Blaz, a very distinguished gentleman who has 
served in this Congress from 1985 to 1992. He is also a retired 
Marine and is a survivor, which is why he is here today, of the 
Japanese occupation of Guam. General Blaz's testimony today 
speaks to the atrocities and the hardships endured by our 
people during the brutal enemy occupation, and further, General 
Blaz's experience as a general in the U.S. Marine Corps can 
speak to the importance of building good relationships with the 
civilian community and the significance of the passage that 
Guam war claims would have to building this type of 
relationship in Guam.
    Another witness today, Mr. Chairman, I would like to thank 
Mr. Mauricio Tamargo. He is the former Chairman of the Guam War 
Claims Review Commission for his testimony, and in all of these 
years he has stood by us to help us get this bill through. Mr. 
Tamargo understands the issue of the Guam war claims, and I 
appreciate his expert testimony. He has also held public 
hearings on this issue as well as a public hearing in Guam.
    And finally, I also want to thank the testimony of Mr. Nik 
Pula. I appreciate the Administration's continued support of 
H.R. 44.
    Today's hearing builds on the lengthy and substantive 
legislative record that has already been developed on H.R. 44. 
The issue of Guam war claims is a sensitive issue for my 
constituents and it is an issue that can only be resolved 
through legislation by Congress.
    Further, it is a matter that has maintained strong support 
in the House. As Ranking Member Sablan said, it has passed this 
House five times, even across party lines. Further, the 
bipartisan nature of our witnesses speaks to H.R. 44's broad 
base of support. The need for this Congress to take action and 
resolve the matter or Guam war claims heightens by the day. 
Continued popular support for the military build up on Guam is 
tied to a great extent to finally solving this longstanding 
issue on Guam.
    My constituents wonder how we can spend over $10 billion in 
military construction but their suffering and patriotism during 
the Imperial Japanese occupation of Guam is yet to be fully 
recognized and redressed.
    In part, it is for this reason that I attach H.R. 44 as an 
amendment to the National Defense Authorization Act in Fiscal 
Years 2010 and 2011. Unfortunately, the Senate failed to act on 
the stand alone measure on the 110th and 111th Congresses.
    Further, last year we did reach a compromise position on 
Guam war claims, and it was incorporated into conference 
version of the Fiscal Year 2011 NDAA. However, due to the 
unique legislative procedure that was required for passage, a 
few senators blocked its inclusion in the final legislation. 
This, unfortunately, is a circumstance that many bills face in 
the Senate, so it is important that we build off the agreed 
upon compromise, and I believe today's hearing will clearly 
highlight the importance of this legislation.
    As such, on the first day of this Congress I re-introduced 
H.R. 44, and the text of this bill is identical to the 
compromise reached with Chairman Levin and Ranking Member 
McCain. The bill removes the most controversial claimant 
category of payments to the descendants of survivors of the 
Japanese occupation. I did so reluctantly, but in a recognition 
that including that category would not pass in the Senate. So, 
I am hopeful that this hearing will further illuminate the 
facts and circumstances surrounding the occupation endured by 
the people, and the injustice that they hope will finally be 
redressed by this Congress.
    This is an injustice rooted in their having been treated 
differently from their fellow Americans by the Federal 
Government in redressing their war claims. The hearing today 
presents another opportunity to review this history, however 
painful it may be to recount and repeat. We further this 
discussion today in the name and the pursuit of justice, and 
with faith in our government and her cherished principle of 
equal protection under the law.
    We must also remain focused and determined because of the 
very findings and the recommendations of now two Federal 
commissions that have independently and thoroughly examined 
this matter against all its political and legal sensitivities.
    The last hearing on Guam war claims was held on December 2, 
2009, before the House Armed Services Committee, and at that 
time our survivor witness was Mr. Tom Barcinas. Mr. Barcinas 
told the Committee of his first-hand experience during World 
War II, and of the atrocities suffered by him and his family at 
the hands of the enemy, and I am going to quote something he 
said.
    ``Through the grace of God I survived World War II, but 
like so many others who lived through those days, lived through 
the war who have since died, I am quickly getting old as you 
can see. So many who lived through the war are advancing in age 
and so many have passed on without closure to the issues 
arising because of the war . . . Mr. Chairman, no one must 
underestimate the importance of resolving the issue of parity, 
fairness, and justice related to the administration of the war 
claims. Resolving these issues will provide beyond any 
reasonable doubt that America does live up to its promises and 
its responsibilities.''
    Just this past April, only three months ago, Mr. Chairman, 
Mr. Barcinas passed away after waiting nearly 70 years for 
closure and for recognition that he never ever received.
    So, it is important that Congress act now to implement the 
Review Commission's recommendations and finally resolve this 
longstanding injustice for the survivors of the occupation of 
Guam, and I thank you very much, Mr. Chairman.
    [The prepared statement of Mrs. Bordallo follows:]

   Statement of The Honorable Madeleine Z. Bordallo, Ranking Member, 
    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

    Chairman Fleming and Ranking Member Sablan, I would like to thank 
you both for holding today's hearing on H.R. 44, the Guam World War II 
Loyalty Recognition Act, which I introduced on the first day of the 
112th Congress. I want to thank Chairman Hastings and Ranking Member 
Markey for their agreeing to allow a hearing on H.R. 44, as well.
    I also want to acknowledge Speaker Judith Won Pat of the 31st Guam 
Legislature. She has submitted written testimony for the Committee and 
is in the audience today. Her presence and support today are a tribute 
to our ``One Guam'' approach in resolving this issue. I always 
appreciate the participation and input of our legislative leaders and 
pleasure to include her testimony in the record.
    Finally, I would like to thank and recognize each of our witnesses 
here today. Governor Calvo, we appreciate your travelling to DC to 
provide testimony in both of today's panels. We will appreciate your 
input on the importance of passing H.R. 44 to the people of Guam. 
General Ben Blaz is the former Congressman from Guam serving in the 
House from 1985 to 1992. General Blaz is also a retired Brigadier 
General in the U.S. Marine Corps and is a survivor of the Japanese 
occupation of Guam. General Blaz's testimony today speaks to the 
atrocities and hardships endured by the people of Guam during the 
brutal enemy occupation. Further, his experiences as a General in the 
U.S. Marine Corps can speak to the importance of building good 
relationships with the civilian community and the significance the 
passage of Guam war claims would have to building this type of 
relationship on Guam. I would also like to thank Mr. Mauricio Tamargo, 
former Chairman of the Guam War Claims Review Commission for his 
testimony today. Mr. Tamargo understands the issue of Guam War Claims 
well and I appreciate his expert testimony. Finally, I also thank the 
testimony of Mr. Nik Pula. I appreciate the Administration's continued 
support for H.R. 44.
    Today's hearing builds on the lengthy and substantive legislative 
record that has already been developed on H.R. 44. The issue of Guam 
War Claims is a sensitive issue for my constituents and it is an issue 
that can only be resolved through legislation by Congress. Further, it 
is a matter that has maintained strong support in the House, even 
across party lines. Further, the bi-partisan nature of our witnesses 
speaks to H.R. 44's broad base of support. The need for this Congress 
to take action and resolve the matter of Guam war claims heightens by 
the day. Continued, popular support for the military build-up on Guam 
is tied, to a great extent, to finally solving this longstanding issue 
for many on Guam. My constituents wonder how we can spend over $10 
billion in military construction but their suffering and patriotism 
during the Imperial Japanese occupation of Guam has yet to be fully 
recognized and redressed.
    In part, it is for this reason that I attached H.R. 44 as an 
amendment to the National Defense Authorization Act in Fiscal Years 
2010 and 2011. Unfortunately, the Senate failed to act on the stand-
alone measure in the 110th and 111th Congresses. Further, last year we 
did reach a compromise position on Guam war claims and it was 
incorporated into conference version of the FY11 NDAA. However, due to 
the unique legislative procedure that was required for passage, a few 
Senators blocked its inclusion in the final legislation. This, 
unfortunately, is a circumstance that many bills face in the Senate. So 
it is important that we build off the agreed upon compromise and I 
believe today's hearing will clearly highlight the importance of this 
legislation.
    As such, on the first day of this Congress I reintroduced H.R. 44 
and the text of this bill is identical to the compromise reached with 
Chairman Levin and Ranking Member McCain. The bill removes the most 
controversial claimant category of payments to the descendants of 
survivors of the Japanese occupation who suffered personal injury. I 
did so reluctantly but in a recognition that including that category 
would not pass in the Senate.
    I am hopeful that this hearing will further illuminate the facts 
and circumstances surrounding the occupation endured by the people of 
Guam and the injustice that they hope will finally be redressed by this 
Congress. This is an injustice rooted in their having been treated 
differently from their fellow Americans by the federal government in 
redressing their war claims. The hearing today presents another 
opportunity to review this history, however painful it may be to 
recount and repeat. We further this discussion today in the name and 
pursuit of justice and with faith in our government and her cherished 
principle of equal protection under law. We also remain focused and 
determined because of the very findings and recommendations of now two 
federal commissions that have independently and thoroughly examined 
this matter against all its political and legal sensitivities.
    The last hearing on Guam war claims was held on December 2, 2009 
before the House Armed Services Committee. At that time our survivor 
witness was Mr. Tom Barcinas. Mr. Barcinas told the Committee of his 
firsthand experiences during World War II and of the atrocities 
suffered by him and his family at the hands of enemy occupation:
        ``Through the grace of God, I survived World War II. But like 
        so many others who lived through those days, lived through the 
        war, who have since died, I am quickly getting old, as you can 
        see. So many who lived through the war are advancing in age, 
        and so many have passed on without closure to the issues 
        arising because of the war. . .Mr. Chairman, no one must 
        underestimate the importance of resolving the issues of parity, 
        fairness and justice related to the administration of the war 
        claims. Resolving these issues will prove beyond any reasonable 
        doubt that America does live up to its promises and 
        responsibilities.''
    Just this past April, only 3 months ago, Mr. Barcinas passed away 
after waiting nearly 70 years for closure and recognition that he never 
received. It is important that Congress act now to implement the Review 
Commission's recommendations and finally resolve this longstanding 
injustice for the survivors of the occupation of Guam.
                                 ______
                                 
    Mr. Landry. Thank you, Mrs. Bordallo. At this time I would 
like to enter into the record two different letters, one from 
the Heritage Foundation and another one from American Tax 
Reform into the record. Without objection, so ordered.
    [The letters follow:]
    [GRAPHIC] [TIFF OMITTED] 67403.013
    
    .eps[GRAPHIC] [TIFF OMITTED] 67403.014
    
    .eps[GRAPHIC] [TIFF OMITTED] 67403.015
    
    .epsMr. Landry. For those witnesses who were not here for 
the first panel I will repeat what Congressman Fleming, 
Chairman Fleming said earlier; that your written testimony will 
appear in full in the hearing records so I ask that you keep 
your oral statements to five minutes as outlined in our letter 
of invitation to you and under Committee Rule 4(a).
    Our microphones are not automatic, so please press the 
button when you are ready to begin. I will also explain how our 
timing lights work. When you begin to speak our clerk will 
start the time and a green light will appear. After four 
minutes a yellow light will appear, and at that time you should 
begin to conclude your statement. After five minutes the red 
light will come on and you may complete your sentence, but at 
that time I would ask that you stop.
    I would now like to welcome today's witness The Honorable 
Eddie Baza Calvo, Governor of Guam. Governor.

            STATEMENT OF THE HON. EDDIE BAZA CALVO, 
                 GOVERNOR OF THE ISLAND OF GUAM

    Governor Calvo. Yes, thank you very much, Mr. Chair and 
Members of the Subcommittee.
    Again, my name is Eddie Calvo, Governor of Guam. On behalf 
of the people of Guam, especially those who found themselves 
slaves during World War II, I would like to express my support 
for H.R. 44, also know as the Guam World War II Loyalty 
Recognition Act.
    Distinguished Members of the House of Representatives, war 
claims for the people of Guam are long overdue. On December 8, 
1941, our island was changed forever. For all you know, that 
was the day Japan attacked my home. For nearly three years, 
those in Guam were forced out of their homes, were subjected to 
slavery and suffered rapes and beatings. Tragically, many died 
in the hands of the Japanese Imperial Army.
    On July 21, 1944, or what is now known as Liberation Day, 
American Marines and soldiers stormed Guam and began a 
successful campaign to reclaim the island. Every year the 
entire island commemorates the bravery of these men, remembers 
their loved ones who survived our darkest time in history, and 
prayed for those whose lives were stolen by war.
    Members of Congress, while our survivors are indeed 
liberated, they are not free from the scars of those 
atrocities. Everyone who has spent time in Guam has heard a 
personal account of what our people suffered. In fact, many of 
our survivors remember this day in 1944. They can still hear 
and feel the bombs exploding as American forces prepared to 
storm our beaches, and while dodging bombs which already seemed 
inhumane, it pales in comparison to the stories all Guamanians 
have heard.
    Guam suffered like no other place in America. Chamorros 
were raped, they were beaten, they were made slaves. They were 
forced to denounce the country they loved and swear allegiance 
to a country that was literally killing them, all the while our 
people remained loyal to the United States. They never lost 
hope that one day and soon America would return and spare them 
from the suffering and pain.
    These acts were done out of a deep and committed loyalty to 
the United States, and all throughout the occupation this 
loyalty is what gave our people hope. People were certain that 
the loyalty went both ways, and sometimes this hope is what 
kept our people alive; knowing that these horrible 
circumstances were only temporary.
    In fact, there was a famous song our war survivors sang, 
and when it was safe late at night at the end of every verse it 
was, and I quote, ``My dear Uncle Sam, won't you please come 
back to Guam.''
    The Japanese tried everything to break our resolve. They 
marched Chamorros to concentration camps, they became 
increasingly violent, and they murdered Chamorros at a more 
frequent rate with more mass casualties at a time. But despite 
their best efforts, many Chamorros survived until they were 
liberated, and sadly, although they survived the atrocities of 
war, most of them have been called by God to rest.
    That is why it is more urgent than ever to grant these 
claims. The time is now while there are still survivors left. 
Our people who lived are still loyal to the company despite 67 
years without any recognition for their suffering.
    Ladies and Gentlemen, Honorable Congressional 
Representatives, United States has an obligation to do this. 
Make no mistake about it. The Federal Government took upon this 
liability after it signed the Treaty of Peace with Japan in 
1951. Our people are not asking for something extraordinary. We 
are expecting the country we fought for, the country we 
suffered for, the country we died for to honor its 
responsibilities to our elderly, and this not just a statutory 
obligation, it is a moral obligation.
    Passing this legislation into law is a chance to 
demonstrate the importance of Guam. It is an opportunity to 
show we truly belong to this country. It is a definitive way to 
prove the mutual respect that we have for one another. During 
the war Chamorros loyalty to America was unwavering even in the 
face of death. All I am asking for is America to recognize this 
loyalty.
    Thank you for this opportunity, and I express my support 
for H.R. 44.
    [The prepared statement of Mr. Calvo follows:]

Statement of The Honorable Eddie Baza Calvo, Governor, Island of Guam, 
       on H.R. 44, The Guam World War II Loyalty Recognition Act

    Thank you, Chairman Fleming for inviting me to testify today. For 
the record, my name is Eddie Baza Calvo and I am the Governor of Guam. 
On behalf of our people, especially those who found themselves slaves 
during World War II, I would like to express my support for H.R. 44, 
also known as the Guam World War II Loyalty Recognition Act.
    Distinguished members of the House of Representatives, war claims 
for the people of Guam are long overdue. On December 8, 1941 our island 
was changed forever. As all of you know, that was the day Japan 
attacked my home. For nearly three years, those on Guam were forced out 
of their homes, were subjected to slavery, and suffered rapes and 
beatings. Tragically, many died at the hands of the Japanese Imperial 
Army.
    On July 21, 1944, what is now known as Liberation Day, American 
Marines and soldiers stormed Guam, and began a successful campaign to 
reclaim the island. It began as their tribute to the Chamorros and 
Americans who fought and died for our freedom. It was a celebration of 
our liberation from slavery and oppression. Over the years it's become 
a commemoration of the Greatest Generation. It is not simply a 
remembrance of war, but a celebration of what our community has become 
because of the freedom Chamorro and American warriors fought to give 
us. But, the Liberation of Guam should not become a dying memory just 
because that generation is nearly gone. Upon us is the great 
responsibility to celebrate our identity and traditions with pride.
    Every year, the entire island commemorates the bravery of these 
men, remembers their loved ones who survived our darkest time in 
history, and prays for those whose lives were stolen by war. Members of 
Congress while our survivors are indeed liberated, they are not free 
from the scars of these atrocities.
    Everyone who has spent time on Guam has heard a personal account of 
what our people suffered. In fact, many of our survivors remember this 
day in 1944. They can still hear the and feel the bombs exploding as 
American forces prepared to storm our beaches. And while dodging bombs 
already seems inhumane, it pales in comparison to the stories all 
Guamanians have heard. We have first-hand accounts from a generation 
who endured war and occupation, then rebuilt this island from the 
ground up. Sadly, there aren't many of them left to tell these stories 
to our children and grandchildren. There are new generations growing up 
without the special moments Guam's greatest generation shared with us.I 
firmly believe sharing some of them with you today will help you truly 
understand and appreciate my position. For your reference, there are 
more attached to this testimony, as compiled by Guam Senator Frank 
Blas, Jr.
Father Jesus Baza Duenas
    Father Jesus Baza Duenas was born in 1911 and was the second 
Chamorro to be ordained a Catholic priest. He was one of only two 
Catholic priests that were allowed to remain on Guam during the 
Japanese occupation. Father Duenas was an outspoken voice of morality 
during that time, often expressing his opposition to the treatment of 
Chamorros to Japanese authorities.
    The Japanese occupiers believed Father Duenas knew the whereabouts 
of an American radioman who remained hidden on Guam: George Tweed. This 
paranoia turned out to be deadly for Father Duenas. On July 8, 1944, he 
was arrested. He was tortured for information on Tweed. Days later, the 
Japanese beheaded Father Duenas for his truthful silence.
Dolores Jones
    The harsh reality of war also forced many children to suffer 
unimaginably. Dolores Jones was orphaned at 11-years old. She was 
forced to march to a concentration camp, like 18,000 others. That's a 
terrible situation for any child to deal with alone, but Dolores was 
also forced to act as a mother to her siblings.
    There was no shelter, latrines, food, or medicine at the 
concentration camp. It soon became apparent this was a death camp, and 
the Japanese soldiers were planning a massacre. According to one 
account, forty men were tied up and beheaded. Sadly, no records exist 
that detail how many people died at these concentration camps.
    Guam suffered like no other place in America. Chamorros were raped. 
They were beaten. They were made slaves. They were forced to denounce 
the country they loved and swear allegiance to a country that was 
literally killing them. All the while, our people remained loyal to the 
United States. They never lost hope that one day, and soon, America 
would return and spare them from the suffering and pain. As I've stated 
before, many died protecting American lives. These acts were done out 
of a deep and committed loyalty to the United States. All throughout 
the occupation, this loyalty is what gave our people hope. People were 
certain the loyalty went both ways. Sometimes, this hope is what kept 
people alive, knowing these horrible circumstances were only temporary. 
In fact, there's a famous song our war survivors sang, when it was 
safe, to help raise their spirits. And the end of every verse was:
    My dear Uncle Sam, won't you please come back to Guam?
    The Japanese tried everything to break this resolve. They marched 
Chamorros to concentration camps; they became increasingly violent; 
they murdered Chamorros at a more frequent rate, with more mass 
casualties at a time. It was what our country stood for that Chamorros 
so bravely defended in their defiance of the occupiers. As the rumors, 
arrests and the preparations for marches began on Guam on July 8, 1944, 
people were fighting for the very ideals we yearned for.
    But despite their best efforts, many Chamorros survived until they 
were liberated. Sadly, although they survived the atrocities of war, 
most of them have been called by God to rest.
    I'm sure many of you are aware of the strategic importance Guam and 
the Marianas played in defeating the Japanese Imperial Forces. The U.S. 
Department of Defense needed our tiny little islands, and arguably 
would not have recaptured the Pacific Theater without them.
    In this special relationship we've had with America for over a 
century, it has not always been the actions of the federal government 
that have pleased us. But it has always been the ideals of this 
country, and what it means to people yearning for freedom around the 
world, that we have always loved. It has always been the American 
serviceman and woman, who was willing to die for us, whom we have 
honored and respected for the freedom we have. It is this way because 
only 67 years ago we were those people yearning for freedom, given to 
us by those Marines and soldiers who came back for us, bled for us and 
died for us.
    It is more urgent than ever before to grant these claims. The time 
is now, while they're are still survivors left. Our people have lived, 
still loyal to this country, despite sixty-seven years without any 
recognition for their suffering.
    Ladies and gentlemen, honorable Congressional Representatives, the 
United States has an obligation to this--make no mistake about it. The 
federal government took on this liability after it signed the Treaty of 
Peace with Japan in 1951. Our people are not asking for something 
extraordinary. We are expecting the country we fought for, the country 
we suffered for, the country we died for, to honor its responsibilities 
to our elderly.
    This is not just a statutory obligation, it is a moral obligation. 
Passing this legislation into law is a chance to demonstrate the 
importance of Guam. It is an opportunity to show we truly belong to 
this country. It is a definitive way to prove the mutual respect we 
have for each other.
    During the war, Chamorros' loyalty to America was unwavering, even 
in the face of death. All I am asking is for America to recognize this 
loyalty.
    Thank you for the opportunity to express my support for H.R. 44.
Edward L.G. Aguon passed away on September 28, 2007
    ``The most agonizing memories come to mind when I think of the 
occupation of being forced to watch people brutalized, tortured and 
killed, to see the look on their face when the final stab of the 
bayonet pierced their flesh, to hear the cries as their last breath 
leave their bodies. And even then, the attackers continued to thrust 
the bayonet into their lifeless bodies.''
    (On the March to Manenggon)
        ``Tens of miles in hot and rainy days, we were gathered like 
        cattle being led to the slaughter. We could not help anyone who 
        fell behind or fell down. Even if that person was your 
        grandmother, a sick relative or a dying friend, you had to move 
        on and leave them there.''
Joseph Crisostomo Aguon 80 years old, Survivor
    ``I was forced to work at the airport... My job was to dig and 
sometimes carry water for the Japanese Soldiers. At the end of the day, 
we were getting a handful of rice as our payment... I was assigned to 
work in Canada, Barrigada as a mess boy... I was transferred to work in 
Ordot digging tunnels. If the Japanese were not satisfied, we were told 
to line up face-to-face and slap one another. When my turn came, I 
refused to slap the old man facing me. I was hit by the Japanese guard 
holding a stick. The man whispered, go ahead and slap me. I will 
understand.''
Magdalena San Nicolas Bayani 94 years old, Survivor
    ``We were obligated to work. We worked in Ta'i and every morning 
we'd go through the swamp all the way up to Ta'i morning and night. 
We'd leave at 5 in the morning and return at 8 at night. All day, we'd 
plant, dig, gather rocks, and pull weeds. We'd rarely eat during the 
day. One day, we were told to stop work, stand in line and we stood 
there without knowing what was going to happen. We were warned that 
whomever whines, cries, or call out, we'd all be killed... There were 
three men who were standing there while some people were digging a hole 
in front of them. When the hole was dug, three Japanese with raised 
bayonets approached and told the men to kneel down with their hands 
tied behind their backs. They were told to bow their heads with their 
necks fully exposed. The three Japanese counted to three and the three 
were then beheaded right in front of us. The heads rolled down into the 
hole.
    ``One day, we were all standing facing the East. I didn't even know 
what we were doing. But, we were supposed to bow to the East, to the 
Emperor, the god of Japan, and the world, supposedly. I didn't bow 
quickly enough. I'll never forget. Nakase Sensei kicked me, slapped me 
first and then kicked me. Kicked my feet and I fell down.
    ``We would clean, pull grass, pull weeds, whatever. Bare hands. We 
had to feed ourselves with whatever we could bring from home... Later 
on, of course, I recall that they had a night shift. I don't recall 
what the night shift was for. But, we were all asked to bring our dogs 
to Tai. Later on, I found out that the Japanese were cooking dogs for 
the night shift.
    ``We were told to watch, or if we didn't watch, we would be next to 
suffer the fate of these three men...One of them was allowed to 
speak...He started to say the ``Our Father, who art in heaven...'' in 
Chamorro. Then they were pushed down to kneel. Three Japanese men, 
officers, with Samurai swords, each had water poured on the sword. 
Pushed the men down. Then he cut their heads off... I heard later that 
one of the Japanese officers took one of the heads and was giving it to 
the neighbors to cook it.''
Teresa Reyes Borja 80 years old, Survivor
    ``They tied me to the coconut tree like a carabao or a cow. That's 
a very sad. And right now, like only a couple of months back when they 
tie me there for almost one day, they tie me to the coconut tree and 
they almost killed us. I hope to God people from Merizo so they can 
know what I'm saying and it's true. And it's very painful for me when I 
think about that. Only I know that the carabao and the cow are tied not 
the human being, but that time I was tied up for almost one day when 
I'm 12 years old.''
    ``It's a long story, and I think the people that came here today, 
what they say, it's true. And I don't want to say. It's a long story to 
say everything what the Japanese did to us, to me and all my family.''
Rosa Roberto Carter passed away on April 11, 2010
    ``Most of us suffered wounds from being forced into the jungle, 
where we contacted scarring napalm from the United States bombing of 
the Japanese. When the bombing stopped, we were forced to go back to 
clearing bushes, which were dripping with this napalm. And in a proper 
setting, I could show you some scars, which have irritated me for 60 
years. One of my brothers lost parts of two fingers, as well, from the 
live ammunition scattered over so much of Guam after the fighting in 
1944. And at one time, I found myself clinging to a large breadfruit 
tree while American planes attacked.
    Human limbs, arms and legs, flew through the air on their own. 
People screamed in the grip of hysteria. I saw people going berserk.''
    ``In regard to the constant terror of being an occupied people, 
earlier in Mangilao, many of us were forced to line up in orderly rows 
to witness the beating of a family for the crime of trying to hide some 
of its food from the Japanese occupiers. If we showed any emotion, we 
would have been beaten too. ``
Francisco Leon Guerrero Castro 79 years old, Survivor
    ``We then had the order for a forced march to concentration camp in 
Manenggon. Because of my father's fear of what the Japanese might have 
intended...One person that testified here, I also recollected that 
during the Japanese occupation, a Japanese national who was living in 
Guam, way before the war and during the war, had circulated the rumor 
when they started seeing Uncle Sam come back to Guam, she started 
circulating the rumor that when the Americans gets back to Guam, they 
won't find nothing but flies. That statement was very true.''
Rosa Tenorio Castro 77 years old, Survivor
    ``If I did not march, they will kill me. Also, they will make me 
work in hot sun with no food and water and even though it's raining or 
not raining. It's a forced labor for a child. You don't have any 
democracy. There's no say so, ``I beg your pardon.'' ``Do it or else 
the end it be of you.'' In other words, they were very cruel to us 
Chamorros.''
    ``We went to Manenggon. Then, the marching on Manenggon, I thought, 
being a child, my understanding is only a child's understanding. But, 
now it's not. It's the opposite way around. What I heard as a child, 
that we were going to go to Manenggon, where there's a camp to be 
preserved from the American bombing. But, that is not true. They put us 
there so that the Japanese collect the Chamorro and give a big bomb. 
One bomb is enough for many people. That's what they intended to do.''
Jose Quinene Cruz 63 years old, Survivor
    ``My only recollection from my grandmother and my father and my 
mother was one morning, when I was playing out in the rain, it was 
raining real hard and I told my mother, ``I wish God would stop this 
rain.'' She told me, ``Son, if the rain didn't stop, you would not be 
born.'' That's the only time when she spoke about the war. With further 
query, I said, ``Mom, why, what happened?'' She said, ``I was in a 
firing squad with Nana,'' my grandmother, ``and your father and two 
other siblings. We were there because when the taicho came,'' because 
my grandmother was the one who was massaging the taicho. Well, the 
taicho came and Nana was not there, they burned their house because 
they were out in the ranch. They burned their house. When they came 
back, they found out that their house was burned. Then, they were 
actually corralled to go to the river right next to where the Malesso' 
Church is. They were lined up to be killed. It rained and it rained and 
it rained. Because of the meticulousness of the Japanese, they actually 
did not kill them. My mom said we just slowly slipped out because they 
were enjoying themselves probably thinking that they'll kill them.''
    ``I come here because I think the deprivation that I feel is really 
the deprivation of some of our loved ones. My uncle would've probably 
gotten me really, really advancing with a confidence that he actually 
had to the family. He was killed because of his stature. He was killed 
because he was a tall man, he was a big man. I'm a big person and my 
father's smaller than I am. I always told him, ``Gee, if I only known 
Uncle Kin, I probably would actually measure up to him.''
    ``The atrocity that I bring is really the atrocity of being 
deprived of the memories of all of our heroes, all of my people, all of 
my elderly and all of the people who have merited. I close really with 
a nightmare that my mother-in-law and father-in-law actually had. That 
one, I vividly experience. When Pop is about 80, 79 years old, he was 
starting to have Alzheimer's. When he leaves the house, there was one 
time when it was really a heavy rain. I think it's part of the 
recollection of the war, Pop, we found him hiding under one of the 
bushes. We asked him, ``Pop, what are you doing?'' He said, ``The 
Japanese are coming.''... Those are memories of the living. But, the 
memories of the dead I carry. I carry the deprivation of the 
memories.''
Rita Santos Cruz 72 years old, Survivor
    ``I was one person and I believe that there is no amount of money 
will ever equal the horror and pain of such an experience. We have not 
come to ask for money there is no value to suffering, hunger and cruel 
punishment and that no million will suffice to satisfy that indignity. 
We have not been acknowledged as a nation of people and also that we 
have suffered under the hands of the Japanese. Many have been raped, 
force to labor and I was forced to pick papaya and coconut for the 
Japanese. We marched to an area As Lucas in Talofofo. When we got there 
we saw a long and huge hole that was dug up but we had no idea what it 
was until my mother asked for a hug because the Japanese were suppose 
to kill us.''
Barbara Castro Dela Cruz 76 years old, Survivor
    ``I witnessed the beheading of three Chamorro men, who the Japanese 
accused of spying for assisting the American George Tweed. During the 
execution, I was placed at the front row, a few feet away from the men 
who were to be killed. It was a painful experience because the Japanese 
threatened that anyone who looked away or showed any emotion during the 
execution would be next, saying we were witnessing our mirror that 
could be done to us as well.''
Vicente Diaz Gumataotao 82 years old, Survivor
    ``Every day that I see Japanese, they'll beat me up. Either they 
wring my ear or they knock my head. But, they took us to be slave, 
forced labor, more likely, in a rice field, cornfield and potato, and 
sweet potato field; they worked 12 hours a day. Out of 36 of us, I 
really feel sorry for those 35 because I'm the only survivor.'' ``There 
was a lot of atrocities and I witnessed a lot of things that were 
happening in Guam, like the Late Frank Won Pat, when he was beheaded at 
Pigo', I was there, it was the first person that was beheaded by 
digging his own grave and they won't waste a bullet for him to be 
killed. He had to be beheaded by a sword.'' ``At Orote Point, the food 
that we eat over there is 50% worm and 50% rice. It's all rotted rice. 
We have to eat because we're starving.'' ``I asked for my machete back, 
they beat me up until I was unconscious. When I got up, I don't even 
know where I'm at. That's the worse experience I ever had. It's a 
horrible experience that I have been through. But I'm not the worst. 
There are a lot of people here that are worse than I am.''
Concepcion Judicpa 66 years old, Survivor
    ``Although I did not put in my testimony, I would like to, and 
maybe I will revise that later, but, in my testimony, my sister, up to 
this point, my sister's only about 80 pounds. It's because she lived 
during those days. She had, like all the other testimonies, there was 
malnutrition and so on. I, when I got married, I was only 85 pounds. 
Thank God I had five kids and was able to gain some weight. But, I 
believe that was as a result of the times when there was hardly any 
food to go around.''
Pilar Diaz Cruz Lujan 79 years old, Survivor
    ``I was 11 years, 2 months old on December 8th, 1941. The mass of 
the Immaculate Conception was just celebrated in the Santa Cruz Church 
in Agana. As we were coming out of the Church, we heard and saw planes 
overhead. Instantly, we waved and cheered as if we were watching an 
aerial show. Little did we know that those same planes had bombed 
Sumay... That was the end of the peaceful island paradise of Guam. A 
few days later, the people of Guam were captured by the Japanese and 
that was the beginning of the reign of terror that was forced upon the 
inhabitants of Guam.''
    ``As far as I'm concerned, the trauma and the lasting negative 
psychological impact of the people cannot be measured... The point is, 
the physical scars can never measure up to the fear that I carry today, 
even as old as I am now. The subject of war experience is not a subject 
that is easily passed on from one generation to the next. It is painful 
and horrifying experience that many people want to discuss, but most 
are unable to express without outward signs of emotional release.''
Maria Santos Martinez 83 years old, Survivor
    ``I was 14 years old when the Japanese came on Dec. 8, 1941. When 
the Japanese came, they made us run into the jungle right near St. 
Johns. Our family hid there and it was so dark and we couldn't find 
each other because we were near a cave by St. John's. In the morning, 
my father left us to cut his tuba and when he climbed down from the 
coconut tree, he saw a battalion of Japanese coming from the direction 
of Gun Beach. They stopped at the house of my aunt and found a young 
woman by the name of Maria Camacho whom they dragged out and raped. 
They held onto her father and while a bayonet was pointed at him, the 
battalion took turns on the young woman. My father ran back to us in 
the jungle and told us about what he saw.''
    ``Every morning, the Japanese would send us off to work. When I 
didn't work, would then be told to make sure to clean my neck because I 
would be cut off at the neck if I didn't' work. I would always cry out 
of fear. I would tell my mother that I didn't feel like working because 
I was always so hungry and sick but a Japanese would always remind me 
that if I refused, I would be killed by being beheaded.''
    ``When the American planes came they would shoot at us from the air 
because they thought we were the Japanese. We would all run into the 
jungle where we'd pray the Lord's Prayer. We even tried sticking our 
heads into holes in the ground out of our fear of being hit. When my 
companions become thirsty and they ask to drink, the Japanese would 
then take their guns and hit them with it.''
Lucia McDonald 83 years old, Survivor
    ``Once the Japanese soldiers found out through the interpreter that 
our father was an American Navy man, they tortured us on a daily basis. 
We would get punched, kicked and poked by bayonets and a head choke. On 
one occasion, my three brothers were in prison and beaten badly. One 
brother was beaten so badly on his leg that when they release him 
months later, he could not walk anymore.''
    ``We had to hide our food so we wouldn't get beaten. On one of our 
work days, we were forced to circle around and witness the execution of 
three men. One was beheaded and the others shot. We were told not to 
cry or yell or else we also would be killed.''
    ``I was afraid to report to the fields because of the plane 
dogfights that morning. The next day, along with three other girls, we 
were escorted and questioned about our accidents at the field that day. 
I was slapped repeatedly and a sword was placed on my shoulder. The 
interpreter told me that I was going to be killed if I lied about my 
absence. I begged for my life. Later, he asked if I wanted to be 
drowned in the big drum of a container of water. Two girls were told to 
clean the wounds of the Japanese soldiers. One girl was taken into the 
sleeping quarters of the Japanese official and I was told to grind 
coconut for the soldiers. Three of us were released that night. One 
girl, who was taken into the sleeping quarters was kept there for a 
couple of days before they returned her home. But, then her father hung 
himself because he could not bear to see his daughter suffering and 
what she went through.''
Dolores Cruz Meno 78 Years Old, Survivor
    ``There's two of us girls, because I was so fragile, I was so 
skinny. My parents are very poor, I am the youngest one in the family. 
So, there's two of us girls to carry that with the bamboo. We put the 
bamboo on the basket, we slid it into the farthest part of the basket 
and we carry it on our back out to the Manganese to deliver it to the 
Japanese people for their supplies. We do not have anything for us. 
They all get it for themselves.''
Manuel Mafnas Merfalen 82 years old, Survivor
    ``One morning, we were visited by a few Japanese and an interpreter 
and the Commissioner of Dededo... They introduced themselves to be the 
representative of the police, and the reason for their being there was 
because of my sister being married to an American Navy man... So the 
question went on repeatedly to my sister, and my sister was only giving 
them negative answer. Each time they're not satisfied with the answer, 
it was followed with a blow in the face, not with the palm open, but 
with the fist closed, to my sister's face every time she gave a 
negative answer. This went on for almost an hour, and they finally 
decided to leave, leaving my sister with a puffy face, bleeding through 
the mouth and nose...And then the following day, the same people came, 
informing my mother that we have to deliver my sister down to the Agana 
police station for more investigation...They were tying up her hands in 
front of her, and there was a chair just before her and she was told to 
get on the chair. So they strung up my sister to the beam of that 
building and I watched her dangling on that rope... Every time she gave 
an answer, it was followed with a whip, about a yard long whip, instead 
of a beating with the hand. I can see through the window flashes of 
blood. Her dress is soaked with blood. She wasn't crying, but I can see 
tears dripping through her face... When I was watching through the 
window, they poured this container of liquid over her head, then she 
started screaming. And what it was, it's not water, but it's gas. I can 
smell the fume of that gas coming out through that window from a 
distance of maybe 15 feet. So I started moving away from the building. 
I was crying. As far as I can go from 100 feet away, I can still hear 
my sister yelling.''
    ``We were on an ammunition and supply detail for some command in 
Mangilao for the military and, at the time, there was a plane flying 
over us. We were told to disperse with what we have on our shoulder 
into the jungle. My brother, being a heavy smoker, he took out his 
cigarette and light it, and momentarily when the supervisor of that 
crew saw the light, he yelled at one end of the group of people where 
we were and, in no time, he was there already yelling at my brother. I 
couldn't help watching him, what he was going through, and he was 
brutally kicked, hit with a stick, knocked down unconsciously... And at 
that time, they tied my brother's arm and dragged him behind a horse, 
and that was the last time I see of him.''
Lourdes Laguana Perez 80 years old, Survivor
    ``I watched my aunties, my father's sisters whipped when their 
three kamas were lost when they were going out. So, the Japanese 
rounded up all the old people first. They started whipping them. The 
Japanese were taking turns whipping the old people first. They were 
very strong because they started first. Then, when they went to the 
younger people, they were kind of weak. But, I watched my aunties cry 
but they have to hold their breath because if they cry more, or if we 
cry because I watch them, you'll get beaten more and you'll get 
whipping more.''
Jose Afaisen Pinaula 79 years old, Survivor
    ``I have suffered painful burn to both of my hands that lasted at 
least three days, then I was assigned to keep the diesel oil torchlight 
burning all night. I became nervous wreck. My morale was at its lowest 
breaking point. I was frightened and scared for my life, that I did 
anything the Japanese soldier just to survive and be alive. Forced to 
work, even if I was extremely ill, there was absolutely no excuse not 
to work, unless you on the verge of dying. I reach a breaking point in 
my life when I did not care what happened to me. ``
Roman Leon Guerrero Quinata, Sr. 80 years old, Survivor
    ``Up to now, I do not understand why the animosity and suffering 
imposed on us by Japanese. Imagine, I was only 12 years old, with no 
knowledge and experience of hard labor. I was made to do all these 
things. I was forced to work in the rice field, after several month of 
schooling. But, of course, the Japanese ambition is not to educate us, 
but to force us to do hard work, hard labor for their interest in 
combating this war. No matter what it takes, no matter what it costs, 
as long as their interest is served sometimes I ask myself, ``What have 
we done to make them hit us so much?'' The Chamorros are a loving and 
generous people. They don't even respect the elderly. My mother 
recently had a baby, was forced to work in the rice field. 
Incidentally, the baby that was born just before the war, died during 
the war, after contracting pneumonia. Nothing matters to them.''
    ``I will summarize this ordeal as one that I will never forget. The 
pain, the suffering, the hunger and the beating is beyond my 
expectation. I am praying that it will not happen again, and none of my 
kids or grandkids will ever experience what I have gone through.''
Cristobal Reyes 68 years old, Survivor
    ``While at Fenna, he worked for the Japanese in the field crops. It 
was shortly after my father had to move to Fenna when he was made aware 
that the Americans were on their way to Guam. This alerted the Japanese 
and started ridding the islands of as much Chamorros as they can, so 
that it will help weaken the attack against them whenever it was to 
take place. This is what led to the massacre of Fenna. On one 
particular morning, all the people were gathered to go into several of 
the caves that were existed there. My father was in one of them. He was 
later called out by the Japanese to collect firewood and barks of trees 
to place in front of the cave. Up to this time, there was no mention or 
notice of machine gun position to fire directly in front of the cave. 
He witnessed the first cave was being set on fire at the entrance, and 
then was followed by shootings.''
Regina Reyes 95 years old, survivor
    ``In 1941, when we heard that the Japanese is in Hawaii, we're to 
get away in the house. We stay there all day until four o'clock. I go 
to my other house. Since I just got in my house, they got in with gun 
and shiny bayonet. He asked me--I don't know what to say about this, 
pointed the gun, and I said, no, I don't have. And then he just pushed 
me on the wall and do what he want. He raped me.''
Elvina Reyes Rios 81 years old, Survivor
    ``I was made to work by the Japanese. I was only 13 years old at 
the time. I was living in Agat with my parents. I was made to work in 
the rice field. I was made to work in Piti planting rice. I worked in 
the village of Agat to be in the garden. I was made to work in 
Jalaguag. The damage on my back is still there because when I was busy 
clearing land and I would stretch my body, the Japanese would throw 
rocks at me. It is still there on my back... I'd get to Fena at 6 in 
the morning and if I was late at least one minute, I would get one slap 
on my mouth. For three minutes, it was three slaps on my mouth. When I 
am done in Fena, I would grate 125 coconuts. I would get off at 6 pm 
and by the time I got home to the ranch at 9 at night.''
Francisco Perez Sablan 69 years old, Survivor
    ``My father was beaten up and was punished, brutal. They hit him 
with sticks and they break almost every bone in his body. My mother, 
they grabbed me from my mother, they threw me in the fire. They slapped 
my mother. They kicked my mother. Now, I got about maybe 15% or 30% of 
my back body burned. So, I'm just here today to tell you that it's a 
hard life, to grow up with no parents, no father, no mother. I didn't 
even finish my education because I have nobody to support me in my 
education. I grew up eating bananas, breadfruit, taros, lucky if I eat 
spam or corned beef in a month or week. It's a hard life.''
Jesus Perez Sablan passed away on May 21, 2010
    ``We arrived in Manenggon without water, food or shelter. We 
hurriedly installed a lean-to temporary shelter using vegetation 
branches for our bedding. Believe me, war is hell. How I managed to 
journey, to complete the journey, with my partially crippled dragging 
my leg with eventual healing was a mystery. Could only attribute it to 
faith, the will to survive, and, more importantly, the will of God. And 
I swear, that the above remarks were the whole truth and nothing but 
the truth, so help me God.''
Vicente Taitingfong Taisipic 73 years old, Survivor
    ``They gave me a bucket to patrol the whole area of Yona and 
collect manure, irregardless what kind of manure. And they gave me a 
quota that, if I don't fill up six buckets during the field, that I 
would be beaten up. Practically, I was a walking maggot because, the 
fact of the matter is, that after the field work, I had to walk all the 
way from the school compound down to Asinan Valley. That's where our 
ranch is located at. And my parents normally told me to go directly to 
the river, stay there with the other carabao or water buffalo. And at 
that time, soap is a luxury for us. We used lemon leaf for soap so I 
could get rid of the flies that had been following me from the field 
that I would be beaten up.''
    ``The Japanese sergeant told me and a few others to round up all 
the dogs. At that time, I was under the impression they're supposed to 
eat it, but they behead it. And the one time, I came so close to at 
being cut by a Japanese sword. And then the dog, more or less, trying 
to reach and I reached over to grab it, hold it back, and then the 
Japanese soldier, cut him in half. Then he started laughing at me, and 
then, at the same time, I was bloody all over, then he started getting 
mad at me that I wasn't doing my job holding the dog down.''
Arthur B. Toves 81 years old, Survivor
    ``One afternoon, he ordered me and said to me, ``Get one shovel and 
go to the cemetery and dig this hole for two.'' I did that because it's 
very soft, sandy part. I finished what they told me to do. I hid under 
the banana tree and wait for them. Sooner or later the truck came with 
the two local prisoners and the mother. They followed behind the car 
with the two Japanese, armed with swords and .45 pistol. When they got 
into the cemetery, they tied the hands of the prisoners. They ordered 
them to kneel down, face one another. ``Look down at the hole and bend 
your neck.'' Ladies and gentlemen, sooner or later, that sword was 
flying, whacking the neck. One was next to the lady, the other was not, 
because they used the .45 to kill the guy. But, what makes me feel so 
bad that day, is that the mother was standing right next to the grave, 
watching all the things that being done to her son. I feel so bad, but 
I cannot do anything, or else, I'll be in the hole also.''
    ``My father [was] still in prison. They came to the ranch, armed 
with bayonets, looking for anything to prove that we are spy. They 
didn't find anything. They brought us to Agana, my two oldest brothers, 
my two oldest cousins and myself. They bring up the recent account. My 
father was on top of that. Nine o'clock in the morning, I noticed the 
executioner in the window... When he came out, he let us stand, all of 
us five, attention. He touches my brother's neck, the oldest one. He 
said, ``This is no good because this is kind of hard.'' Going down the 
line, they came to me. He touches my neck and exactly, this is what he 
said, ``This is very good.'' One time, meaning to say the sword would 
just go through all the way because I was the youngest one.''
Juan Martinez Unpingco passed away on August 10, 2010
    ``We seldom go to the other village and to Agana because we were 
afraid that we might meet Japanese soldier who were so mean and brutal. 
I have seen them slap our people with them and even stab people to 
death with their bayonet. They were ruthless and they have no regards 
to the value of human life. Then one day the Japanese soldiers came to 
our ranch destroying things and terrorizing us. We were so scared, 
especially when the same soldier rape my auntie Margaret.''
    ``One day the Japanese soldier armed with rifle and an interpreter 
telling to forcing us to march to Manenggon concentration camp... If 
you stopped to rest, you'd be whipped and beat. These were the march 
when my father, got whipped--oh boy he was really whipped had no 
reason, apparent reason. He was whipped with tangantagnan stick five 
feet long, one inch thick, my dad was whipped so severely until his 
body was swollen, lacerated, covered with matted blood and bruises. The 
beating took so long, so the soldiers took turns beating him. When the 
beating was finished, my father went to the nearby river and soaked his 
wounds for two hours to lessen the pain, swelling and bleeding.''
    ``Our people, as well as my family, endured so much hardship, pain 
and agony and torture. There are times I have nightmare remembering the 
suffering and torture and the killing that I witnessed as a young man. 
I still remember the mangled bodies with worms and flies feeding 
them.''
                                 ______
                                 
    Mr. Landry. Thank you, Governor. The Chair would now like 
to recognize Mr. Pula for five minutes.

STATEMENT OF NIKOLAO PULA, DIRECTOR, OFFICE OF INSULAR AFFAIRS, 
                U.S. DEPARTMENT OF THE INTERIOR

    Mr. Pula. Mr. Chairman and Members of the Subcommittee, 
thank you for the opportunity to discuss the Guam World War II 
Recognition Act.
    It has been nearly 70 years since Imperial Japanese 
military forces invaded and occupied Guam, subjecting its 
residents to 33 months of horrific pain and death. Through it 
all, however, the largely native population, the Chamorro, 
remained ever loyal to the United States. In a monumental 
operation the United States ground forces surrounded the 
beaches of Asan and Agat on June 21, 1944. Although our forces 
experienced fears of battles throughout the Pacific, what they 
found and learned of Guam's occupation by the Japanese was 
shocking. Fellow Americans, innocent civilians were subject to 
summary executions, beheadings, rape, torture, beatings, forced 
labor, forced march and internment. Approximately 1,000 had 
died due to the brutality of the Imperial Japanese occupation.
    No U.S. state or territories suffered as bitter a fate 
during World War II as did Guam.
    Cognizant of the dire straits of the people of Guam, the 
U.S. Congress passed the Guam Meritorious Claims Act in 
November 1945, just after the surrender of Japan. The U.S. 
Government later granted relief to certain residents of other 
areas occupied by Imperial Japanese military forces. Guam was 
not included in this subsequent legislation under the mistaken 
belief that Guam residents had already been compensated.
    For nearly 30 years, beginning in the 1970s, Guam delegates 
to Congress introduced legislation regarding war claims. It was 
not until 2002 that the Guam War Claims Review Commission Act 
became public law. Congress had instructed the Commission to 
determine whether there was parity of war claims paid to the 
residents of Guam under the Guam Meritorious Claims Act as 
compared with awards made to other similarly affected United 
States citizens or nationals in territory occupied by the 
Imperial Japanese military forces during World War II.
    The Commission met on numerous occasions, held lengthy 
hearings in both Guam and in Washington, and exhaustively 
analyzed relevant information and materials before committing 
its collective judgment to paper in its 2004 report. The 
Commission carefully stated 32 findings and developed six 
recommendations for the Congress, including $25,000 for 
eligible survivors of Guam residents who died, $12,000 for 
personal injury, including rape, malnutrition, forced labor, 
force marching and internment to each person who personally 
suffered any of these harms or to the eligible survivors, and 
establishment of a trust fund for research, education, and 
media to memorialize the events of the occupation and the 
loyalty of the people of Guam.
    Legislation which drew from the report has passed the House 
of Representatives on several occasions beginning with the 
109th Congress. However, it has failed to receive the support 
that would see it through to the enactment that we believe it 
deserves. As Congress is aware, Guam is vital to the protection 
of American interests. The United States has plans to move 
about 8,000 Marines, including their dependents from Okinawa to 
Guam. Many hope that the passage of the Guam Loyalty 
Recognition Act would show goodwill on the part of the Federal 
Government and would act as reciprocity for the goodwill and 
loyalty of the people of Guam have always exhibited and will 
exhibit by hosting the enlarged military presence.
    The Obama Administration, through the Department of the 
Interior, strongly supported enactment of the Guam World War II 
Loyalty Recognition Act in the 111th Congress, and we continue 
to offer our strong support for these provisions. Enactment of 
H.R. 44 would restore the dignity lost during occupation and 
heal wounds bound in the spirits of those who survived.
    Thank you for the opportunity to testify.
    [The prepared statement of Mr. Pula follows:]

Statement of Nikolao I. Pula, Jr., Director, Office of Insular Affairs, 
  U.S. Department of the Interior, on H.R. 44, The Guam World War II 
                        Loyalty Recognition Act

    Mr. Chairman and Members of the Subcommittee on Fisheries, 
Wildlife, Oceans and Insular Affairs, thank you for the opportunity to 
discuss H.R. 44, the Guam World War II Loyalty Recognition Act.
    It has been nearly 70 years since Imperial Japanese military forces 
invaded and occupied the United States territory of Guam, subjecting 
its residents to 33 months of horrific pain and death. Through it all 
however, the vast majority of the largely native population, the 
Chamorro, remained ever-loyal to the United States. In prayer and song, 
many longed for the return of the Americans.
    In a monumental operation, United States ground forces stormed the 
beaches of Asan and Agat on June 21, 1944. It took nearly two months to 
dislodge a well-hidden enemy, but Guam was finally secured on August 
10, 1944. Although our forces experienced fierce battles throughout the 
Pacific, what they found and learned of Guam's occupation by the 
Japanese was shocking. Fellow Americans, innocent civilians, were 
subjected to summary executions, beheadings, rape, torture, beatings, 
forced labor, forced march and internment. Approximately 1,000 had died 
due to the brutality of Imperial Japanese occupation. No U.S. state or 
territory suffered as bitter a fate during World War II as did Guam.
    Once Guam was secured, its residents were overwhelmingly thankful 
that their prayers had been answered, and conversely, our grateful 
nation had immense admiration for them and the pain and suffering they 
had endured. Cognizant of the dire straits of the people of Guam, the 
United States Congress passed the Guam Meritorious Claims Act in 
November 1945, just after the surrender of Japan,.
    The U.S. Government later granted relief to certain residents of 
other areas occupied by Imperial Japanese military forces. Guam was not 
included in this subsequent legislation under the mistaken belief that 
Guam residents had already been compensated by Congress. While the Guam 
relief recipients were appreciative, over the years it became evident 
that they may not have received treatment equivalent to that later 
given to Americans in other areas occupied by Japanese forces.
    For nearly 30 years beginning in the 1970s, Guam Delegates to 
Congress introduced legislation regarding war claims. It was not until 
December 10, 2002 that the Guam War Claims Review Commission Act became 
Public Law 107-333. Pursuant to the Act, the Secretary of the Interior 
appointed the Commission's five members, all of whom had experience 
relevant to the task at hand.
    Congress had instructed the Commission to ``determine whether there 
was parity of war claims paid to the residents of Guam under the Guam 
Meritorious Claims Act as compared with awards made to other similarly 
affected United States citizens or nationals in territory occupied by 
the Imperial Japanese military forces during World War II....''
    The Commission met on numerous occasions, held lengthy hearings 
both in Guam and in Washington, and exhaustively analyzed relevant 
information and materials before committing its collective judgment to 
paper in its 2004 Report on the Implementation of the Guam Meritorious 
Claims Act of 1945. The Report is indeed comprehensive. The Commission 
carefully stated 32 findings and developed six recommendations for the 
Congress.
    Included in the recommendations are:
    <bullet>  $25,000 for the eligible survivors of Guam residents who 
died during the Japanese occupation, which amounts to approximately $25 
million for approximately 1,000 deaths;
    <bullet>  $12,000 for personal injury, including rape, 
malnutrition, forced labor, forced march, and internment (including 
hiding to avoid capture), to each person who was a resident of Guam 
during the Japanese occupation and who personally suffered any of these 
harms, or to the eligible survivor(s) of such individuals, which 
amounts to approximately $101 million for the entire 1990 census 
population of Guam; and
    <bullet>  Establishment of a trust fund for scholarship, medical 
facilities, and other public purposes for the benefit of the people of 
Guam and for research, education and media to memorialize the events of 
the occupation and the loyalty of the people of Guam.
    Legislation, which drew from the report, has passed the House of 
Representatives on several occasions beginning with the 109th Congress. 
However, it has failed to receive the support that would see it through 
to the enactment that we believe it deserves.
    As Congress is aware, Guam is vital to the protection of American 
interests in Asia and the Western Pacific. The United States since 2000 
has been building up its military forces on Guam, and has plans to move 
about 8,000 Marines and their dependents from Okinawa to Guam as part 
of a bi-lateral agreement with Japan. Many hoped that passage of the 
Guam World War II Loyalty Recognition Act would exhibit good will on 
the part of the Federal government and would act as reciprocity for the 
good will and loyalty the people of Guam have always exhibited and will 
exhibit by hosting a large military presence.
    The Obama Administration, through the Department of the Interior, 
strongly supported enactment of the Guam World War II Loyalty 
Recognition Act in the 111th Congress, and we continue to offer our 
strong support for these provisions. Enactment of H.R. 44 would restore 
the dignity lost during occupation and heal wounds bound in the spirits 
of those who survived. For the thousand who passed by saber or savagery 
their memory remains in stories of principle, courage, and sacrifice.
    The Island of Guam has undergone tremendous change since World War 
II, and that change will continue as its strategic value is realized in 
the 21st Century. The opportunity to reach back and provide equity, 
parity, and justice is manifested in the Guam World War II Loyalty 
Recognition Act.
                                 ______
                                 
    Mr. Landry. Thank you. The Chair would now like to 
recognize Mr. Tamargo. You are recognized for five minutes.

STATEMENT OF MAURICIO TAMARGO, FORMER CHAIRMAN, GUAM WAR CLAIMS 
   REVIEW COMMISSION, FORMER CHAIRMAN, UNITED STATES FOREIGN 
                  CLAIMS SETTLEMENT COMMISSION

    Mr. Tamargo. Thank you, Mr. Chairman, Ranking Member, 
Members of the Committee, for the opportunity to appear before 
you today to speak about the work of the Guam War Claims Review 
Commission.
    My name is Mauricio Tamargo. I had the distinct honor of 
serving as the Chairman of the Review Commission and I served 
with a very talented and knowledgeable group of fellow 
commissioners and staff. For the sake of brevity, I am 
summarizing my remarks.
    The Review Commission was an advisory body established by 
the Secretary of the Interior pursuant to the Guam War Claims 
Review Commission Act enacted in December of 2002. The Review 
Commission was established to determine whether there was 
parity of war claims paid to the residents of Guam under the 
Guam Meritorious Claims Act as compared with awards made to 
other similarly affected U.S. citizens or nationals in 
territories occupied by Imperial Japanese military forces 
during World War II, and to advise on any additional 
compensation which may be necessary to compensate the people of 
Guam for death, personal injury, forced labor, forced march and 
internment suffered at the hands of the Japanese forces during 
the occupation.
    Guam was a U.S. territory when Japanese forces attacked it 
on December 8, 1941. Two days later, on December 10th, the 
Japanese overran and occupied the island. What followed was a 
period of 32 months of cruel, brutal and barbaric oppression of 
the people of Guam by the Japanese occupation forces. Great 
numbers of islanders were beaten. The Commission found that 
great numbers of islanders were beaten and whipped and many of 
the women were raped. There were numerous beheadings. In the 
last months of the occupation nearly all of the islanders were 
subjected to force labor and forced marches and herded into 
concentration areas including the elderly and the very young, 
causing them to suffer acutely from malnutrition, exposure, and 
disease.
    The Review Commission found that U.S. forces began the 
liberation of Guam on July 21, 1944, and the United States 
declared Guam secure on August 10, 1944. We also found that the 
Navy immediately began organizing the island as a base from 
which the U.S. intended to launch air and sea attacks in the 
direction of Japan. The U.S. Navy also devoted as much material 
and effort as it could spare to constructing shelters and 
providing assistance to the residents of Guam. Housing and 
shelter was scarce on Guam not just because of the combat 
fighting between the U.S. and Japanese forces, but also because 
many of the residents were being displaced by the ever-
increasing build up of U.S. forces on the island. The task of 
both acquiring all necessary lands for U.S. forces and for 
providing monetary relief for damages to the residents of Guam 
was undertaken by the Navy's Land and Claims Unit, which later 
became the Navy's Land and Claims Commission.
    As the first word in both organization's titles implies, 
the Navy's priority was acquiring all the necessary land on the 
island needed by the military for the war effort, not attending 
to the claims of the residents of the island. To a great 
extent, this is understandable as the U.S. was still engaged in 
a very serious war effort.
    The Review Commission report acknowledges that the Navy's 
efforts on behalf of the residents of Guam was admirable. 
However, the Review Commission also noted that the two missions 
of the Land and Claims Commission were at cross purposes 
because while the Navy was trying to inform the residents of 
Guam of their right to file a claim, and while it was trying to 
provide them with shelter and housing, the Navy was also 
displacing much of the population of Guam.
    Ultimately the Navy grew to occupy 75 percent of the 
island. Within weeks after the termination of hostilities on 
Guam, the Congress enacted the Guam Meritorious Claims Act of 
1945. In addition to providing other authorizations, this Act 
directed the Navy to provide immediate relief to the people of 
Guam in the form of monetary payments.
    In undertaking its tasks, the Review Commission conducted 
research, extensive research on the administration of the Guam 
Meritorious Claims Act of 1945 by the Navy's Land and Claims 
Commission, comparing that claims program to other claims 
programs conducted pursuant to other acts of Congress.
    The Review Commission also conducted hearings on Guam and 
in Washington, D.C. Finally, the Review Commission submitted 
its report to the Secretary of the Interior and to specified 
congressional committees summarizing our findings and our 
recommendations. The Review Commission, as detailed in our 
report, found that the Navy's Land and Claims Commission 
administered pursuant to the Guam Meritorious Claims Act of 
1945 was significantly flawed and fell short on a number of 
important counts when compared to the claims programs provided 
to the residents of other U.S. territories.
    The most significant of the flaws of this claims program 
was the poor public notice given to the residents of Guam and 
to the short opportunity for residents of Guam to file claims 
in the claims program. The Review Commission also found, and I 
would like to now make special mention of the fact that the 
residents of Guam during the Japanese military occupation 
exhibited great courage and loyalty to the United States in 
case of extreme hostility, and they did it at a time when the 
outlook for the U.S. prevailing in the war was far from 
assured.
    In conclusion, the five commissioners who served on the 
Review Commission came from different points of view and 
different backgrounds, as well as from both political parties, 
and yet we came to the findings and recommendations 
unanimously. I stand by these findings and recommendations and 
continue to believe strongly that they should be implemented.
    I would also like to say that those of us who came to the 
Review Commission from the Foreign Claims Settlement Commission 
were pleased to have had the opportunity to use our familiarity 
and expertise regarding war claims issues to assist in this 
important work.
    Mr. Chairman, this concludes my statement and I am happy to 
respond to any questions that you and the Ranking Member may 
have. Thank you.
    [The prepared statement of Mr. Tamargo follows:]

Statement of The Honorable Mauricio J. Tamargo (Ret.), Partner, Poblete 
Tamargo, LLP, Former Chairman, Foreign Claims Settlement Commission of 
    the United States, and Former Chairman, Guam War Claims Review 
 Commission, on H.R. 44, The Guam World War II Loyalty Recognition Act

    Chairman Fleming and Members of the Subcommittee, thank you for the 
opportunity to appear before you today to speak about the work of the 
Guam War Claims Review Commission.
    My name is Mauricio Tamargo, and I was the chairman of the Foreign 
Claims Settlement Commission at the Department of Justice from 2002 to 
2010, and I was also chairman of the Guam War Claims Review Commission 
(Review Commission) until June 9, 2004 when the Review Commission 
completed its work.
    The Review Commission was an advisory body established by the 
Secretary of the Interior under the Guam War Claims Review Commission 
Act, Public Law 107-333, enacted in December 2002.
    I had the honor of serving on the Review Commission with a very 
talented and knowledgeable group of individuals including the Vice 
Chairman of the Review Commission, the late Hon. Antonio Unpingco, 
former Speaker of the Guam Legislature, the Hon. Robert J. Lagomarsino, 
former Member of Congress from Ventura, California, the Hon. Benjamin 
J. Cruz, former Chief Justice of the Guan Supreme Court-now a Senator 
in the Guam legislature, and Mrs. Ruth Van Cleve, a former career 
senior executive in the Department of the Interior, and Mr. David 
Bradley, the Executive Director and the rest of the Review Commission 
staff.
    The Review Commission was established to ``determine whether there 
was parity of war claims paid to the residents of Guam under the Guam 
Meritorious Claims Act as compared with awards made to other similarly 
affected U.S. citizens or nationals in territory occupied by the 
Imperial Japanese military forces during World War II'' and to ``advise 
on any additional compensation that may be necessary to compensate the 
people of Guam for death, personal injury, forced labor, forced march, 
and internment'' suffered from the Japanese occupation of the island 
during the war.
    The island of Guam, was a U.S. territory when it was attacked by 
Japanese forces on December 8, 1941. Guam was attacked on the same day 
as the attack on Pearl Harbor occurred, but this attack happened on the 
other side of the International Date Line. Two days later, on December 
10, 1941, the Japanese overran and occupied the island. What followed 
after that was a period of 32 months of cruel, brutal, and barbaric 
oppression of the people of Guam by the Japanese occupation forces. 
Great numbers of the islanders were beaten and whipped, and many of the 
women were raped. There were numerous beheadings and, in the last 
months of the occupation, nearly all of the islanders were subjected to 
forced labor and forced marches and herded into concentration areas, 
including the elderly and very young, causing them to suffer acutely 
from malnutrition, exposure, and disease.
    The Review Commission found that after beginning the liberation of 
Guam on July 21, 1944, the United States forces declared Guam secure on 
August 10, 1944, and immediately began organizing the island as a base 
from which the U.S. intended to launch air and sea attacks in the 
direction of the Japan, the Japanese homeland. At the same time, the 
U.S. Navy devoted as much material and effort as it could spare to 
constructing shelter for the local citizens.
    Housing and shelter was scarce on Guam not just because of the 
combat fighting between U.S. and Imperial Japanese forces but also 
because many residents were being displaced by the ever increasing 
build up of U.S. forces on the Island. The task of both acquiring all 
necessary land for U.S. military forces, and providing monetary relief 
and damages to the residents of Guam was undertaken by the Navy's 
``Land and Claims Unit'', which later became the Navy's ``Land and 
Claims Commission'' when the Congress enacted legislation. As the first 
word in both organizations title implies, the Navy's priority was 
acquiring all the necessary land on the Island needed by the military--
not attending to the claims of the residents of the Islands. To a great 
extent this is understandable as the U.S. was still engaged in a very 
serious war effort.
    The Review Commission's Report acknowledges the Navy's efforts on 
behalf of the residents of Guam as admirable. However, the Review 
Commission also noted that the two missions of the Land and Claims 
Commission were not aligned and in fact were at cross-purposes. 
Because, while the Navy was trying to inform the residents of Guam of 
their right to file a claim and trying to provide them with shelter and 
housing, the Navy was also displacing much of the population of Guam. 
Ultimately the Navy occupied seventy-five percent of the Island. 
Leaving a mere twenty-five percent for the population of Guam to 
inhabit.
    With-in weeks after the termination of hostilities in Guam, the 
Congress enacted the Guam Meritorious Claims Act of 1945. In addition 
to providing authorizations, this Act directs the U.S. Navy to provide 
``immediate relief' to the people of Guam. This directive included 
providing monetary payments to the people of Guam.
    In undertaking its task, the Review Commission conducted research 
on the administration of the Guam Meritorious Claims Act by the Navy's 
Land and Claims Commission, and compared the claims program conducted 
pursuant to it with the following statutes, and the claims programs 
conducted pursuant thereto, after the war:
        <bullet>  The Philippines Rehabilitation Act of 1946
        <bullet>  The War Claims Act of 1948, including the 1952, 1954, 
        1956, and 1962 (Wake Island) amendments to the Act, and Title 
        II of the Act, added in 1962--The Micronesian Claims Act of 
        1971--The Aleutian and Pribilof lslands Restitution Act (1988)
    The Review Commission also conducted hearings on Guam, at which 
time we heard moving testimony from survivors of this terrible period 
in history. We then held a legal experts' conference in Washington, 
D.C., where relevant legal issues and the history of Guam were 
discussed. Finally, the Review Commission submitted its Report to the 
Secretary of the Interior and to specified congressional committees 
summarizing our findings and recommendations.
    The Review Commission found that the Navy's Land and Claims 
Commission, administered pursuant to the Guam Meritorious Claims Act of 
1945, was significantly flawed and fell short on a number of important 
counts, when compared to the claims programs provided for residents of 
other U.S. territories. The most significant of the flaws in this 
program being the poor public notice given for the claims program on 
the war ravaged and chaotic Island and the short opportunity residents 
of Guam had to file claims.
    The Review Commission also found, and I would like to make special 
mention, that the residents of Guam exhibited great courage and loyalty 
to the United State in the face of extreme hostility at a time when the 
outlook for the U.S. prevailing was far from assured. As demonstrated 
by the time when a number of the residents of Guam hid and protected an 
American sailor during the Japanese occupation. But for the assistance 
by the U.S. national residents of Guam, who knows how WW II would have 
ended?
    The Subcommittee has asked me to address a number of specific 
questions regarding the work of the Review Commission. These questions 
are: why should U.S. taxpayers pay for these WW II reparations?; How 
are the awards under H.R. 44 different from the amounts already 
received by 4,356 claimants under the Guam Program?; What is the 
justification for the different levels of compensation in H.R. 44?
    The Japanese cannot be held responsible for any further payment of 
reparations for World War II wrongs committed against Americans, 
including the World War II claims of the American residents of Guam, 
because the terms of the 1951 Treaty of Peace released the Japanese 
from such responsibility.
    At the same time, notwithstanding that the actual funding to pay 
these Guam claims will come from taxpayer funds, it could be argued 
that the funds are, in some sense, traceable to the funds derived from 
the postwar liquidation of the Japanese and German assets frozen at the 
beginning of World War II. Those Japanese and German funds were lumped 
together and distributed by the Department of the Treasury, pursuant to 
the various War Claims Commission and Foreign Claims Settlement 
Commission claims programs. No distinction was drawn between Japanese 
and German responsibility for any particular claim or set of claims. 
(This contrast with the funding of war claims against the Axis 
countries Hungary, Romania, and Bulgaria. Title III of the 
international Claims Settlement Act of 1949 mandated separate funds, 
derived from the respective countries' frozen assets, to cover claims 
against each of those countries.) Insofar as the Foreign Claims 
Settlement Commission is aware, it has not been possible to determine 
whether all of the proceeds from liquidation of the Japanese and German 
assets have in fact been expended. Therefore, in this case, it could be 
said that these Guam claims would be paid with Japanese funds.
    With regards to the 4,356 claims received, although I don't 
recognize that number, the first thing I wish to point out is that 
while the Guam Program shows a total of 6,365 awards, only 318 of those 
were death claims and only 257 were injury claims, the rest were 
property claims. Again, this breakdown indicates where the Navy's 
priorities were, understandably with the war effort. The other point I 
wish to make with regard to this question is, as like all such war 
claims programs, there is no legal obligation to make these payments 
and, as I have said before, the payment of these awards are ex-gratia.
    As to why the Review Commission recommended different categories of 
claims, the Review Commission found that due to the passage of years 
and the loss of relevant records, it is virtually impossible to 
differentiate among the many brutal injuries each resident of Guam 
suffered during the Japanese occupation. We also looked at other 
similar remedial claims programs to this recommended program and found 
that the most appropriate method for apportioning compensation for the 
resident's suffering would be to grant one single lump some award 
covering each categories of harm, regardless of how many types of harm 
a person may have suffered. Each level of compensation is justified by 
the different, brutal, and very difficult hardship experienced by each 
of the residents of Guam during the occupation. Even the least severe 
level of compensation, the internment, caused significant illness and 
death due to exposure to the elements for weeks without shelter.
    In conclusion, the five Commissioners who served on the Review 
Commission came from different points of view and backgrounds, as well 
as both political parties and yet we came to these findings and 
recommendations unanimously. I stand by those findings and 
recommendations and continue to believe strongly that they should be 
implemented. I would also like to say that those of us who came to the 
Review Commission from the Foreign Claims Settlement Commission were 
pleased to have had the opportunity to use our familiarity and 
expertise regarding war claims issues to assist in the accomplishment 
of this important work.
    Mr. Chairman, this concludes my statement. I will be happy to 
respond to any questions that you or the other Members of the Committee 
may have.
                                 ______
                                 

  Response to questions submitted for the record by Mauricio Tamargo, 
    Former Chairman, Guam War Claims Review Commission, and Former 
          Chairman, U.S. Foreign Claims Settlement Commission

From The Honorable Madeleine Z. Bordallo
Q:  In previous war claims programs administered by the United States, 
        is it typical for an Administration to request funds for the 
        claims program in its annual budget request to Congress prior 
        to the authorization of the program by the Congress and the 
        subsequent approval of valid claims under that program?
    A: ``The Administration has not requested funding to pay claims 
under any program of the nature currently contemplated for the 
residents of Guam. This is necessarily so, as it would be impossible to 
know how much funding to request in advance of ascertaining the 
universe of potential outstanding claims.
    In a few small claims programs, Congress has appropriated funds to 
pay claims after it had conferred authority to adjudicate the claims on 
a commission, but prior to the commission having evaluated the specific 
claims. In these particular claims programs, the Administration and 
Congress had an idea of the likely universe of outstanding claims. One 
such Program arose out of post-World War II conflicts and involved 
inadequate rations and inhumane treatment of American servicemen held 
as prisoners of war.
    In this current legislation, as in most claims programs, even 
though we have a rough idea of how many claims there may be, due to the 
age of the claimants, it is too difficult to estimate the appropriated 
funds that will be needed to cover this program.''
                                 ______
                                 
    Mr. Landry. Thank you. I would now like to recognize Brig. 
Gen. V.G. Ben Blaz, and also a former Member of this body for 
an opening statement. Thank you for being here today, General.

 STATEMENT OF BRIG. GEN. V.G. BEN BLAZ, USMC, RETIRED. FORMER 
                       MEMBER OF CONGRESS

    Mr. Blaz. Thank you. Thank you very much, Mr. Chairman, 
Ranking Member, Members of the Committee.
    I came here to use my time reading my statement as the 
others have done. I have decided to forego that, sir, because 
with all due respect in your opening statement I was concerned 
about some comments that I feel that if I don't respond there 
might not be another opportunity for me to respond.
    I am very sincere when I say to you, with all due respect, 
as a former Member, I understand fully the responsibilities 
that you have and what decisions you need to make and how you 
weigh one against the other. But having mentioned the Heritage 
Foundation, apparently the source of much of your information, 
you just admitted something for the record, I say to you, sir, 
please read my statement later on.
    Let me just start with the first thing that you mentioned 
about the citizens of Guam 1943 to 1956 received $8 million and 
you said apparently that is inadequate. Sir, I would prefer to 
call it incomplete, incomplete, and the reason it is incomplete 
is simply because there were so many people that were not 
aware. I was on Guam, Mr. Chairman. I was 17 years of age at 
that time when this thing was happening. I come from a family 
of eight children and my mother and father there were 10 of us. 
Our concern at the time was clearing the debris from our home 
and finding a meal for the next time that we sit down.
    We were stunned later on when we discovered that there had 
been this Commission out there, and you just can't imagine how 
welcome it would be if you are starving and somebody handed you 
a dollar, and that is what we would have embraced the person.
    So I think that there is a sentiment, and I think it is a 
very distressing sentiment that somehow this thing is now over. 
I say it is incomplete, and I say that we need to give them 
another shot.
    The second thing that was mentioned was that at least--good 
grief, this distresses me somewhat as a Marine officer--that 
someone from the Heritage Foundation would characterize the 
death, killed in action, as being that is enough, what else do 
you want us to do? What else do you want us to do? We liberated 
you.
    It shows an intensely ill-informed person that would write 
that. It presumes that the reason United States came to Guam 
was to liberate us and that alone. It presumes that the reason 
we captured the Northern Marianas rather than liberate them was 
to set them free. That is not enough because you would have to 
answer the question why did we lose so many people in two of 
the fiercest battles in World War II in either theatre, taking 
Peleliu, no residents, attacking Iwo Jima, no residents. So the 
argument falls flat on its face, sir, that somehow the United 
States came. We are grateful. I know we are grateful, but by 
golly, we gave the United States, we gave, and besides Saipan 
and Guam, we practically defeated the Japanese by ourselves 
because our land was so--forgive me, forgive me, sir, for 
speaking so loudly but this is very dear, very dear to my 
heart.
    I also want to mention that the matter that you mentioned 
about the treaty of--I mean, the $10 million or $10 billion. I 
agree with you. I absolutely agree with you. I cannot imagine, 
I cannot imagine that an organization such as the House with 
all its tremendously capable people in the U.S. Government as 
well that somehow we cannot find a way to say that out of that 
$10 billion we must be able to carve a few pennies and settle 
this matter.
    Now, why do we want to settle this matter? We want to 
settle this matter, sir, because we need one. Now the military 
likes to describe Guam as the tip of the spear. Well, Guam has 
been the tip of the spear since 1898. I have here a picture, 
Mr. Chairman, I have here a picture of stamps that were issued 
in 1990, while I was here, and it is a picture of Guam. Guess 
what it says parenthetically. ``A U.S. outpost.'' So I 
challenged the Committee, why do you call Guam a U.S. outpost? 
The Committee staff checked it all out. They called me in and 
said, ``because that is what it is.'' And I said, ``I 
understand.''
    That is what it remains, it would appear.
    So, what I would like to say to you, sir, is that this 
whole idea of compensation, the whole idea that somehow we 
don't owe the people of Guam this, there is a lot more to what 
is intended here than monetary value. At the risk of misquoting 
it why don't we call it, given the intensely loyal sentiment on 
Guam for the United States, why don't we call it the lack of 
response? It is obviously unrequited love, unrequited love.
    We now are about to ask them one more time to look at China 
and to look at North Korea as an outpost and say, hey, will you 
let us know when something else is happening out there? I say 
to you, and I am way past my time, obviously, and I don't want 
to be chastised about this, but, Mr. Chairman, if you don't 
remember anything else that I have to say is that, sir, we are 
not trying to get this compensation to bring back the dead. All 
we are trying, sir, is to get this compensation to honor the 
living.
    Thank you.
    [The prepared statement of Mr. Blaz follows:]

Statement of Brigadier General Vicente G. ``Ben'' Blaz, USMC (Ret), and 
Former Member of Congress from Guam, on H.R. 44, the Guam World War II 
                        Loyalty Recognition Act

    Chairman Fleming, Ranking Member Sablan and Distinguished Members 
of the Committee
    It has always been an honor for me to be in the halls of Congress 
as a visitor, a witness, and a former Member. Since leaving the 
Congress, I have frequently told my friends that hearing rooms on the 
Hill are like mini-coliseums. The Members are the Caesars and the 
witnesses the gladiators!
    When Guam was liberated in July of 1944, about 20,000 sons and 
daughters of Guam emerged from the concentration camps ragged and 
gaunt. Some joyous and singing, some quiet with guarded smiles, and 
others perplexed with lingering fear in their eyes! Virtually all the 
elders, however, were in unison, fingering their rosary beads seemingly 
in a race as though the ones who finished the fastest would be the 
first to be freed. Of the original number liberated, it is estimated 
that only several thousand are still alive. I am one of them. I appear 
before you on their behalf.
    My compliments to my successors, Congressman Robert Underwood and 
Congresswoman Madeleine Bordallo, and you, Mr. Chairman and members of 
the Committee for your efforts in getting us to this juncture in our 
long odyssey to resolve an issue which has torn the hearts of American 
citizens on Guam, particularly those who survived the occupation. To 
Chairman Tamargo and fellow commissioners on the Guam War Claims Review 
Commission, I tip my hat and extend a hearty, Si Yu'os Maase,* for a 
report well researched, well documented, well written, and exceedingly 
well done. (*In the language of our people, this translates to ``May 
God have mercy on you,'' the customary way of expressing gratitude).
    Filing cabinets here in Congress are replete with thousands of 
pages centered on the astonishing brutality suffered by our people 
during the occupation. The unspeakable evil inflicted on conquered 
peoples by Imperial Japanese forces during World War II pains the heart 
to recall. The rape of Nanking in 1937, the Bataan Death March in 1942, 
and the Manila Massacre in 1945 stunned the free world. Rape, forced 
marches, forced labor, and massacres were also inflicted on the people 
of Guam.
    Numerically, the number of victims on Guam did not draw notice as 
those in China, Singapore, and the Philippines did; however, 
statistically, on a per capita basis, Guam was spared no quarter. That 
American nationals, on U.S. soil, under the American flagpole could be 
so brutally and cavalierly mistreated was extremely difficult for us to 
comprehend and accept. It may have earned us the dubious distinction of 
being the first Americans mistreated in this manner in our own American 
land. Remarkably, it appeared to me that the harsher the treatment, the 
deeper the devotion to the United States. The profound loyalty of the 
people of Guam was the subject of many writings and commentaries during 
and after the war. Among those who filed reports from Guam was war 
correspondent, Quentin Reynolds, who, after spending time in 
rehabilitation camps, reported, ``These are real Americans. There never 
were any quislings on Guam.'' Sadly, these ``real Americans'' have been 
waylaid from receiving war reparations benefits on technicalities, 
their remarkable patriotic record notwithstanding.
    Once again, Guam's strategic location in the western Pacific has 
attracted national attention. Once again, our small island, still only 
30 miles long, is slated to host thousands of Marines and other 
military personnel and their families. In the early 1970's, I commanded 
the 9th Marine Regiment of about 4000 Marines stationed in Okinawa. One 
of the most challenging problems we had was maintaining cordial 
relations with the neighboring communities. Because we were in a 
foreign country, we were guided by the status of forces agreement 
between the U.S. and Japan. There is no such agreement between the 
armed forces on Guam and the civilian communities. Good will must 
prevail between the Americans on the base and the Americans outside the 
base.
    Strategists are generally in agreement that there would be a large 
military contingent on Guam for the rest of this century. By the time 
deployments are executed, the chances are there would only be a handful 
of Guam war survivors still alive. The sons and daughters of the 
survivors and their children, many of whom are lawyers, doctors, 
dentists, engineers and business men and women would be the leaders in 
our communities. Were the contentious matter of reparations continue to 
remain unresolved, it is not likely that the fabled hospitality of the 
people of Guam would be unaffected. Having agonized with their parents 
for many years over the lack of action concerning war reparations 
matters, the historic goodwill between the military and the people of 
Guam is likely to be in jeopardy.
    Once again, as it has done in the past during World War I, World 
War II, Korean War, Vietnam War and other conflicts which followed, 
Guam, by virtue of is strategic location, will have a major role in the 
security and defense of the United States. No other community in the 
U.S., territory or state, has served the national and international 
security interest of the United States as consistently and loyally as 
Guam and its people. Per capita, more of its sons and daughters have 
given their lives in defense of the United States than any other 
community its size and population. With China and North Korea just a 
few time zones from Guam, its strategic importance remains 
indispensable. The U.S. needs Guam's help again. Meanwhile, Guam could 
use help now in its quest for reparation for its sufferings and losses 
during World War II.
    When Guam was captured and occupied in World War II, it changed our 
lives on Guam profoundly and, for some, permanently. In accordance with 
national and international practice, custom, and tradition, we sought 
reparation not for broken homes but for broken bones. It has been a 
long journey on a trail with too many crossroads.
    I was 13 when the journey started. I am now 83.
                                 ______
                                 
    Mr. Landry. Thank you, General, and I understand and I 
appreciate your comments. I can't imagine what it was like 
living through that. It was a horror for a lot of people around 
the world at that time that I am sure the trials and 
tribulations that the people of Guam went through was repeated 
not only in the Pacific Islands but also in Europe as well.
    I would like to recognize myself for five minutes since you 
took some issue with some of my comments.
    Governor, it is my understanding that Guam leaders have 
rejected past settlement offers. Where is Guam in regard to 
these settlement offers, these settlement numbers?
    Governor Calvo. As to a poll? Please recite the question.
    Mr. Landry. It is my understanding that in 1990 there was 
an offer that was made of approximately $49 million, and then 
that offer was rejected. Do you agree with that?
    Governor Calvo. You know, I was not aware of that. I was 
not in public office back in 1990 so I wouldn't be the right 
one to ask that question. I don't have an answer. What I do 
know is I go funerals every week and every week I see one less 
person to be compensated because they are in a funeral.
    Mr. Landry. I would like to make sure that we understand 
that from the research I have done it is not as if the 
government has said--has been absolutely no money offered to 
Guam. It is my understanding that--Mr. Tamargo?
    Mr. Tamargo. Yes, sir.
    Mr. Landry. Would you like to comment on that settlement 
offer?
    Mr. Tamargo. The 1990 settlement offer? Yes, the report 
studied that and makes mention of it in our report, and that 
was some of the members of the Commission, when we decided--
when we came up with the recommendations we used that as the 
measure of those living at that time because we thought it was 
unfortunate that they did not come to an agreement at the time, 
and it was unfair to hold that against the people of Guam, so 
that was simply used as a marker as to those living at the time 
should be included in the remedial program.
    Mr. Landry. Well, I guess my concern is that in 1990 there 
was an offer on the table for $49 million. Here we are some 20 
years later. There are a lot of people that have passed away 
between now and 20 years, and I am trying to understand why $49 
million at the time was not enough. I am trying to understand 
where did we come up with this quantity of $100 million.
    Mr. Tamargo. If your question is, sir, why was the offer 
not accepted at the time, my information was that the offer was 
limited to those living at that time, and the community of Guam 
did not believe that was----
    Mr. Landry. OK.
    Mr. Tamargo. That was the issue at the time.
    Mr. Landry. So it is not as if there has not been, that 
Congress and this government has been--you know, there wasn't 
any offers going out there. I mean, there was money on the 
table, I think a considerable amount of money, and I know my 
time is almost limited.
    Mr. Tamargo. Mr. Chairman, I would like to add though that 
there was unanimity in the Federal Government to do something 
about the program then.
    Mr. Landry. Right.
    Mr. Tamargo. The administration at the time, the Congress 
at the time----
    Mr. Landry. It is a question of money now. Is it the 
amount?
    Mr. Tamargo. Well, these monies are more symbolic than they 
are actual.
    Mr. Landry. Well, here is the problem and this goes on, 
which leads into my next question--I only have a minute 
fifteen--to the gentleman and I hope he understands--$15 
trillion in debt. At the time the $49 million was offered, we 
were only $3 trillion in debt. I guess my question, General, if 
we pass this bill, where would you suggest we take that $100 
million from?
    Mr. Blaz. Sir, last year in the Pigford settlement that 
awarded Black farmers and other minorities recognition of their 
agricultural claim, we found $4.2 billion last year. The year 
before that we found $198 million for the Filipino scouts. In 
1998, we found a billion dollars for the Japanese Americans 
that were relocated which was a horrible part of our history, 
but that is what happened. In 1988, we found money for the 
Aleutian restitution, and in 1971, we found money for the 
Micronesian claims.
    Mr. Landry. If you don't mind, General, if I may interrupt, 
the problem we have here is now we are under a different set of 
rules. We are under--if we are going to award $100 million to 
one, we have to cut it somewhere else because in a lot of the 
instances you just explained there was a lot more money 
available. In the last two years we have spent $2.5 trillion 
more than we spent two years ago, and so I respect that, and I 
wasn't here in that Congress, and look, that is why I am here 
today asking these questions. I am just trying to find out 
where we would offset that money from because we can't just do 
what the past Congresses have done over the last 30 years or 
so. We can't just add it to the deficit. We have to cut it from 
somewhere else, and I am sorry that they spent so much money in 
the last two years. They spent an ungodly amount of money. I 
wasn't here. I want you to understand that. I wasn't a part of 
that particular spending but, unfortunately, I am now part of 
the group that has to make real tough decisions, and so that 
was all.
    I know my time has gone over, so I would like to go ahead 
and recognize the Ranking Member, Mrs. Bordallo--Mr. Sablan. 
She was looking at me.
    Mr. Sablan. No, that is fine, Mr. Chairman. I yield my five 
minutes to Mrs. Bordallo.
    Mr. Landry. All right, fine. Mrs. Bordallo.
    Mrs. Bordallo. Mr. Chairman, I was listening very carefully 
to your exchange her with General Blaz, and if I find an offset 
will you then support H.R. 44?
    Mr. Landry. I couldn't commit to that but what I would tell 
you is I would be interested in where--you know, in where.
    Mrs. Bordallo. Good, because this bill has passed the 
Congress five times. It is only the Senate, and I have been 
told that if I find an offset over there in the Senate they 
will agree, so I am just asking you. Would you agree?
    Mr. Landry. I couldn't commit on that right now, but it 
certainly would--it certainly would be a starting point.
    Mrs. Bordallo. All right, the Chair entered--yes?
    Governor Calvo. With all due respect, I was reading the 
newspaper the other day. One of the things as a loyal citizen 
of the United States, and Congresslady you see some of the 
issues just on FEA that I mentioned or AITC, what I brought up 
earlier, and it would be too long to recount all the Federal 
mandates that have really bankrupted our island, but I could 
recommend--I just saw in the news Pakistan. If they are cutting 
aid to Pakistan, why don't you offset some of that money with a 
loyal American territory such as Guam? A little recommendation.
    Mrs. Bordallo. Thank you. Governor, just for the record I 
would like to ask you the same question I asked General Blaz. 
The Chair entered a statement from the Heritage Foundation that 
suggests that whatever war claims are due do not take into 
account the sacrifice of lives and injuries to liberate Guam. 
How would you respond to this?
    Governor Calvo. What I understand is I don't think the 
Heritage Foundation is--I am wondering whether anyone from the 
Heritage Foundation has ever stepped foot on our island.
    Mrs. Bordallo. Probably not.
    Governor Calvo. You know, when I first came to college out 
here, when I said I was from Guam, and it was well meaning, a 
lot of folks were saying, oh, is that near South America?
    Mrs. Bordallo. Yes.
    Governor Calvo. Or do you live in huts? And unfortunately, 
you know, we are so far away that there is little understanding 
of our island.
    Mrs. Bordallo. That is true.
    Governor Calvo. Just myself, my grandfather was first 
cousin of Father Duenas. Father Duenas had his head chopped 
off. My father didn't take off his shoes when he went into a 
classroom and the sensi beat him up.
    Mrs. Bordallo. Yes.
    Governor Calvo. You know, I had another uncle, when you 
have an uncle whose father was a U.S. Marine, what they did 
with him was they stuck a hose in his mouth and he filled up 
with water. When it is filled sufficiently, they put the board 
on top of him and jump on him. These are things--I don't know 
if you can quantify it.
    Mrs. Bordallo. No.
    Governor Calvo. But they were all loyal citizens----
    Mrs. Bordallo. Yes.
    Governor Calvo.--when they were alive, and their children 
are still also loyal citizens.
    Mrs. Bordallo. Loyal citizens.
    Governor Calvo. This has been 67 years.
    Mrs. Bordallo. Governor, I just want to mention to the 
Chairman, yes, when I came to Congress, you know, this is my 
fifth term, and when I came to Congress, just to show you how 
much they know about the territories, that is not just Guam but 
all of us, they asked me if Guam was part of Hawaii, one of my 
colleagues. So, you know, we have a big job here. We work three 
times as hard as any other Member when it comes to explaining 
our situation and why we are important to our country.
    Mr. Tamargo, can you explain the Review Commission's 
finding that there is not a legal obligation for Guam war 
claims as one of the statements for the record states while the 
Commission report also states there is a moral obligation? 
Would you explain the distinction?
    Mr. Tamargo. Certainly, Congresswoman. War claims, there is 
never an obligation by a nation to pay--to create a claims 
program. That is simply a moral obligation, and that is what I 
was going to explain to the Chairman also. These are war claims 
given to citizens so that no one citizen has a disproportionate 
burden in the war. Soldiers have different programs for them 
but civilians are given the opportunity to file a war claim if 
they are so eligible, but Heritage's remarks about soldiers 
dying on the beaches--I have great respect for the American 
servicemen, but those are apples and oranges. We are not 
talking about soldiers. We are talking about civilian 
population that suffered war damages, and the mission of the 
Commission was to compare the claims program that was given to 
civilians on Guam and compare it to the civilians given to 
other U.S. civilians elsewhere in the Pacific, and there is 
disparity in the comparison, and that is just the facts.
    So, if the facts that they were not treated fairly, then 
what would be called for as a moral obligation was to achieve 
parity. They would need to re-create a remedial program to give 
equity to the civilians of Guam, so it is a moral obligation.
    Mrs. Bordallo. Thank you. Mr. Chairman, Mr. Sablan, would 
you yield your time to me? Yes, to continue.
    Mr. Sablan. To continue, I yield my time.
    Mrs. Bordallo. Thank you, Mr. Chairman.
    Mr. Landry. The Chair now recognizes Mrs. Bordallo for five 
minutes.
    Mrs. Bordallo. Mr. Tamargo, I want some clarifications here 
because I think our Chairman is new to Congress and probably 
doesn't understand all of the situation, but can you explain 
for the Committee the legal rationale for why the United States 
would pay for Guam war claims and not the government of Japan 
under this legislation?
    Mr. Tamargo. Certainly. Well, in the Treaty of Peace in 
1951, the U.S. relieved Japan of all further liability and 
accepted all debts against Japan have been satisfied and they 
seized the frozen Japanese assets that were in U.S. banks at 
the time as settlement for all damages caused by the Japanese 
in World War II.
    It was done with the Germans as well and it was commingled 
with U.S. funds, and so I would say these funds that would be 
paid to these, as were with all the other claims programs, 
these funds are indirectly coming from the Japanese and from 
the Germans, frozen assets that were seized and put into the 
Federal treasury.
    Mrs. Bordallo. Very good.
    Mr. Tamargo. So in my view Japan is paying for the damages. 
This is Japanese funds that are paying for these claims.
    Mrs. Bordallo. I don't know if you were listening, Mr. 
Chairman, but--right, oh, to explain. I see.
    Another question that comes up when we have been through 
all of this for the last nine years is would this set a legal 
precedent? For example, people have come up to me and said, 
well, if we do this, then that would open up a flood of claims 
from other groups like the POWs, the veterans or the Filipinos.
    Mr. Tamargo. In my opinion it would not open up other 
claims. As the Chairman said earlier, and as others have said, 
and I have said, this is a moral obligation, not a legal 
obligation. So in the case it satisfies this moral obligation 
does not necessarily open you up to other obligations because 
there is no legal bind. It is just a moral obligation that the 
country feels they owe to these nationals.
    Mrs. Bordallo. Thank you. And Governor Calvo, how important 
is it to resolve this matter of Guam war claims? Can you speak 
to its priority on all the issues of our territory, and I know 
you have a lot of issues in addressing with respect to Federal 
territorial relations?
    Governor Calvo. I just got through an election and I barely 
won it, but going through that election, going out there, 
especially with the young people, and I think it is very 
important not only for the Chairman but of people from the 
House of Representatives and the Senate to recognize, we are a 
loyal people, but that young generation, they are much smarter 
than us and they are getting--they are knowing history. Guam 
and the Marianas are strategic to the United States, and I do 
not want to repeat all--I would be here all day--the issues 
that have happened since World War II, but there are so many 
issues that now our young people are aware of.
    As we move forward in political self-determination, I do 
believe the goodwill of Members of this Congress, this 
Administration, the Federal Government, or the ignorance or the 
nonchalance or the uncaringness will have an impact on these 
later generations on what direction we will go politically, I 
really do.
    I would like to see closer union with the United States, 
but there is a burden that has been part of the people of Guam 
because we have been so--you know, 9,000 miles away. We are a 
forgotten people, and we have been so loyal.
    Mr. Chair, I am a great grandson of a U.S. Marine who came 
in in 1901, so there is this history like many of us have with 
the U.S. military. There is a love of the men and women in 
uniform, but unfortunately some of the decisions that have been 
made in Washington, D.C. I do believe will have an impact on 
the direction of where our people will want to go in the 
future.
    Mrs. Bordallo. Thank you.
    Governor Calvo. And this is one of those decisions.
    Mrs. Bordallo. I wish to reclaim my time here, and one 
final question I have is for the Department of the Interior. 
For the record, Mr. Pula, can you clarify once and for all does 
President Obama support H.R. 44?
    Mr. Pula. I believe in my statement I said the Obama 
Administration through our Department of the Interior support 
the amendment.
    Mrs. Bordallo. Thank you. And will you then help us find an 
offset?
    Mr. Pula. We are always looking for offsets these days.
    Mrs. Bordallo. Thank you. And I yield back, Mr. Chair. I 
yield back.
    Mr. Landry. Thank you. The Chair now recognizes Mr. 
Faleomavaega for five minutes.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I have been 
listening very closely not only for the most eloquent 
statements from my colleague, the gentlelady from Guam, Mrs. 
Bordallo, but also the statements made by our witnesses this 
morning, Governor Calvo, Mr. Pula, Mr. Tamargo, and my good 
friend Brigadier General Blaz, a former Member of this great 
institution.
    Mr. Chairman, this is like a broken record for the past 65 
years since we have been discussing this issue before the 
Congress, a broken record to the fact that five times this bill 
has passed this House, and for some reason or another somehow 
we just cannot seem to persuade our colleagues in the other 
body to do the right thing in giving the proper compensation 
for these people who suffered so much.
    I do appreciate your concerns to the fact that we have some 
very trying period in our country's situation, economic 
situation with the deficit and the some $14.5 trillion national 
debt that we are faced with. But, Mr. Chairman, there are some 
historical aspects that I want to share with you in my 
understanding formerly not only as a Vietnam veteran, but 
someone who has lived in Guam, and with a real deep respect for 
the Chamorro people and understanding their concerns, and what 
they were confronted with.
    In the first place before the Japanese attack on Guam in 
1941, Mr. Chairman, it was a very unusual situation on the part 
of our government because these people were U.S. nationals, and 
somehow our military leadership decided not to take the people 
off the Island of Guam before the invasion by the Japanese. Is 
it because they were not U.S. citizens but they are U.S. 
nationals? And as U.S. nationals, according to the immigration 
laws, is defined as any person who owes permanent allegiance to 
the United States, and this is another bit of history, Mr. 
Chairman, in wanting to know why these U.S. nationals were 
never evacuated before the invasion of the Japanese forces in 
Guam in 1941. That still remains to be a question why this was 
done. Is it because they are not U.S. citizens, but I have just 
defined what a U.S. national is according to our own 
immigration laws.
    Mr. Chairman, I don't know what the Heritage Foundation, I 
have not received a copy of the letter from the Heritage 
Foundation. If they raise objections to the substance of this 
bill, I just want to say that I do have a high respect for the 
Heritage Foundation for its conservative positions and issues 
that we discussed here nationally, but this one instance, Mr. 
Chairman, I cannot believe that the Heritage Foundation 
questions the validity of this proposed bill.
    Now, there are some questions raised about, well, where are 
we going to get the money. Somehow we are able to find $10 
billion for the relocation of some 9,000 Marines and their 
dependents in the coming years, and part of the funding of some 
five to six billion dollars is going to come from the Japanese 
government. And I wonder in that respect, Mr. Chairman, that 
maybe this is the pot we ought to look at seriously in 
providing compensation as part of the $16 billion transfer. If 
we can do it for 9,000 Marines and their dependents, then I am 
certainly--I cannot believe that we cannot find funding as part 
of the $16 billion transfer. I do want to offer that 
recommendation strongly since Japan is also paying part of this 
transfer at five to six billion dollars.
    Mr. Landry. Will the gentleman yield?
    Mr. Faleomavaega. I will be glad to yield to my friend.
    Mr. Landry. If I may, I think that is a great point, but if 
I could clear up the air here on this Heritage Foundation 
letter----
    Mr. Faleomavaega. Please.
    Mr. Landry.--that seems to have created some fire storm. I 
will tell you how I feel and that is why I am here is to ask 
these questions and to understand, and you are right. Guam is a 
distance away from the mainland. At this particular time, in 
this particular Congress with the financial situation that we 
are in it is very, very sensitive subject, and it is hard 
because it is personal to people like the General. But those 
finances are just as personal to the U.S. taxpayer as well, and 
I am sure, Governor, that the U.S. Government and these 
Congresses have appropriated millions, maybe tens of millions, 
maybe hundreds of million dollars over the last 50 somewhat odd 
years in support of infrastructure and things on Guam.
    I want you to know that I believe in supporting the 
territories of this country. I was in Puerto Rico not too long 
ago, and telling someone I think it is a great place. I don't 
know why it is not a great vacation place for a lot of people 
in the United States. It is a great place, beautiful. I would 
look forward to going to Guam. I enjoy visiting those islands. 
I would like to support them economically.
    The tension here is a matter of cost of where we are 
financially in this country. So understand that that is why I 
chose these issues. It was not to slight anyone from a personal 
standpoint, but I think a lot of U.S. taxpayers out there are 
asking those particular questions, but I think you raise a 
great point of where we could get the money from.
    Mr. Faleomavaega. And Mr. Chairman, I do want to thank you, 
and I never, never to question your sincerity in wanting to 
reach out and trying to understand where can we possibly get 
the proper funding. It is of interest, too, Mr. Chairman, and I 
really don't believe it is the money, it is the principle, Mr. 
Chairman. I think that all the Chamorro people are asking for 
as loyal citizens of this great nation of ours.
    Let me just say Guam is the most important military 
strategic island that we have in that whole region of the Asian 
Pacific. Let me just share another point with my good Chairman. 
When I first came here 20 years ago as a Member of this great 
institution, as a Member of the Foreign Affairs Committee I 
wanted to be on the Asia Pacific Committee. Becoming a member 
of that subcommittee, nobody wanted to be on the Asia Pacific 
Subcommittee on Foreign Affairs. Do you know why? Because the 
whole mentality here in Washington was on Europe and the Middle 
East. The Asia Pacific region was not even on the radar screen. 
If it was, we were not--if we were not bashing the Japanese, we 
were bashing the Chinese. It was never a positive experience, 
and understanding now the Asia Pacific region we have to make 
better attention, and our relationship with this area, which is 
almost 60 percent of the world's entire population, and Guam is 
part of that.
    Again, I realize my time is up but I do want to share this 
with the Chairman. I cannot have a better witness than someone 
whom I have always considered not only as a father figure but 
as a military veteran himself and for someone who has my utmost 
respect as a retired Brigadier General of the United States 
Marine Corps, and I will never forget the words that he shared 
with this institution in terms of how we have treated people 
from the islands, and this is what he said, this is what my 
good friend General Blaz said, and I will never forget what he 
said. ``We are equal in war but not in peace.''
    So it is OK for people from the islands to get their guts 
spilled and killed and all of the battles and the things that 
we volunteer to be part of our defense system, but when it 
comes to situations where we are giving proper compensation for 
what the good people of Guam is asking for, and as some of our 
witnesses said and I am sure my good Chairman will agree, this 
is a moral obligation that our government has toward these 
people, and I cannot think of a higher standard than we would 
have to suggest that if we do otherwise, then I think we failed 
as a nation to do what we should be doing in honoring the 
sacrifices that the Chamorro people have made on behalf of our 
country, on behalf of our country, and never once did they ever 
fail to prove their loyalty and their absolute convictions that 
this is a great country, but they just feel like they are not 
being just treated fairly. I think that is the bottom line, Mr. 
Chairman.
    I know my time is up and I just want to say that I have 100 
more questions I wanted to raise here but I know time is up, 
and hopefully maybe wait for the second round. Thank you, Mr. 
Chairman.
    Mr. Landry. I was just informed that they need this room 
for another meeting that is coming up. I find that there is 
another hearing, so we won't be able to have a second round, so 
I thank the gentleman for his comments, and I would like to 
thank the panel again for their valuable testimony and 
contributions. Members of the Subcommittee may have additional 
questions for the witnesses, and we ask that you respond to 
these in writing. The hearing record will be open for 10 
business days to receive your responses.
    Finally, again I would like to thank the Members and the 
staff for their contributions to this hearing. And if there is 
no further business, without objection this Subcommittee will 
stand adjourned.
    [Whereupon at 1:24 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

Statement submitted for the record by Frank F. Blas, Jr., on behalf of 
     the Guam Survivors Memorial Foundation, in support of H.R. 44

    Hafa Adai (Greetings) Mr. Chairman and members of the House 
Subcommittee on Fisheries, Wildlife, Oceans, and Insular Affairs. I am 
Frank F. Blas, Jr., Minority Leader for the 31'' Guam Legislature and 
also President of the Guam War Survivors Memorial Foundation, and I 
want to thank you for the opportunity to submit written testimony in 
support of H.R. 44 (the Guam World War II Loyalty Recognition Act).
    In December 8th and 9th of 2003, a War Claims Review Commission (a 
panel created by Public Law 107-333, L16 Stat. 2873, known as the Guam 
War Claims Review Commission Act) held hearings on Guam to receive oral 
testimony from survivors of the World War II Japanese occupation of the 
island. In the two day period, the Commission heard from over 90 
individuals who testified about the brutality, the fear, the agony, and 
the pain that was endured by the people of Guam from December, L94L to 
July of 1944.
    During those hearings, the Commission received testimony from Dr. 
Rosa Palomo Carter, who stated that she was twelve when Guam was first 
occupied by Japanese Imperial Forces. She told of the squalid 
conditions she and her family were forced to live in. She told of the 
forced labor and interrogation she was subjected to as a child. And she 
also told of having to forage for food and fearing many times that she 
would starve to death.
    The Commission also heard from Mr. Edward L.G. Aguon, who stated 
that he was fifteen when Guam was invaded. Mr. Aguon testified that 
during the occupation, he and others were forced to watch as people 
were brutalized, tortured and killed. He had agonizing memories of 
seeing people's faces as the final stab of the bayonet pierced their 
flesh, and hearing their cries as their last breath left their bodies.
    Mr. Aguon ended his testimony by stating that he was77 years old, 
and if he was asked again to testify in another ten years, he may not 
be able to testify.
    Mrs. Delores Cruz Meno also testified before the Commission in 
2003. Mrs. Meno provided that she was ten years old and the youngest in 
a family of ten children when Guam was occupied. She told of the farm 
labor she was forced to perform in order to feed the Japanese 
occupiers. She also told of a forced march that she and others feared 
would lead them to their deaths. Mrs. Meno testified that while the 
march was unexplainably halted, she later learned that her two oldest 
brothers were killed by Japanese soldiers at the place she was supposed 
to march to.
    Mr. Cristobal Reyes was also given the opportunity to testify 
before the War Claims Review Commission in December 2003. While there, 
Mr. Reyes testified that although he was just an infant during the 
occupation, he was informed of the atrocities by his father and wanted 
to share his father's information. Mr. Reyes stated that because of his 
father's complexion and build, the Japanese soldiers suspected that he 
was part American and subjected him to brutal beatings. Mr. Reyes' 
father feared that he was going to be killed but an old Japanese friend 
and pre-war Guam resident convinced the Japanese soldiers that Mr. 
Reyes' father was not American, but was of Chinese ancestry.
    Another survivor that was allowed to testify in the 2003 hearings 
was Mr. Jesus Perez Sablan. Mr. Sablan said that he was fourteen when 
Guam was thrust into the war, and throughout the occupation, was he was 
subjected to continuous forced labor. Mr. Sablan testified that 
although his family was originally from Sumay (a village that was once 
located near the south of Guam), the family was forced to move to 
different villages around the island, and when they thought that they 
could finally settle in Yigo (the northern-most village on the island), 
they were forced to march to a concentration camp in Mannenggon. To sum 
up his experience, Mr. Sablan stated in his presentation, ``Believe me, 
war is hell.''
    Lastly, the War Claims Review Commission received testimony from 
Mr. Juan Unpingco who stated then that he was seventeen when the war 
started on Guam and that throughout the occupation, he witnessed so 
many horrible incidents that he now suffers from nightmares. Mr. 
Unpingco testified that his aunt was raped, his parents were brutally 
beaten, and he and his siblings were forced into labor. In his 
testimony, Mr. Unpingco told of a time when he, his father, and his 
brother were rounded up with other individuals to carry munitions for 
the Japanese soldiers. His father and brother were sent with a group 
that headed to the south of the island, and he was to carry munitions 
with others to the north. Mr. Unpingco stated that during the trek he 
found an opportunity to flee and was grateful that he did so because he 
later learned that all the individuals in his group were beheaded after 
delivering their supplies.
    In the introduction of his book, ``Bisita Guam: Let Us Remember 
(Nihi Ta Hasso),'' former Guam Delegate to the U.S. Congress and 
retired Marine Brigadier General Ben Blaz wrote the following:
        ``For the People of Guam, World War II was as personal as war 
        could get. That is not to say that for people throughout the 
        country, the war did not strike directly into their homes. From 
        loved ones going off to battle, to rationing, to the makeup of 
        the workforce, every American was deeply affected. But no 
        Americans could say that the cities or towns where they had 
        been born were invaded, none could say they lived under the 
        harsh dictates of an occupying force, no one in the United 
        States could say he or she suffered unique privations simply 
        for being American except the people of Guam. The only other 
        American territory occupied by hostile forces was the Aleutian 
        lslands off Alaska, but they had no permanent population.

        Among Americans, only the people of Guam know what it means to 
        live under the hostile yoke of a foreign conqueror. Each of the 
        22,000 people who lived on the island through the occupation 
        has his or her tale to tell. As must happen, however, those who 
        experienced the occupation first hand are inexorably growing 
        fewer and fewer. It will not be too many more years before 
        those of us who were there will be gone, and there will be no 
        one left to attest to the facts of life under the control of a 
        foreign military that viewed Guamanians as potential, if not 
        outright enemies--people who had to be subjugated by iron, 
        totalitarian rule to keep us in line.''
    General Blaz himself is a survivor of the Japanese occupation of 
Guam.
    During the House Hearing held on this measure on July 15, 2011, it 
was obvious that Members of the Subcommittee were concerned that 
passage of this bill could result in additional war claims and there 
was further concern of where the funding would come from to pay such 
compensation. I submit that the testimony and answers provided by Mr. 
Mauricio Tamargo and Brigadier General Vicente G. Blaz, USMC (Ret.) 
adequately addressed the concerns expressed by the Honorable Jeff 
Landry. I further submit that there exists no reasonable or logical 
explanation to continue to deny the people of Guam who endured the 
cruelty and agony of the Japanese occupation their rightful recognition 
and compensation.
    Mr. Chairman and Members of the Subcommittee, I began my testimony 
by giving you excerpts of previous testimonies because had Dr. Carter, 
Mr. Aguon, Mrs. Meno, Mr. Reyes, Mr. Sablan, or Mr. Unpingco been given 
the opportunity to testify before you, I am sure that they would have 
provided you the same. But I submit to you that their chance to again 
relive their experiences would not be possible, because they have all 
since passed away. These survivors, along with almost twenty thousand 
(20,000) of the twenty-one thousand (21,000) people of Guam who were 
``liberated'' from enemy occupation sixtyseven (67) years ago have 
since left their earthly dwellings. The tragedy in their passing is 
that they were never recognized for their loyalty to the United States 
or for the suffering they endured because the enemy saw them as 
Americans. lt is in their honor that I plead their case for recognition 
and ask that you fook favorably on and support the passage of the Guam 
World War ll Loyalty Recognition Act.
    Thank You.
                                 ______
                                 

  Statement submitted for the record by Valerie J. Bock, Resident of 
  Guam, Representing self, on H.R. 44, The Guam World War II Loyalty 
                            Recognition Act

    My interest in H.R. 44, Guam World War II Loyalty Recognition Act 
is not as a recipient but, as Floridian-American. I've been a resident 
of Guam for five years.
    The responsibility of the Japanese invasion rests solely on the 
shoulders of the United States of America. The Guam survivors should be 
compensated for the atrocities they endured. These atrocities were born 
from Guam's relationship with the United States.
    The point is very simple; the Japanese would never have invaded 
Guam had it not been a territory of the United States. Had Guam been 
independent, the Japanese would never have bothered them. This 
elucidates the United States as responsible for the brutality endured 
by the residents of Guam.
    It's not a matter of how much the Guamanians suffered during the 
Japanese occupation. Although, it is well known they suffered 
atrocities only seen on soil foreign to the United States.
    It's not a matter of how long it took the United States to remove 
the Japanese invaders. Priorities were illustrated by the very short 
response for Hawaii versus a two year response time for Guam.
    It's not even a matter of the patriotism of the Guam survivors. 
Though, their patriotism has been a constant source of United States 
military veterans even after the draft was repealed to today. Guam has 
the highest number per capita of United States soldiers who have paid 
the ultimate price.
    Then after the war was won, peace treaties were signed, forgiveness 
was shared and the United States forgave Japan with a promise to pay 
all claims against Japan for the suffering by U.S. citizens. Was it 
truly the right of the United States to speak for Guam? I don't think 
so.
    Now that the United States has spoken for Guam, it is their 
responsibility to repay the survivors for the two, long, hard years of 
slavery and occupation they endured as a result of their association 
with the United States. At the very minimum, the payment should include 
two years of salary. 2005 average salaries equaled $46,300. This would 
equate to a salary repayment of $92,600. Add a small token of 
consideration for the pain and suffering would amount to about $192,600 
owed to each survivor of the war. Less than 1000 World War II survivors 
are still alive. This amount certainly isn't going to break the United 
States budget!
    I am so embarrassed by the actions of my country. We treat our 
fellow citizens of Guam with total disregard for their membership in 
our country. I find the many years that have passed with no reparations 
to the Guamanian survivors is frustrating to them and embarrassing to 
me. It should be embarrassing to every member of the United States 
Congress.
    I implore you to correct this wrong. Let us help these survivors 
move on and let them know they are important United States citizens.
    Thank you for your time.

Sincerely, Valerie Bock, P.O. Box 7145, Agat, GU 96928
                                 ______
                                 

Statement of The Honorable Benjamin J.F. Cruz, Vice Speaker, 31st Guam 
   Legislature, on H.R. 44, Guam World War II Loyalty Recognition Act

    Buenas yan Hafa Adai! Chairman Fleming and members of the 
Committee, thank you for the opportunity to submit written testimony on 
H.R. 44, Guam World War II Loyalty Recognition Act.
    H.R. 44 is the latest attempt in a long and arduous effort to 
resolve an issue very dear to the people of Guam. I applaud 
Congresswoman Madeleine Bordallo's introduction of this measure as a 
standalone as opposed to its inclusion in the National Defense 
Authorization Act, as this proposal should be evaluated on its own 
merits.
    As a member of what was then the Guam War Claims Review Commission, 
I know that we have substantial evidence against the Government of 
Japan for war claims, yet we chose to forgive Japan and this sensitive 
issue is now before the federal government to settle. I am hopeful that 
you have all had the opportunity to read the Commission's final report 
which was submitted years ago.
    The findings of the Guam War Claims Review Commission were affirmed 
on five separate occasions by members of this House only to fail in the 
Senate through the efforts of a small minority. In spite of this 
continued refusal, Guam's people have never disavowed their pursuit of 
Justice.
    It is my sincere hope that 70-year-old atrocities are given closure 
through federal recognition. The trials of the Chamorro people endured 
during the Japanese Occupation of Guam were especially heinous and 
fully deserving of an end to this long chapter in our history.
    Too often legislative bodies are confronted with seemingly 
insurmountable problems; dilemmas which have no immediate solution or 
clear way forward--this is not one of those situations.
    President Obama has lent his support for war reparations, the House 
has passed this measure repeatedly, and Guam's WWII survivors still 
believe that old sacrifices will not be forgotten.
                                 ______
                                 

Statement of The Honorable Benjamin J.F. Cruz, Vice Speaker, 31st Guam 
    Legislature, on the Implementation of Public Law 110-229 to the 
         Commonwealth of the Northern Mariana Islands and Guam

    Buenas yan Hafa Adai! Chairman Fleming and members of the 
Committee, thank you for the opportunity to submit written testimony on 
the Implementation of Public Law 110-229 to the Commonwealth of the 
Northern Mariana Islands and Guam.
    Let me preface by stating: If the original intent of passing Public 
Law 110-229 several years ago was to align U.S. Immigration Policy for 
Guam and the CNMI and to promote tourism, that intent is not being 
fulfilled. In November 2009, Parole Authority was extended to the CNMI 
for China and Russia tourists and not to Guam. This is clearly in 
contradiction to Congressional Intent.
    The current policy of allowing visitors from China and Russia to 
enter the CNMI under parole authority while requiring visas for those 
entering Guam is unfair and discriminatory.
    It is even more unfair given the new the obligations now posed on 
the Guam community to support the realignment of U.S. forces in the 
region and the unique set of circumstances now facing the visitor 
industry as a result of the disasters in Japan.
    Last year, this committee was informed by officials of the 
Government of Guam and the Guam Visitors Bureau that the sustainability 
of the Japan market, the primary source of visitors for Guam, was in 
question because of fierce competition from lower Asian resort 
destinations and an aging Japan population.
    This year, I am afraid to report that the state of affairs has 
become worse given the tragedies in Japan last March. Please note that 
three out of every four visitors to Guam are from Japan. According to 
statistics provided by the Guam Visitors Bureau, the number of Japan 
visitors as of March is down by over 18 percent. As you can imagine, 
the impact is substantial given Guam's level of dependence on visitors 
from Japan. However, it should also be noted that this market has been 
in an ongoing and gradual decline. Japan arrivals have declined by 27% 
between Fiscal Years 2000 and 2008.
    This is why every opportunity must be taken to improve other 
tourism source markets in order to keep Guam viable. This is why parole 
authority should be granted for Guam for visitors from China and 
Russia.
    The combined number of outbound tourists from the People's Republic 
of China and Russia is approximately 70 million. The number of outbound 
tourists from Japan is 16 million, of which 5.5% (or 900,000) visited 
Guam last year. Thus, Guam through existing federal policy is being 
denied a tremendous opportunity to repair and advance its visitor 
industry and to provide gainful employment to Americans living on Guam.
    Based on CNMI figures, China and Russia provide compelling market 
viability for Guam. Spending by Chinese and Russian tourists in the 
CNMI in 2008 reached $58 million, with per-person spending for Chinese 
visitors averaging $967 and for Russian visitors, $4,323. Overall, 
Chinese and Russian tourists contribute approximately 20% to the CNMI's 
tourism revenues. Based on research conducted by the Guam Visitors 
Bureau, China and Russia may potentially generate $212.2 million in 
combined payroll, hotel lodging, and gross receipts taxes by 2018.
    Furthermore, it should be noted that the experience in the CNMI has 
yielded no significant issues with respect to asylum seeking and 
overstays. Nor has there been reported instances of asylum and 
overstays for the 4200 visitors to Guam from China permitted under 
existing Charter flights from China to Guam.
    The full implementation of PL 110-299 is also imperative to the 
entire region, not just for Guam. An improved Guam economy provides 
carryover benefits to the other communities in Micronesia including the 
Republic of the Marshal Islands, the Republic of Palau and the 
Federated States of Micronesia. You should be aware that Guam is host 
to thousands of migrants permitted to live on Guam under the Compact of 
Free Association.
    By working to improve the Guam-CNMI visa waiver program, Guam will 
be in a better position to improve its economy, reduce its dependency 
on the federal government, and provide carryover benefits throughout 
the region. It will also serve to provide the island with some level of 
sustainability after the military buildup.
    I realize that the House Subcommittee on Insular Affairs, Oceans 
and Wildlife is committed to fostering economic development in Guam and 
the CNMI in a fair and equitable manner. I respectfully request that 
the members take my testimony into consideration and seriously consider 
the economic consequences of not acting to address the inequity.
    Thank you for your time and kind consideration.
                                 ______
                                 

 Statement of The Honorable Jeff Duncan, a Representative in Congress 
                    from the State of South Carolina

    America is broke. We are $14 trillion in debt, which is more than 
enough for one nation. Worse, our current budget deficit remains over a 
trillion dollars. This requires us to tighten our belts and live within 
our means.
    I stand strongly opposed to H.R. 44, the Guam World War II Loyalty 
Recognition Act. My heart goes out to the people of Guam for the 
violence that they suffered during World War II. However, the United 
States committed no crimes against the people of Guam. To the contrary, 
we liberated Guam from Japanese occupation in 1944. Out of sheer 
generosity of spirit, the United States paid Japan's restitution of $8 
million in 1951, which would be equivalent to nearly $100 million in 
current dollars.
    During this time of great economic uncertainty, I cannot support 
legislation that would cost this country another $126 million of 
taxpayer money. As we debate a debt ceiling increase, it is fiscally 
irresponsible to be paying for something that was not our fault and 
that we cannot afford.
                                 ______
                                 

         Statement of Susana Blas Deleon Guerrero, President, 
                       CNMI Women's Association

    Hafa Adai Chairman Fleming and members of the subcommittee. I am 
Susana Blas Deleon Guerrero, President of the CNMI Women's Association 
(CWA). I am testifying on behalf of the CNMI Women's Association, which 
seeks to protect the indigenous people of the Northern Mariana Islands, 
the native Chamorros and Carolinians, from displacement in their 
ancestral homeland, and other matters. The CWA rejects House Resolution 
1466, a bill to resolve the status of certain persons legally residing 
in the Commonwealth of the Northern Mariana Islands (CNMI) under the 
immigration laws of the United States, introduced by U.S. Delegate 
Gregorio C. `Kilili' Sablan, NMI-at-large, also a Ranking Minority 
Member of this subcommittee.
    The CNMI Women's Association agrees with CNMI Governor Benigno R. 
Fitial regarding the arguments behind Public Law 110-229, a 
Consolidated Natural Resources Act of 2008 and its effects in the CNMI. 
Please take time to read Governor Fitial's written testimony.
    The CNMI Senate Committee on Federal Relations and Independent 
Agencies held seven public hearings regarding the implementation of 
Public Law 110-229 and other matters affected by such law. After many 
written and oral testimonies submitted and recorded during the 
hearings, it was evident that the indigenous people of the CNMI who 
attended the hearings reject any improved status of thousands of aliens 
(including illegal immigrants) residing in the CNMI. It is not that 
those in opposition refuse aliens to have some status, but the people 
oppose being displaced in their own ancestral homeland--the only home 
they have ever known.
    The CNMI Women's Association acknowledges the plan under Public law 
110-229 to phase-out alien workers in the CNMI by November 28, 2011 and 
then the final transition period in December 31, 2014.
    House Resolution 1466, introduced by U.S. Delegate Gregorio C. 
`Kilili' Sablan, NMI-at-large, introduces four types of categories that 
aliens can gain improved status. Furthermore, H.R. 1466 will allow also 
11,000 and possibly more new U.S. citizens in the CNMI within 10 years 
or less. Some may state that this number is small compared to the 
immigrants in the U.S., but one must understand that there are 
currently 30,000 U.S. citizens residing in the CNMI most of whom are 
Chamorro and Carolinian. Additionally, according to the U.S. 
Ombudsman's Office in the CNMI, there are approximately 23,000 aliens 
residing in the CNMI, excluding their children. Subsequently, it is 
arguable that there are more aliens residing in the CNMI than there are 
indigenous Chamorro and Carolinians. Unfortunately, many agencies over 
the years have failed to control the immigration of aliens into the 
CNMI. However, the indigenous people acknowledge the need to stop this 
massive increase of aliens and the possibility of displacing indigenous 
people of the CNMI. House Resolution 1466 is not the best solution to 
address the 23,000 aliens in the CNMI.
    According to the information provided by the CNMI Commonwealth 
Health Center, from calendar year 1990 to May 2011, out of 31,180 live 
births, 18,431 were of Filipino, Chinese, Korean, Japanese, Thai, 
Indian, Nepalese, Bangladesh Taiwanese, Vietnamese, Malaysian, Burmese, 
and Sri Lankan descent. That is more than half and almost 60% of total 
live births during a ten year period. This appalling number of 
18,481live births of aliens in the CNM has begun to disenfranchise the 
local indigenous population.
    Based on the said numbers, H.R. 1466 will have a negative impact on 
the amount of social programs that will be available to the local 
residents. A bothersome fact for many people in the CNMI is that H.R. 
1466 fails to address such devastating problem for local U.S. citizen 
residents.
    A true story: A single mother, family of four, only receives $136 
in food stamp benefits. She used to receive $250, which decreased to 
$196, and now at $136. This mother of four, works two jobs, and allows 
her 15 year old son to watch over his three siblings while the mother 
goes to work.
    One possible reason behind this decline is the additional hundreds 
of new qualified applicants for food stamps, including aliens with 
children born in the CNMI. On July 11, 2011 as published in the local 
newspaper, Marianas Variety, the Department of Community and Cultural 
Affairs Secretary Melvin Faisao states, ``that more than 500 people 
eligible for food stamp benefits were on a waiting list. . .there are 
about 9,700 residents receiving assistance from the Supplemental 
Nutrition Assistance Program.'' Within the past year, part of the 
agreement with the U.S. Department of Agriculture, SNAP benefits 
decreased by 26.7% in food stamp benefits. Now, does House Resolution 
1466 address this issue? It does not.
    Consequently, H.R. 1466 will also place the local indigenous 
population at a disadvantage in terms of employment and voting in local 
elections. Before Public Law 110-229, the CNMI immigration office 
mirrored laws to that of the federal immigration pertaining to 
sponsorship. According to the CNMI law, only those non-resident aliens 
who could sponsor their spouses were those who were identified as 
``professionals.'' Any non-resident alien who were identified as 
``professionals'' had to have earned an annual salary of over $20,000. 
Many aliens residing in the CNMI today make much less than $20,000.
    It is the purpose of the CNMI Women's Association to bring forth to 
your committee that H.R. 1466 may seem like a plausible humanitarian 
bill, which in actuality is the opposite and more harmful for the 
indigenous people. Not only will H.R. 1466 displace thousands of 
indigenous Chamorro and Carolinian people, it will also deprive them of 
full potential benefits from social programs and another small benefits 
provided by the CNMI government especially during our severe declining 
economy.
    Chairman Fleming, we humbly and sincerely ask your committee to 
think of our indigenous Chamorro and Carolinian people of the CNMI, who 
have been colonialized and oppressed for over 500 years, to please 
reject House Resolution 1466.
    Un dangkulu na si yu'us ma'ase--Ghilisoow--Thank you.

                       --------------------------

    The written and oral testimonies during the Senate Committee on 
Federal Relations and Independent Agencies' public hearings on Public 
Law 110-229 and other matters can be accessed at: http://
www.cnmileg.gov.mp/resources/files/
Official_Senate_Recommendation_Appendices_A_thru_F.pdf. From page 21-
365.
                                 ______
                                 

 Statement of The Honorable Paul A. Manglona, President of the Senate, 
   Seventeenth Northern Marianas Commonwealth Legislature, on ``The 
implementation of P.L. 110-229, the Consolidated Natural Resources Act 
 of 2008 and a legislative hearing on H.R. 1466, a bill to resolve the 
status of certain persons residing the CNMI under the immigration laws 
                         of the United States''

    Good morning Chairman Fleming and members of the Subcommittee. I am 
Senator Paul A. Manglona, Senate President of the Seventeenth Northern 
Marianas Commonwealth Legislature. Thank you for the opportunity to 
submit my written testimony on the implementation of Public Law 110-
229, the Consolidated Natural Resources Act of 2008 and H.R. 1466, a 
bill to resolve the status of certain person legally residing in the 
Commonwealth of the Northern Mariana Islands (CNMI) under the 
immigration laws of the United States. Although I previously testified 
before this Subcommittee in the 111th U.S. Congress on the same issue, 
the CNMI Senate appreciates this Subcommittee's consideration on the 
implementation of Public Law 110-229 in the CNMI as well as other 
matters concerning the CNMI.
I. Implementation of Public Law 110-229 to the CNMI Generally
    Public Law 110-229, the Consolidated Natural Resources Act of 2008, 
was signed into law on May 8, 2008. The Congressional intent of Public 
Law 110-229 was to extend the U.S. Immigration and Nationality Act 
(INA) to the CNMI with special provisions to allow the orderly phasing-
out of the nonresident contract worker program of the CNMI and the 
orderly phasing-in of federal responsibilities over immigration in the 
CNMI. See Public Law 110-229, Title VII, Subtitle A, SEC. 701(a)(1) 
codified as 48 USC 1806.
    Federal immigration laws were to become applicable to the CNMI one 
year after the date of enactment of PL 110-229 on May 8, 2008 
(transition program effective date). See Public Law 110-229, Title VII, 
Subtitle A, SEC. 702(a) codified as 48 USC 1806((a)(1). However, the 
Secretary of Homeland Security was given discretion to delay the 
transition program effective date for a period not to exceed 180 days 
after such date. See 48 USC 1806(a)(3). On March 31, 2009, Secretary of 
Homeland Security Janet Napolitano exercised her discretion pursuant to 
PL 110-229 and extended the transition program effective date for 
another six months to November 28, 2009. Section 1806(a)(2) further 
provided for a transition period beginning the transition program 
effective date (November 28, 2009) and ending on December 31, 2014 
during which the Secretary of Homeland Security shall establish, 
administer, and enforce a transition program to regulate immigration to 
the CNMI (transition program). The implementation of Public Law 110-229 
created significant changes in the CNMI and has impacted all aspects of 
the CNMI government and economy. Below are some areas that were 
severely affected by the implementation of Public Law 110-229.
    A. Generally. Public Law 110-229 superseded the local immigration 
laws of the CNMI, which immediately resulted in the displacement of 
over 70 CNMI immigration employees. Many of the displaced employees 
worked for the CNMI government for ten years or more and a few 
employees were close to completing the required CNMI retirement 
service. The implementation of PL 110-229 further caused the CNMI 
government to lose approximately $5,000,000 in revenue collected each 
year from nonresident worker fees beginning fiscal year 2010. The loss 
of nonresident worker fees has dramatically reduced our annual budget. 
For FY2010, the CNMI budget was $135M and in FY2011 our budget was 
$105M. The CNMI is in dire straits financially and its economy 
continues to decline each year. Although the law authorizes the 
Secretary of Homeland Security to impose an annual supplemental fee of 
$150 per alien worker on employers under the CNMI transitional worker 
program, the fees can only be used to develop vocational and 
educational programs by CNMI educational entities, not for general 
purposes to augment the loss of government revenue.
    B. CNMI Prevailing Wages. Public Law 110-229 does not discuss which 
``prevailing wages'' to be applied in the CNMI transitional worker visa 
program. However, the U.S. Department of Labor requires the prevailing 
wages of an occupation to be applied to H category visa workers. 
Pursuant to US Public Law 110-28, federal minimum wages became 
applicable to the CNMI in gradual increments of $ .50 per year until it 
reaches the actual federal minimum wage. Today, the CNMI-federal 
minimum wage is $5.05 per hour and will be increased to $5.55 in 
September 30, 2012.
    The CNMI's prevailing minimum wages for all occupations are far 
lower than that of the United States due to the low minimum wage. The 
Guam Department of Labor is authorized to conduct wage surveys for H2B 
workers, which must be approved by U.S. Citizenship and Immigration 
Services (USCIS). The Saipan Chamber of Commerce is presently working 
on a CNMI prevailing wage survey which, among other things, is needed 
by CNMI employers to support their applications for U.S. work visas for 
their foreign employees. The survey will provide valuable data for the 
process of determining prevailing wage rates for individual job 
classifications, while petitioning for foreign labor work visas under 
the new requirements of the USCIS and the U.S. Department of Labor's 
Foreign Labor Certification Office. The CNMI Governor will be 
commissioning its own prevailing wage study to ensure that the end 
results are fair and impartial. I recommend that the U.S. Department of 
Labor grant the Governor of the CNMI the same certifying authority and 
apply CNMI prevailing wages for its alien workers under any visa 
classification.
    C. CBP Lack of Professionalism. Since the time the U.S. Customs and 
Border Protection (CBP) took over the immigration functions of the CNMI 
Division of Immigration, there have been numerous complaints regarding 
long lines, delays, and the demeanor of CBP officials at the Saipan 
International Airport. Unfortunately, two senators and I witnessed 
these complaints first hand on April 16, 2011 when we returned from a 
business trip in Korea. Upon our arrival, the CBP officers were not 
prepared and all the passengers had to stand in line for about 15 
minutes. Also, a CBP Officer was rude and abrasive to the pilot and 
crew. In the United States, the pilot and crew are usually given first 
class treatment and cleared through immigration without delay and 
hesitation. It should not be any different on Saipan.
    Moreover, CBP officers took at least 10-15 minutes to clear each 
passenger. The CBP officers did not seem too concerned about the 
passengers standing in line who have been traveling a long distance to 
get to Saipan. The Asiana Airlines agent present at the Saipan 
International Airport informed us that the appalling treatment of the 
pilot, crew, and passengers from China by CBP officials is a regular 
occurrence at the airport. We understand and appreciate CBP's mandate 
to protect the American borders. However, the CNMI's ailing economy is 
heavily dependent on foreign investors and tourists to stimulate 
commerce. The treatment of visiting investors and tourists is crucial 
to the survival of our tourism industry. Investors and tourists must 
feel welcomed as soon as they set foot on our islands. The officers 
must do their job diligently and efficiently.
    Moreover, PL110-229 provides that ``it is the intent of the 
Congress that the Commonwealth be given as much flexibility as possible 
in maintaining existing businesses and other revenue sources, and 
developing new economic opportunities, consistent with the mandates of 
[Title VII, Subtitle A).'' CBP officers are required to fulfill the 
U.S. Congress' intent in implementing U.S. Immigration policies in the 
CNMI. In order to ``expand tourism and economic development,'' CBP 
officers must conduct themselves professionally and courteously and 
refrain from abrasive and unwelcoming remarks and actions towards 
visitors from China and other foreign countries.
    On May 13, 2011, CBP Deputy Commissioner David V. Aguilar responded 
to the Senate's complaint regarding the April 16, 2011 incident. 
Commissioner Aguilar had many excuses for the poor service and lack of 
professionalism of CBP officials that day. However, as I stated 
earlier, the Asiana Airlines agent present at the airport reported that 
the appalling treatment was a regular occurrence and the Senate and 
other public officials have received countless complaints regarding the 
same unacceptable behavior of CBP officials at the Saipan International 
Airport. Please conduct an official investigation into this matter to 
ensure that CBP officials refrain from objectionable conduct and 
treatment of U.S. citizen and non-citizen passengers at the airport and 
seaports of the CNMI.
II. Implementation of Public Law 110-229 as to Foreign Investors and 
        Businesses
    The CNMI heavily relies on foreign investors for its businesses and 
economic growth. As such, the implementation of Public Law 110-229 
created a ``freeze'' on new investments in the CNMI due to the 
uncertainty of foreign investors' status under the law. Foreign 
investors were reluctant to invest even the smallest amount not knowing 
if their investments would be lost during the transition period. The 
freeze on new foreign investments has stifled economic growth and 
reduced the government revenues by the millions.
    Public Law 110-229 authorizes the Secretary of Homeland Security to 
classify, during the transition period, a foreign investor in the CNMI 
as an E-2 nonimmigrant investor. On December 17, 2010, USCIS published 
final regulations with respect to investors, which allows foreign long-
term investors to reside in the CNMI through December 2014 in CNMI E-2 
nonimmigrant investor status. This rule temporarily resolves the 
immigration status of long-term investors in the CNMI and provides them 
time in which to obtain another lawful immigration status under the 
provisions of the Immigration and Nationality Act (INA).
    At the end of December 2014, the transition period will expire and 
the E-2 CNMI investor status and visa will expire. Therefore, 
individuals in the CNMI with E-2 CNMI status must depart the CNMI at 
the end of the transition period or qualify for and obtain another 
nonimmigrant or immigrant status in order to lawfully remain in the 
CNMI. The CNMI-only investor status ends at the end of the transition 
period regardless of whether an extension to the transitional worker 
provision occurs. Any extension by the Secretary of Labor will apply 
only to the CNMI transitional worker category.
    To qualify for E-2 CNMI Investor status, the primary applicant 
must: (1) Have been admitted to the CNMI with a long-term investor visa 
under CNMI immigration law before Nov. 28, 2009; (2) Have continuously 
maintained residence in the CNMI under long-term investor status; (3) 
Currently maintain the investment(s) that formed the basis for the CNMI 
long-term investor status; and (4) Otherwise be admissible to the 
United States under the INA.
    Individuals who were admitted to the CNMI in long-term investor 
status under CNMI immigration law qualify, specifically: (1) A long-
term business investor who was issued a long-term business certificate 
by the CNMI based upon an investment of at least $50,000; (2) A foreign 
investor with a foreign investment certificate issued by the CNMI based 
upon an investment of at least $100,000 in an aggregate approved 
investment in excess of $2 million or at least $250,000 in a single 
approved investment; and (3) A retiree investor over the age of 55 
years who was issued a foreign retiree investment certificate based 
upon a qualifying investment in an approved residence in the CNMI (but 
not including the 2-year non-renewable retiree investor program limited 
to Japanese nationals).
    The final rule implements the CNMI nonimmigrant investor visa 
provisions of Public Law 110-229 during the transition period only, 
after which CNMI E-2 investors would need to apply for another 
nonimmigrant status under the INA, such as the E-2 treaty investor 
visa. However, as noted by USCIS, a majority of CNMI investors would 
not meet the requirements for such treaty-visas. As stated in its 
comments in the federal register, ``a review of the CNMI eligibility 
criteria and anecdotal evidence indicates that many of (the current 
CNMI foreign investors) would not meet the minimum financial investment 
necessary to be eligible for U.S. E-2 status.''
    Moreover, an E-2 ``treaty investor must be a national of a country 
with which the United States has a treaty of friendship, commerce, or 
navigation and must be entering the United States pursuant to treaty 
provisions.'' This will have a significant and detrimental effect on 
the CNMI economy as foreign investors, who fail to qualify for the E-2 
visas after the transition period, will be forced to pick up their 
assets and relocate. Chinese and Russian investors in particular will 
be negatively impacted at the conclusion of the transition period and 
risk the loss of substantial investment in the CNMI.
    Pursuant to the INA, the Treaty Trader (E-1) visa or Treaty 
Investor (E-2) visa is for ``a national of a country with which the 
U.S. maintains a treaty of commerce and navigation who is coming to the 
U.S. to carry on substantial trade, including trade in services or 
technology, principally between the U.S. and the treaty country, or to 
develop and direct the operations of an enterprise in which the 
national has invested, or is in the process of investing a substantial 
amount of capital, under the provisions of the Immigration and 
Nationality Act.'' E-2 visa holders must be nationals from a list of 
participating treaty countries. Notably absent from this list are 
Chinese and Russian nationals who make up a substantial and growing 
segment of the CNMI foreign investor population.
    Many of the current foreign investors residing in the CNMI will 
fail to meet the financial threshold for investment and other E-2 visa 
requirements once the transition period has expired. Over the decades, 
the small business community in the islands has been built by foreign 
investors, including but not limited to supermarkets, restaurants, and 
tourism related industries. It is debatable whether it may be in the 
best interests of the CNMI to have U.S. citizen investors fill these 
niches, and it certainly cannot be guaranteed. Our proximity to Asia 
has made the CNMI reliant on these foreign economies, and investors, 
and it is unlikely U.S. investors will be able to fill this void in the 
short-run. At a minimum, a majority of foreign small business owners 
will have to sell businesses that they have spent their lives building, 
and as a consequence eliminating a significant portion of the CNMI 
economy.
    Further, current CNMI foreign retiree certificate holders will not 
qualify as U.S. E-2 investors after the transition period given the 
current E-2 visa requirements. These foreign retirees will be subject 
to the same visa requirements of other E-2 visa holders, post 
transition period. Elderly foreign retirees have made significant 
investments in CNMI homes. To revoke their status would be a hardship 
on these individuals and a detriment to the CNMI economy.
    Public Law 110-229 intended to apply federal immigration laws to 
the CNMI while minimizing to the greatest extent practicable the 
potential adverse economic and fiscal effects and to maximize the 
CNMI's potential for future economic and business growth. See SEC. 701. 
Public Law 110-229's Congressional intent of maximizing the CNMI's 
potential for economic and business growth during the implementation of 
federal immigration laws to the CNMI could be achieved by the 
following:
        1.  Maintain the final rule CNMI only E-2 visas eligibility 
        requirements after the transition period.
        2.  Grandfather in foreign retirees or create CNMI-only foreign 
        retiree visa.
        3.  Grant Treaty Investor waiver for Chinese and Russian 
        nationals.
    Similar to the tourist visa waiver for Chinese and Russian 
nationals entering the CNMI, it is recommended that Russian nationals 
presently holding CNMI foreign investor certificates, or CNMI long-term 
business certificates, be allowed E-2 Treaty Investor status as 
provided to participating treaty member countries. It is suggested that 
this be applied on a CNMI only basis.
III. Implementation of Public Law 110-229 as to Alien Workers
A. Lack of Regulations for CNMI Transitional Worker Visa Classification
    PL 110-229 requires DHS to promulgate regulations to implement the 
provisions of the law. It is now July 2011, more than three years after 
the enactment PL 110-229 and more than one year since I testified 
before this subcommittee in the 111th U.S. Congress and pleaded for 
USCIS to publish the CNMI Transition Worker regulations so the CNMI and 
its businesses can prepare for the transition program. It is 
unacceptable and outrageous that USCIS has not filed the transitional 
worker visa final interim rules. The fact that USCIS had draft interim 
rules in October 2009 makes it even more difficult to understand why 
the rules are still pending with the Administration at this time. PL 
110-229 clearly mandates all federal agencies to comply with Congress 
intent to implement the law giving the CNMI as much flexibility as 
possible in maintaining existing businesses and other revenue sources, 
and developing new economic opportunities consistent with the mandates 
of Title VII, Subtitle A.
    USCIS must publish final rules on the transitional worker visa for 
the CNMI in a timely manner to afford the CNMI government, employers, 
and employees the opportunity to comment on the regulations before they 
take effect. The final regulations must consider and address the 
adverse and detrimental consequences, if any, of the proposed 
regulations. For example, it is crucial that the hotel hospitality 
alien workers be able to continue working under the regulations while 
training U.S. citizens and permanent residents to takeover such 
positions.
    USCIS's failure to publish the final interim rules at this time is 
a violation of PL 110-229 and an example of the continued lack of 
respect and candor by the agencies of the Department of Homeland 
Security. The CNMI and the businesses should not be held hostage by 
DHS' inability to timely carry out its mandate set forth in PL 110-229. 
Once again, USCIS has failed to give the CNMI more than ample time to 
comment on the transitional worker regulations. There is only four 
months left before the regulations take effect. Four months is 
insufficient time for employees and employers to prepare for the 
changes in the transitional worker regulations. As such, I request this 
subcommittee to amend PL 110-229 to extend the employment authorization 
grandfather provision set forth in SEC. 6(e)(2)(B) from two years after 
the transition program effective date to three years after the 
effective date. This will give employers and employees more time to 
adjust to the new regulations that will become effective on November 
27, 2011. Extending the employment authorization grandfather provision 
is different from extending the transition period which commenced on 
November 28, 2009 and will expire on December 31, 2014, unless extended 
by the Secretary of Labor. Extending the employment authorization 
grandfather provision will allow the existing nonresident workers to 
continue working in the CNMI under the umbrella permit conditions for 
one more year after November 27, 2011.
B. ICE not Deporting Overstayers in the CNMI
    Public Law 110-229 provides that no alien lawfully admitted under 
CNMI immigration laws shall be removed from the CNMI until the earlier 
of the expiration date of the alien's employment authorization or 2 
years after the transition program effective date, which is November 
28, 2009. The law further authorizes the Secretary of Homeland Security 
to remove any alien from the CNMI who is removable under federal law 
except as provided herein. Moreover, the Secretary may execute 
administrative orders to remove aliens under U.S. or CNMI law prior or 
after November 28, 2009.
    In 2009, the CNMI Department of Labor provided U.S. Immigration and 
Customs Enforcement (ICE) with the names and identification of over 
1,300 illegal or overstaying aliens in the CNMI. In the last three 
years, ICE has deported fewer than 100 aliens. Moreover, although ICE 
does not have its own exit data base, ICE has prevented the CNMI from 
maintaining an exit database of passengers necessary to identify 
overstaying tourists. Since the implementation of federal immigration, 
it appears that we have an increase in the number of overstaying alien 
workers, family members, and tourists.
IV. Guam-CNMI Visa Waiver Program
    The CNMI's only industry today--the tourist industry--has 
tremendously declined since the enactment of Public Law 110-229 on May 
8, 2008. The CNMI's tourist arrivals decreased after the enactment of 
Public Law 110-229 especially from the Russian and Chinese markets. The 
decreased tourist arrival translates into low hotel occupancy, low 
tourist-related activities, low business gross receipt taxes, and less 
revenue for the CNMI.
    Public Law 110-229 replaces the existing Guam Visa Waiver Program 
with a new Guam-CNMI Visa Waiver Program at INA Sec. 212(l). The law 
extends the authorized period of stay under the Guam-CNMI Visa Waiver 
Program from 15 to 45 days. As of November 28, 2009, U.S. immigration 
law applies to the CNMI and the Guam-CNMI Visa Waiver Program is in 
effect; and DHS, Customs and Border Protection operate ports of entry 
in the CNMI for immigration inspection of arriving aliens and establish 
departure control for certain flights leaving the CNMI.
    The major CNMI tourist markets are Japanese, Koreans, Chinese, and 
Russians. Under CNMI immigration laws, Chinese and Russian nationals 
were allowed to visit the CNMI for up to ninety-days without a visa. 
However, the new regulations on the Guam-CNMI Visa Waiver program do 
not include the Chinese and Russian nationals. As such, these nationals 
are required to apply for a visitor's visa to enter the CNMI. This 
posed a great threat to the CNMI's only industry at this time--its 
tourist industry. The Chinese and Russian tourists represent a large 
portion of CNMI visitors. In order to preserve such tourist markets, 
the Governor of the CNMI requested DHS for a visa waiver for these 
tourists.
    Public Law 110-229 authorizes the Secretary of Homeland Security to 
promulgate regulations that include a listing of all countries whose 
nationals may obtain the visitor's visa waiver. Public Law 110-229 
further requires the Secretary to provide a listing of any country from 
which the CNMI has received a significant economic benefit from the 
number of visitors for pleasure within a one year period preceding the 
enactment of the law unless US welfare or security is threatened. The 
Department of Homeland Security determined that the People's Republic 
of China (PRC) and Russia meet this economic threshold.
    Accordingly, on October 21, 2009, the Secretary of Homeland 
Security announced that she will exercise her discretionary authority 
to parole Chinese and Russian visitors into the CNMI for business or 
pleasure. Parole will be authorized on a case-by-case basis only for 
entry into the CNMI and will not extend to other areas of the United 
States. While the CNMI appreciates the Secretary's decision to parole 
Chinese and Russian visitors into the CNMI, I recommend that a more 
permanent arrangement be established such as amending the regulations 
to add China and Russia to the list of visa waiver countries. The CNMI 
needs its Chinese and Russian tourists indefinitely to keep the economy 
afloat. Making it difficult for these tourist markets to visit the CNMI 
will detrimentally affect the industry. Economic growth in the CNMI 
cannot be achieved without our Chinese and Russian markets.
V. Technical Assistance for the CNMI
    Public Law 110-229 mandates that the Secretary of the Department 
Interior (DOI) provide technical assistance to the CNMI to advance 
recruitment of U.S. citizens. The law states that technical assistance 
and other support to the CNMI shall be provided to identify 
opportunities for, and encourage diversification and growth of, the 
economy of the Commonwealth. This technical assistance shall also 
include assistance in recruiting, training, and hiring of workers to 
assist employers in the CNMI in securing employees first from among the 
U.S. citizens in the CNMI. The law also provides that federal 
assistance should further include the identification of the types of 
jobs needed, identify skills needed to fulfill such jobs, and 
assistance to Commonwealth educational entities to develop curricula 
for such job skills.
    In May 2011, the Department of the Interior, Office of Insular 
Affairs issued a report entitled ``Guidance for the Design and 
Implementation of Technical Assistance Program Relating to Immigration 
in the CNMI Required under Title VII, Public Law 110-229, Consolidated 
Natural Resources Act, May 2008.'' The report outlines DOI's plan for 
technical assistance to the CNMI. In November 2010, the Assistant 
Secretary of the Interior for Insular Affairs held a public meeting, 
Forum on Economic and Labor Development (FELD), on Saipan. This was an 
opportunity for all stakeholders to begin a discussion on what types of 
assistance would be appropriate and made available to the CNMI.
    PL 110-229 does not appropriate funds for the aid it mandates. The 
Office of Insular Affairs (OIA) has committed up to $1 million in 
financial aid, from existing technical assistance funds, to fill the 
requirements of the law. OIA funds will be devoted to two main 
programs: (a) assisting the CNMI to develop an economic revitalization 
program as suggested by the Governor of the CNMI, and (b) enabling the 
CNMI government to work with local agencies and non-profit 
organizations to provide on-the-job training for eligible U.S. workers.
    Using the FELD's list as the guide, OIA designated areas of the 
economy and the labor market for technical assistance grants that would 
generate the greatest possible benefit for the CNMI. Primary areas to 
receive first priority for assistance are: tourism, which is the CNMI's 
largest income source and has growth potential; the labor market, which 
currently relies on foreign labor and whose stability is crucial to the 
transition and beyond; and renewable energy, agriculture and 
aquaculture, which reduce dependence on fossil fuels, contribute to 
food supply and create jobs. OIA's technical assistance will be 
committed to these areas. Although not the first priority, OIA has 
identified other areas of concern to be the health care industry, 
education, transportation, and communication
    While the Senate appreciates all the technical assistance provided 
by OIA, the pledge of $1 million dollars in financial aid to the CNMI 
is insufficient to provide technical assistance in the tourism industry 
and labor market. The DOI's report suggests that the CNMI tourism 
industry would benefit from better trained hospitality staff and 
lessons can be learned from Hawaii's hospitality industry. The report 
further suggests that the labor market must be seen as a critical 
component with emphasis on training and vocational skills. These DOI 
suggestions cannot be achieved with $1 million financial aid. It will 
cost millions and many years to accomplish these goals. I request that 
the U.S. Congress appropriate funds for the technical assistance 
mandate under to PL 110-229. The federal government must be cognizant 
of the fact that the immigration and technical assistance mandates of 
PL 110-229 were established by the U.S. Congress but not funded 
accordingly.
VI. Senate Recommendation for Improved Status of Guest Workers in the 
        CNMI
    Public Law 110-229 requires the phasing-out of the CNMI's 
nonresident contract worker program by turning over responsibility for 
immigration to the Federal government. As required by PL 110-229, the 
Secretary of the Interior submitted a report to the U.S. Congress in 
April 2010 on the current status of the nonresident contract worker 
program and recommendations on how best to implement the law in the 
Commonwealth. Additionally, the U.S. Congress held an oversight hearing 
on the implementation of PL 110-229 and invited elected officials from 
the CNMI and Guam to testify.
    At the hearing in May 2010, Governor Benigno R. Fitial, Chairman 
Frederick DL. Guerrero of the CNMI House Committee on Federal and 
Foreign Affairs and I testified before this Subcommittee on the 
implementation of P.L. 110-229 in the CNMI. The Senate was concerned 
that the leaders and people of the Commonwealth were not consulted in 
the Department of the Interior's report and its recommendations as 
required by PL 110-229.
    In response to these concerns, the CNMI Senate Committee on Federal 
Relations and Independent Agencies held public hearings on the islands 
of Rota, Saipan, and Tinian, in June and July of 2010, regarding the 
implementation of Public Law 110-229. The public was overwhelmingly 
alarmed about offering so many nonresident workers an immigration 
status that would allow them to become citizens of the United States in 
the CNMI, and the effect it would have on the status and rights of 
citizens who are of Northern Marianas Descent (NMD or Indigenous). 
Several months after the hearings, the CNMI Senate produced a 
preliminary draft recommendation and scheduled hearings to gauge public 
sentiment. At the latest hearings in February 2011, indigenous 
residents and nonimmigrant workers reacted to the Senate's 
recommendation stated in this report. We produced this final report as 
a compromise between the interests of nonimmigrant workers and 
indigenous residents of the Commonwealth.
    The CNMI Senate offered the following recommendation to the U.S. 
Congress: all aliens residing legally in the Commonwealth of the 
Northern Mariana Islands for ten years on the date U.S. Public Law 110-
229 became law, shall receive similar immigration status as that held 
by citizens of the freely associated states (FAS) as set forth in U.S. 
Public Law 99-229. The Senate presented its report to Chairman Fleming 
and other members of Congress at a meeting in Washington, D.C. in March 
2011.
    The CNMI Senate made this recommendation acknowledging that persons 
who receive improved immigration status will be eligible for social 
welfare benefits, at a time when our economy is facing a major 
recession. CNMI revenues are negatively impacted by changes in federal 
law. For example, federalization of immigration means the U.S., not the 
CNMI, Department of Labor, now collect revenues from licensing and 
permitting nonimmigrant workers, resulting in a loss to the 
Commonwealth of nearly $5 million dollars annually. We encourage the 
U.S. to consider this impact, and appropriate the funds necessary to 
maintain sufficient federal benefits for our citizens.
VII. Senate Supports the Passage of H.R. 1466
    In the 112th U.S. Congress, First Session, Congressman Gregorio 
Kilili Sablan introduced H.R. 1466--To resolve the status of certain 
persons legally residing in the Commonwealth of the Northern Mariana 
Islands under the immigration laws of the United States. The purpose of 
this Act is to provide to certain persons residing in the CNMI an 
immigration status applicable solely within the CNMI in order to allow 
such persons to remain lawfully in the CNMI. There are four groups of 
persons affected by this Act: (I) Aliens born in the CNMI between 
January 1, 1974 and January 9, 1978; (II) Aliens who were on May 8, 
2008, permanent residents as defined in 3 CMC Sec. 4303; (III) alien 
spouses and children of aliens described in subclasses (I) and (II); 
and (IV) Aliens who were on May 8, 2008, immediate relatives [as 
defined by 3 CMC Sec. 4303] of a U.S. citizen notwithstanding the age 
of the U.S. citizen. Pursuant to the Act, the aliens in subclasses (I)-
(III) shall be eligible to apply for permanent resident status between 
January 1, 2015 and January 1, 2016. The aliens in subclass (IV) shall 
be able to apply for permanent resident status when the U.S. citizen 
immediate relative reaches 21 years of age.
    The Senate supports the passage of this bill with amendments. Most 
of the aliens under subclasses (I)-(III) have been in the CNMI at least 
twenty years and would also qualify for special status under the 
Senate's recommendation as set forth above. Moreover, the immediate 
relatives in subclass (IV) should be allowed to stay together with 
their U.S. citizens relatives in the CNMI until such time that the U.S. 
citizen may petition for the adjustment of the status of his or her 
immediate relatives. However, the Senate requests that H.R. 1466 be 
amended to require certain conditions for subclass (IV) such as the 
immediate relative shall be lawfully admitted in the CNMI, the 
immediate relative must have continuously maintained residence in the 
CNMI for at least five years prior to May 8, 2008, and any other 
condition as may be required by Congress. The Senate believes that 
these conditions will ensure that this special status conferred by H.R. 
1466 will be limited to those lawfully admitted aliens residing in the 
CNMI. Moreover, if practical, the Senate further requests that H.R. 
1466 be amended to include the CNMI Senate's recommendation for the 
improved status of guest workers in the CNMI as set forth in Section 
VII of this testimony.
VIII. Conclusion
    Based on the foregoing reasons, the Senate submits that without 
proper consideration for the CNMI's employment requirements, present 
economic needs and future economic growth as mandated by Public Law 
110-229, the implementation of the law will continue to adversely 
impact the CNMI government and business sectors. The Congressional 
intent of the law extends federal immigration laws to the CNMI with 
special provisions to allow for the orderly phasing-out of the alien 
worker program of the CNMI and the orderly phasing-in of federal 
responsibilities over immigration in the CNMI, and to minimize to the 
greatest extent practicable, the potential adverse economic and fiscal 
effects of phasing-out the alien worker program and to maximize the 
CNMI's potential for future economic and business growth.
    The Senate submits that the Congressional Intent of Public Law 110-
229 can be achieved if federal agencies adhere to and adopt regulations 
consistent with such intent. I recommend that this subcommittee 
authorize grandfathering into the federal system existing CNMI foreign 
investors and retirees to preserve those economic markets and grow the 
economy. Without these measures, the CNMI would lose most, if not, all 
of its foreign investors and businesses. Moreover, we need further 
clarification on the ``prevailing wages'' that will be applied to alien 
workers in the CNMI. The Saipan Chamber of Commerce and CNMI government 
are working on a ``CNMI Prevailing Wage'' survey to determine the 
appropriate wages to apply to the transitional worker program.
    The Senate further recommends that this subcommittee direct the 
Department of Homeland Security to (1) collaborate and work with the 
Governor of CNMI on the implementation and enforcement of Public Law 
110-229, (2) publish final regulations regarding the transitional 
worker visas in a timely manner to allow the CNMI to comment and 
recommend changes, if any; the CNMI must maintain its current 
employment workforce to maintain and grow the economy, (3) authorize 
visa waivers for Russia and China, (4) address the issue of overstayers 
in the CNMI, and (5) treat our residents and visitors with respect and 
courtesy when they enter the CNMI at the airport and seaports.
    Finally, due to USCIS's delay in timely publishing the transitional 
worker regulations, the Senate requests that the U.S. Congress amend PL 
110-229 to extend the employment authorization grandfather provision to 
three years after the transition period effective date to give 
employers and employers at least one year to adjust and train employees 
to transfer to transitional worker program. The Senate further requests 
that the U.S. Congress appropriate funds necessary to carry out the 
technical assistance mandate of PL 110-229 and instruct the Department 
of Interior to work closely with the CNMI government and the 
stakeholders on the technical assistance program by providing 
additional financial aid for job training, business diversification, 
and economic growth. The CNMI needs more than $1 million in technical 
assistance financial aid to accomplish the training and diversification 
necessary to implement PL 110-229 while simultaneously growing the 
economy. At a minimum, fulfillment of these requests and 
recommendations would make the implementation of Public Law 110-229 
more efficient and workable. Thank you for your time and consideration 
of the CNMI's issues and concerns regarding the implementation of PL 
110-229 and H.R. 1466.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
